<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-241]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 108-241, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                       MARCH 12; APRIL 2, 8, 2003


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                     2004--Part 7  STRATEGIC FORCES


                                                 S. Hrg. 108-241, Pt. 7


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1050

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2004 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                       MARCH 12; APRIL 2, 8, 2003


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
87-329 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman
JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas
                    Judith A. Ansley, Staff Director
             Richard D. DeBobes, Democratic Staff Director
                                 ------                                

                    Subcommittee on Strategic Forces

                    WAYNE ALLARD, Colorado, Chairman
JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
JEFF SESSIONS, Alabama               ROBERT C. BYRD, West Virginia
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    E. BENJAMIN NELSON, Nebraska
JOHN CORNYN, Texas                   MARK DAYTON, Minnesota

                                  (ii)




                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
            National Security Space Programs and Management
                             march 12, 2003

                                                                   Page
Teets, Hon. Peter B., Under Secretary of the Air Force and 
  Director, National Reconnaissance Office.......................     4
Ellis, Adm. James O., Jr., USN, Commander, United States 
  Strategic Command..............................................    11
Lord, Gen. Lance W., USAF, Commander, Air Force Space Command....    34
Cosumano, Lt. Gen. Joseph M., Jr., USA, Commanding General, U.S. 
  Army Space and Missile Defense Command and U.S. Army Space 
  Command........................................................    37
Mayo, Vice Adm. Richard W., USN, Commander, Naval Network Warfare 
  Command........................................................    42

Department of Energy's Office of Environmental Management and Office of 
                           Legacy Management
                             april 2, 2003

Roberson, Hon. Jessie Hill, Assistant Secretary of Environmental 
  Management, Department of Energy...............................    77
Owen, Michael W., Director, Office of Worker and Community 
  Transition, Department of Energy...............................    87

                      Strategic Forces and Policy
                             april 8, 2003

Brooks, Hon. Linton F., Acting Administrator, National Nuclear 
  Security Administration........................................   114
Ellis, Adm. James O., Jr., USN, Commander, United States 
  Strategic Command..............................................   130
Beckner, Hon. Everet H., Deputy Administrator, Defense Programs, 
  National Nuclear Security Administration.......................   150
Smolen, Brig. Gen. Robert L., USAF, Director, Nuclear and 
  Counterproliferation, Office of the Deputy Chief of Staff for 
  Air and Space Operations.......................................   155
Young, Rear Adm. Charles B., USN, Director, Strategic Systems 
  Programs, Department of the Navy...............................   159

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATIONS FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

            NATIONAL SECURITY SPACE PROGRAMS AND MANAGEMENT

    The committee met, pursuant to notice, at 9:30 a.m. in room 
SR-222, Russell Senate Office Building, Senator Wayne Allard 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Inhofe, Allard, 
Sessions, Reed, Bill Nelson, and E. Benjamin Nelson.
    Majority staff members present: L. David Cherington, 
counsel; Brian R. Green, professional staff member; Mary Alice 
A. Hayward, professional staff member; and Gregory T. Kiley, 
professional staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; and Kenneth M. Crosswait, professional staff 
member.
    Staff assistants present: Leah C. Brewer, Andrew W. 
Florell, Jennifer Key, and Sara R. Mareno.
    Committee members assistants present: Jayson Roehl, 
assistant to Senator Allard; Arch Galloway II, assistant to 
Senator Sessions; D'Arcy Grisier, assistant to Senator Ensign; 
Russell J. Thomasson, assistant to Senator Cornyn; Elizabeth 
King, assistant to Senator Reed; William K. Sutey and Douglas 
Bush, assistants to Senator Bill Nelson; Eric Pierce, assistant 
to Senator E. Benjamin Nelson; and Todd Rosenblum, assistant to 
Senator Bayh.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. The Strategic Forces Subcommittee will come 
to order. This is the first subcommittee meeting for this year 
in this process; therefore, I just want to keep everything in 
the proper frame of mind and start on time. Bill Nelson is 
going to be a little bit late. We are going to make provisions 
for him to make his opening statement when he shows up. Senator 
Ben Nelson--we have two Nelsons on this committee; we will have 
to be careful--is here and ready to go on time. Thank you, Ben.
    Senator Ben Nelson. Thank you.
    Senator Allard. Then I will make my opening comments. I 
know that the witnesses on the panels we have before us are 
extremely busy individuals. I think we do ourselves, and we do 
them all, a favor if we can stay on schedule, so I am going to 
try and move things along.
    The hearing will come to order. We meet today to receive 
testimony on the space programs of the Department of Defense. I 
want to note that this is the first hearing that I will chair 
with Senator Bill Nelson as the ranking member. Senator 
Nelson--I will welcome him when he shows up--I know you share 
my keen interest in space issues. I look forward to working 
with you and your staff.
    I am also pleased to welcome the witnesses on our first 
panel--the Honorable Peter Teets, Under Secretary of the Air 
Force, and Admiral James Ellis, Commander, United States 
Strategic Command. Thank you both for taking time out of your 
very busy schedules to join us here today.
    These are extraordinary times. Our Nation faces 
extraordinary threats. The importance of this hearing rests on 
the fact that the capabilities embodied in our space systems 
are absolutely essential in facing and, if necessary, defeating 
those threats. Space systems are critical to our military for 
intelligence, surveillance, reconnaissance, early warning, 
navigation, communications, weather prediction, and, 
increasingly, to force application.
    When our military was called upon to engage al Qaeda and 
Taliban forces in Afghanistan, our forces acted swiftly and 
with maximum efficiency and effectiveness. Our forces were 
engaged in October 2001, and, by November, most of the combat 
was over, the enemy was routed, and Afghanistan was liberated. 
We could not have done this without precision munitions, and 
many of these munitions now rely on signals from the Global 
Positioning System (GPS) to help guide them to their targets. 
For example, a special operations soldier would provide 
coordinates of a target provided by GPS to a pilot in a nearby 
aircraft. The pilot, whose own location is precisely known 
because of GPS, would download those target coordinates to its 
precision weapon. After the pilot released his weapon, the 
weapon would receive GPS updates to prevent any drift away from 
the target, the target would be destroyed, and special 
operations forces and the Northern Alliance fighters would then 
move on to the next objective.
    None of that sequence would have been possible without the 
capabilities of our space assets and the support of the young 
men and women who build, launch, and operate these systems. 
Precisely because they are so valuable, the military services 
and we, in Congress, have a special obligation to assure that 
the systems, operations, people, and management processes that 
undergird these capabilities are healthy and sound. It is a 
long and complex road to provide these capabilities. We must 
develop, acquire, launch, operate, and sustain these systems, 
and train our young men and women to do so. We face challenges 
in all of these areas.
    We are all aware that space programs have not had an 
unblemished record of successful development. Indeed, last 
year, one of the witnesses on our second panel, General Lord, 
contended that all of his major space-development programs were 
broken. These problems arose over a long period of time and had 
multiple causes. The inherently difficult challenges of the 
harsh and unforgiving space environment, the complexity of the 
technology, the atrophy of space expertise in the Department of 
Defense and the military services, and a set of 
counterproductive incentives imposed by the Pentagon's 
acquisition system--many of these causes have been recognized 
for some time. For example, the 2001 Report of the Commission 
to Assess United States National Security Space Management and 
Organization stated, ``The Department of Defense is not yet on 
course to develop the space cadre the Nation needs.'' Many of 
my friends in the space community believe that this problem had 
its roots in decisions taken over a decade ago.
    To address these challenges, I know that Under Secretary of 
Defense Aldridge and Under Secretary Teets have instituted a 
number of changes to improve program coordination, management, 
and oversight. I will be interested in exploring how these new 
processes are working.
    To address personnel inadequacies, Congress mandated in the 
National Defense Authorization Act for Fiscal Year 2002 that 
the Secretary of the Air Force establish a space career field 
to enhance the service's ability to develop space doctrine, 
concepts of operation, space systems, and operations-based 
systems. I know all the services have been addressing space 
personnel needs. Again, I will be looking forward to 
determining how much progress has been made and what further 
congressional steps might be necessary to encourage a more 
rapid reconstitution of these vital skills.
    Finally, I am very much interested, given the problems many 
of our space efforts have faced in the past, in exploring the 
fiscal year 2004 budget request. I note, with some concern, 
that several advanced efforts appear to be delayed compared to 
schedules we saw last year, including the next-generation 
global positioning satellite and the space-based infrared 
system. I know we will certainly discuss these issues today.
    Once again, I want to welcome our witnesses. When Senator 
Nelson arrives, I will recognize him. In the meantime, I will 
recognize Senator Ben Nelson, if he has any questions or 
comments.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    First of all, I appreciate your scheduling this hearing 
today. Obviously, the issues that are before this subcommittee 
are extremely important to the national defense. I welcome, of 
course, my good friend, Admiral Ellis, here today. I think he 
is a brave man, leaving the banana belt of weather--[Laughter.]
    --to come back to Washington, DC, where the weather roles 
have been reversed with Nebraska. I escape, too, on weekends, 
because it has been rather mild there compared to here.
    I appreciate very much, Admiral Ellis, your willingness to 
come on this occasion, and, I think, a couple of more occasions 
over the next several weeks, to talk about the role that 
Strategic Command plays in the national defense of our country.
    Secretary Teets, it is nice to have you back and have this 
opportunity to learn more about what is happening within DOD in 
dealing with the threats that we deal with in space.
    Mr. Chairman, that is my opening statement, and I suspect 
that you have some questions you would like to ask, and, at the 
appropriate time, I will be happy to entertain mine.
    Senator Allard. Okay, Senator Ben Nelson, I will go ahead 
and call on the panel to make some remarks. When the ranking 
member shows up, we will stop your testimony and ask him to 
give a few opening remarks.
    Secretary Teets and Admiral Ellis, we will let you proceed, 
and we will start with Secretary Teets. I appreciate your 
joining us. I appreciate your service to the country, both of 
you. I would like to compliment you both on what I feel is a 
good job. We look forward to continuing to work with you in a 
positive way.
    Secretary Teets.

 STATEMENT OF HON. PETER B. TEETS, UNDER SECRETARY OF THE AIR 
       FORCE AND DIRECTOR, NATIONAL RECONNAISSANCE OFFICE

    Secretary Teets. Thank you very much, Mr. Chairman, and 
thank you for the opportunity to come before your subcommittee 
today.
    I would also like to say I am honored to sit on a panel 
with Admiral Ellis. I have gotten to know Admiral Ellis over 
the course of this last year reasonably well. He is a person of 
the highest integrity and capability, and it is an honor for me 
to be present with him.
    As you said in your opening remarks, Mr. Chairman, never 
has there been a time, really, when our national security space 
systems have been as important or critical to our warfighting 
efforts and also our ability to collect intelligence from 
space. I feel that in this kind of an environment, it is 
terribly important that we properly resource space systems, 
operations, and acquisitions, as well, and that we properly 
develop a future that will allow us to continue to take 
advantage of our asymmetric advantage that we have with our 
space assets.
    I am pleased to say that if we look at the President's 2004 
budget and if we look at it from a virtual major-force-program 
point of view, there is something on the order of an 18-percent 
growth in the President's 2004 budget request from that which 
was appropriated in fiscal year 2003. I think that is a very 
appropriate increase.
    We have spent the course of this last year working hard to 
focus on leadership and focus on joint organization, if you 
will, across national-security space, an organization that 
would allow us to have insight and knowledge of what is going 
on in the space world in not only the Air Force, but also in 
the Army, the Navy, and the Marine Corps. Frankly, it is also 
important for us to bridge across the intelligence community 
because the lines of distinction between military warfighting 
space systems and intelligence gathering systems are certainly 
becoming blurred.
    As a result, I think we have made some good progress, but 
there is much left to be done. I have established, for this 
coming year, a list of some eight priorities, and I have 
submitted a written statement to the subcommittee, which I hope 
to have entered into the record.
    Senator Allard. Without objection, so ordered.
    Secretary Teets. I thought I would just take a couple of 
minutes here to just quickly tick through those eight items 
that we are focusing effort on and which I do believe that the 
President's 2004 budget supports.
    The first item on the list is to ensure success in our 
mission operations because of the criticality of it. This year 
represents an extremely important year for space operation. We 
have scheduled some 14 space launches this year, and they need 
to be conducted with great success. I am pleased to report to 
you that this year we have already had three successful space 
launch missions. The most recent launch was earlier this week, 
when a Delta 4 Evolved Expendable Launch Vehicle (EELV) 
successfully launched our DSCS satellite, and that is going 
well.
    The second priority is to fully integrate space operations 
into warfighting and national intelligence collection 
capabilities, and that is an ongoing effort. We are better 
integrated today than we have ever been, but we have more 
progress to make on that score.
    Third, I do have a focus on getting our space acquisition 
programs back on track. I know you mentioned that we have had 
some difficulty in space acquisitions, and that is true. We 
have made some significant progress, I think, in changing the 
way we are acquiring space systems, and we are making progress 
there. We need to continue to focus on that effort.
    Next is a drive, on my part, frankly, to pursue 
operationally responsive assured access to space. Assured 
access to space is critical for these systems that we are 
talking about, and I am fully supportive of the concept that we 
have for two independent-as-possible, expendable launch 
vehicles. At the same time, I would recognize that those EELVs, 
while more operationally responsive than any before them, are 
still not operationally responsive enough to really support 
ongoing future warfighting kinds of operations.
    You mentioned, in your remarks, the desire to develop this 
team of space professionals. I share that belief and have 
placed a strong focus on that. General Lord, whom you will hear 
from a little bit later, is putting the final touches right now 
on a professional space strategy, which will allocate 
resources, which will define precisely how the space cadre will 
be developed within the Air Force. But this development of the 
space cadre goes beyond Air Force channels; it also goes to 
Navy, Army, Marine Corps, and, frankly, intelligence-community 
capabilities, as well, and I think we have a wonderful 
opportunity to build a very professional team of space 
professionals.
    The next priority is to pursue innovative capabilities. We 
will spend significant amounts of money on research and 
development in the search for breakthrough technologies, which 
can continue to build our asymmetric advantage.
    Because of the value of these space assets, I do believe 
the time has come for us to also put some focus on enhancing 
our space control capabilities. When I say ``space control,'' I 
really mean, first of all, space situational awareness, an 
awareness of whether or not our space assets are under attack. 
I also mean defensive countermeasures, and, yes, I think it is 
time to start thinking about offensive countermeasures, as 
well.
    Last, I would conclude with my eighth priority, which is, I 
think, a strong need to focus our space, science, and 
technology resources and programs. It turns out that there is a 
lot of activity going on in space research and technology in a 
lot of different organizations. AFRL, Air Force Research 
Laboratory, has a strong program. Out at the NRO, we have an 
advanced systems and technology directorate that is doing some 
wonderful research in technology. The Defense Advanced Research 
Projects Agency (DARPA) has more activity going now in the 
space arena than they have had in years, and we need to embrace 
that. Of course, the Naval Research Laboratory does some great 
work.
    In addition, we are finding ways to build partnerships with 
NASA. NASA does some wonderful, innovative, and creative work 
in the space/science arena that we need to also make ourselves 
aware of. So that last item, as I say, is to focus space 
science and technology resources in the program.
    With that, sir, I will conclude. I thank you, again, for 
the opportunity to be here, and I look forward to your 
questions.
    [The prepared statement of Secretary Teets follows:]

               Prepared Statement by Hon. Peter B. Teets

                              INTRODUCTION

    It is my distinct honor to appear before the subommittee today 
representing the world's greatest air and space force, and to join my 
operational counterpart regarding space activities, Admiral James 
Ellis, Commander, U.S. Strategic Command. You have previously heard 
from the Secretary of the Air Force and the Chief of Staff about the 
state of affairs of the Air Force as a whole. The ``Top 4'' of the Air 
Force--the Secretary, the Chief of Staff, the Vice Chief and I--are of 
one mind regarding our collective vision of a total air and space force 
providing global reconnaissance and strike across the full spectrum of 
operations in the service of this great nation. Given the focus of this 
committee, and my role in overseeing National Security Space activities 
as Under Secretary of the Air Force and Director of the National 
Reconnaissance Office (NRO), I will concentrate my remarks today on the 
eight priorities I have set for our National Security Space efforts for 
2003. These priorities serve to shape the fiscal year 2004 budget for 
our space programs, and--as they are all important to our space 
efforts--they do not have any particular ranked order. They are: (1) 
ensure mission success in space operations, (2) fully integrate space 
capabilities for warfighting and national intelligence, (3) get space 
acquisition programs on track, (4) pursue operationally responsive 
assured access to space, (5) develop a team of space professionals, (6) 
pursue innovative capabilities for national intelligence and defense 
priorities, (7) enhance space control capabilities, and (8) focus space 
science and technology resources and programs.

         SECTION 1--ENSURE MISSION SUCCESS IN SPACE OPERATIONS

    Our space assets now are more important to warfighters, more 
important to the intelligence community, and more important to our 
ability to win current and future conflicts, than they ever have been 
before. Space capabilities are integral to modern warfighting forces. 
They provide critical surveillance and reconnaissance information, 
especially over areas of high risk or denied access for airborne 
platforms. They provide weather and other space and earth-observation 
data, global communications, missile warning, precision navigation, and 
guidance to troops on the ground, ships at sea, aircraft in flight, and 
weapons en route to targets. All of these space capabilities enable the 
tremendous success our joint warfighters achieve during combat 
operations.
    To support these critical national security activities, ensuring 
mission success in space operations is of vital importance--and we 
anticipate a very busy year for national security space operations. We 
have 12 national security space launches scheduled for 2003, compared 
to only 1 conducted in 2002. In addition to activities at launch bases, 
this increased launch rate leads to a heightened state of readiness at 
our ground stations, additional initial on-orbit checkout and 
housekeeping functions, and greater challenges to integrate those 12 
new spacecraft into existing constellations. These launch operations 
include actions to sustain military satellite communications with one 
Milstar and two Defense Satellite Communications Systems (DSCS) 
launches this year. The first of the two DSCS satellites was just 
launched this past Monday evening on board a Delta 4 EELV. We conducted 
a successful launch of a GPS IIR in January. We have two more IIR 
launches scheduled in 2003, and summer 2004 we will launch the first 
modernized GPS IIR-M. This new IIR-M will add new civil and military 
capabilities and is the first step towards improving GPS services to 
both the military and civil users. We also have a projected launch for 
the Defense Meteorological Satellite Program (DMSP) this summer as well 
as a Defense Support Program (DSP) satellite early next year, and, in 
addition to these launch activities, we continue to actively modernize 
and upgrade our launch and test ranges on both coasts. Concurrent with 
all of these activities is the critical need to keep on-orbit 
capabilities at peak performance. All of these events are vital to 
national security, and we will make every effort to ensure their 
success.

   SECTION 2--FULLY INTEGRATE SPACE CAPABILITIES FOR WARFIGHTING AND 
                         NATIONAL INTELLIGENCE

    There is a commonality between our intelligence collection 
activities and our warfighting needs. A good example is the Air Force's 
Space-Based Infrared System-High (SBIRS-High) satellite in development, 
which will replace the veteran DSP platform. It will perform the 
missile early warning mission, and also provide extremely valuable 
additional capabilities. SBIRS-High will have two very highly capable 
infrared sensors capable of collecting large amounts of information 
useful to the intelligence community. In addition, it will 
significantly contribute to the Theater Ballistic Missile warning 
mission.
    There is also a significant amount of information our 
constellations of NRO satellites collect on a daily basis that is 
crucial to warfighting operations. We have made great progress over the 
decades in expanding the range of those exploiting these space 
capabilities from a small set of strategic users to multiple Government 
agencies and virtually the entire warfighting force. But we need to do 
more. Our goals for improved integration include providing 
communications, environmental sensing, and precise position and timing 
information to support a ``common operational picture'' of the 
battlespace, and facilitating cross-platform command, control, and 
communications. One way we will accomplish this is through programs 
like the Combatant Commanders Integrated Command and Control (CCIC2S) 
Target System Architecture in Cheyenne Mountain, which will provide an 
integrated battle management system delivering a fused battlespace 
picture to strategic and theater decision-makers.

           SECTION 3--GET SPACE ACQUISITION PROGRAMS ON TRACK

    Our goal is to create an acquisition process that is both credible 
and agile. We have made progress in this direction with our new 03-01 
space acquisition policy, which I signed into interim guidance this 
month. This new process recognizes the inherent differences of space 
systems. It allows us to reduce our timeline, while maintaining the 
required depth of review. It enables us to manage risk by looking for 
challenges early on. It eliminates program management bureaucracy, 
giving our program managers the responsibility and the resources to 
manage their programs. We expect there will be some continuing risk in 
our programs. Our job is to manage those risks by giving our people the 
necessary tools and ability to do so.
    One tool we can give them is a world-class independent cost 
estimation capability. Our vision is to form a National Security Space 
Cost Assessment Team to provide a useful, accurate and timely 
independent cost estimate with common methodology in support of space 
acquisition. The team would consist of experts knowledgeable on the 
unique challenges facing space programs. The Director of the Office of 
the Secretary of Defense (OSD) Cost Analysis Improvement Group (CAIG) 
and I are working together to accomplish this task. He has also agreed 
to lead the National Security Space Cost Estimating Team.
    Another valuable resource to reduce program risk is management 
reserve. We want to give our program managers the flexibility to meet 
the unknown challenges that arise in virtually every program. Such 
resources are not intended to meet unforeseen requirements, but to 
address technical challenges. This will enable us to provide greater 
stability in our programs, reducing risk and increasing our ability to 
deliver on time and on budget. Further, a dedicated, fenced reserve 
does not just help one program--it helps our entire portfolio of 
programs. Currently, we pull money from a stable program to solve 
problems in an unstable program, and then we ask for more money to fix 
the initially stable program. In other words, we will break one program 
just to fix another. This is not how a good business runs; we must make 
these changes or we will continue to experience delays, overruns, and 
instability in our acquisition programs.
    We have been successful in getting our major space programs back on 
track. The SBIRS-High program successfully completed its rebaselining 
in January 2003. In that program, stronger government oversight has 
replaced Total System Performance Responsibility (TSPR), and Earned 
Value Management System (EVMS) enhancements have combined industry best 
practices with increased program office supervision. I personally chair 
a quarterly meeting with General Lance Lord (AFSPC/CC) and company 
presidents, ensuring consistent leadership involvement in the program. 
We have introduced contract improvements to more effectively reward 
positive performance, and added numerous new incentives for effective 
management, systems engineering, timely delivery of capabilities, and 
cost performance. While challenges still remain, I have much more 
confidence in SBIRS-High than I did a year ago.

   SECTION 4--PURSUE OPERATIONALLY RESPONSIVE ASSURED ACCESS TO SPACE

    Last year was a pivotal year for space launch--both of our new 
Evolved Expendable Launch Vehicles (EELV), the Atlas family and the 
Delta family, had their first successful launches in 2002. While I am 
encouraged by their success, each of our launch providers is suffering 
due to the current weakness in the commercial launch marketplace. Since 
maintaining two launch providers is critical to assuring access to 
space for our national security programs, we will continue to grow our 
EELV capability for near-term assured access. The Government has four 
EELV launches scheduled for calendar year 2003. We have budgeted $163.9 
million for assured access initiatives in fiscal year 2004, $538.8 
million across the Future Years Defense Program (FYDP), including: (1) 
infrastructure sustainment, which covers facilities, critical skills, 
maintenance, leases and supplier readiness; (2) critical component 
engineering, which improves reliability of critical components from 
common suppliers or components that have been historically problem or 
risk areas, (3) pre-post mission engineering, which provides new 
capabilities tools or resources to increase effectiveness of EELV 
practices and processes, and (4) RL-10 engine producibility, which 
involves investment to increase the producibility and reliability of 
the RL-10 engine, common to both the Atlas V and Delta IV vehicles.
    Our EELVs are the best expendable launch vehicles the world has 
ever seen, but they still lack the responsiveness necessary to ensure 
our ability to rapidly replenish critical on-orbit capabilities. Today 
we still talk about time on the launch pad in terms of weeks, perhaps 
months, to prepare a satellite for launch. If we intend to have 
operationally responsive assured access to space, we need to find ways 
to bring that cycle time from weeks and months down to hours and days. 
One way is to pursue simpler, lower-cost small expendable launch 
systems. Accordingly, we are pursuing $24.4 million for Operationally 
Responsive Spacelift in fiscal year 2004, $233.8 million across the 
FYDP, and are planning a lower-cost responsive spacelift technology 
demonstrator in fiscal year 2007.
    The other aspect of operationally responsive assured access to 
space comes in the form of reusable spacecraft, or reusable launch 
systems. I believe the Nation needs to embark on a course to an 
eventual fully reusable Single-Stage-to-Orbit launch capability. The 
capability may be a long way off, and there will certainly be 
intermediate steps, but we need to begin to chart the path now. I plan 
to engage NASA, the Defense Advanced Research Projects Agency, other 
DOD laboratories, and the broader space community in developing a 
technology roadmap to do just that. This roadmap will guide investing 
in a portfolio of research projects and technology demonstrations in 
propulsion, materials and structures, with increased funding beginning 
in fiscal year 2005.

            SECTION 5--DEVELOP A TEAM OF SPACE PROFESSIONALS

    I know that General Lance Lord considers developing the space 
workforce a high priority item at Air Force Space Command, and he is 
putting the finishing touches right now on his space professional 
strategy. I am confident we will see some excellent ideas, plans, and 
resources brought to bear on this issue.
    In the meantime, we have taken a number of steps within the Air 
Force to attract and retain top talent. We introduced a Critical Skills 
Retention Bonus for scientists and engineers, similar to the bonuses we 
offer pilots, to increase retention in those career fields. We are 
establishing new requirements for advanced education, including courses 
for all space professionals and advanced space training for specific 
mission areas. We are also using the Naval Postgraduate School and the 
Air Force Institute of Technology to build a joint program using the 
particular strengths of each school to allow space professionals to 
receive a graduate education spanning a broad spectrum of space 
activities.
    I also recognize these efforts are not and must not be limited to 
just Air Force personnel. We will need space professionals in all 
services and agencies--and in our civilian and industry workforce--to 
exploit space effectively in the interests of national security. I will 
encourage the other services and agencies to join us as we begin to 
build this initial ``space cadre.'' In doing so, we will actively 
engage with all the services to meet their mission and development 
needs.

SECTION 6--PURSUE INNOVATIVE CAPABILITIES FOR NATIONAL INTELLIGENCE AND 
                           DEFENSE PRIORITIES

    One focus of this priority is on the development of breakthrough 
technologies that would produce new sources and methods for collecting 
intelligence. Our goal is transparency--we want the ability to see 
everything and know everything, while simultaneously denying our 
adversaries both the ability to do the same, and the knowledge that 
such capabilities are being used against them. We want to always be one 
step, or more, ahead of our adversaries--to be first to see, first to 
understand, and first to act. To achieve this ambitious goal, we look 
to technological advances to preserve our asymmetric advantage in 
information superiority against the full spectrum of threats and 
adversaries.
    In addition to the push for new sources and methods, we have two 
other very innovative, creative, technology-pushing initiatives 
underway. The first is the Transformational Communications Architecture 
(TCA). TCA will combine upcoming spaceborne communications systems 
(Advanced EHF, Wideband Gapfiller Satellite) with future systems 
(Transformational Satellite, or T-SAT) that will leverage new 
technologies such as laser communications and internet-based protocols 
to dynamically distribute communications amongst users. The ultimate 
goal is to remove SATCOM bandwidth and access as constraints on the 
warfighter. We anticipate this new architecture will increase available 
bandwidth from 10 to 100 times existing capacity--all of which will be 
essential to persistent ISR such as Space-Based Radar (SBR) and 
advanced Unmanned Aerial Vehicles (UAVs). The President's budget 
includes $439 million for TCA in fiscal year 2004, $12.5 billion across 
the FYDP, with a T-SAT first launch targeted for calendar year 2009/
fiscal year 2010.
    The second initiative is the SBR program, which will give 
warfighters the ability to surveil as well as reconnoiter deep into 
denied areas, day or night. SBR will be part of a larger mix of air, 
space, and ground ISR assets, all of which together have the potential 
to revolutionize warfighter command and control. In the budget, the 
$274.1 million for SBR in fiscal year 2004 continues technology risk 
reduction activities while completing concept definition, with $4.4 
billion across the FYDP in pursuit of a fiscal year 2012 first launch.

             SECTION 7--ENHANCE SPACE CONTROL CAPABILITIES

    I described earlier how our space systems give our warfighters and 
intelligence analysts a very significant capability advantage. There is 
little doubt in my mind that our potential adversaries have taken note 
of this, and that, in the future, our space capabilities may be 
threatened by them. We must prepare to protect our advantage in space 
by developing space control capabilities.
    The first ingredient for successful control of space is awareness 
of the space environment: natural phenomena, spacecraft ``traffic,'' 
and potential threats (whether natural or manmade) to our space 
systems. We have taken steps to increase our space situation awareness 
capabilities, including the standup of a Space Situation Awareness 
Integration Office in Air Force Space Command, and significant funding 
for space surveillance assets over the next 5 years. An example is our 
Space-Based Space Surveillance (SBSS) satellite program, which will 
augment ground-based space surveillance capabilities. The first launch 
of SBSS is planned for fiscal year 2006, accelerated 4 years earlier 
than in the fiscal year 2003 PB. We have also budgeted $134.8 million 
for the Air Force Spacetrack modernization program in fiscal year 2004, 
with $1.5 billion over the FYDP.
    Effective space control also requires protection of our space 
capabilities, a mission area we call Defensive Counterspace (DCS). An 
example of our efforts in this area is the Rapid Attack, 
Identification, Detection, and Reporting System (RAIDRS), planned for 
initial operational capability (IOC) in fiscal year 2008. RAIDRS will 
enable detection, reporting, identification, location, and 
classification of attacks against valuable space assets.
    Achieving effective space control also requires us to think about 
denying the high ground to our adversaries through Offensive 
Counterspace (OCS). With the integration of space capabilities across 
the spectrum of our own warfighting operations, we have been paving the 
road of 21st century warfare, and others, cognizant of the asymmetric 
advantages our space systems give us, will soon follow. We currently 
have two OCS projects underway. The first is the Counter Communication 
System (CCS), a capability intended to disrupt satellite-based 
communications used by an enemy for military C3, and scheduled for 
first delivery in fiscal year 2004. The second is the Counter 
Surveillance Reconnaissance System (CSRS), intended to impair an 
enemy's ability to obtain targeting, battle damage assessment, and 
information by denying their use of satellite imagery with reversible, 
non-damaging effects. CSRS is currently in the initial design phase, 
with operational units scheduled by fiscal year 2007. Our commitment to 
DCS and OCS is $91.4 million in fiscal year 2004, and approximately 
$635 million over the FYDP.

  SECTION 8--FOCUS SPACE SCIENCE AND TECHNOLOGY RESOURCES AND PROGRAMS

    If we are to truly transform our warfighting and intelligence 
operations, we must continue to invest in and focus our space science 
and technology (S&T) efforts. Much of what we have accomplished in 
National Security Space to date stems from past S&T investment and 
development. Sometimes apportioning resources to S&T development can be 
difficult--such development requires stable long-term investment and 
typically does not provide immediate benefits to current programs. But 
we remain committed to investing today for our future capabilities--we 
must push the technology envelope.
    Investment alone will not ensure that the United States military 
and intelligence community has preeminent future space capabilities. We 
must improve our S&T planning to ensure we: (1) encourage an 
operational pull that conveys to the S&T community a clear vision of 
the capabilities we need for the future; (2) address the full spectrum 
of future needs in a balanced and well-thought out manner; and (3) 
determine ways to demonstrate and spin-off promising technologies to 
programs.
    Another ingredient critical to effective S&T development is 
collaboration. We have a number of outstanding organizations 
contributing to space science and technology development, including the 
Air Force Research Laboratory, the Naval Research Laboratory, and the 
NRO's Advanced Science and Technology directorate. By bringing these 
organizations together, and working with other agencies such as DARPA 
and NASA, we can move forward faster without duplicating effort.

                               CONCLUSION

    Space capabilities are vital to the current and future warfighting 
force structure and to our national intelligence collection efforts. 
They are inherently global and uniquely capable of supporting our 
global interests and responsibilities. Likewise, as the world changes, 
our ability to understand events, to shape security relationships, to 
project power, and to deter and/or compel adversaries will increasingly 
depend on space. These circumstances collectively present us all with a 
tremendous responsibility--a responsibility to do the right thing for 
the future of space, and to ensure those critical capabilities are 
there, and on-time. It is our commitment to effectively and decisively 
deliver these capabilities for the good of the Nation.

    Senator Allard. Thank you for your testimony.
    Now I will call on the ranking member of the Strategic 
Forces Subcommittee on Armed Services. In matter of 
introduction, this is our first meeting, Senator Nelson. 
Welcome, and I look forward to working with you in a 
partnership on this particular subcommittee.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Congratulations, Mr. Chairman, on your 
chairmanship of this most important subcommittee on a subject 
area that is extremely important to the interest and the 
defense of the United States.
    I would just summarize by saying that a few of the issues 
that I want to look at are, as the Secretary has just 
mentioned, assured access to space, space surveillance, and 
situational awareness, the overall approach to the acquisition 
of space systems, and then the challenges for the future, which 
would be transformational communications, space-based radar, 
satellites, the role of space in the future, and the future of 
manned spaceflight. So I am really looking forward to digging 
into this with you.
    Thank you for your offer of partnership. Years ago, I 
chaired a similar committee in the House. My ranking member and 
I both agreed that space is not a partisan issue. Space is 
something that you approach from the interest of the country. 
So I am looking forward to that with you.
    Senator Allard. I appreciate your comments, Senator Nelson.
    Senator Inhofe just joined us. Do you have any brief 
comments?
    Senator Inhofe. No, let us get on with it.
    Senator Allard. Okay. I like this guy. He says, ``Get on 
with it.'' [Laughter.]
    Admiral Ellis, we will now start with your testimony, if 
you would, please.

 STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman, Senator Nelson, 
distinguished members of the committee.
    It is an honor to appear before you again today 
representing the outstanding members of the United States 
Strategic Command and our components, men, women, and civilian 
alike.
    I, too, have a prepared statement that I would ask to be 
submitted for the record.
    Senator Allard. Without objection, so ordered.
    Admiral Ellis. Thank you, sir.
    As my presence here indicates, and as you know well, it is 
a new United States Strategic Command since I last appeared 
before this subcommittee. The new command is a reflection of 
the clear guidance the President gave the Department to 
challenge the status quo and envision a new architecture of 
American defense. It is a reflection of the recommendations of 
the Space Commission, the Quadrennial Defense Review, and the 
Nuclear Posture Review, and it is also a reflection of the new 
international security environment we must all work to 
effectively address together.
    The new United States Strategic Command was created, first 
and foremost, to provide responsive, integrated, and 
synchronized combat capability and support across geographic 
boundaries. Our very success will, in many ways, be reliant 
upon our ability to operate to, from, in, and through space.
    I am convinced that the alignment of responsibility for our 
Nation's on-orbit capabilities under the same unified command 
that now has global responsibilities in the areas of missile 
defense integration, communications, intelligence, and global 
strike, holds great promise for the continuing and accelerating 
operationalization of space.
    Thanks to the leadership and efforts of this committee and 
a host of talented Americans, including Under Secretary Teets, 
sitting beside me, we are the world's preeminent space-faring 
nation, and I am committed to ensuring that we retain and 
advance that position and the technological advantages it 
affords us.
    It has been an extraordinary 5\1/2\ months since the new 
United States Strategic Command was established. We have been 
working closely, on the one hand, with the broad space 
community, spanning Government and industry, to ensure we 
continue the growth in both the economic benefits and the 
warfighting capabilities that our space assets provide. On the 
other hand, we have also been working closely with the regional 
combatant commanders engaged in the war on terrorism or 
planning and conducting forward operations around the globe.
    Specifically, over the last few months, I have traveled to 
each of the launch complexes, our critical gateways to space. I 
have walked the ground and better understood the infrastructure 
and operational challenges associated with those facilities. I 
have met with industry, NASA, and military space leadership and 
joined the Partnership Council, including Secretary Teets, 
Administrator O'Keefe, General Lord, and Dr. Sega, to build on 
those relationships. I have participated in the Nation's most 
innovative space war-gaming efforts to date.
    The Command has also deployed space, intelligence, 
planning, and information operations expertise to the regional 
combatant commanders. We have optimized communications 
bandwidth and GPS performance in support of ongoing operations, 
and we continue to provide missile warning for the Nation and 
our forces in the field. Importantly, we are also engaged in 
the demanding work of charting the course for meeting our 
future warfighting needs.
    There are many opportunities ahead, and I am committed to 
working with our strong and growing team of partners to address 
each one. We will assist in crafting not only a vision, but a 
clear and detailed course of action in each area.
    Opportunities to move our Nation forward that we will 
address together include assured, responsive, and affordable 
access to space; safe and effective launch ranges; persistent 
space surveillance and space control capabilities; physical 
protection of our on-orbit assets and their accompanying global 
network of ground stations and communication links; and 
development and maintaining, as you have noted, a cadre of 
highly trained space professionals.
    As we meet the challenges in these areas, we will then be 
able to more effectively address warfighting needs, which 
include robust communications architecture, persistent 
intelligence collection, precision navigation and weapons 
guidance, and missile warning and missile defense.
    Mr. Chairman, it is an honor to represent the men and women 
of the United States Strategic Command and its components 
represented in the following panel, all of whom are working 
diligently today to ensure the most effective space 
capabilities for tomorrow.
    It is also a privilege to join Secretary Teets in this 
hearing. We are partnering through formal councils and, more 
importantly, on a regular and growing basis at all levels 
through our organizations. We will continue to work with all 
those other space professionals who play an integral role in 
the defense of our Nation and prove the combat effectiveness of 
our modern joint warfighting forces.
    Thank you very much for your attention, and I welcome your 
questions.
    [The prepared statement of Admiral Ellis follows:]

             Prepared Statement by Adm. James O. Ellis, USN

    Mr. Chairman, Senator Nelson, and distinguished members of the 
subcommittee, it is an honor to appear before you representing the 
outstanding men and women of United States Strategic Command. The 
President has given all of us in the Department of Defense clear 
guidance to ``challenge the status quo and envision a new architecture 
of American defense for decades to come.'' The new U.S. Strategic 
Command is a clear product of that revolutionary and continuing effort. 
Today, the finest soldiers, sailors, airmen, and marines--representing 
active duty, Guard, and Reserves--joined by a cadre of talented 
civilians, are building an entirely new command, instrumental in 
fighting the war on terrorism and focused on reshaping the Nation's 
military capabilities for the demands of the 21st century.
    Capitalizing on the historic work of our predecessors, we have made 
tremendous strides in the short time since the key elements of U.S. 
Space Command and U.S. Strategic Command were reshaped into the new 
U.S. Strategic Command. Specifically, we:

        <bullet> Created an entirely new unified command, while 
        streamlining headquarters management and supporting the 
        establishment of the vitally important U.S. Northern Command.
        <bullet> Provided world-class deployed and reach-back space, 
        intelligence, planning, and information operations expertise to 
        the regional combatant commanders either engaged in the war on 
        terrorism or planning for potential operations around the 
        globe.
        <bullet> Successfully supported the initial launches of both 
        the Atlas V and Delta IV, a major step in sustaining assured 
        access to space for the next decade.
        <bullet> In accordance with Presidential direction in Unified 
        Command Plan Change Two, assumed four global missions 
        previously unassigned to any combatant commander. These 
        missions capitalize fully on our space systems and will give us 
        a powerful role in shaping our future capabilities in support 
        of the joint warfighter.
        <bullet> Developed new partnerships with NASA, the National 
        Security Agency, the Missile Defense Agency, and the 
        Intelligence Community in order to better satisfy the Nation's 
        defense needs in the 21st century.

    Each of these ongoing efforts is important to our future, but 
represent only the first steps. They are a foundation for aggressively 
pursuing, with our strong and growing team of defense and agency 
partners, our next set of challenges and opportunities. I welcome the 
opportunity to address the subcommittee on the policies and programs 
supporting our command's efforts, and particularly, our important 
space-related missions and responsibilities.
      the connection between space operations and strategic forces
    Our success in developing strategic space-based capabilities such 
as missile warning and survivable communication links, coupled with a 
strong nuclear deterrent, contributed in many ways to a peaceful end to 
the Cold War. From 1985 to 2002, U.S. Space Command made tremendous 
progress in enhancing on-orbit capabilities, while simultaneously 
expanding their application from the purely strategic arena to the 
tactical battle space. The warning of Scud launches during Operation 
Desert Storm and the broad application of the GPS to navigation and 
weapons guidance are but two examples of how the space community 
transformed our on-orbit capabilities into combat tools employed by 
commanders at all levels, increasing their warfighting effectiveness. 
The combat power, networked systems, and global reach of our military 
today are a tribute to the contributions of America's space program and 
U.S. Space Command's diligent work over the course of 17 years.
    In 2002, following a series of high-level studies that included the 
Space (Rumsfeld) Commission, the Quadrennial Defense Review, and the 
Nuclear Posture Review, the President and Secretary of Defense directed 
the creation of a new unified command to effectively and efficiently 
anticipate and counter the diverse and increasingly complex global 
threats our Nation will face for the foreseeable future. These threats 
to our homeland, our allies, and our interests abroad range from 
conventional military capabilities to the asymmetric and indirect 
dangers of cyber attack, weapons of mass destruction (WMD), and 
terrorism--each designed to circumvent U.S. strengths and exploit any 
vulnerabilities on the ground, in the air, at sea, and in space. These 
threats are global in scale and often transcend geographic or regional 
boundaries.
    The new U.S. Strategic Command was established October 1, 2002, to 
address these very threats. The command is chartered to pursue an 
integrated, trans-regional approach to both deterrence and warfighting, 
and to further strengthen our complementary and supporting 
relationships with the regional combatant commanders, each of whom 
retain the full responsibility for the regional challenges within their 
respective area of responsibility (AOR). Initially assigned 
responsibility for space and computer network operations and nuclear 
deterrence, on January 10, 2003, the President expanded the command's 
role to include four additional missions previously unassigned to a 
unified command. These include global strike planning and execution; 
integration of Department of Defense information operations (IO); 
global missile defense integration; and oversight of command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) in support of strategic and global operations. 
These newly assigned missions will broaden our global supporting role, 
further strengthen our Nation's deterrent posture and bring focused 
responsibility and authority to our space and information operations 
missions.
    The vision for U.S. Strategic Command is exciting. It requires re-
thinking, operationalizing, and, in some cases, building from the 
ground up, every mission in our portfolio. Fortunately, the experience 
gained from carrying out our space operations and our nuclear deterrent 
roles will facilitate development of our newly assigned missions. The 
warfighting focus and cutting edge technology of our space and 
information operations missions, the rigor and exactness of nuclear 
planning, and the robust command and control for our operational 
forces, translates directly to the missions now assigned to the 
command. I am convinced the alignment of our new missions under the 
same command with responsibility for the Nation's on-orbit capabilities 
holds great promise for the continuing operationalization of space, and 
will serve as the foundation we will build upon to achieve success in 
all our mission areas.

                      OUR OPERATIONAL SPACE FOCUS

    The United States is the preeminent space-faring Nation in the 
world. Space operations have evolved to far more than an American 
military center of gravity. It is now an economic force, intricately 
woven into almost every facet of our lives--farming, weather 
prediction, resource management, communications, finance, 
transportation and recreation. Entire new industries have been created 
around space applications, and approximately $100 billion U.S. are 
invested in space assets today. While the U.S. has spent over half a 
trillion dollars on space programs since 1958, current projections 
indicate that same amount will be invested globally in just the next 5 
years. The message is clear: the U.S., and in many ways all nations, 
increasingly rely on platforms operating in the medium of space; that 
reliance will continue to increase dramatically in the years ahead.
    As the Nation's designated space warfighter, U.S. Strategic Command 
is committed to bringing a focused operational perspective to our on-
orbit capabilities. From a special operations soldier on horseback 
navigating by GPS to our global communications architecture providing 
intelligence and command and control around the world, never again will 
this Nation fight without significant contributions from space. Our 
satellite systems are essential, not just enabling, to each of our 
disparate missions, and they underpin many of the distinct 
technological advantages we have over our potential adversaries. U.S. 
Strategic Command will work diligently to ensure the extraordinary 
global communication, navigation, surveillance, weather, and missile 
warning capabilities we have and are pursuing for the future, will 
provide dominant, war-winning contributions to the Nation.

                    SPACE SUPPORT TO THE WARFIGHTER

    Winning the war on terrorism remains the Department's top priority, 
and space operations continue to play an integral role in our global 
efforts. Since the moment the President arrived at Offutt AFB on 
September 11, 2001, the men and women of U.S. Strategic Command and its 
predecessors have provided support in all areas of our expertise--
space, IO, intelligence, planning, and communications. Specifically, 
we:

        <bullet> Provided a continuous Space and Information Operations 
        Element presence at U.S. Central Command, enabling immediate 
        access to space-related and IO capabilities.
        <bullet> Optimized bandwidth allocation in support of 
        operational deployments, working with the regional combatant 
        commanders and making recommendations to the Joint Staff to 
        better maximize the communications capabilities available to 
        forces in the field.
        <bullet> Assured peak GPS performance for precision strikes 
        through our GPS Enhanced Theater Support program, reducing the 
        number of sorties required and minimizing collateral damage.
        <bullet> Provided federated intelligence support to multiple 
        regional combatant commands, using space systems to conduct 
        battle damage assessment and intelligence analysis, and lead 
        the intelligence community-wide effort to find and characterize 
        underground facilities in Afghanistan.

    Although successful in each of these endeavors, U.S. Strategic 
Command is striving to even further refine our support to the 
warfighters. We are developing a single team of professionals that 
bring the full suite of our global capabilities--space, missile 
defense, planning, communications, IO, strike, and intelligence--to the 
joint warfighter in an even more integrated fashion. We are also taking 
concrete steps forward in developing our newly assigned missions that 
will be integral to global warfighting, to ensure we continue to stay 
one step ahead of our adversaries.

Command, Control, Communications, and Computers (C\4\)
    In the fast-paced and complex international security environment of 
the 21st century, U.S. warfighters must have access to superior 
information to conduct decisive operations. U.S. Strategic Command 
provides oversight and authority for many of the systems and missions 
that serve as the enablers for the Nation's defense, including 
responsibilities in the command and control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) arena. 
Although C\4\ISR represents several related and essential capabilities, 
we are deliberately parsing out the acronym into its key elements to 
better address the very different challenges in each area. Under the 
Unified Command Plan, the command is assigned the role of tasking and 
coordinating C\4\ in support of strategic force employment. Our 
objective is to provide the means to integrate, synchronize, 
coordinate, and convey information to support superior decision-making 
and tasking at any level from the President to the front-line 
warfighter.
    The events of September 11, 2001, illustrate the need to improve 
our national command and control architecture. We are working with our 
partners at U.S. Joint Forces Command, the Defense Information Systems 
Agency (DISA) and the Assistant Secretary of Defense for Command, 
Control, Communications, and Intelligence (ASD/C\3\I) to craft a new 
national-level C\4\ system that provides improved information flow, 
rapid decision making, and dramatic improvements in our current 
bandwidth capability. While this is important for all missions, it is 
imperative for the global strike and particularly, the integrated 
missile defense missions, where data gathering, decision-making, and 
execution must occur within minutes. Your continuing support of the 
communications initiatives such as the Transformational Communications 
Architecture will enable the Department to dramatically improve our 
critical national level and joint warfighting capabilities.

Intelligence Surveillance and Reconnaissance (ISR)
    U.S. Strategic Command is also tasked under the Unified Command 
Plan to plan, coordinate, and integrate intelligence, surveillance, and 
reconnaissance (ISR) for the Department of Defense in support of global 
and strategic operations. We are working closely with our partners in 
the National Intelligence Community to move away from Cold War military 
force collection strategies and toward the creation of the processes 
and systems necessary for comprehensive, synergistic, and flexible 
contingency ISR operations. We see great value in assisting the 
warfighter in determining the optimum use of scarce collection assets 
by focusing on ISR information requirements versus specific platforms. 
This will enable us to better maximize and prioritize the capabilities 
of our collection systems, whether space-based, air breathing, at sea, 
or on the ground, and integrate their collection with critical human 
intelligence and technical data to meet the needs of both the 
warfighter and the national decision-maker. It will also enable us to 
better assemble integrated, synchronized strategies and architectures 
that provide persistent, actionable, predictive intelligence and 
streamlined dissemination. We look forward to working closely with the 
Intelligence Community as they develop systems such as the Future 
Imagery Architecture (FIA) and SBR that will play a large part in our 
intelligence collection capabilities of the future.

Missile Defense
    The danger posed by weapons of mass destruction and their delivery 
systems is clearly one of our Nation's top concerns, and U.S. Strategic 
Command is actively partnering with the Missile Defense Agency to 
provide an additional level of protection for our homeland, our allies, 
and our forces in the field. As General Myers noted recently before 
this committee, missile defense is inherently a multi-command and 
multi-regional task, and, as the Missile Defense Agency acquires our 
missile defense systems, U.S. Strategic Command will bring a 
warfighter's focus to most effectively and efficiently integrate and 
operationalize the system on a global scale. We are currently 
developing a global missile defense concept of operations and battle 
management architecture to provide the full support needed by the 
regional combatant commanders to defend their theaters, including the 
ballistic missile defense of the continental United States by U.S. 
Northern Command.
    Ballistic missile defense has evolved from an effort focused on 
mid-course intercept of ballistic missiles to an integrated, multi-
layered, cross-AOR approach to achieve an Initial Defensive Operations 
(IDO) capability by late 2004. A critical element of our Nation's 
global missile defense capability will be detailed and effective 
tactical warning, which we will continue to provide to national 
leadership and regional combatant commanders. U.S. Strategic Command 
currently supplies sensor information for the missile warning component 
of integrated tactical warning and attack assessment, and we appreciate 
your support of the systems that will improve our warning capabilities 
in response to changing threats and expanded intelligence requirements. 
The Space-Based Infra Red System (SBIRS), appropriately funded in the 
President's budget, is a prime example.

                        ASSURED ACCESS TO SPACE

    Assured access to space is the precursor to all our on-orbit 
capabilities, and is clearly vital to our national interests. It 
ensures freedom of access to, through and from space, and the ability 
to deny interference with these actions and capabilities. As the 
heritage systems Titan II and IV, Atlas II, and Delta II near the end 
of their lives, the Evolved Expendable Launch Vehicle (EELV) program 
remains the Department's chosen option for ensuring the ability to 
safely and responsively launch orbital assets. Although the contraction 
in the commercial launch market has changed the business case for EELV, 
it remains a promising avenue, as demonstrated by the recent successful 
launches of both vehicles.
    As we have seen in our Nation's ongoing war on terrorism, we may 
not always know when or where around the globe our next operations will 
occur. Surprise will continue to be a part of the international 
security environment, and it is prudent to have the flexibility 
designed into not only our weapons systems, but also our communications 
and intelligence architectures. Uninterrupted, responsive access to 
space is critical to ensuring the responsiveness necessary to replenish 
or augment our critical capabilities on-orbit.
    Inextricably linked to assured access is maintaining viable 
gateways to space. Our east and west coast ranges continue to provide 
safe and effective spacelift and test and evaluation services to 
military, civil, and commercial users, and we must work with our 
partners in Government and industry to continue to search for the most 
effective and fiscally responsible strategies to ensure they remain 
adequate for the long-term. I am personally committed to the health of 
these vital facilities, and look forward to being a part of the 
discussions on the long-range vision for our launch complexes.

                        ENHANCING SPACE CONTROL

    Space will continue to be a realm we share with industry, our 
allies, and increasingly, our adversaries. While access to space is 
clearly a vital national interest, space control is the means by which 
to assure it. Importantly, the same flexibility and freedom of action 
the U.S. currently maintains in the terrestrial, maritime, and aerial 
environments, consistent with international law and customs, is the 
goal of U.S. Strategic Command's space control efforts. While the U.S. 
enjoys significant military and economic benefits from our current lead 
in space communications, navigation, and remote sensing, threats may 
well emerge to challenge these interests.
    From the coalition victory in Operation Desert Storm through the 
recent conflicts in Kosovo and Afghanistan, the United States enjoyed 
space dominance because it controlled the ``higher ground,'' because it 
possessed superior technologies or strategies, and in all honesty, 
because its adversaries simply did not exploit space, or act to negate 
U.S. space systems. The U.S. cannot rely on adversaries to cede this 
same advantage in the future.
    Future adversaries may threaten any component of space systems--the 
satellite, the ground segment, or the link between the two. Even the 
less technically advanced nations and non-state actors may employ 
techniques such as electronic jamming or attacks against ground 
facilities. U.S. Strategic Command's role is to ensure the U.S. fully 
meets these challenges, providing uninterrupted access to space and on-
orbit capabilities. One avenue we will use to accomplish this is 
through our active role in U.S. military, commercial, and scientific 
launches, and through military representation to U.S. national 
agencies, commercial endeavors, and international organizations for 
matters related to military space operations. Another avenue to ensure 
our satellites, communications links, and ground stations remain 
operational, is maintaining and enhancing our physical protection of 
these vital assets. U.S. Strategic Command is identifying critical 
components and defining the most effective ways to safeguard our 
capabilities on-orbit and on the ground.
    A crucial aspect of our on-orbit security is ensuring space 
situational awareness through enhanced surveillance capability and 
improvements to our global sensor network. The security of our Nation's 
space systems is of utmost importance; success in this top priority 
will ensure a comprehensive and responsive ability to monitor our on-
orbit systems.

                     DEVELOPING SPACE PROFESSIONALS

    Success in any of our missions depends on our number one asset--our 
people. Maintaining the culture of excellence in highly technical space 
operations depends on recruiting, training, and retaining the best and 
the brightest. We will also need to develop an entirely new set of 
skills, leveraging our air defenders and space operators, to build a 
cadre of missile defense experts. I fully support General Lord's 
efforts at Air Force Space Command to chart a course for space 
professional development, as recommended by the Space Commission. I 
also applaud Lieutenant General Cosumano's personal management of the 
Army's dedicated space operations officer career field, as well as Vice 
Admiral Mayo's Space Cadre Initiative within the Navy.
    Additionally, I appreciate the continued emphasis Congress places 
on raising the overall quality of life for the men and women in uniform 
and their families, which contributes in innumerable, very tangible 
ways to the defense of our Nation.

                      ADDITIONAL ASSIGNED MISSIONS

    In addition to these important missions, U.S. Strategic Command is 
already taking steps to mature the nascent global strike and 
information operations missions assigned just 2 months ago. As we build 
to these new taskings, the interrelationships and interdependencies 
among all our missions are increasingly apparent, and we will leverage 
the capabilities we have on-orbit to maximize our joint warfighting 
effectiveness in each area.
Global Strike
    Space capabilities will dramatically enhance U.S. Strategic 
Command's newly assigned global strike mission, which extends our long-
standing and globally focused deterrent capabilities to the broader 
spectrum of conflict. The incorporation of advanced conventional, non-
kinetic, and special operations capabilities into a full-spectrum 
contingency arsenal will enable the command to deliberately and 
adaptively plan for and deliver rapid, limited-duration, extended-range 
combat power anywhere in the world. This innovative approach to global 
strike will provide a wider range of options to the President and the 
regional combatant commanders in responding to time-critical global 
challenges, and I encourage your support of innovative programs such as 
the Common Aero Vehicle (CAV).
Information Operations
    Delivering on the promise of information operations is one of U.S. 
Strategic Command's top priorities. This newly assigned mission area 
promises to dramatically improve our offensive and defensive 
capabilities, which could very well reduce the number of weapons 
required in our arsenal and the force size required in future 
conflicts. Quite simply, I believe that effective, integrated IO 
comprises the next revolution in warfighting, and U.S. Strategic 
Command's objective in our new role as the integrator of DOD 
information operations is to bring a joint perspective to improvements 
in the capabilities provided to our national leaders and warfighters in 
the field.

                      OPTIMIZING OUR ORGANIZATION

    Serving as robust stewards of our space and nuclear missions while 
simultaneously developing our newly assigned missions and capabilities 
is a demanding task. We are flattening and shrinking the overall 
organizational structure of our headquarters to work more effectively 
and efficiently. Additionally, with the help of the services, we are 
developing new relationships to fully use DOD-wide capabilities and 
expertise, while not duplicating in our headquarters what other 
professionals already do so well.
    As we design concepts of operations for the globally-focused and 
increasingly operational U.S. Strategic Command, we are pursuing 
innovative concepts for new service relationships that employ the 
capabilities resident in other organizations that U.S. Strategic 
Command can tap for unique skills and capabilities. U.S. Strategic 
Command is fortunate to have strong relationships with many national 
agencies, and as we move forward in each of our new mission areas we 
will need even stronger ties to both our current and new agency 
partners.

                               CONCLUSION

    Combat readiness and combat support remain the top priorities for 
U.S. Strategic Command, and the capabilities we have on-orbit are an 
integral part in achieving mission success. While 2002 was a year of 
new thinking and new concepts, 2003 and 2004 will be years of 
execution. Under the umbrella of our revised mission set, we are taking 
the first steps in the evolution of our strategic capabilities, and we 
embrace the challenge of delivering on the promise of better meeting 
the Nation's global warfighting needs.
    Never before has such a broad array of missions been combined under 
one combatant command, and we are aggressively building the right 
teams, the right organizational structure, and the right plan to move 
confidently from concept to tangible combat capability. We will 
leverage our space, information operations, strategic planning, and 
regional support heritage to become a more globally focused operational 
headquarters, better able to provide the combat capabilities required 
by warfighters and our national leaders. All of our challenges and 
opportunities will require a team effort, inside and outside the 
command, and we look forward to working with you and our many partners 
to adequately meet the challenges that lie ahead.
    I appreciate your continued support of the men and women of U.S. 
Strategic Command and the unique and essential contributions they 
continue to make to our Nation's security. I look forward to reporting 
our progress to you in the future as we continue to build our Nation's 
space capabilities under the new United States Strategic Command.
    Thank you, and I welcome your questions.

    Senator Allard. Thank you both for your testimony.
    Now we will proceed to two rounds of questions for this 
panel, and then we will just follow the same procedures that we 
have in the Armed Services Committee. You will get a notice on 
your 5 minutes, and we will just move on. Then we will get the 
second panel up and proceed to ask them questions.
    Let me start off with you, Admiral Ellis. You are commander 
of Strategic Command, and, ultimately, you are the consumer of 
the space expertise developed by the services in their own 
space career fields. The question is, have you been consulted 
on and have your views been solicited on the appropriate 
requirements or elements of a space career field?
    Admiral Ellis. Mr. Chairman, that is an excellent question. 
The answer is yes. I am personally involved with each of the 
service components. As they, in their own individual and very 
service-specific ways, address the way ahead, my role is to 
bring a joint character and a joint flavor to their 
optimization of our space cadre. This is to ensure that the 
billet structures, the organizational alignment that is 
increasingly a part of our joint warfighting approach, reflect 
the skills and the capabilities that are imbedded in our space 
cadres so that they are better equipped, the components are 
better equipped, to tailor those programs very specifically to 
support both their service and our joint requirements.
    I have met with General Lord on this issue, and we have 
discussed it. General Cosumano is very personally involved in 
overseeing and expanding the FA40 Space Cadre Program that the 
Army has put together. Admiral Mayo has a cadre initiative of 
his own that he is beginning as we focus on these essential 
requirements. Obviously, under the Navy piece, we also continue 
to grow our partnership with our Marine components. For the 
first time, as you may be aware, the Marine Corps now has an 
established component in support of MARFOR space physically in 
residence at U.S. Strategic Command. The services are getting a 
great deal of encouragement from me to press ahead, and I am 
offering my joint warfighting perspective on these efforts as 
they pursue them in their individual ways.
    Senator Allard. Thank you.
    Secretary Teets, you referred to this issue of assured-
access funding in the President's budget, and I do believe that 
you agree with me that we do not, at this point at least, just 
want to rely on one launch provider.
    Secretary Teets. Right.
    Senator Allard. We are looking at the budget, and there is 
only funding provided for 2 years. After that, we do not have 
any funding noted in the budget. I wonder if you would comment 
on that.
    Secretary Teets. Yes, sir. I have worked closely with 
Secretary Aldridge to identify resources that would be used 
going forward to ensure that we can continue to maintain two 
separate, independent families of launch vehicles. As you say, 
relative to the infrastructure sustainment item, the 
President's budget in 2004 contains money for it. Our plan in 
2005 also contains money for it. As we move forward and see the 
EELV program developing, see the commercial marketplace 
evolving, my plan would be to continue that as long as 
necessary. That would mean outyear funding would be flowing 
into that up until the point in time when a viable commercial 
marketplace exists that can sustain their operations as they 
had originally planned them.
    Senator Allard. You are right, we had planned on a stronger 
commercial market at this particular point in time.
    Secretary Teets. Correct.
    Senator Allard. There has been a small wedge of funding put 
in there to help companies sustain the program. Could you 
elaborate any further on how you expect that wedge to work? I 
know they are saying that they may need more money than was 
provided in that wedge funding. I wonder if you would respond 
to those concerns.
    Secretary Teets. Yes, we will be keeping a close eye on it. 
In addition to the infrastructure sustainment, we have 
allocated some funds, actually across all future years, for 
critical component engineering and pre- and post-mission 
engineering. In addition, we are looking at meaningful ways 
that we can even improve on the assured access characteristics 
of the two families. For example, one of the critical 
components on both Atlas and Delta are the fact that they both 
use the RL-10 engine developed by Pratt Whitney. That is flown 
on the Centaur. It also flies on the Delta.
    If we can move in a direction to make some prudent 
investments that will allow us to be resilient from that 
single-point failure in a more meaningful way than we are 
today, I think it would be worthy. Similarly, we will be 
looking at other technology investment activities which can 
enhance the assured-access nature of these two vehicle 
families.
    Senator Allard. Admiral Ellis, do you want to comment on 
this issue of assured access from your operator's perspective?
    Admiral Ellis. Mr. Chairman, obviously, from an operational 
perspective, this is critical to our future and to the 
enhancement of our capabilities in space. We have pursued a 
launch-on-schedule approach rather than a launch-on-demand 
capability. As we are increasingly reliant on space systems and 
perhaps, in a more responsive way, need to be able to replenish 
constellations and employ new concepts, some blending of those 
capabilities will likely better serve the needs of the Nation. 
That is where Secretary Teets is taking us, addressing how we 
can reduce from months to days, if not hours, in terms of our 
responsive capability. All of those enhancements are critical 
to the way ahead, and we fully support that effort.
    Senator Allard. Let me call on ranking minority, Senator 
Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    When we get down to the point of just using the Delta 4 and 
the Atlas 5, suppose you were denied the use of those two pads. 
How are we getting to space?
    Secretary Teets. Sir, we do have capability at Vandenberg 
for those missions that could be launched from Vandenberg, but 
I would say if we were denied two pads on the east coast, we 
would be severely hampered in our space operations.
    You will notice that in the President's 2004 budget, there 
is an initiative to start moving in the direction of a truly 
operationally responsive launch system, and the first thrust of 
that effort will be for a small launch system, pressure fed, 
LOX-kerosene kind of technology, low cost. It would be capable 
of launching satellites in the 500- to 1,000-pound class weight 
capacity and would do it in a truly operationally responsive 
way by allowing us to take this small vehicle to essentially a 
concrete launch pad, erect with it a mobile crane, attach the 
necessary spacecraft and load it with mobile propellent tanks--
tanker trucks, so to speak--and launch and achieve what Admiral 
Ellis just referred to as being able to decide on a launch and 
actually achieve a launch in hours and days, rather than weeks 
and months.
    Senator Bill Nelson. That system would be ready when?
    Secretary Teets. We would like to test fly it in 2007, and 
we intend, even this year, to initiate a competition for a 
system. I have been briefed by several people on several 
competing kinds of systems that would achieve the kind of 
characteristics that I described earlier, and so what we would 
like to do this year is run a competition, select the most 
promising of these endeavors, and then fund it in a way that 
development could be demonstrated in 2007.
    I should tell you that also not only will it be 
operationally responsive, but it will be low recurring cost. 
There are some of the systems that people are trying to design 
with a target in mind of $3-4 million per launch. If we could 
achieve anything like that, it would be a real boost for our 
Nation's space program, because all of a sudden we could have 
demonstration satellites of lightweight, advanced-technology 
systems and do it on a wide basis and a frequent basis.
    Senator Bill Nelson. Test fly in 2007, so it would not be 
operational until 2009 or 2010.
    Secretary Teets. Probably correct.
    Senator Bill Nelson. For payloads that are 500 to 1,000 
pounds.
    Secretary Teets. Yes, to start.
    Senator Bill Nelson. Okay, between now, 2003, and 2010, 
until you have that capability, your only backup access to 
space then would be the space shuttle if you were denied the 
pads after you get down to just the Delta 4 and the Atlas 5. Is 
that correct?
    Secretary Teets. Yes, sir.
    Senator Bill Nelson. So what do you plan with regard to 
making sure that you have assured access to space vis-a-vis the 
shuttle as the backup?
    Secretary Teets. As it relates to the shuttle, we plan to 
engage NASA, in a meaningful way, to understand their plans 
going forward in light of the Space Shuttle Columbia tragedy. 
We will be staying in lockstep with Sean O'Keefe and with the 
NASA people to understand what the recovery plans for space 
shuttle operations are. As Admiral Ellis also mentioned in his 
earlier remarks, we do participate with NASA in a partnership 
council, and we have meaningful interchanges on how we can 
share technology and leverage each other's capabilities.
    To date, there have not been plans for DOD to make use of 
shuttle operations. The question asked is a valid one. If both 
Atlas and Delta launch pads were down, shuttle would provide 
our only access. That is true.
    Senator Bill Nelson. Admiral, your comments?
    Admiral Ellis. Yes, sir. I would echo what Secretary Teets 
has noted. The thrust of your question, I think is, ``How do we 
conduct an analysis of our space access and systems, writ 
large, that examines carefully, as noted on the issue of the 
RL-10, potential single-point failures?'' Included in that has 
to be the infrastructure that is essential to guaranteeing that 
access.
    I have begun a fairly detailed study that addresses our 
systems and how they can best be sustained and protected. 
Clearly the infrastructure that you described needs to be a 
part of that.
    Senator Allard. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me ask a short question to Admiral Ellis and then a 
longer one for both of you to respond to. There is a lot of 
discussion, not on this subcommittee, but on our full 
committee, about problems we are having right now with our lift 
capabilities, our refueling, and our tanker capabilities. We 
are looking at now a lease of perhaps the first 100 767s, but 
we never talk about bombers. Right now, our B-1s are going to 
be reduced from 92 to 60. Our B-52s are over 40 years old. We 
only have 20 to 21 B-2s. What kind of future plans do you think 
of, Admiral Ellis, in terms of replacing some of these bombers?
    Admiral Ellis. Sir, we have shifted gears here in the 
direction of the strategic side, in the classic sense, and I am 
very much aware and follow closely the Air Force's bomber road 
map, as I know you do, to look to the way ahead. We are 
interested in all three of the elements of the active bomber 
force, because with the new mission for global strike, the B-1 
is introduced back into the equation from our perspective, in 
its conventional role. We are following closely all of the 
upgrades associated with each of those platforms--the avionics, 
the navigation capabilities, the weapons carriage capabilities, 
and the like that are essential to sustain that--while we begin 
to focus on what the next generation of air-breather platforms 
ought to look like.
    Clearly, that is in the conceptual phase. It is not a near-
term deliverable, but it is one that we intend to participate 
in shaping the requirements for, both from the classic former 
United States Strategic Command mission and the new missions 
that have been assigned to us with global support on the 
conventional side.
    Senator Inhofe. After the tragic loss that we sustained not 
long ago, I think I would particularly compliment our colleague 
and former astronaut, Bill Nelson, on the way he handled these 
things. I think one of the things that we need to renew is 
something we talked about way back when I was in the House. I 
am talking about back 10 years ago or so in the House Armed 
Services Committee. Future wars are going to be fought in space 
on the control of space. You asked the access question. It is 
very significant, very important. But we have kind of been 
lacking in that discussion here recently, and I think we need 
to get back to that.
    In 1998, I was critical of the President when he vetoed, 
line-item vetoed, three space programs. They were the 
Clementine II program, the Air Force space plane program, and 
then the kinetic kill antisatellite interceptor. Can you give 
us a status on these programs, how significant you think they 
are, and how they fit into this discussion?
    Secretary Teets. If the question is directed to me, I would 
be pleased to provide an answer. We have no plans to restart 
Clementine II. With respect to the Air Force space plane, we 
have an interest in looking at that kind of an initiative and 
perhaps in a future year will restart it. As it relates to the 
kinetic kill ASAP vehicle, I really do not know of any plans 
that we currently have underway for it.
    Senator Inhofe. At the time that took place, in 1998, there 
was a lot of discussion. What I would like to ask you to do is 
be as specific as you can in answering that for the record, 
something that you could submit to us.
    Secretary Teets. Yes, sir, I would be happy to take it for 
the record.
    [The information referred to follows:]

    Secretary Teets. The Clementine II program was restructured into 
the XSS-10 program following the overturn of the fiscal year 1998 line-
item veto. The original Clementine II asteroid rendezvous mission 
required a unique set of operational capabilities that were not 
applicable to most military space applications. With the restructure, 
the focus of the microsatellite technology development program shifted 
to satellite servicing, including proximity operations and resident 
object inspection. The XSS-10 program was funded with the fiscal year 
1998 line-item veto funds plus congressional add funds appropriated 
from fiscal year 1999 to fiscal year 2001. The Fiscal Year 2001 
Authorization Bill directed the Secretary of the Air Force to 
reallocate funds from within Program Elements 0602601F and 0603401F to 
fund completion of the XSS-10 satellite and provide support for launch 
and operations. XSS-10 was launched on January 29, 2003, on the Global 
Positioning System Mission IIR-8; the planned 24-hour mission was 
executed on January 30, 2003. Mission results were outstanding with all 
primary objectives achieved. Lessons learned are being transitioned to 
other micro satellite programs, such as the follow-on XSS-11 program.
    The Air Force space plane, officially known as the Military Space 
Plane (MSP), is a concept for a reusable launch vehicle system 
comprising four major components: the Space Operations Vehicle (SOV)--a 
fully reusable launch vehicle; the Space Maneuver Vehicle (SMV)--a 
reusable upper stage and satellite bus; the Modular Insertion Stage 
(MIS)--a low-cost expendable upper stage; and the Common Aero Vehicle 
(CAV)--a gliding maneuverable reentry shroud. Program funding provided 
prior to the fiscal year 1998 line-item veto was primarily used to 
develop this system concept and to support the flight test of the X-40 
demonstrator system. The successful flight test of the X-40 at Holloman 
Air Force Base led to a partnership agreement with the National 
Aeronautics and Space Administration's (NASA) Marshall Space Flight 
Center's Future X Program Office to modify NASA's SMV-like X-37 
demonstrator to address military utility requirements. A portion of the 
fiscal year 1998 line-item veto funds was applied to the X-37 
cooperative effort when released in fiscal year 1999; the Air Force 
applied core science and technology funds in fiscal years 2000-2002 to 
meet this commitment and also provides a deputy program manager for the 
X-37, co-located at NASA Marshall.
    The remaining fiscal year 1998 line-item veto funds were applied to 
the SMV and MIS preliminary development efforts and systems concept 
studies. Congressional funds targeted for the SMV and MIS (as the 
``Upper Stage Flight Experiment (USFE)'') were subsequently received in 
fiscal years 2000 and 2001. The earlier systems concept studies 
identified critical rocket propulsion technology needs, resulting in 
the application of fiscal years 2000 and 2001 SMV funding to the 
development of the high performance Advanced Reusable Rocket Engine 
(ARRE) required for a militarized system. ARRE preliminary design was 
completed in fiscal year 2002, and component fabrication and testing of 
the developmental engine is nearly complete. Hot fire testing of the 
injector and combustion chamber is scheduled for the summer of 2003, 
completing the funded effort. The USFE funding was applied to the 
development of a MIS demonstrator, including the demonstrator design, 
fabrication, and captive fire ground test. The assembly of the USFE 
composite structure was completed in March 2003 and the captive fire 
test is scheduled for June 2003 at Stennis Space Center.
    In addition, the Air Force has continued low-level investment in 
SOV technologies over the last few years. The fiscal year 2004 
President's budget request provides for a significant increase in 
funding for the advancement of SOV technology. Technologies include 
thermal protection systems, flight structures, tanks, avionics, 
operability, and mission planning issues. Early in 2002, the Air Force 
and NASA concluded their joint Reusable Launch Vehicle 120 Day Study. 
Following this, the Joint Requirements Oversight Council validated the 
Operationally Responsive-Spacelift (ORS) Mission Needs Statement. With 
the full support of NASA, Air Force Space Command in its ongoing ORS 
Analysis of Alternatives is currently exploring the requirements 
related to the Air Force space plane. We expect results early next 
year, leading to a demonstration effort to explore key technologies. 
Additionally, the fiscal year 2004 President's budget includes funding 
for the development and launch of a small launch vehicle in fiscal year 
2007 to demonstrate capabilities to meet ORS requirements.
    Finally, the Army's Kinetic Energy Anti-Satellite (KE-ASAT) program 
last received Department of Defense funding in fiscal year 2001. Funded 
efforts will result in construction and testing of three flight-
qualified interceptors that upon completion will be stored. At this 
time, there is no current or planned funding for this program in the 
Future Years Defense Plan (FYDP).
    I recently had the opportunity to visit with executives of Davidson 
Technologies in Huntsville, Alabama, to discuss their work on the KE-
ASAT program, and I was impressed with their progress to date. Although 
our current emphasis in the area of space control is on reversible 
effects, I intend to discuss this program's capabilities with Admiral 
Ellis and General Lord, and we will continue to review our requirements 
for this and similar systems.

    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Allard. Thank you, Senator Inhofe.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Admiral Ellis, as I have stated previously, I consider you 
the right person to be leading Strategic Command at this point 
in time, and I want to ask you today a question I asked you 
last fall. In October 2002, with the new Strategic Command 
stood up, you felt that the merger of the two commands was 
going smoothly. Now that this transition has had several more 
months associated with it, it probably is not complete--
transitions are never fully complete--has it been successful? 
Is there anything that this subcommittee could do to help in 
that transition?
    Admiral Ellis. Thank you, Senator, for your compliments and 
for the question. The answer, of course, is that it has been 
very successful, and, indeed, is going faster in some areas 
than we originally anticipated. We have been able to bring 
together very quickly organizational concepts that draw on the 
tremendous skills and talents of elements of both former 
commands and bring them together in ways that offer a great 
potential and opportunity to address problems in a global 
context rather than historic stovepipes, for example.
    The involvement in very specific responsibilities 
associated with the space area that I detailed in my opening 
oral statement are just examples of the issues in which we have 
already been actively involved and have had some influence. The 
list is, of course, much broader than that. We are now a part 
of many of the fora in which Secretary Teets and I share 
oversight of next-generation space-based platforms, the 
missile-defense integration effort, as we move forward towards 
operationalizing that in the next 20 months, and many other 
operationally focused areas. One area is ISR, which the 
chairman mentioned in his opening statement, the intelligence, 
surveillance, and reconnaissance concepts for the future. So we 
are in with both feet.
    The good news is that, as is always the case, people rise 
magnificently to the challenge. When we brought the 
organizations together and we were able to offer the new 
opportunities to areas to make contributions, people responded 
enthusiastically on both sides of the former commands. As we 
complete the process of bringing the command together here in 
the spring, I anticipate that that is only going to increase.
    In terms of specific support, I think you have all given 
that. You have understood the objective and have been 
supportive of the goals that were a part of the merger and 
understand the potential value on which the command is already 
delivering, and we thank you for that.
    Senator Ben Nelson. Thank you.
    Now, turning attention just a little bit, in addition to 
being the combatant commander for U.S. Strategic Command, you 
are also the DOD manager for manned space flight support. Your 
responsibilities include astronaut rescue and recovery, 
contingency landing sight support, payload security, medical 
support coordination of airlift and sealift for contingency 
operations, as well as other support services required in the 
event of a shuttle emergency. Also, under normal conditions for 
a shuttle, where you do not have an emergency, it is my 
understanding you receive and validate NASA requests for 
support and elect the proper DOD support for specific missions.
    Obviously, following the unfortunate Space Shuttle Columbia 
tragedy, could you discuss for the record the role that 
STRATCOM, Strategic Command, played in the immediate aftermath 
of the Space Shuttle Columbia tragedy and also what the role is 
through the course of the ongoing investigation?
    You will have to submit something for the record. Our time 
does not permit you to go into full detail at this point.
    Admiral Ellis. Yes, sir, I would be delighted to do that.
    [The information referred to follows:]

    You can be proud of the contributions that Brigadier General 
Pavlovich, my deputy at DOD Manned Space Flight (DDMS) support 
operations, and his team, were able to accomplish almost immediately 
after the tragedy, and the follow-on support to Admiral Gehman, who 
leads the continuing mishap investigation.
    DDMS members at the Support Operations Center at Patrick Air Force 
Base, Florida, quickly implemented the Catastrophic Event Checklist, 
immediately activated national search and rescue teams, coordinated 
military aircraft, and provided personnel at three recovery sites 
located in Texas and Louisiana. It was a truly fine performance by a 
group of highly trained professionals.
    U.S. Strategic Command established the DOD Columbia Investigation 
Support Team (DCIST) to collect, analyze and preserve data from a 
variety of assets to support the investigation. In parallel, STRATCOM 
was authorized direct liaison authority with the National Imaging and 
Mapping Agency, National Reconnaissance Office, and other agencies for 
the collection and preservation of data relating to the loss of the 
shuttle.
    We have reviewed our early actions after this tragedy both 
internally, within the STRATCOM Headquarters, as well as externally. We 
plan to advance the lessons we have learned to strengthen our support 
to NASA. We will work this through all the means available including 
the Partnership Council, where together with Mr. Teets and General 
Lord, we can expand DOD support, as appropriate, to NASA as they strive 
to return to flight.

    Senator Ben Nelson. I appreciate that, and I know my 
colleague from Florida has been deeply concerned on a personal 
level as well as on a professional level and, as part of this 
committee, would be, I am sure, equally interested in that 
information, as well.
    Secretary Teets--my time is expired. Thank you. [Laughter.]
    Senator Allard. Time flies when you are having fun, does it 
not?
    Senator Ben Nelson. It sure does. [Laughter.]
    Senator Allard. We will proceed now with a second round.
    I would like to start my second round of questioning with 
the SBIRS program. We have had some problems in the past with 
the SBIRS program, getting it put in place. I will address my 
first question to Admiral Ellis. Things were going well, and 
now we are seeing that there is a break between the second and 
third satellites on SBIRS, and these are geosynchronous 
satellites. I am concerned about this 2-year break that we have 
in there. I just would like to ask you, Admiral Ellis, if you 
are satisfied you had appropriate input prior to the Air 
Force's decision to defer the launch of those satellites three, 
four, and five.
    Admiral Ellis. Thank you for the question, sir. Obviously 
there was a great deal of consultation associated with a 
decision of that magnitude, both with the Air Force and other 
elements within the senior department leadership. SBIRS is 
absolutely critical to our way ahead. It is far more than a 
replacement for DSP. It offers us opportunities that we have 
never had before, in terms of support for the warfighter and 
ISR and technical intelligence and battlefield 
characterization, that are truly unique. While I always avoid 
the use of the word ``transformational,'' if anything has the 
potential to merit that term, it is the SBIRS constellation.
    But the short answer to your question is, we are satisfied 
that this is a plan that is executable, that will satisfy our 
immediate needs to continue to modernize that constellation, 
and that will give us the ability to assess the performance of 
the first two systems and then to modify and deploy the follow-
on vehicles, and we are supportive of that plan, as structured.
    Senator Allard. If, by some unfortunate circumstance, one 
of those first two launches would fail, that puts us really on 
the edge. It does not give us much margin. We have 2 years, and 
it seems to me that it leaves ourselves kind of short supply 
there. That would concern me. Secretary Teets, maybe you want 
to respond to that.
    Secretary Teets. I would be pleased to. Because of the very 
concern you are expressing, Senator Allard, we are looking 
right now at whether we can work with our supplier base to get 
long-lead material and parts--I will say ``spares''--for the 
first two vehicles, which, if they are successfully built and 
deployed, those same parts then could be applied to vehicles 
three, four, and five in order to ameliorate the effect of a 
gap in production.
    Now, Admiral Ellis mentioned the upside of causing this 
break, where we can have an opportunity to evaluate performance 
on orbit for the first two satellites and then make 
adjustments, as necessary, for the buying of satellites three, 
four, and five. If we can find the right way to buy long-lead 
parts and protect ourselves from a potential for a gap in this 
production, we would be wise to do so, and so we are in the 
process of looking at that right now with our prime contractor, 
Lockheed-Martin.
    Senator Allard. Good.
    On space-based radar, Secretary Teets, we have--as I 
understand--a space-based radar program manager's office in Los 
Angeles, and then the deputy's office in Virginia. Do you think 
this is a sound or practical arrangement? People keep 
mentioning to me that they think this is a recipe for failure 
when you separate the office out that way. I would like to have 
you address that concern.
    Secretary Teets. Thank you, Mr. Chairman. I would be happy 
to address that.
    We are very much in the process right now of formulating 
our strategy for how the space-based radar program will be put 
into place. This is a program that is going to be enormously 
important to the national security community. It will be 
important to both the warfighting element, all services, of 
course, but also the intelligence community.
    The fact is that a space-based radar that we are 
envisioning will provide persistent looks at ground mobile 
targets. It will also provide that same persistent look in 
terms of the capability to image the surface with synthetic 
aperture radar.
    Clearly, in my view, space-based radar is a very 
transformational program. Again, forgive the use of the word 
``transformational.'' But this is a system that will bridge the 
intelligence community and our warfighters and serve the needs 
of both. We would be remiss if we did not take advantage of the 
capability and the expertise that has built up over the years 
in all of that community in order to properly acquire, design, 
develop, field, and operate our space-based radar system.
    This system we are describing is a multi-billion-dollar 
kind of system, and we need to get it right. There is expertise 
and experience in Northern Virginia that can be brought to 
bear. I am working very hard right now with General Arnold, in 
El Segundo, as well as with the National Reconnaissance Office 
in Northern Virginia to try and craft the right way to bring 
the skills and the talents of people to bear that will maximize 
the probability of success for this system as we architect it 
and then acquire it and then operate it.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. I want to go back to the SBIRS program 
because part of the problem there is software, is it not?
    Secretary Teets. Software has been a problem. A year ago, 
we found ourselves in a situation where the SBIRS-High program 
needed to declare a Nunn-McCurdy breach. Part of that 
difficulty that we were experiencing did have to do with 
development of the ground software system.
    We have put in place a restructure of that program with our 
prime contractor, Lockheed-Martin, and progress on ground 
software development has been excellent. We are currently 
experiencing a bit of a problem with electromagnetic 
interference in the first highly elliptic orbit vehicle payload 
that is being delivered, and we have experienced a couple of 
month's slip. But I will say that the SBIRS-High program has 
done an excellent job of restructuring and focusing on the 
difficult tasks at hand.
    Senator Bill Nelson. Aside from the electromagnetic 
problem, what is the problem? Is it not enough people? Is it 
poor management? Is it unclear requirements, too much reuse of 
software? What is it?
    Secretary Teets. In terms of the current state of that 
program, in roughly the spring of last year, we did restructure 
that program. Up to that point in time, yes, we were having 
problems with systems engineering and we were having problems 
with management control. We had an intensive effort underway to 
change and restructure the SBIRS-High contract. Lockheed-Martin 
stood up, as the prime contractor, and we changed some of the 
clauses in the contract, we changed some of the total system 
performance responsibility activities, and we restructured the 
program office in Los Angeles under Colonel Mark Borkowski, 
reporting directly to General Brian Arnold. All of that 
activity resulted in the need to add resources to the program 
and define a new schedule that could be implemented. Progress 
over the course of this last year has been excellent, with the 
one exception that I mentioned, which is this electromagnetic 
compatibility problem that we are experiencing on the first EO 
payload delivery.
    But software development milestones are moving ahead as 
planned in the restructured contract, and we are making 
excellent progress on the program, as a whole.
    Senator Bill Nelson. Is it according to those milestones 
that you are going to know if the program is not going well in 
the future?
    Secretary Teets. Yes, that is clearly the intent of the 
restructured program--to identify milestones along the way that 
will give us an early warning signal that things are amiss.
    Senator Bill Nelson. Admiral?
    Admiral Ellis. I want to add my support to the program 
concept--one of the other ways in which we can monitor not just 
the milestones, of course, but the technological issues that 
you describe, as well. One of the goals that I have set for my 
organization is to ensure that while we oversee the joint 
requirements perspective, we also be technologically 
knowledgeable enough in certain critical developmental systems 
so that we understand the implications of their successes, or 
lack thereof, as they meet or proceed along their milestone 
chart.
    We are committed to understanding the technical pieces that 
have to come together at the right time in order to achieve 
success at the milestone; so, at the earliest time, we can 
identify areas in which additional focus may be required. We 
view that as one of our oversight functions.
    Senator Bill Nelson. Admiral, earlier, the chairman had 
asked about space-based radar. I want to ask you about the 
Navy's space surveillance system and part of our space 
surveillance network. It is being transferred to the Air Force 
in 2004. I am curious, are you involved in this review? When is 
it going to be finished?
    Admiral Ellis. I am not involved directly in the transfer. 
That is a service-to-service effort, as you are well aware, 
sir. We are aware of the criticality of the so-called 
``fence,'' as it is known in the space business, the Navy space 
surveillance sensor, and its essential contribution to our 
ability to know what is going on on-orbit. It is essential to 
our situational awareness. Its modernization and upgrade are 
necessary to further enhance that so that we know 
fundamentally, first, what is going on on-orbit so we have a 
better ability to deal with those eventualities when they 
occur. There was a modernization plan associated with that that 
the Navy has been pursuing for a number of years.
    My understanding is that the transfer is taking place, but 
the funding issues associated beyond the normal operations and 
maintenance, the sustaining the upgrade piece of that, are 
still under review. We view the upgrade of that capability as 
essential to give us the situational awareness that is so 
important to our ability to review and to react to what is and 
to anticipate, actually, what is going on on-orbit.
    Senator Allard. Senator Nelson, you and I are the ones 
remaining. I have two or three questions more I would like to 
ask, and I thought we would wrap it up with this panel.
    Senator Bill Nelson. I have a few more questions, sir.
    Senator Allard. Very good.
    Senator Bill Nelson. You go ahead and just take as much 
time as you want.
    Senator Allard. We do want to leave enough time for the 
second panel, so I thought maybe a couple or three more 
questions from both of us.
    On space and science technology, Secretary Teets, in your 
written testimony and here orally, also, you mentioned the need 
to improve our science and technology planning. One of the 
questions we were asked, that was posed at one time, was, ``Who 
is coordinating all this?'' At one time, the response was, ``A 
lot of people are coordinating it,'' which indicated to me 
there may not be anybody that is coordinating it. What outcomes 
do you see in the current planning and coordination process?
    Secretary Teets. We are just in the process, Mr. Chairman, 
of setting up that kind of a coordinating activity, and we are 
electing to set it up under the cognizance of the National 
Security Space Integration Office under General Bob Kehler. It 
is a natural point of focus because General Kehler's office 
does have representation from the intelligence community as 
well as from each of the services; so it is a truly joint kind 
of an organization looking across bridging items across these 
various stove-pipes, if you will.
    What we are planning on doing is giving General Kehler the 
necessary resource so that he can look across AFRL, DARPA, the 
NRO's Advanced Systems and Technology Directorate, and the 
Naval Research Laboratory, and see where are there 
duplications, where are there leverages where we can take 
advantage of the resources and apply them in a way that will 
maximize our return from space science and technology 
development.
    Senator Allard. One other question I have here, and the 
other two questions, actually, are on space management 
organization. In last year's authorization, Secretary Teets, 
the act required a report on a plan by the Secretary of Defense 
to provide oversight of defense space programs by appropriate 
offices in the office of the Secretary of Defense. What is the 
status of that report? Do you know when it will be in?
    Secretary Teets. Mr. Chairman, I need to take that one for 
the record. I do not know the exact status of that report, but 
I would be happy to do so and get the answer to you.
    [The information referred to follows:]

    The report was delivered to Congress on 27 March 2003 by the Office 
of the Secretary of Defense.

    Senator Allard. One other question I had here, as Under 
Secretary of the Air Force and Director of NRO, you have the 
overarching responsibility of coordinating classified and 
unclassified space efforts. This is a challenge, and I would 
like to know how you are addressing that and what kind of 
progress you are making in that regard.
    Secretary Teets. Yes, sir. The answer to the question also 
applies, in large part, to this organization I just mentioned, 
National Security Space Integration Office, headed up by 
General Bob Kehler. In this case, there is another organization 
involved, as well, and that is the National Security Space 
Architects Office, headed up by Army Brigadier General Steve 
Ferrell. Both of those organizations are joint organizations in 
the sense that they have multi-service participation and 
intelligence community participation, as well. Both 
organizations are looking across the entire spectrum of 
activity there. I rely upon those two organizations to help me 
in doing the proper integration.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, I want to return to the 
Navy space surveillance sensor. We were talking, when we last 
talked about this, about modernizing defense by replacing the 
current system with an X-band radar. Do either of you think 
that terminating the proven system is going to be counter to 
the recommendation of the Space Commission that our country 
needs to improve space situational awareness? Is the 
termination going to diminish space situational awareness?
    Secretary Teets. I would be pleased to take that one on 
first. The answer is, we need to find the right way ahead with 
space situational awareness, where we increase it and improve 
it. As it relates to the Navy fence, it is true that activity 
has been shifted over to the Air Force. It came over with the 
necessary O&M funding to continue it. There is, however, a 
strong desire to upgrade it to S-band capability. As Admiral 
Ellis indicated earlier, the issue of funding for that upgrade 
is under review and consideration right at the present time.
    But I can tell you that I do believe it is absolutely 
necessary that we maintain the fence and that we upgrade the 
fence. We need to augment our space situational awareness 
capability in major ways.
    Senator Bill Nelson. Mr. Secretary, does this mean, by 
shifting it to the Air Force, that the Navy's not going to be 
involved?
    Secretary Teets. I think that fundamentally is the case, 
yes. I think the Navy has decided, in this case, to not 
continue to operate and maintain the fence. The Navy will 
certainly continue to be interested in the results of space 
situational awareness, and they will be provided. The Air Force 
will pick up the ball.
    Senator Bill Nelson. Admiral, how do you feel about that?
    Admiral Ellis. Sir, as I said earlier, the space 
situational awareness is absolutely essential to our way ahead. 
While there are studies and reviews that are attempting to 
characterize how best to proceed--I think the Secretary has 
said it as well as I have heard it said--this is absolutely 
essential for the future. We must have an enhanced and 
increased capability on-orbit. If defense is going to be part 
of that, it will have to be suitably upgraded or modernized.
    As the joint customer, I am going to just evaluate the 
organizational alignment on the basis of performance. It is 
possible that by bringing it under a single service, all of our 
surveillance capabilities may allow for some efficiencies and 
synergies along the way, but the metric, from a joint 
warfighting perspective, is going to be how well they 
accomplish the mission once the transfer is done and the 
realignment is complete.
    Senator Bill Nelson. Mr. Secretary, I want to ask you about 
GPS. Why is there no funding for GPS 3 in the fiscal year 2004 
budget?
    Secretary Teets. Senator Nelson, we have, in development 
for subsequent production right now, GPS 2R modifieds--that is 
to say GPS 2RM--and GPS 2F, which have improved anti-jam 
capability over and above our currently fielded system. As we 
look through the projected lifetimes of those satellites, we 
found that if we bridged 2003 money across 2004, as well--I 
think there is about $60 million of 2003 money that was 
appropriated for GPS 3--we could defer spending until 2005 and 
still achieve a 2012 first-launch capability. That 2012 first-
launch capability for GPS 3 does, indeed, provide for a 
reasonably conservative continuum of replacement launches.
    Now, having said that, I want to also say that we are in 
the process right now of doing a study to look at what it would 
take to accelerate that 2012 first-launch date in order to get 
the even more improved anti-jam resistant GPS in place earlier. 
We are in the process of doing that study right now, and I 
would hope within 60 days to have a crisper answer to your 
question.
    Senator Allard. I would like to follow up on that last 
question of GPS. The French are putting out a GPS also, and I 
understand it is on the same wavelength. I think that creates 
some special problems for us, and maybe you want to comment on 
that.
    Secretary Teets. It does. We are in intense discussions 
now. As a matter of fact, my Deputy for Military Space, Bob 
Dickman, is in Brussels today at a GPS/Galileo conference 
discussing the very item that you are mentioning. It is 
important for us to work with the European space community to 
make certain that the Galileo system that they have under 
development does not interfere with our GPS capability. We are 
in the process of doing that.
    Senator Allard. Thank you. We have just had two members 
join us, Senator Sessions and Senator Reed.
    Senator Sessions, do you have any comments you want to put 
on the record and any questions before we wrap up on this 
panel? We have a second panel coming up.
    Senator Sessions. I do not, Mr. Chairman. I want to thank 
these leaders for their work. Secretary Teets and Admiral 
Ellis, you have both done an excellent job. I know, Admiral 
Ellis, you have been doing some real reorganizational efforts 
while we are trying to fight a war and doing some changes, and 
I salute you for that.
    There is just no doubt whatsoever that the ability of our 
forces to be successful on the battlefield is dependent upon 
dominance in space, and I think we need to be looking at that 
constantly. If there is anything that threatens that, we ought 
to meet that threat and maintain that dominance.
    Senator Allard. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman. This is an 
opportunity to ask questions?
    Senator Allard. Yes, we have pretty well finished the 
questioning round. Obviously, if you want to ask questions or 
make a statement for the record, you have an opportunity to do 
so.
    Senator Reed. Thank you, Mr. Chairman. Thank you, Secretary 
Teets and Admiral Ellis.
    Let me ask just a few questions. First, last year, Mr. 
Secretary, when you were questioned with respect to space and 
weapons, you stated that, ``I believe that weapons will go into 
space; it is a question of time. We need to be at the forefront 
of that.'' Can you just elaborate on the current policy of the 
United States with respect to weaponization of space? Have 
there been any significant changes in the last few years?
    Secretary Teets. I think there have not been changes yet 
implemented in terms of that policy, but I think policy is 
under review at the current time and could conceivably change.
    In the statement that I made earlier today, I think the 
time has come for us to push hard on the issue of space 
control. That will involve some things that are currently 
within our capability, like space surveillance, attack warning 
systems, and even some defensive counterspace kinds of measures 
that we can take. But I, for one, believe that the time has 
come for us to consider a change in policy which would allow us 
to have some offensive capability, as well.
    Senator Reed. Mr. Secretary, the Space Commission 
unanimously concluded, ``The U.S. has an urgent interest in 
promoting and protecting the peaceful use of space.'' Is that 
inconsistent with your introducing offensive weapons into 
space?
    Secretary Teets. I think not, because I am not advocating 
the use of those weapons unless our forces are threatened or 
put under attack by an adversary's system in space. What I do 
not want to do is be the victim of a space Pearl Harbor and 
find that at some point in the future, when we are as dependent 
on our space systems as we are for effective warfighting 
capability, we lose them because of an enemy action and find 
ourselves having no capability to preclude an enemy's use of 
space assets.
    Senator Reed. I think, in listening to your comments--and I 
appreciate it is a very serious topic and you address it in a 
serious and substantial way--that at this juncture in history, 
we are one of the few powers that really has the capability of 
effectively weaponizing space, just as we were once one of the 
few powers that had the capability of deploying atomic weapons 
and nuclear weapons. There is a logic that it might be 
attractive to us now, but if others copy that, then we could be 
in a worse situation. I know you are considering that, also.
    Secretary Teets. Yes, sir.
    Senator Reed. Admiral Ellis, as the head of STRATCOM, you 
have the responsibility for the global command and control of 
U.S. strategic forces, including integrated missile defense. 
You have an important stake in decisions that are involved in 
that with respect to missile defense, the global capabilities. 
The President has made a decision, apparently, to deploy. I 
think prior to his deployment decision, your recommendation was 
not for deployment in 2004. Is that correct?
    Admiral Ellis. I do not recall the conversation or the 
context, sir. We set a goal for deployment of the initial 
operational capability in October of next year, and the 
President has characterized the limited scope of that effort as 
part of a continuing developmental process, led by the Missile 
Defense Agency, that will extend, of course, well beyond that.
    Our role in that is to assist in the operationalization of 
what has up to now been a development program, and that 
includes concepts of operations, that includes command and 
control structure, and that includes the details that certainly 
would be essential to making that a completely effective system 
once the development is complete.
    Senator Reed. One of the issues here is at what point would 
the operational test-bed become deployment. I would think, 
though, that if it is a deployed system, then your role would 
be critical, then it would be within your responsibility. Is 
that fair?
    Admiral Ellis. The concept, as I mentioned, for its 
employment is under development--the operational concept, if 
you will. But clearly there will be an interest, since it is 
now global missile defense and not just regional or national 
missile defense, on each of the combatant commanders who have a 
statutory responsibility for the defense of their area of 
responsibility. Northern Command, certainly that is the United 
States of American and North America, and the regional 
combatant commanders are also interested in how we blend 
together all of the layers or levels of systems that could 
contribute to that.
    That is our role, to make that architecture common, to have 
common concepts of operations, to have interoperability across 
theaters to ensure that there are no seams in what you rightly 
characterized as essentially a global capability, and then 
provide that to regional combatant commanders as it is 
currently structured for their use, if required.
    Senator Reed. Thank you. Just one quick thought. In 2004, 
do you anticipate that you will have an operational system that 
you will be integrating globally, even if it is declared a 
deployment?
    Admiral Ellis. The system goals, ambitious as they are, 
indicate that there will be a limited operational capability in 
this developmental system when it is in place by the fall of 
next year. Clearly as we move beyond that, there will be 
additional refinements and elements that will contribute as 
follow-on concepts that could contribute to this layered 
defense delivered. But initially, yes, sir, it is our intent to 
have in place the operational elements that could use this 
development capability should the need arise in defense of the 
Nation.
    Senator Reed. Thank you, sir.
    Senator Allard. I would like to thank Senator Nelson--Bill?
    Senator Bill Nelson. Mr. Chairman, I have a bunch of 
questions that I will submit for the record.
    Senator Allard. Yes.
    Senator Bill Nelson. I have one or two that I need to ask.
    Senator Allard. Go ahead.
    Senator Bill Nelson. We were talking about assured access 
to space, Mr. Secretary, and we talked about that new vehicle 
that you were developing to operationally test in 2007. What we 
did not talk about are exploring with NASA future alternatives 
to the space shuttle and what DOD funding might be allocated to 
that.
    Secretary Teets. Yes, sir. I do believe we are very 
interested in discussing that entire situation with NASA. 
Again, as NASA builds its plans going forward, following the 
Space Shuttle Columbia tragedy, we are anxious to work with 
NASA to understand what their plans are and how we can work 
together to further mutual objectives having to do with assured 
access to space.
    Senator Bill Nelson. You and I have had private 
conversations on this, and I think it is getting to the point 
of decision-making from the standpoint of assured access to 
space. Exactly how much is DOD going to participate in the 
development of new technologies for a follow-on vehicle that 
would be a vehicle that DOD could use, including perhaps other 
agencies as well as NASA? We are going to need to have some 
further discussions.
    Admiral Ellis, in your position as the Commander of 
Strategic Command, you have the operational responsibility for 
the deployed missile defense system. How have you coordinated 
with the MDA and how will you coordinate in the future to 
ensure that your operational considerations are included in 
those missile defense systems?
    Admiral Ellis. That is a great question, sir. Obviously, as 
General Kadish and his team at the Missile Defense Agency 
continue to work the developmental efforts of this, we are very 
closely linked with them through a longstanding relationship 
that we had in former U.S. Space Command that is now part of 
the United States Strategic Command. I speak at his 
conferences. We work in each of the major policy groups that 
oversee developmental decisions, and we, together, are crafting 
milestones that will support fully his need for the command and 
control architecture, the organizational alignment, and the 
training and location of key operational nodes. All of those 
decisions which have to be in place, as I said in my colloquy 
with Senator Reed, have to be in place by the fall of next 
year. We are very mindful of the aggressive timeline that we 
are on and are moving equally aggressively to meet it.
    Senator Bill Nelson. The full committee, Mr. Chairman, is 
having a hearing on missile defense system in about a week, and 
that might be something that we might explore further at that 
point, on the operations.
    Finally, Mr. Secretary, we have read in the papers about 
utilizing some of the ICBMs and putting a conventional warhead 
on the top of it as a means of having additional punch instead 
of a nuclear warhead. What discussions have you had or would be 
needed with other countries about these non-nuclear ICBM 
programs?
    Secretary Teets. I have not had any discussions with anyone 
on that subject, really. I do know that, of course, there are 
certain ICBM assets that are being retired now, and, as far as 
I know, the plan there is to put them into storage for the 
indefinite future.
    Senator Allard. Yes, the Peacekeeper.
    The President announced that they are going to discontinue 
the Peacekeeper and then just go with the Minuteman.
    Senator Bill Nelson. Right.
    Senator Allard. I want to thank the panel for your time and 
for your willingness to share your thoughts with this 
subcommittee. We wish you well. You are both doing a good job, 
and keep it up.
    Now we would like to call on the second panel. It consists 
of Gen. Lance Lord, Commander of Air Force Space Command; Lt. 
Gen. Joseph M. Cosumano, Jr., Commanding General, U.S. Army 
Space and Missile Defense Command and U.S. Army Space Command; 
and I would also like to welcome Vice Adm. Richard Mayo, United 
States Navy Commander, Naval Network Warfare Command.
    Gentlemen, thank you for joining us. When you are all set 
and ready, we will proceed in the order in which I introduced 
you. General Lord and then we will go to Lieutenant General 
Cosumano and then Admiral Mayo.
    Whenever you are ready, General Lord.

  STATEMENT OF GEN. LANCE W. LORD, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Lord. Thank you, Mr. Chairman. It is an honor, on 
the part of all the members of Air Force Space Command, to have 
the opportunity to appear and testify.
    I have also submitted a written statement, and I 
respectfully request that it be entered into the record.
    Senator Allard. We will make that a part of the record.
    General Lord. Sir, thank you and the whole committee for 
your support.
    In my brief comments here, I would like to outline our 
three important roles at Air Force Space Command as the major 
command. First off, it is my job to help oversee the almost 
40,000 men and women officers, enlisted, professionals, plus a 
great group of civilians and contractors who help train, 
organize, and equip our space and ICBM forces. That is really 
my major command role. Then we present those forces and their 
capabilities, and that is our component role. We do that 
through Admiral Ellis and his support as the combatant 
commander and, in turn, his support for the other combatant 
commanders. Lastly, we support Secretary Teets in his role as 
the DOD and the executive agent for space in serving as our 
under secretary.
    Recently, our Air Force has refined its core competencies 
in three things that really strike to the things that we are 
doing in space. One is really developing airmen. We think our 
space professional strategy and our cadre development is really 
a significant aspect of that and certainly has harmonized well 
with the Air Force program. I certainly would, if you wish, 
talk a little more about that later on. I think one of the keys 
to integration across black and white space is really 
developing the right cadres to think about those issues. That 
would help, as well.
    Second, the Air Force has gotten better with transitioning 
technology to the warfighter, the tools of combat capability 
that you have recognized and the subcommittee has so expertly 
talked about how important it is to protect those assets, not 
only in supporting Operation Enduring Freedom today, but 
developing the systems of space and ICBMs for the future.
    I had an opportunity to visit Southwest Asia the week of 
Thanksgiving, and in my history in this business where we have 
seen space capabilities be pushed where we developed, now they 
are in a pull mechanism from theater. People want as much space 
capability as we can possibly deliver and to help integrate 
across all theaters. We have shifted gears from space-
capability push to space-capability pull, and they are 
certainly integrated with the users, certainly in Southwest 
Asia and I know across all the combatant commanders.
    The integration of the Space and Missile Systems Center 
into Air Force Command--thus now the procurement arm of our Air 
Force space acquisition resides in our command--has been a 
major step forward. It is certainly a recommendation of the 
committee that was acted on in October 2001, and I am proud to 
report that that is maturing in big ways.
    Lastly, as we integrate operations, we are experts in ICBM 
and space, but really we want to be skilled in the airline and 
sea business because we see space as key to joint employment as 
we work together here with our colleagues in the Army and the 
Navy and the Marine Corps, as well.
    We are convinced, as you pointed out, that our environment 
is changing and our missions continue to grow in their 
importance, and we want to build the foundation with our space 
priority to make sure that we can fully exploit that. We feel 
that the space and ICBM capabilities are key to our asymmetric 
advantage, and we want to keep them that way.
    Sir, thank you very much for the opportunity to appear, and 
I look forward to your questions.
    [The prepared statement of General Lord follows:]

             Prepared Statement by Gen. Lance W. Lord, USAF

    Mr. Chairman and members of the subcommittee: On behalf of the 
outstanding men and women of Air Force Space Command (AFSPC), thank you 
for this opportunity to appear before you today. Our airmen and 
civilians are a key part of the world's greatest integrated air and 
space force, and we are proud to be a part of our Nation's defense. 
From the missile fields in the Great Plains to remote locations around 
the globe, in-place or deployed as part of an Air and Space 
Expeditionary Force, the commitment of our men and women to the 
Nation's security has been exceptional. I would also like to thank all 
of you for your continuing support.
    Our command has three important roles. The first is to organize, 
train, and equip our space and intercontinental ballistic missile 
(ICBM) forces--our role as an Air Force Major Command. The second is to 
present those ready forces and their capabilities in our role as a 
component to U.S. Strategic Command. Finally, we support the Air Force 
in its role as DOD Executive Agent for Space. I appreciate this 
opportunity to tell you about the things our Command is doing in these 
areas, and I would like to frame my remarks in terms of the Air Force's 
recently refined core competencies: developing airmen, bringing 
technology to warfighting, and integrating operations.

           DEVELOPING AIRMEN: THE HEART OF COMBAT CAPABILITY

    Our highest priority is our people. In-place or deployed, people 
are our most important asset and the key to mission success. Because of 
this, we have a continuing need to recruit, retain, equip and train our 
entire force.
    We appreciate the role the members of this committee have played to 
improve their quality of life. The Fiscal Year 2003 National Defense 
Authorization Act reflects the country's confidence in and concern for 
the men and women who serve in our Armed Forces. We are grateful for 
the many important quality of life improvements such as pay raises, 
health benefits and greater educational opportunities this year's Act 
provides. All of these are key to helping us retain and recruit the 
quality force our Nation needs.
    As our Nation's dependence on space continues to grow, the Air 
Force must meet the challenge of developing the right people to 
acquire, operate, and employ military space capabilities. A strong, 
proactive space professional development program is essential to 
safeguarding our Nation's leadership position in space and our way of 
developing airmen. The Space Commission's recommendations and 
subsequent Secretary of Defense direction provided an opportunity to 
more deliberately focus our space professional development, and we have 
done just that.
    We have developed the Air Force's Space Professional Strategy that 
describes a structured approach for developing space professionals. Our 
strategy is comprehensive and provides a blueprint for better 
addressing the training, education, and experience needs of our space 
professionals. At the same time, it recognizes the unique roles these 
officers, enlisted members and DOD civilian employees play in the 
national security space arena. Additionally, this strategy addresses 
the varied disciplines required of the space professional team--a team 
that accomplishes the complex functions required to take ICBM and space 
systems from concept to employment.
    We have been actively refining this strategy since I took command. 
In fiscal year 2003, we have begun the harder task of implementing the 
initiatives identified in the strategy--initiatives that center on the 
force's education, training and experience needs. Given the importance 
and complexity of professional development, we recognize this is a 
long-term commitment but it's the right thing to do--for our mission 
and for our country. We have the best space and missile operators and 
acquirers in the world and we will continue to improve on that standard 
of excellence.

       TECHNOLOGY-TO-WARFIGHTING: THE TOOLS OF COMBAT CAPABILITY

    Today, our space systems engaged in current operations are 
excellent examples of bringing technology to the warfighter--our second 
core competency. For instance, AFSPC communications experts deployed in 
support of Operation Enduring Freedom to establish satellite data links 
for the Air Force Predator system that reduced the ``sensor to 
shooter'' time to single-digit minutes. Today, we have over 1,000 
personnel deployed, and our people, in-place or deployed, work to 
deliver combat effects. Our missile and space capabilities are global 
in their reach and provide the asymmetric advantage we enjoy today.
    One result of implementing the Space Commission recommendations is 
the integration of the Space and Missile Systems Center (SMC) in Los 
Angeles into AFSPC. This has had profound effects on the way our 
command brings technology to warfighting. We are now responsible for 
both the acquisition and operation of our space and missile 
capabilities. For example, we recently set up the Space Superiority 
Program Office at SMC to acquire the counterspace systems that Under 
Secretary Teets mentioned. With acquirers and operators in a single 
command, we have identified a mission need, generated requirements, 
begun the acquisition process and will eventually deploy, operate, and 
sustain these systems.
    Secretary Teets has talked about our priority programs. AFSPC will 
work to ensure that these acquisition programs stay on track, that our 
requirements for new systems are stable and that we look hard at new 
ways to put technology to use. In addition to the Global Positioning 
System, Space-Based Infrared System-High, SBR, Transformational 
Communications Architecture, assured access and space control programs, 
we will ensure that this Nation maintains a credible force of safe, 
secure and ready ICBMs. Our ICBMs underpin our deterrent posture, and 
we thank you for your continuing support in our efforts to modernize 
them. While the Nuclear Posture Review requires us to maintain the 
current fleet of Minuteman IIIs until 2020 it also directs the Air 
Force to plan for a follow-on system. This fall we will start an 
analysis of alternatives to determine the best course for that effort. 
This is even more important as we begin the second year of our 3-year 
program to deactivate the Peacekeeper system this October.
    Technology is advancing rapidly, and it is clear that we must 
continue to develop and field the systems that provide our warfighters 
the combat capabilities they need.

         INTEGRATING OPERATIONS: MAXIMIZING COMBAT CAPABILITIES

    Our space capabilities are an integral part of all our combat and 
humanitarian operations, and they are essential for success in the 
fast-paced environment of the 21st century. Today, we operate as a 
Joint force and, in addition to our expertise in space and missiles, we 
must be well versed in air, land and sea operations. That way, we can 
ensure we provide forces and capabilities combatant commanders need in 
an integrated manner to generate effects when and where they need them.
    There were significant changes to the Unified Command Plan last 
fall. With missions additional to those of U.S. Space Command 
(USSPACECOM) and the previous U.S. Strategic Command (USSTRATCOM), 
USSTRATCOM is a new command with global focus and strategic reach. They 
are now responsible for military space operations, computer network 
operations, information operations, strategic warning and intelligence 
assessments as well as global strategic planning. The space 
capabilities AFSPC provided to USSPACECOM 24/7/365 remain the same; the 
componency relationship is different. Today, we are their Air Force 
component for both space and ICBM operations. To that end, we have 
recently activated a command center in our headquarters to manage the 
flow of orders from STRATCOM to our Numbered Air Forces. Through this 
componency relationship, we provide our capabilities to joint 
warfighters from all commands, around the globe.

                               CONCLUSION

    We believe AFSPC missions will continue to grow in importance as 
the Nation responds to current and emerging threats. Through our core 
competencies, AFSPC will help build the foundation necessary to fulfill 
our National Security Strategy goals of assuring our allies and 
friends, dissuading future military competition, deterring threats 
against our interests, allies and friends, and decisively defeating any 
adversary if deterrence fails. We will serve a central role as the 
space capabilities that are both an economic and military center of 
gravity to our Nation become ever more important.
    We continue finding new ways to improve our unique capabilities and 
integrate them into our military missions. As we develop more advanced 
systems, we must invest the necessary resources, energy and 
intellectual capital to protect our vital interests and sustain the 
asymmetric advantage that allows us the freedom to operate in the 
medium of space. We appreciate Congress' continued support of our 
people as well as your support to maintain our high state of readiness. 
With your help, we will ensure our space and ICBM forces continue to 
play a key role in our Nation's defense.
    Again, I am honored to appear before you and look forward to your 
questions.

    Senator Allard. Thank you.
    General Cosumano.

STATEMENT OF LT. GEN. JOSEPH M. COSUMANO, JR., USA, COMMANDING 
 GENERAL, U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND AND U.S. 
                       ARMY SPACE COMMAND

    General Cosumano. Thank you, Mr. Chairman.
    It is an honor for me to represent the men and women of the 
United States Army Space Command and United States Army Space 
and Missile Defense Command here this morning before the 
subcommittee.
    I will make a few brief opening remarks, and I have a 
prepared statement for the record, Mr. Chairman.
    Senator Allard. Without objection, your prepared remarks 
will be a part of the record.
    General Cosumano. Thank you, sir.
    General Cosumano. Members of our command are employed 
worldwide and also in the United States in Operations Noble 
Eagle and Enduring Freedom, and there are three main points I 
would like to emphasize this morning for the subcommittee.
    Today, the Army is at war and transforming at the same 
time. We are transforming to an objective force, a more 
deployable and flexible force, and the key enabler for that 
force is space. We believe that we must have space if we are to 
see first, understand first, act first, and finish decisively.
    Second, Mr. Chairman, integration of space activities and 
programs into our Army is very important, and we have done a 
lot of work in the last 2 years. We developed a space cadre of 
operational officers who are deployed at each one of our major 
commands. We have looked at our space organizations and we have 
revamped those space organizations so that they can better 
sustain combat operations.
    We have deployed Army space support teams. These are people 
who bring space down to the warfighter in each one of our major 
combat formations. We continue to structure Space and Missile 
Defense Command and Army Space Command to meet the demands of 
the four new missions that you heard Admiral Ellis talk about, 
as we are the Army service component to the new Strategic 
Command.
    Finally, our command is a cradle-to-grave organization 
composed of elements that perform combat development, material 
development, as well as operations, allowing us to move 
products quickly to the warfighter.
    While our friends in the Air Force and Navy focus on space 
constellations and providing those types of services, we, in 
the Army, leverage their investments and focus on ground 
stations such as the Grenadier Brat, Blue Force Tracking System 
used in Afghanistan, the Tactical Exploitation System, 
Intelligence Processing Ground Station, and the Joint Tactical 
Ground Stations, a ballistic missile early-warning system. 
These are but a few examples of the technologies and products 
of this command.
    Mr. Chairman, I would like to conclude by saying that our 
soldiers are our most treasured assets, and we are making great 
strides in the development and fielding of the space 
capabilities that will help them accomplish their missions. We 
are proud to be a full partner in the national security space 
community.
    Mr. Chairman, thank you and your subcommittee for your 
support. I look forward to your questions.
    [The prepared statement of General Cosumano follows:]

      Prepared Statement by Lt. Gen. Joseph M. Cosumano, Jr., USA

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, on behalf of the 
soldiers and civilians of the U.S. Army Space and Missile Defense 
Command (SMDC), thank you for the opportunity to appear before you 
today. I also consider it a privilege to be counted in the ranks with 
Secretary Teets, Admiral Ellis, General Lord, and Admiral Mayo. I 
appear before this subcommittee as the Army proponent for space and as 
the Army Service Component Commander to U.S. Strategic Command. In our 
Title 10 role, we lead the Army in the effort to man, train, and equip 
Space Forces. We develop space concepts, doctrine, organizations, 
material, training programs and personnel, and integrate space 
capabilities into nearly everything the Army does.
    Mr. Chairman, as we speak, men and women of SMDC are deployed 
within the U.S. and around the world in the global war on terrorism. 
Their mission is to ensure the Department of Defense, the Army and the 
Combatant Commanders have access to all the benefits of space. I am 
proud to represent them. They are our highest priority.
    The last 2 years have been very busy for our space mission, due to 
increased demands for our capabilities and working to implement the 
Space Commission's findings as directed by the Secretary of Defense. My 
remarks today will cover efforts in the transformation of the Army, 
integration endeavors, development of a space cadre and finally, some 
key technologies, which enhance the Army's space capabilities in 
support of our Nation's warfighters.

                          ARMY TRANSFORMATION

    Army Transformation represents the transition from a threat-based 
cold war design to a more strategically responsive, capability-based 
force to meet threats in an uncertain future. Today, we are 
simultaneously engaged in the war on terrorism, Operations Enduring 
Freedom and Noble Eagle and in Southwest Asia. Make no mistake, 
however, we simultaneously continue the transformation process. Space 
is critical to our success. The ultimate result will yield an Army that 
is dominant and strategically responsive.
    Space is our ``High Ground'' for conducting global operations, and 
often our first sensors and communications supporting rapidly deploying 
joint military forces. The Transformed Army must have this critical 
space-based support if we are to ``See First, Understand First, Act 
First and Finish Decisively.'' The Army, as part of a Joint Space 
Force, will do its part to ensure we have assured access for U.S. and 
coalition forces, and when directed, to deny space to our enemies.
    As the Army Service Component for USSTRATCOM, SMDC is the single 
point of contact for employment of Army Space Forces that directly 
support warfighting commanders with space-based imagery, intelligence, 
weather, missile warning, communications and other products. We have 
Army Space Support Teams providing space products and expert advice on 
the capabilities and use of space systems to Army, Corps, and Division 
staffs. From all over the globe, they ``reach back'' through classified 
communication systems to our home station operations center at Army 
Space Command. They also pull advanced imagery products from Spectral 
Operations Resource Center, also in Army Space Command. Our Mission 
Management Center, which oversees the use of thousands of Blue Force 
Tracking Systems, is providing significant command and control to our 
joint warfighters. All our early warning systems are deployed or are 
standing by.
    It's hard to imagine, but ``a day without space'' for our military 
forces as well as our commercial and civil sectors, would emphasize our 
total reliance on space. We would be limited in the areas of 
intelligence, surveillance and reconnaissance. We would also be reduced 
to primitive missile attack warning. Global positioning and long-range 
communications would be non-existent. The affect on our economy and 
National Security would be devastating. Our focus over the past year in 
developing the concept for space operations in support of the Objective 
Force has been to ensure that the Army, from Legacy to Objective Force, 
will never experience ``a day without space.'' We have leveraged to the 
maximum extent possible--high payoff areas, which are focused on 
assuring access to space and space products.

                              INTEGRATION

    The Army recently formalized its doctrinal concepts for Space 
Operations in support of the Objective Force, which outlines our 
essential tasks for Space Operations and how space support is provided 
to the Objective Force. The Army, with SMDC as the proponent, has 
established the Space Operations Officer Corps to address interim and 
Objective Force Space Cadre requirements. To that end, SMDC is 
developing a number of initiatives that will bring space literacy 
training to all members of the Army, including the Officer Education 
System. The system has undergone structural changes resulting in an 
expansion of the education process for Army space officers and the 
development of joint space training opportunities with the Air Force. 
SMDC has taken the initial steps for developing the officer corps and 
is working on processes to identify, educate and train enlisted and 
civilian personnel. Work remains to be done as future systems are 
derived and the soldiers required to man them are identified. The 
ability to perform these tasks is enabled by SMDC's unique structure.
    SMDC's organizational construct is designed to create unity of 
effort, synergy, and integration across the mission areas for the Army. 
The Command is composed of research, development and acquisition, 
combat development and operational organizations. This ``cradle to 
grave'' approach links the Combatant Commander's desired capabilities 
to the development of requirements and fielding of these capabilities. 
We can take transitional operational concepts to the fielding of 
solutions more responsively, more efficiently and at less cost. We 
achieve this by leveraging resources from outside the command and 
through established relationships with other Army, Joint and non-DOD 
agencies. In this case, ``the whole is indeed greater than the sum of 
its parts.''
    The Army has five military tasks that must be met by Joint Space 
Forces if the Army's Objective Force is to truly meet its full 
Strategic, Operational, and Tactical Capabilities. These tasks are 
especially critical during the early phases of a military operation 
from home station to entry into a theater of operations. They become 
just as significant later when the fight is over and we are conducting 
Stability and Support Operations and transitioning to civilian 
authorities.
    First we must ``Support increased deployability and reduced in 
theater footprint'' of Army Forces. We accomplish this by deploying 
only the combat forces and logistics forces that must be in theater to 
conduct operations. We leave back in our Home Station Operations 
Centers, the planners and thinkers that can do their job out of 
theater, and we ``reach back'' to them through the Global Information 
Grid and particularly Global Satellite Communications or SATCOM. The 
Advanced Wideband System, Advanced EHF System and the Transformation 
Communication Systems represent the pathway to full Objective Force 
communications, connected by the Joint Tactical Radio System.
    Next is to ``Enable situational understanding off the ramp.'' The 
Army of today needs time once they arrive in theater to gain 
understanding of the environment and enemy actions that we will 
encounter. The Objective Force is built to deploy and employ directly 
into operations with little to no pause from leaving the ship or 
aircraft that brings us into theater. This requires that situational 
awareness and understanding begins the instant we are alerted at home 
station, builds continuously through deployment and as we conduct entry 
operations either in a hostile or permissive environment. Space-based 
environmental monitoring for weather, mapping, and terrain analysis is 
provided today by the Defense Meteorological Support Program (DMSP). 
Other space-based weather systems, such as the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) will contribute to 
those missions in the future. LANDSAT and other commercial systems 
provide us terrain data. Together they supply the initial information 
required to understand climate and terrain in a distant land. Next, 
support from the NRO's National Systems, augmented by imagery from 
commercial satellites, gives us even greater detail and information on 
enemy activities and conducting intelligence preparation of the 
battlespace. The SBR is the next critical step forward in enhancing our 
force by giving tactical forces persistent views of the battlefield, to 
include the most accurate levels of terrain information needed for 
mapping. The Army strongly supports the development and fielding of 
SBR, and will continue to be the Air Force's closest partner in its 
development.
    GPS and its integration into our systems is the key to the next 
essential task, ``Support precision maneuver, fires, sustainment, and 
information.'' It is GPS that gives us the common grid that all systems 
must use to achieve networked and precision operations. Knowing exactly 
where forces are around the world will allow us to save lives through 
blue-force tracking, destroying the enemy faster with precision 
maneuver and engagement, and supporting our forces more efficiently 
through knowing exactly where sustaining items need to be and when they 
are needed by the customer. GPS, as it is doing to our commercial 
activities, is the critical underpinning of precision operation, to 
include its timing signal, which is critical to networked 
communications. Today's GPS is good, but GPS block III will give us the 
1-meter accuracy our Future Combat System requires, and from a more 
jam-resistant and reliable GPS signal.
    ``Enable information and decision superiority'' simply means we 
have more and better information than our enemy, and can make the right 
decision faster. Certainly being able to collect and move information 
is a part of this equation, but we must also ensure the enemy ``sees 
last, understands last, acts last, and loses'' by attacking his 
information systems, making him ``deaf, mute, blind, and confused.''
    The joint nature of space requires that the Army become a more 
active partner in the development of space requirements that enable 
units of action and units of employment to achieve information 
superiority. In the same manner, the Army can no longer assume that the 
U.S. will maintain space superiority. Space control capabilities are 
essential to ensure that an adversary's use of space is denied at the 
appropriate time and place when required. We must never allow U.S. 
Forces to have ``a day without space.'' The Army is developing ground-
based space control negation systems that will be synchronized with 
efforts by the Air Force and Navy in a traditional role as we have in 
air defense, missile defense, and now space defense.
    Protect force during all phases of the operation. Only space 
systems can provide the early warning of theater ballistic missile 
attack that will allow our forces to take cover, and cue Army missile 
defense systems to engage in-bound enemy missiles. The Space-Based 
Infrared System (SBIRS) will give us significantly more accurate launch 
points of enemy missiles, and more accurate and timely impact points of 
these missiles saving lives and allowing efficient use of missile 
defense systems. The Army strongly supports the continued development 
and fielding of SBIRS. Protection also means defeating the enemy's use 
of space systems for communications and intelligence, surveillance and 
reconnaissance. As mentioned in the previous essential task, defeating 
our adversaries' use of sensors and communications is a mission the 
Army knows well. In the past, we have done that against ground threats, 
then against air threats, and now against threats in space. This is not 
a new mission for the Army, just a new medium from which to operate.
    Our space forces integrate with land, sea, air, and even cyber-
based capabilities to provide the information demanded by our 
warfighters. What is important is that these capabilities are brought 
together as part of a robust system that enables information and 
decision superiority--which allows us to dominate across the full 
spectrum of military operations.

                        TECHNOLOGIES TO SUCCEED

    We are conducting the research, development, and acquisition 
functions that are developing and bringing to the warfighters new 
space-based technologies, much faster and more efficiently than is 
possible using normal procurement procedures. The Army conceived the 
Tactical Exploitation of National Capabilities Program (TENCAP). Our 
Army Space Program Office (ASPO), using TENCAP acquisition procedures, 
has rapidly developed and fielded to Army, Navy, Marine, Air Force, and 
Special Operations Forces the Grenadier Brat Blue Force Tracking 
system. This equipment allows us to know precisely where our military 
units are on the battlefield, right down to the individual person or 
platform. ASPO also, within a few years, developed and fielded the 
Tactical Exploitation System, which is one of the most advanced 
intelligence, and information integration systems currently supporting 
our forces. This system will become the ``heart'' of the Distributed 
Common Ground Station--Army.
    Our role in the Ground-based Midcourse Defense System (GMD) 
strongly links us with the efforts of the Missile Defense Agency. The 
Army supports the Defense Department's Ballistic Missile Defense System 
(BMDS) efforts to develop, test, and deploy ballistic missile defense 
programs designed to protect America, its deployed forces, and its 
friends and allies. As the lead service, the Army has been preparing 
for GMD deployment for some time. We are prepared to deploy and operate 
the GMD component in September 2004 in support of National Security 
Presidential Directive-23 (NSPD-23).
    With regard to our Army Space Control efforts, we provide enabling 
technologies to support the Objective Force and Future Combat System. 
As the largest user of space products, the Army requires timely and 
assured access to space systems and subsequent denial for our 
adversaries. From providing continuous surveillance to the integration 
of space sensor data into battlefield operating systems to the negation 
of our adversary's space capabilities, Space Control initiatives are a 
key component of our overall strategy.
    Our strategy also includes the Army Space Exploitation 
Demonstration Program formed to exploit space-related capabilities by 
closely linking technology to the warfighter. This program reacts to 
expedited requests for emerging technology through rapid prototyping. 
Some recent examples have been the Low Earth Orbit Position and 
Reporting Device (LEOPARD), the Space Operating System (SOS), and the 
Space Support Element Toolset (SSET). Recently, a number of the SSETs 
have been deployed and more are being built to fulfill requirements.
    Our space partners in the Air Force take the lead on the design, 
acquisition, launch, and operations of satellites, while Army Space 
Forces focus on the user ground-segment, and how to best use these 
capabilities. The Defense Support Program satellites and the Joint 
Tactical Ground Station are an existing example of this Army, Air Force 
and Navy partnership that will continue into the future with the 
fielding of the SBIRS, and our Multi-mission Mobile Processor. The 
Space-Based Radar, another example, will use the Distributed Common 
Ground Station--Army as its downlink to the user community. The Army's 
development of Ground-Based Space Control negation systems will protect 
joint forces from the enemy's use of space.

                               CONCLUSION

    Mr. Chairman, the Army is on point for the Nation, fighting the war 
on terrorism, preparing for operations in Southwest Asia, and deterring 
aggression throughout the world while transforming to meet future 
threats. We are making great strides in the development of our 
Objective Force Space cadre to carry their missions. Soldiers are our 
most treasured asset.
    The Army is proud to be a full partner in the national security 
space community as we continue to protect our forces, our American 
citizens, and our allies. Mr. Chairman and distinguished subcommittee 
members, thank you for your steadfast support. I look forward to your 
questions. Thank you.

    Senator Allard. Admiral Mayo.

 STATEMENT OF VICE ADM. RICHARD W. MAYO, USN, COMMANDER, NAVAL 
                    NETWORK WARFARE COMMAND

    Admiral Mayo. Good morning, Mr. Chairman, Senator Nelson, 
distinguished members of the subcommittee. I am Vice Admiral 
Dick Mayo. I am Commander of the Naval Network Warfare Command. 
I have submitted a statement for the record, which I hope you 
will accept.
    Senator Allard. We will make that part of the record, sir.
    Admiral Mayo. I am glad for this opportunity to address the 
subcommittee, and I look forward to your questions.
    Space has long been and remains a critical enabler for 
naval warfighting. The Navy has been in the forefront of 
operationalizing space from the Global Positioning System 
through the earliest tactical satellite communications to the 
Classic Wizard System and to bringing realtime targeting to the 
cockpit and in-flight weapons.
    Some people say that the Navy is disengaging from space, 
and that is absolutely wrong. The Navy needs space-based 
capabilities today more than ever. To realize our vision of Sea 
Power 21 and its three pillars of Sea Strike, Sea Shield, and 
Sea Basing, the Navy needs space for increased situational 
awareness, speed, precision, and lethality. The Navy/Marine 
Corps Team wants to operationalize space and bring it to every 
level of operations. Our transformation to a capabilities-based 
Navy, which is represented by Sea Power 21 and what we call 
FORCEnet, is critically dependent upon the joint capabilities 
we get from space. The Navy's contribution to space has been 
reflected and is reflected in such major programs as the Mobile 
User Objective System satellites, various DOD satellite 
terminal systems, and innovate space-smart people.
    A guiding principle of the Rumsfeld Commission Report was 
to formalize what our Chief of Naval Operations then called 
``an operationally and technically savvy space cadre,'' experts 
you could call who could advocate Navy requirements in the 
joint community and the joint program offices and to continue 
to advance the operationalization of Navy for the fleet. We 
have moved to identify those people, certify their expertise, 
and strengthen their identification as a valuable group of 
professionals.
    The establishment of Naval Network Warfare Command is 
Navy's response to recognize the importance of space to 
operational capability. We have aligned NETWARCOM under the 
fleet in clear recognition of the need to concentrate network 
and space operations at that level. NETWARCOM also serves as 
the functional component to U.S. Strategic Command for network 
space operations and information operations.
    Our dependence upon space is absolutely critical. To that 
end, space control is an arena and an area which we think needs 
much further attention. The Navy offers unique capabilities in 
that regard, and we have already offered a capability to U.S. 
Strategic Command in support of space control.
    I would like to introduce Major General Kevin Kuklok, the 
Assistant Deputy Commandant for Plans, Policies, and 
Operations. Both of us stand ready to answer any questions you 
have about space and the Navy/Marine Corps team. Thank you very 
much.
    [The prepared statement of Admiral Mayo follows:]

          Prepared Statement by Vice Adm. Richard W. Mayo, USN

    Mr. Chairman and members of the subcommittee: Good morning, I am 
VADM Dick Mayo, the Commander of Naval Network Warfare Command located 
in Norfolk, Virginia. NETWARCOM is the newest Navy ``type commander'' 
working for Admiral Bob Natter, Commander, Fleet Forces Command, 
responsible for organizing, training and equipping forces that operate 
the Navy network. Additionally, I am the Navy functional component 
commander to the Commander, U.S. Strategic Command for space, 
information operations, and network operations.
    The Navy supports the changes that were recommended and have been 
implemented by the Rumsfeld Commission report. Based on the Rumsfeld 
report, Navy has conducted our own internal review that was led by Adm. 
(Ret.) Smith. Space-based sensors and platforms have never been more 
important to the success of naval operations and our future success is 
dependent upon them. I will comment on the importance of space to naval 
operations, what we are doing to implement the changes that were 
addressed in the Rumsfeld and Smith reports and the importance that 
space will play in achieving the U.S. Navy's Sea Power 21 vision.

                           NAVY ROLE IN SPACE

    Space can no longer be viewed as a separate entity, or even a 
separate medium. It must be a fully integrated part of our warfighting 
capability. Space is the backbone of naval network centric warfare, 
providing communications, precise timing, positioning, and battlefield 
characterization. Space also provides critical real time intelligence, 
and surveillance information for naval combat operations. The stand up 
of NETWARCOM has combined space operations with networks and 
information operations, and resulted in a coherent end-to-end 
architecture that allows us to fully optimize the use of space-based 
capabilities today and in the future. Navy is fully in step with the 
joint community here. NETWARCOM also serves as the Navy functional 
component to USSTRATCOM for information operations and network 
operations.
    Navy's priorities and direction in space are quite clear. Our job 
is to integrate the essential enabling capabilities provided by space 
systems across and throughout our naval forces, at every appropriate 
level. Because space is truly joint, we intend to lead where 
appropriate, fully participate in, and influence the outcome of joint 
deliberations on space capabilities to solve our toughest problems, 
enable naval transformation, and better serve the combatant commanders.

                              SPACE CADRE

    Key to Navy's continued engagement with the newly aligned DOD space 
organization, and to ensure that Navy space equities continue to be 
represented, we are developing a core of space experts, the Space 
Cadre. This is a group of innovative military (both Active and Reserve) 
and civilians that have expertise in space system requirements, 
acquisition, S&T, and operations.
    As the Air Force executes its Executive Agent responsibilities for 
space, the Navy will stay engaged by ensuring that qualified Navy space 
experts are in leadership roles, where appropriate, under the guidance 
of Secretary Teets, the Under Secretary of the Air Force. This 
``cadre'' of naval space experts will help shape joint space policies, 
strategies, requirements, S&T development, acquisitions, and 
operations.
    Navy's current involvement includes: our leadership of the joint 
Mobile User Objective System (MUOS) development and acquisition, which 
is the new system that will replenish our narrow-band communications 
satellite system and provide critical communications to mobile forces; 
our support of the development of future acquisitions, such as the 
Space-Based Radar for ground moving target indication and leadership at 
the National Reconnaissance Office (NRO) Communications Directorate and 
the Transformational Communications Office by Rear Admiral Rand Fisher. 
Additionally, we are committed to aligning our terminal procurement 
with the development and procurement of DOD Satellite Communications 
resources.

                            SPACE OPERATIONS

    The earliest Navy role in space operations was surveillance of 
potential enemy reconnaissance satellites. Surveillance of and from 
space over the years has successfully become a Joint and a Strategic 
capability of which the Navy is a proud participant. We continue, for 
the time being, to operate the Navy Space Surveillance Sensor (the 
``fence'') and are awaiting the Air Force recommendation on whether it 
should be continued as a part of the space surveillance network.
    While over the years Navy's role in space has become predominantly 
satellite communications, we are continuing to explore new operational 
applications where Navy combines the capabilities of space with our 
advantage of at sea mobility. Navy developed WINDSAT (launched on 6 
January) that will provide sea surface wind speed and direction 
directly to ships at sea. We will continue management of vital UHF 
satellite communications and look forward to flying the Mobile User 
Objective System in the 2008 timeframe. The real challenge in front of 
us is how to continue to integrate space capabilities into naval combat 
capability to support Fleet and Joint forces.

                          SERVICE INTEGRATION

    In addition, NETWARCOM has taken a leadership role to strengthen 
the relationship with the Air Force across all information technology, 
information operations, and space domains, with the goal of sharpening 
interoperability. The location of NETWARCOM in Norfolk, VA, was chosen 
because of its proximity to the Fleet and the numerous joint commands 
in the area. In concert with the Air Force Command and Control and 
Intelligence, Surveillance, Reconnaissance Center located at Langley, 
AFB, we are collaborating on Air Force/Navy ISR architectures; 
Distributed Common Ground Station interoperability; and supporting each 
other in establishing the operational requirements for Transformational 
Communications, Space-Based Radar, and Space-Based Infrared systems. 
Additionally, we have met with the Army and Air Force to support Joint 
Forces Command in establishing and experimenting with Joint Command and 
Control systems for the evolving Standing Joint Task Force Headquarters 
concepts.

                         SEA POWER 21 AND SPACE

    Space-based capabilities are vital to the success of the Chief of 
Naval Operations' Sea Power 21 Vision. It calls for a fully netted 
force, capable of working in a joint and coalition environment, and 
going it alone when necessary. Sea Power 21 will enable the Navy to 
become a capabilities based Navy. My part in Sea Power 21, in 
partnership with Rear Admiral Zelibor, is making FORCEnet a reality. 
FORCEnet will enable all of Navy's combat capabilities--Sea Strike, Sea 
Shield, and Sea Basing. FORCEnet will link our weapons, platforms, 
sensors, C2 systems, and our people, into a netted force capable of 
responding with unprecedented precision, speed and lethality. The 
products we get from space are absolutely critical to achieving this 
capability. The capabilities of space are fundamental to FORCEnet and 
to Sea Power 21.

                               CONCLUSION

    My highest priority is to transform naval organizational processes 
and culture to fully integrate the warfighting capabilities that space 
systems present to our warfighters.
    Space-based products must be integrated into the development of new 
operational concepts, such as the Global Information Grid, network 
centric warfare, and Sea Power 21. NETWARCOM's ability to operate and 
develop future space needs, and my execution of FORCEnet must be 
synchronized with Fleet warfighting requirements and the emerging 
global needs of combatant commanders. This is my challenge, as the 
commander of NETWARCOM. I appreciate your continuing support as the 
Navy presses forward to make Sea Power 21 reality.
    Once again I thank you for this opportunity, and will be happy to 
answer any questions.

    Senator Allard. Thank you all for being willing to testify 
before the subcommittee, and thank you for your testimony.
    I just want to make sure that we have all the coordinated 
effort going on between the various branches of our defense, as 
far as space is concerned, so I will start out with you, 
General Lord. Would you outline to me what career path you are 
developing for the Army and Navy, as well for the Air Force? I 
know the Air Force is doing a lot. I want to see what you are 
doing as far as the Army and Navy are concerned.
    Then, the next follow-up question I would like to have you 
answer also is, are there some common schools and some common 
resources to develop this space cadre from all the branches? 
Also, how are we going to rate space officers when they serve 
in this joint space billet?
    General Lord. Yes, sir, I am delighted to answer your 
question. I think it is a very appropriate one with respect to 
the space cadre. It is important to note that I think we are 
often, with a good strategy here, coordinating with Brigadier 
General Rick Geraci, who is the Army Space Command guy in 
Colorado Springs. We are also working with our Navy 
counterparts as we put our Air Force space cadre program 
together because we do not want to just do something that 
solves the Air Force issue. It ought to be able to be mapped 
over to the Army, the Navy, and the Marine Corps, and also to 
our friends in NASA and certainly reach out and grab the folks 
in the National Reconnaissance Office and space people wherever 
they serve in the military department. We will do that both for 
officers and enlisted.
    What we have done is put together a program that looks in 
three different areas--operations, acquisition, and the mission 
support areas we have talked about. The President's budget in 
fiscal year 2004, at $10 million, supports the beginning of our 
initial development for courses and initial places for people 
to serve as we develop not only job experiences but the courses 
and the training that will help people form their intellectual, 
if you will, bona fides in the space business when we are 
working them up through the system.
    We have offered opportunities, and people in the Army and 
the Navy are taking advantage of now attending courses at our 
schools. An inherent part of what we are doing is going to also 
harmonize with the Air Force efforts under the Chief and the 
Secretary, Secretary Roche, and General Jumper, as well, to re-
look and re-energize systems engineering and the excellent 
initiatives under my old command, Air University. We will be 
working with the folks at Air Education and Training Command, 
along with the Air Force Institute of Technology and also the 
Naval Postgraduate School to put together an integrated program 
with great support so that not only do we work the Air Force 
and the space part of this and the other services, but we also 
have the critical engineering skills and systems engineering 
that will help us work the problems that Dick Mayo and Joe have 
talked about, as well as Admiral Ellis and Secretary Teets. 
That is living and prospering and being able to handle and 
develop in this space situation awareness defensive and 
offensive counterspace missions of space control. We will need 
the systems engineering talent. We will need people developed 
in that program.
    What we want to do is start the path. This is going to take 
us throughout the 5-year defense program, I think, to really 
get it fully entrenched. Our first steps are in fiscal year 
2004. With your continued support, we will be able to do that.
    Our formal announcement of the strategy, once approved by 
the Secretary of Defense, should be within the next days, I 
would hope, as we get the full strategy laid out for everybody 
to see.
    Senator Allard. Did you respond to the part of the question 
of how we are going to rate the space officers?
    General Lord. I am not sure in a rating, per se. I consider 
myself a space officer, and those who serve will go through our 
initial schools and get rated, if you will. They will become 
space professionals as they develop their capabilities.
    We looked at--as you had asked us to do in the past--
different models for doing that. One is the nuclear Navy model. 
I think we have taken some of the best kinds of attributes of 
their program as well as we have looked at the folks in the 
Army and the Navy, and we are going to put those together and 
get the best of all those systems to do that.
    But we will get initial skills. We will get certified and 
continue to work our bona fides as they work their way through 
not only job experiences, but actual training that goes with 
that.
    Senator Allard. Admiral Mayo, how do you track space 
expertise in the Navy? Are space subspecialties adequately 
linked with the Navy's areas of functional expertise?
    Admiral Mayo. Thank you for the question, Mr. Chairman.
    We have done quite a bit to really power up our 
identification of the naval space cadre in the aftermath of the 
Rumsfeld Commission. We have formalized it. We have put a flag 
officer at the Navy staff in charge of it. We have identified 
those officers in the Navy who have the critical operations and 
skills, space operations and engineering skills, to be part of 
our cadre. We have identified the number of billets. There are 
775 officers in the Navy with the skill and talent, 250 
billets. We have added precept language for selection boards to 
select people with these skills so that we can continue to 
advance our Navy professional work in the area of space.
    As General Lord mentioned and alluded to, we have initiated 
a program with the Air Force Institute of Technology and with 
the Naval Postgraduate School to exchange officers so both 
services can better understand each other's efforts and learn 
and prosper together.
    Lastly, in the Navy, we have integrated the Reserve and 
active space expertise with about 250 enlisted and officer 
experts in our Reserve community. We have fully integrated them 
with our active-duty space cadre so that we can gain the 
maximum expertise and leverage from all of our naval assets.
    Senator Allard. General Cosumano, I note that your space 
career field functional area 40 is a subset of the Army's 
information operations career fields. Space and information are 
rather obviously different. What are the advantages and 
disadvantages of this arrangement?
    General Cosumano. Thank you for the question, Mr. Chairman. 
We have several functional areas as a part of this information 
operations career field. As it turns out, space is an enabler 
for all those functional areas that are part of that career 
field. In fact, without space, you really do not have a global 
context when you are prosecuting warfare.
    It gives us a great advantage in that we share information 
across those functional areas as a part of this one career 
field. We developed this career field over 2 years ago, and we 
have been proceeding with this Functional Area 40 for over 2 
years. We worked closely with the Air Force in designing the 
curriculum, the syllabus for training our space operations 
officers. All our space operations officers are certified and 
wear the Air Force Space Operations badge. We have been working 
very closely with our friends in the joint community to do 
this.
    In summary, I think if we did not include space as a part 
of the information operations career field, we would not be 
able to leverage this area called space control, one of the 
components of Space Information Operations.
    Senator Allard. Thank you.
    General Cosumano. Thank you, Mr. Chairman.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Sessions. Mr. Chairman, I would like to submit some 
questions for the record. I have another appointment I have to 
go to and would like to congratulate General Lord, General 
Cosumano, and Admiral Mayo for the work that they have done. I 
know well just how critical space dominance has been to us in 
the last few years, and will be if conflict breaks out in Iraq.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you very much. On the panels, we have 
had several members express that they wanted to submit 
questions. If we could just ask the panel members to get back 
with us in 10 days, we would appreciate it.
    General Lord. Yes, sir.
    General Cosumano. Yes, sir.
    Senator Allard. Thank you, Senator Sessions.
    Senator Nelson.
    Senator Bill Nelson. Thanks, Mr. Chairman.
    General Lord, I think two of the most important assets for 
the country are the western and the eastern test ranges, and 
yet the funding for the launch ranges has decreased 
significantly. I want to know why. I also want to know why the 
Air Force has walked away from the range modernization--not 
little, but big time--in 2004, for RDT&E, lessening spending by 
$43 million and, in other procurement, lessening spending by 
$72 million. Share with us what is the thinking of the Air 
Force.
    General Lord. Yes, sir. Thanks, Senator Nelson.
    I had a chance Saturday night to go down and sit on the 
launch console with General Pavlovich and the folks at the 
45th. My background is that I was a launch range commander of 
the 30th, so I can pledge to you that we do not want to make 
our space-lift ranges a limiting factor in our access to the 
space equation, I guarantee you that. I had a chance to sit 
down with those folks and go through a countdown. We did not 
launch on Saturday night. We did launch just last night, if you 
know--or the night before last--the Delta 4.
    What we did is, we reshaped the Range Standardization 
Automation program. We also have taken away what we used to 
call RSA and have replaced it with a recapitalization and an 
improvement program that I think takes a look at what we need 
to do and what we need to deploy on the range. We bumped up--by 
the way, in 2004 we have an increase in the O&M funding for the 
ranges, both the west and east coasts. We have tried to reshape 
our program and make the critical things be available when they 
need to be to put on the range to continue to launch in a safe 
and effective manner.
    I have looked at the range safety part of that. I mean, I 
am familiar with the missile flight control business. I have 
looked at what they have done. I have looked at the interim 
steps we have with our first, what we call, FOV, the flight 
operations verification, work that will replace the existing 
missile flight safety strings. Then regarding our plan for the 
next step, I have looked at the plans and scheduling folks and 
the things that we have added. I think we are on a prudent 
course. We will continue to watch this very closely.
    I need to tell you, sir, that we had bought things before, 
and we let them sit on the dock. We did not put them on the 
range. Therefore, I am committed, along with the folks on the 
west and east coasts, to install the equipment, get it on the 
range, and make sure that we continue to improve and upgrade. 
We are following through on that, sir, and we are committed to 
making the launch ranges be everything they need to be to 
complement our assured-access-to-space strategy.
    Senator Bill Nelson. I know you are committed, and I just 
want to help you because I think that one of the easiest places 
to cut when you start looking for money to cut is the ranges. I 
do not think that these cuts are prudent, just like I do not 
think some of the cuts on the modernization in the launch 
procedures for NASA are prudent. They cut out a system--albeit, 
it had gotten way too expensive--called CLCS in the launch 
process. But it seems like we always do that in trying to fund, 
when budgets are tight. I am going to be on this as we get on 
into the process of authorization.
    Senator Allard. Senator Nelson, I share your concerns on 
this and want to try and be helpful with you on this particular 
issue because I know it is important to you, and we want to 
make sure that we are doing the right thing in that regard.
    Senator Bill Nelson. Mr. Chairman, these are huge hits. In 
2003, for example, the RDT&E funding was $106 million, and they 
are whacking that by $43 million. The OPAF, which is 
procurement, in 2003 was $153 million, and they are whacking 
that by $80 million. You are talking about some rather 
substantial whacks.
    Senator Allard. Some real dollars here, that is right.
    Senator Bill Nelson. Like half. In the case of RDT&E, they 
were whacking that by $43 million. So you are talking about 
whacking it by almost half, RDT&E and OPAF.
    General Lord, let me ask you, is the deferral of the GPS 3 
going to impact your ability to provide GPS service to the 
troops and civilians who rely on it every day?
    General Lord. Sir, we are going to make that initial launch 
capability in fiscal year 2012. We are committed to that, as 
the Under Secretary spoke to you about that. We are looking at 
bridging from 2003 to 2004, and then, as he said, we may even 
be able to shoot for an earlier capability with GPS 3. Now, we 
are committed to the modernization, and we are going to step up 
to that in both the 2R and the 2RM; the next launch will be 
29th of March, scheduled this month. We just launched one 
earlier this year, and we will continue to populate that 
constellation.
    I will tell you, we have that constellation screwed down 
pretty well, we are certainly supporting our warfighters over 
there right now, and we will continue to do that. My view is 
that we will continue to modernize the constellation and push 
hard on GPS 3, maybe do it earlier. I hope we can.
    Senator Bill Nelson. Mr. Chairman, with your permission, I 
need to step out and make a quick telephone call, and I will be 
right back.
    Senator Allard. Sounds great, Senator.
    I have a number of questions. I want to follow up a little 
bit on the SBIRS questions and will address this one to you, 
General Lord. We talked a little bit on the previous panel 
about this break in production that we have on the satellites, 
on SBIRS, just after we have had all these programs and gotten 
them straightened around. Frankly, I am concerned about what 
that is going to do to program risk, how it is going to affect 
costs, and what it is going to affect with continuity in the 
manufacturing process. I would like to hear what the Air 
Force's assessment of the operational risk of this delay would 
be.
    General Lord. Excellent question, sir. I think, as 
Secretary Teets said earlier, a year ago was a different story. 
I am convinced, having sat in several different senior level 
reviews, also with the Under Secretary and with our contractor, 
that we have the A-team on board in all aspects, from the 
Government as well as from the contractor, Lockheed-Martin. Our 
program manager, Mark Borkowski, and Miles Crandall of the 
Lockheed-Martin team, are working very well together. We have 
intentionally reviewed this, and we will continue to do that.
    If we can continue that approach and work the mitigation 
strategy that the Under Secretary outlined with procuring spare 
pieces, et cetera, I think we will be able to bridge from GEO 2 
to 3, 4, and 5.
    I will tell you, on the operational side, sir, we have sat 
down and we have laid out for the next 10 years the capability 
that will be derived from the constellation plus the ground 
processing that we have, and we are delivering on specific 
blocks of capability. We validated that with Admiral Ellis, and 
that is the warfighting application we are going to get. We are 
meeting those requirements, as well. This is a full-court press 
to deliver that, and it is not going to stop until we get the 
final operational capability.
    Senator Allard. I am just really concerned we do not set 
this program back because we worked hard to debate on this 
side. It was not easy to get it back on track.
    I am looking at it from a manufacturing standpoint. How is 
this company going to keep this expertise on their payroll for 
2 years? I do not think they can. It looks to me like you are 
putting us in the position where they move on to other projects 
and then you have to bring in a whole new bunch of workers and 
people in charge of the program--you have to reeducate and 
retool them back up again after a 2-year lapse. It seems to me 
that it is rather inadvisable.
    General Lord. Yes, sir. I know exactly what you are saying 
and how you feel about that, and, as I said, we are working out 
the mitigation strategy. I would be happy, as we work that, to 
provide it for the record if you like and keep you informed as 
we go on how we are doing on the mitigation efforts so that we 
do not have a break that substantially affects the program.
    Senator Allard. I would very much appreciate that.
    [The information referred to follows:]

AFSPC Mitigation Strategy for Minimizing the Impacts of 2-Year Delay in 
          Start of GEO 3-5 and the Associated Production Break

    The decision to slip GEO 3-5 2 years to the right was a very 
difficult decision to make. The slip was based on an assessment that we 
would not need the additional satellites until later in the decade. 
From an experience perspective, OSD also believed it was prudent to 
have more familiarity with producing and testing the first two GEO 
satellites before we made commitments to buy the following three. Later 
procurement of those three offers opportunity to include ``lessons 
learned'' from the earlier satellites into the later ones.
    Nonetheless, from an acquisition risk perspective, the delay has 
two potential impacts. First, it may induce production breaks at many 
of the vendors who produce the satellites. Those production breaks can 
result in additional costs to restart the production line. We have 
accounted for that risk in our long-term budgetary planning. In 
addition, we are working to identify other critical vendors and assess 
their risks. In many cases, these vendors may have other work, which 
will provide reasonable continuity. We are also maintaining options--as 
yet unfunded--to procure additional Highly Elliptical Orbit (HEO) 
payloads--any such procurement would also serve to mitigate production 
gaps.
    Second, delay in procurement of GEO 3-5 creates a risk in the event 
we need spare parts for GEOs 1 or 2. If GEO 3 were available sooner 
rather than later, its production could provide critical spares for one 
of the earlier satellites, if needed. But with production delayed, we 
would not have access to GEO 3 hardware to cover contingency sparing. 
The mitigation for this is to identify and procure critical spares. We 
are in the process of making that identification. Depending on the 
extent of the requirement, we may need out year budget adjustments to 
cover the new spares--but I believe we have time to make the decision 
beyond fiscal year 2004.

    Senator Allard. General Lord, Secretary Teets stated that 
the possibility of accelerating GPS 3 is being studied. What is 
the status of this study, and when will it be completed? Then 
what are the advantages and disadvantages of such acceleration?
    General Lord. We took a meeting with Secretary Teets 2 days 
ago. We owed him the information. I talked to our folks. Within 
a week, we are going to come back with what we think would be 
the impact of that. It is going to cost money to accelerate, 
and we will look at some preliminary estimates on what it might 
cost. I am not ready to announce those until we take a harder 
look. We have Al Ballinger, our program manager, plus General 
Arnold with SMC. We will work that, and we should know within 
the next week to 10 days.
    Senator Allard. Now, in space science and technology, 
General, the Air Force Research Lab reports to Air Force 
Materiel Command. Are you comfortable that you have sufficient 
input on the Air Force Research Lab space science and 
technology efforts?
    General Lord. Yes, sir, I am comfortable. We met earlier, 
within the last week, with General Les Lyles, the Commander of 
Air Force Materiel Command, and then Major General Paul 
Nielsen, the Commander of the Air Force Research Lab, and went 
through about 5 hours of briefings and every dollar in the Air 
Force space S&T program and our linkage with, in the most part, 
Kirtland Air Force Base and the labs there as they relate to 
our process.
    What we have done in Air Force Space Command in our 
integrated planning process is, we have identified where we 
need basic and applied research. We can trace that back from 
our needs and our deficiencies in our integrated planning 
process right to the dollars that are being spent in basic 
research. We have a good connectivity there, as well as with 
Dr. Tony Tether and DARPA and also working under Secretary 
Teets, as he said, putting together the whole team to look at 
S&T across not only the intelligence communities, but also what 
we are doing in the Air Force Research Lab and also with DARPA. 
Periodic meetings with Tony Tether and what they are doing in 
DARPA is going to pay off for us, as well.
    I think we have our arms around the overall program, and it 
will become more and more focused as particular areas get 
emphasized.
    Senator Allard. Admiral Mayo, in regard to space science 
and technology, are you satisfied with the role that the Naval 
Research Lab plays in science and technology efforts?
    Admiral Mayo. Senator, thanks very much. Most definitely. 
They have been a leader for a long time in innovation, bringing 
innovation and transformation to space. As I alluded to in my 
opening verbal testimony, such things include bringing realtime 
data to the cockpit, in-flight weapons, initial satellite 
communications systems, and initial efforts to help in Global 
Positioning System.
    I think the S&T effort that Naval Research Lab is involved 
in is very significant, and we have focused the effort for this 
upcoming year in an agreement with the Air Force and DARPA to 
work in the area of microsats. We look forward to that very 
innovative, hopefully creative work.
    Senator Allard. We still have some time here, and I want to 
talk about space management organization. General Cosumano, I 
do not want you to feel left out here. [Laughter.]
    General Cosumano. I appreciate that, Mr. Chairman. I will 
be glad to respond to those other questions, too, if you want 
to ask me.
    Senator Allard. If you have a response to those other two 
questions, please step in.
    General Cosumano. I do.
    In terms of the last series of questions on science and 
technology, the Army Research Lab, the Space and Missile 
Defense Technical Center, as well as the Army Space Program 
Office are really three key organizations that the Army 
leverages as we work with our partners both in the Air Force 
and the Navy to get those products to the warfighter. As I 
said, we have really focused on technologies that have to do 
with providing those capabilities to the warfighters. We focus 
on ground stations many times. In coordination with NASA, we 
are also involved in other technologies such as hypervelocity 
technologies in our Space and Missile Defense Technology 
Center. We are a partner in this S&T arena, too, and we are a 
full player.
    Senator Allard. Let me get to the question now on space 
management organization. Are you satisfied, General Cosumano, 
with what the new acquisition oversight processes related to 
space systems provide? Do they provide your services adequate 
input and insight into space programs?
    General Cosumano. Mr. Chairman, we are at this point, we 
certainly are. We have worked very well with our friends in the 
Air Force as the executive agent.
    We, as I said, do not have the resources that the Air Force 
has, in terms of space, and so we leverage their capabilities. 
I think my wife said it best when we were watching TV one night 
and I was trying to explain it to her. She says, ``Oh, I get 
it. The Air Force is the cable company, and the Army buys 
television sets.'' In many cases, that is true. They fly and 
maintain the constellations and have a huge investment in 
space. We leverage those capabilities, we ask for premium cable 
service at the point on the ground where we want it, and we get 
it.
    Senator Allard. Very good. My time has expired.
    Senator Nelson. I am sorry.
    Senator Reed.
    Senator Bill Nelson. Go ahead and let Senator Reed and then 
I will follow up.
    Senator Reed. Thank you, Mr. Chairman. Thank you, Senator 
Nelson.
    General Lord, Secretary Teets suggested that there is a 
growing momentum to weaponize space. Do you think it is 
inevitable that it will happen and happen within a short period 
of time?
    General Lord. Thank you, Senator Reed, an excellent 
question. I think we all realize that there is a difference 
between weaponization and militarization in space. Space has 
certainly been militarized as an economic as well as a military 
center of gravity for our country, and we are critically 
dependent upon that.
    I agree with what Secretary Teets said. I think that we 
need to maintain a balanced approach to that. I think offensive 
kinds of capabilities in space are important to enforce our 
ability to use ours and act as a deterrent against others to 
interfere with our capabilities. I think we will have to think 
carefully about how we proceed in that area. But I think a 
balance should be maintained among the space-control area, 
space situational awareness, which is critical, defensive 
counterspace measures to protect ourselves against the 
vulnerabilities, and then offensive counterspace capabilities 
when we need it to not only dissuade others from trying to do 
something, but be able to protect our assets.
    Senator Reed. You have identified one line of demarcation, 
which is those defensive measures that you put up to protect 
satellites, even self-contained defensive measures, which I 
think probably roughly falls into what most people assume is 
this militarization of space, if not weaponization. When, 
however, you cross the line to offensive weapons, I think it 
raises concerns. Do you think that we will inevitably have to 
put offensive weapons into space?
    General Lord. I think that that day may come. I think it is 
not a matter of if; it is when somebody is going to try to 
perturb our asymmetric advantage in space, if you will, or try 
to interfere with that, and then I think we have to be able to 
enforce that and use the capabilities.
    Now, in all our war games and all the things we look at as 
we do simulations, et cetera, the high value of those assets 
certainly is recognized as a premium, and we will take prudent 
steps as we go there.
    Senator Reed. General Cosumano, do you have any thoughts on 
this, since the Army has a significant role?
    General Cosumano. Thank you, Senator, for the question. 
Yes, sir, we do. We lump this under the mission area called 
space control. Many times you can control your access to space 
and deny the adversary's access to space with airborne systems 
or ground systems. Oftentimes we can accomplish that mission of 
space control and really do not need to get into that business 
in outer space itself. The Army, thus, is pursuing, with the 
Air Force as the lead, a series of programs to do just that.
    Senator Reed. Thank you. Admiral Mayo, any thoughts you 
might have?
    Admiral Mayo. Definitely, sir. Space for the Navy, being 
forward deployed almost all the time, provides us our 
connection. Space provides us our content of absolutely 
critical key combat information for the battle space. Space, 
therefore, is absolutely critical. It is going to become even 
more critical in the future as we try to become a capabilities-
based Navy, capable of dealing with any kind of an emergent 
threat for the President. That kind of reliance and critical 
dependence upon space makes space control that much more 
important to us. As I said, we have contributed to this 
capability for STRATCOM, and I would be happy to go into this 
any further in a closed or classified session. It is absolutely 
critical.
    Senator Reed. Thank you very much.
    One final follow-up question. It strikes me that the 
technology to get into space is getting such that many people 
who could not compete years ago can compete now. In a 
simpleminded way, if you can access the computer and you can 
get into a network, you might even be able to influence our 
satellites in space, et cetera. As we go forward--and I think 
this has to be borne in mind when we start thinking about what 
we can do in space--the threshold for other people to do things 
in space has been lowered dramatically, which should have some 
influence on your decisions about weaponization, 
militarization, and what you put up there. Is that a point that 
you are considering, General Lord?
    General Lord. Absolutely. We want to maintain the 
asymmetric advantage that we have and continue to protect that 
and deny somebody using that against us. That is a key to our 
continued success in being able to support both economic and 
military operations. We want to maintain that advantage. But 
living and deterring in an asymmetric environment requires a 
different set of rules, I think, and different theology, if you 
will, about how you think about that. We certainly want to 
maintain our advantage of that and work all aspects of that.
    I do not want to be redundant, but I think that the three 
pillars of space control are important to space situation 
awareness: understanding what is in the environment, the 
defensive measures to protect yourself against that, and then, 
lastly, offensive counterspace to protect your assets and deny 
somebody using those against you. Yes, sir.
    Senator Reed. Thank you very much. General Cosumano, 
Admiral Mayo, thank you.
    General Cosumano. Mr. Chairman, may I comment on that point 
Senator Reed made?
    I think it is important to realize the emergence of gray 
space, the commercialization of space. As a panel, we certainly 
work through our wargames and under the leadership of the Air 
Force.
    Just as scale, just 20 or so years ago, there were about 
250 satellites in orbit; and of those 250, about a quarter of 
those were commercial types of satellites, primarily 
communications satellites. Now there is over a thousand 
satellites, and about half of those are commercial satellites 
that not only have communications capabilities, but imaging 
capabilities. The ability, therefore, to do a left-hook, so to 
speak, in Operation Desert Storm today is very problematic. I 
just want to emphasize that there is another dimension in space 
control that we have to worry about.
    Senator Reed. Thank you, General. It is an important point. 
Thank you very much.
    Thank you, gentlemen. Thank you, Mr. Chairman.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Admiral, does the transferring of the Navy space 
surveillance fence to the Air Force signify a policy change for 
the Navy?
    Admiral Mayo. Sir, after the Rumsfeld Report, we huddled a 
lot in the Navy about what is the Navy's future role in space. 
Our decision, with leadership, was to concentrate on the 
operationalization of space, to do those things that we thought 
were core, and to continue to do those things which were core.
    We felt that space surveillance and our previous operation 
of a fence could best be rationalized with the Air Force as 
executive agent and the number of sensors that they have. We 
also felt that a study should be done of the queued and 
unqueued sensors to see how it could all come together most 
efficiently. We did that work. We made that dialogue. Then the 
program decision memorandum came out last year. We feel that 
this is in the best interests of DOD. We are committed to 
making it work.
    I would say that we have 59 highly experienced civilians 
who run the fence today. Pending the outcome of Secretary 
Teets' decision based on the Air Force input, those people can 
be used as best as possible. They are very well qualified.
    Senator Bill Nelson. General Lord, perhaps in another 
setting, I wish that you would share with us your ideas, your 
plans, for the protection of the ground systems on the GPS.
    General Lord. Yes, sir. I would be delighted to do that. I 
have just taken a look at that, and I will be happy to share 
those with you in a separate meeting.
    [The information referred to follows:]

         High Frequency Active Auroral Research Program (HAARP)

    Senator Bill Nelson and his staff will be briefed in the near 
future on the protection of the Global Positioning System ground 
stations.
    The briefing contains details regarding the current level of 
protection afforded the ground-based portion of the Global Positioning 
System as determined through an end-to-end review of space security 
systems. It further addresses the impact to the warfighter and the U.S. 
in general if the Global Positioning System is lost. It details the 
current security and provides a way ahead to enhance ground station 
security and overall Global Positioning System sustainment.

    Senator Bill Nelson. General Cosumano, with regard to the 
Air Force's decision to eliminate funding for the GPS 3 in the 
2004 budget, were you consulted?
    General Cosumano. Thank you for the question, Senator. Yes, 
sir, we were consulted, and we agree with the acquisition 
strategy that has been laid down. Based upon the technical 
issues in the program, we think that the current strategy that 
has been laid before the committee and before the Department 
minimizes the risk.
    Senator Bill Nelson. I would like all three of you to 
address a concern that all of us should have about the ability 
to train and retain space professionals. What are each of your 
services doing, and what are your obstacles?
    General Lord. I will go ahead and start. Thank you, 
Senator. Excellent question.
    I look at this as a space career manager for all of the Air 
Force across both our officers as well as our enlisted and our 
civilian professionals. We have worked hard on all aspects. I 
would say, within a couple of percentage points on our officers 
and enlisted, we are in pretty good shape across the averages 
with respect to space professionals in our enlisted corps as 
well as our officers. The only place we really have significant 
problem is in our mid-level engineering expertise in our 
program offices. I have lots of lieutenants, but not captains, 
majors, and lieutenant colonels, who are the heart of it. We 
are working hard to build new engineers and attract and retain 
those that are leaving us or have chosen to do that. I think we 
may have turned the corner on that, as well.
    I will tell you that your interest and the committee's 
interest and certainly any interest in the business speaks 
volumes to them about how important it is to be committed to 
the business.
    General Cosumano. Senator, in the Army, we began this space 
operations career field just 2 years ago, so it is really early 
on to see the impact. We have had some promotion boards, and we 
are consistent with the Army average in promoting those space 
operational officers.
    Where we do need work, though, is in our enlisted career 
field as we try to pull together intelligence specialists, the 
communicators, and other military occupational specialists into 
a skill identifier that identifies each of them as a space-
smart enlisted person. We have not done that yet. That is on 
our books to do this year, and we are working that very 
closely.
    Senator Bill Nelson. Remember that it was the Army that got 
us into space in the first place with the Redstone missile, 
after the Vanguard would never get off the pad.
    General Cosumano. Yes, sir, I had that in my script, but I, 
in deference to my friends up here, took it out.
    General Lord. It is burned into our memory, sir. 
[Laughter.]
    General Cosumano. Thank you for that comment, Senator.
    Admiral Mayo. Senator, if I may add--and thank you to the 
Army--but with respect to the cadre, as I have said about the 
Navy's efforts to formalize, as you have indicated, we have 
appointed a flag lead on the Navy staff to address this need to 
retain and keep these kinds of folks. We have identified the 
billets, the people. We have put precept language in being for 
selection on boards so that these kinds of folks can be 
selected.
    The Navy emphasis on the operationalization of space is 
clearly reflected in our Sea Power 21 vision, where we 
absolutely need all of the capabilities that we can get from 
space.
    I see, in the years ahead, the integrated theater missile 
defense, the importance of networks, the importance of 
information operations, and the big mission area of global 
strike. I think U.S. Strategic Command will become more and 
more of a magnet for our best and brightest of all services, 
and I think that that is really going to help us keep the kinds 
of folks that you referred to.
    General Lord. Sir, if I might, I would like to add just a 
little bit more to that. One of the things that we have done, 
and I know this is something the Army and the Navy have thought 
about, as well, is that we have a healthy component of Guard 
and Reserve folks involved in the space business that really 
complements the total force and is a way to capture and retain 
that talent. Down in Florida, on the console in the range 
flight there in the 45th wing, we have Guard folks who have 
worked hard. We have the 310 Space Group and the Reserve that 
is involved in all of our missions in space. We have a good 
balance of not only active, but total force capability, as 
well, across the states and the mission areas. We have not only 
on the active side, but also in the Guard and Reserve, the 
capability to keep and retain those talents that are critical 
to our capability.
    Senator Allard. I think that is a great approach, to also 
include the Guard and Reserve on those. I think those are 
important parts of the program.
    General Cosumano. Mr. Chairman, may I comment on that, just 
for a moment? We activated, this past year, the 193rd Space 
Support Battalion as a part of Army Space Command Colorado 
National Guard. In fact, the space support team that went to 
Afghanistan to support Task Force 180 on the ground was a 
National Guard space support team.
    Senator Bill Nelson. By the way, speaking of that, I may as 
well get on my soapbox. A policy question, Mr. Chairman, that 
we are going to have to answer is, how much can the Guard and 
the Reserve do what the active-duty military is supposed to do, 
particularly if we are ending up in long-term stabilization of 
countries as we obviously are going to be in Afghanistan, as we 
will likely be in Iraq, just as we have been now for 7 years in 
Bosnia. As you all are making your plans on your high-tech 
folks, it is not fair to say that we are going to expect the 
Guard to do this, because the Guard is the Guard, and it is 
expecting that it is called up in times of emergency for short 
durations, not for the long-term duration that we are going to 
be looking at in the future. I just add that little comment for 
policy consideration.
    Senator Allard. I agree. Our Guard and Reserve people are 
being utilized more than I think most of us ever visualized, 
and it is creating some hardship on families, employers, and 
educational efforts with all that is going on there. But I know 
one thing that is happening in Colorado is, we have, as I 
understand it, an Air Space Reserve. The Reserve is dedicated 
just to space. I visualize that more at home, but obviously 
there might be times when they might have to be deployed.
    A couple of questions, again, on space management and 
organization. I am just going to give you all an open-ended 
question. Are there any improvements to the acquisition or 
oversight of space systems that would more fully assure that 
your service's space equities are adequately addressed?
    General Lord?
    General Lord. In my particular case and certainly the Air 
Force and certainly relating to the Under Secretary and our 
maturing process with the Space and Missile Systems Center as 
part of Air Force Space Command, the Program Executive Office 
authority, from the Secretary of the Air Force, is delegated to 
Secretary Teets and out to Los Angeles. I think we have a 
structure that is maturing, and it is getting better as we work 
those. Then as we put it in the virtual program with Secretary 
Teets and the other Army/Navy program together, we are getting 
a good review, along with the space architects' look at the 
overall architecture. I think things are being done quite well 
right now, but that does not mean we cannot improve, and maybe 
we ought to watch it for a while and see if we are delighted or 
pleased with the outcome.
    Senator Allard. General Cosumano.
    General Cosumano. Thank you, Mr. Chairman, for the 
question. I would like to think that the Air Force copied Army 
Space Command. As I mentioned earlier, we have been organized 
for some period of time. We have all our materiel development, 
combat development, and operators all in the same unit bringing 
products quickly to the warfighter.
    Specifically, we see the framework that Secretary Teets has 
set up with the national security integration, national 
security space architect, and that whole review process, as a 
welcome improvement over the old process. It does give us a 
voice in the acquisition world. We are part of that process. We 
are part of the Major Force Program (MFP) 12, the virtual space 
program, and we participate, in terms of priority, for those 
assets.
    On the requirements side and capabilities side, the Joint 
Requirements Oversight Council that all our vice chiefs sit on 
has been more than adequate to review the status and resourcing 
of those programs.
    At this point in time, I think we are fine, sir, and we 
think we have made some good improvements over the last year.
    Senator Allard. Admiral?
    Admiral Mayo. Mr. Chairman, the processes are still 
continuing to evolve, but I think they are headed in the right 
direction. The virtual major force program gives everybody in 
DOD great situational awareness now on the resources that are 
being spent in space across the services and the agencies.
    Our major system acquisition on behalf of the DOD and 
executive agent, the Mobile Use Objective System, is doing 
well. We benefitted from the interaction with Secretary Teets 
and the staff, and it is on schedule.
    Secretary Teets has been very inclusive, has reached out, 
embraced, really brought us in to the integration and the 
architecture office. He has really gone out of his way to try 
to make this work, and we are very supportive of that.
    I would say if there is one challenge that I would like to 
tell you about, though, it is that this requires a lot of work 
to make this work. We are trying to make the Rumsfeld 
Commission come together. There are a lot of meetings. There 
are a lot of places to go. Earlier today, we heard about 
program office, west coast/east coast. We only have a finite 
number of people. We send them to the best meetings that we 
think they should attend. We work closely with the Marine 
Corps, in fact, the Navy/Marine Corps team, trying to attend 
all the meetings.
    I think a challenge to be recognized, at least for the Navy 
or Marine Corps team, is that we have a finite number of 
people. There are a lot of meetings to go to, so we are working 
that issue.
    General Lord. Sir, if I might add, too?
    Senator Allard. Yes, General?
    General Lord. I think that our work with the requirements 
process to be almost unrelenting, if you will, to make sure 
that only urgent and compelling needs are reintroduced into the 
program. The biggest threat to our program acquisitions has 
been an unstable baseline in our major programs. To stabilize 
the baseline, have a process where we would review 
requirements, and then if we need to change, do it with the 
full understanding of what the price and what the cost and what 
the impact is to the program, certainly supports the needs of 
the acquisitors as well as those who are going to get the 
operational capability. That is something that, as General 
Cosumano said, has worked for them, and we are pushing hard on 
that.
    I think that has been one of the successes in the SBIRS-
High program, and I would say, although Dick did not say this, 
that is certainly the way that MUOS has worked, as well.
    Senator Allard. General Lord, I want to go back to our 
educating and training our space professionals. I understand 
that space comprises only one-half of 1 lesson out of 37 
lessons in the full professional military education curriculum 
and only 1 lesson in squadron officers school. Do you think 
that is the right level of emphasis for space?
    General Lord. No, sir. We are working to improve that. As I 
said, part of our initial look is to give everybody 20 courses, 
20 basic lesson plans, in astro engineering. We are going to 
make people's heads hurt, but they need to understand that. We 
are going to harmonize that with Secretary Roche and General 
Jumper's push on force development so that our professional 
military education fully uses and employs the space part of the 
curriculum so people understand the importance of what we are 
doing. I started that as a commander of Air University. I was 
responsible for that curricula you talked about. We started to 
improve that, and they will continue to follow through on it.
    Senator Allard. Admiral Mayo, you made reference to the 
importance of space control to the Navy. Would you elaborate on 
the Navy's interest in space control, and what capabilities 
does the Navy bring to bear in this area?
    Admiral Mayo. Sir, in open session, Mr. Chairman, all I can 
say is that we view this as critical because we are absolutely 
dependent upon the product we get from space to define our 
battle space and to be able to bring precision and speed to our 
combat capability. The Navy, the naval forces, because of the 
geometry that we can use on the open ocean, brings unique 
attributes and capabilities to the idea of space control. 
Otherwise, sir, I would have to ask if we could go into closed 
session.
    Senator Allard. We are going to have a closed session later 
on--not today, but in another hearing--just dedicated to those 
kind of issues. I would ask the staff to keep that question in 
mind, and we will bring that up to whomever we have there from 
the Navy at the time.
    Admiral Mayo. Yes, sir.
    Senator Allard. Thank you.
    Also, Admiral Mayo, there was discussion in the first panel 
related to the transfer of the fence to the Air Force. Does the 
transfer of this space surveillance system represent any 
retreat from involvement in space activities by the Navy? To 
further elaborate on that, why did not the Navy transfer any 
outyear funds to the Air Force for operation of upgrade of this 
asset, which both Secretary Teets and Admiral Ellis described 
as very important to the space surveillance mission?
    Admiral Mayo. Sir, we have done the naval space 
surveillance system, so-called ``the fence,'' for years. But as 
we look to the future and how to implement the Rumsfeld 
Commission Report, we felt we would best be served in the Navy 
and within DOD if we concentrated on what we consider to be 
core competency. Because of the large efforts that the Air 
Force does also in space surveillance, we thought it best to 
see if our efforts could be integrated and rationalized with 
their efforts. That is the course that we are embarked upon, 
and that has been directed by PDM1 from last year.
    The funds for outyear, as I understand it--and I would be 
glad to supply more information for the record--were gathered 
up by the Department of Defense. I think what is going on is 
that the Department of Defense is awaiting the ultimate 
recommendation from Secretary Teets as to what the future of 
this naval space surveillance fence should be.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. Thank you.
    I want to thank you, gentlemen, for showing up before the 
subcommittee, and thank the subcommittee members for being here 
today and for their questions. You are all doing a good job. 
Stay in touch, good to have you here before us, and good luck.
    Admiral Mayo. Thank you, Senator, and thanks to the 
subcommittee. Thank you.
    Senator Allard. I adjourn the subcommittee.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                  IMPACT OF MOSCOW TREATY RATIFICATION

    1. Senator Sessions. Admiral Ellis, now that the Senate has 
ratified the Moscow Treaty, please share your assessment of the 
implications that this new strategic relationship between the United 
States and Russia will have for the structure of the strategic forces 
of the United States?
    Admiral Ellis. This treaty reflects our new relationship with 
Russia that moves beyond the adversarial framework of the Cold War to 
one of mutual confidence and cooperation. More important than the 
actual reductions, however, is the affirmation by our two Presidents 
that our nations have entered into a new relationship based upon trust, 
with the goal of developing a genuine partnership, strengthened through 
cooperation and friendship.
    Under this treaty, both sides can make reductions in their own way, 
according to what serves their own best interests. Each side will 
reduce forces according to its own plan and will determine for itself 
the composition of its strategic forces, subject to agreed overall 
limits. Both countries will retain the flexibility required to ensure 
their future security.

                       MISSILE DEFENSE DEPLOYMENT

    2. Senator Sessions. Admiral Ellis, from your vantage point as the 
Commander responsible for system employment, are there potential 
advantages to be gained by deploying the Ground-Based Midcourse Defense 
(GMD) and the Sea-Based Midcourse Defense System (SMD) segments of our 
missile defense system prior to completion of all required operational 
tests?
    Admiral Ellis. The ballistic missile threat is expanding, and 
fielding viable defensive capabilities as they become available is the 
prudent choice to more effectively increase the security of our Nation, 
our forces, our allies, and our friends. Ballistic missile defense is 
inherently a multi-command and multi-regional task, and, as the Missile 
Defense Agency acquires systems, U.S. Strategic Command will bring a 
warfighter's focus to most effectively and efficiently integrate and 
operationalize the system on a global scale.
    The systems will be tested in an operationally representative mode. 
By testing in this manner, initial defensive capability can be provided 
to the Regional Combatant Commanders without having to wait for all 
operational testing or even initial operational capability. This is a 
very positive plan, initial defensive capability is available to the 
Nation and the technical experts designing and acquiring the systems 
can see how the operators use them, thereby having the opportunity to 
refine systems in the early stages of development.

         FUNCTIONING OF THE REORGANIZED U.S. STRATEGIC COMMAND

    3. Senator Sessions. Admiral Ellis, as combination of the functions 
previously resident in the former U.S. Space Command and the U.S. 
Strategic Command mature within the reorganized U.S. Strategic Command, 
are you aware of any additional legislative assistance necessary to 
ensure the continued smooth functioning of your command given your new 
responsibilities?
    Admiral Ellis. As you are well aware, Unified Command Plan Change 1 
brought the functions of the former U.S. Space Command and  Strategic 
Command together on October 1, 2002. Change 2 signed by the President 
on January 10, 2003, assigned the command new responsibilities in 
missile defense integration, global strike, DOD information operations, 
and C\4\ISR. As we develop organizational structures, processes, and 
concepts of operations for these newly assigned missions, we will 
review the need for any legislative assistance. Although we currently 
have no legislative issues, I look forward to working with Congress if 
requirements are identified.

                       ARMY SPACE TRANSFORMATION

    4. Senator Sessions. General Cosumano, this budget is the 
Department of Defense's most concerted attempt at transformation. Would 
you outline the vision for Army Space transformation, and why it is 
important?
    General Cosumano. Senator, the vision for Army Space transformation 
directly supports the advanced full-spectrum decisive operations 
described in the Army's Objective Force concept.
    Army space operations will focus on five essential tasks to ensure 
that the Objective Force will successfully achieve decisive victory. 
These five essential space operations tasks are to support increased 
deployability and reduced theater footprint; achieve situational 
understanding ``Off the Ramp'' during entry operations; support 
precision maneuver, fires, sustainment, and information; enable 
continuous information and decision superiority and protect the force 
during all phases of the operation.
    The Army has already transformed a large portion of the Command, 
Control, Communications, Computers, Intelligence, Surveillance and 
Reconnaissance (C\4\ISR) aspects of these tasks for Army and Joint 
Services. This occurred through fielding of the Tactical Exploitation 
System (TES) and its Joint variants (the Navy TES-N as part of the 
Joint Fires Network, the Marine Corps Tactical Exploitation Group, and 
the Air Force ISR Manager), all of which is playing a critical role in 
Operation Enduring Freedom and will again if we go into conflict.
    Transformation of the Army's space operations is critical to 
maintaining a technological edge of superiority over our adversaries. 
Space support will be reliable and timely, and operational friction 
with the warfighter will be minimized. The central thrust of Army space 
operations is to reduce technical and procedural seams in the system of 
systems. Army space operations will be consistent with the Army's 
responsibility to conduct prompt and sustained land combat and win the 
Nation's wars.

 U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND SUPPORT FOR U.S. CENTRAL 
                                COMMAND

    5. Senator Sessions. General Cosumano, much has been made in both 
the press and in committee hearings about the importance of space-based 
capabilities in the Afghanistan campaign. The current build-up in the 
Central Command area of responsibility also places a heavy demand on 
our spaced-based assets. Can you comment on the Army's role in space in 
the current operations, and on your assessment of the adequacy of our 
capabilities?
    General Cosumano. Yes, sir. The U.S. Army Space and Missile Defense 
Command (USASMDC) continues to provide space support across a multitude 
of U.S. Central Command (CENTCOM) elements. Satellite communications is 
the most obvious single space-based capability used by deployed forces 
of all services. As your question implies, there is an ongoing concern 
that the capability of these systems is not adequate to support the 
kind of information intensive operations that we are currently 
conducting in the Middle East, and in which we envision the Objective 
Force will be involved. The Air Force is working on providing new 
satellites to address future bandwidth requirements. Recent launches of 
new MILSTAR and DSCS satellites are a great example of continuing 
improvements to our space architecture. In the meantime, the Army 
performs the critical function of allocating these limited resources to 
the highest priority users.
    The Army has FA40 Space operations officers working closely with 
Joint Task Force (JTF)-180, the Combined Forces Land Component 
Commander (CFLCC), V Corps and with various Special Forces staffs. In 
addition, our Army Space Support Teams are deployed in theater to 
provide space force enhancement products to both Army and Marine Corps 
ground forces. The Space and Missile Defense Battle Lab in Huntsville 
developed and fielded the Space Support Element Toolset--Light, in 
short order. The toolset is an independent, high capacity, secure 
communications capability for our deployed space forces. It provides a 
significant increase in our ability to push high resolution, commercial 
imagery forward to deployed commanders. As an example, the U.S. Army 
Space Command's Spectral Operations Resource Center (SORC) recently 
delivered unclassified commercial imagery for CENTCOM press briefings. 
With regard to missile defense, the Nation's in-theater Joint Tactical 
Ground Station (JTAGS), manned by both Army and Navy personnel, is 
providing continuous 24/7 tactical ballistic missile (TBMs) early 
warning to our forces. This system, deployed shortly after September 
11, is now a permanent part of the theater missile early warning 
architecture which is vital in providing our warfighters protection 
from enemy TBMs.
    One of the Army's biggest uses of space is to derive intelligence. 
The Army's Tactical Exploitation of National Capabilities (TENCAP) such 
as the Tactical Exploitation System (TES) and its joint variants play a 
crucial role in tasking, downloading, processing, and disseminating 
that information in the theater. As far as adequacy is concerned, the 
Army and the rest of DOD are working on a number of programs to improve 
the detail and responsiveness of national systems for today and 
tomorrow. I think we are on the right path to ensure that the Objective 
Force has a greatly improved capability to request and receive the 
right information quickly, and in a usable form.
    The Army's Space-Based Blue Force Tracking Mission Management 
Center provides near real time location and status of elements equipped 
with tracking devices into the theater common operating picture (COP). 
This capability became operational following the events of September 
11, 2001, and has supported the CENTCOM area of responsibility.
    Finally sir, the USASMDC Technical Center has been able to 
accelerate a number of test and evaluation assets, which we deployed 
and made operational well ahead of schedule in order to support the war 
effort.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

        INCREASED DEMAND FOR BANDWIDTH AND BANDWIDTH MANAGEMENT

    6. Senator Bill Nelson. Secretary Teets, the Department of Defense 
is rightly concerned with increasing the available communications 
capacity, or bandwidth, available to the warfighter. New, more capable 
communications satellites will be critical to this effort. Equally 
critical, perhaps, will be the less visible efforts to make better use 
of the available bandwidth, using innovative software programs, for 
example. What sort of bandwidth management and control programs do you 
have in place to ensure that the space systems you are developing make 
maximum use of communications bandwidth now available?
    Secretary Teets. Making more efficient use of existing bandwidth is 
an ongoing effort in several areas:
    a. In the satellite area, we have upgraded our last four Defense 
Satellite Communications System (DSCS) satellites as part of the 
Service Life Enhancement Program to include higher power transmitters 
and better receivers that result in higher throughputs within the same 
frequency band. Similar efforts are being taken in the designs of both 
the Wideband Gapfiller and Advanced Extremely High Frequency (EHF) 
satellites. We also use multi-beam antennas and are moving to phased 
arrays in order to implement ``frequency reuse'' techniques--i.e., use 
the same frequency in multiple areas within the satellite field of 
view.
    b. In the terminal area, we have upgraded many of our existing 
Super High Frequency (SHF) terminals to use more efficient modulation 
schemes. In addition, both the Ground Multi-Band Terminal (GMT) and the 
Family of Advanced Beyond Line of Sight Terminal (FAB-T) programs are 
being designed with bandwidth efficient modulation as a key 
requirement. Use of more efficient modulation schemes allows us to 
transmit more bits of data in each hertz of frequency spectrum. In the 
UHF area, we are continuing to implement Demand Assigned Multiple 
Access (DAMA) terminals at our ground locations and on our airborne 
platforms. We have increased capacity 35 percent in 2002 by 
aggressively implementing DAMA capability. We are using an 
unprecedented amount of DAMA to execute Operations Enduring Freedom and 
Iraqi Freedom. In fiscal year 2005, DAMA will be fully operational and 
is expected to increase capacity another 25 percent. Approaching the 
bandwidth shortage from another angle, USSTRATCOM is leading an effort 
to identify and reduce interference, which robs us of useable capacity. 
Each channel we recover would cost $83,000 per year to replace from a 
commercial source. So far, the effort has resulted in the recovery of 
six channels in CONUS and we are targeting long-term sources of 
interference emanating from foreign countries via the State Department. 
Attempting to resolve interference issues has highlighted a dramatic 
need for DOD owned and operated geo-location capabilities to assist 
operators in quickly rectifying interference that occurs regularly 
throughout the SATCOM spectrum. We continue to pursue any available 
capability that can assist with this effort.
    c. We are implementing the Global Broadcast System (GBS) in order 
to more efficiently transmit broadcast type of information to multiple 
users simultaneously, instead of sending the same information on 
multiple channels. In addition, we will be migrating GBS to an Internet 
Protocol architecture, which will allow for even more dynamic and 
efficient bandwidth use within GBS.
    d. In addition to these technical means of increasing bandwidth 
efficiency, we also use management processes. Access to all military 
satellite resources is controlled by USSTRATCOM. They look at all 
requirements across all services and agencies and allocate satellite 
resources to individual users, depending on the specific requirement 
and its priority. They also monitor satellite usage to ensure that 
individual users are remaining within their allocation. When a specific 
requirement has been satisfied, the satellite resources used to meet 
that requirement are then reallocated to another user. In order to 
accomplish this allocation process, USSTRATCOM makes use of 
communications planning tools. These tools permit USSTRATCOM to satisfy 
the maximum possible number of users within a given satellite 
bandwidth.
    As an example, in the Milstar system, apportionment is the process 
used to allocate bandwidth to the user community. Communications 
planning tools are used to allocate these slots and monitor the user 
community to ensure compliance. For Milstar, the Milstar Communications 
Planning Tool-Integrated is the current comm-planning tool being used. 
This year, we are fielding the Automated Comm Management System (ACMS), 
which provides additional automated capability to allocate and monitor 
bandwidth efficiency. Similarly, our SHF control systems are in the 
process of being updated with the latest technology with the 
introduction of Wideband Gapfiller Satellites. Existing control systems 
will be replaced by the Common Network Planning System and the 
Integrated Monitoring and Control System. These upgrades will provide 
increased flexibility in planning the satellite communications 
requirements and bring on line new technologies to monitor and control 
the satellite networks.

                    SPACE SYSTEMS SOFTWARE PROBLEMS

    7. Senator Bill Nelson. Secretary Teets, space programs rely 
heavily on computer software. Both NASA and the Department of Defense 
have had problems in recent years with software. NASA has lost a Mars 
probe because of a software problem, and the Department of Defense 
almost canceled the SBIRS-High program in part because of software 
problems and delays. Last year's National Defense Authorization Act 
required all of the military services to establish programs, by April 
1, to improve software acquisition and establish metrics to monitor 
software performance. What metrics do you use to monitor the progress 
of software development for space programs and how do you know when a 
program's software development is not going well?
    Secretary Teets. On 21 March, OSD issued a memo providing 
Department-wide guidance on Section 804, requiring each service to 
define and develop a software acquisition process improvement program 
and to report the status within 90 days (13 June). SAF/US is a senior 
member of the Air Force Software Steering Group (AFSSG), the Air Force 
lead in addressing the OSD memo and Section 804. The AFSSG Working 
Group has been working this issue since February, briefing and 
receiving feedback from the AFSSG Principals at the March AFSSG 
meeting. Currently the Working Group is developing the framework and 
identifying the already existing resources for a centralized AF 
program.
    In addition to the coordinated AFSSG efforts, the Space and Missile 
Systems Center (SMC) is in the midst of reinvigorating the Air Force's 
approach to space program software acquisition in concert with the 
Aeronautical System Center's Air Force-wide software acquisition reform 
initiative. SMC is working with Carnegie Mellon University's Software 
Engineering Institute to modify the widely-used Capability Maturity 
Model Integration industry standard for evaluation of the maturity of 
software systems engineering development efforts at each of its program 
offices and contractors. Associated metrics are being designed to 
identify incompatible or optimistic performance, cost, and schedule 
baselines; software engineering staff issues such as instability, 
shortages, or lack of training and experience; and inadequate software 
risk identification and management. Use of more applicable metrics that 
better address cost, schedule, and quality in conjunction with rigorous 
standards, peer reviews, independent evaluations, and thresholds whose 
breach will trigger corrective action will enable early warning of 
potential problems for mitigation while minimizing the risk of 
duplicating past software engineering problems.

    8. Senator Bill Nelson. Secretary Teets, what in your view is the 
primary reason for the many software problems; is it not enough people, 
poor management, unclear requirements, too much reuse of software, or 
something else?
    Secretary Teets. There is no single primary cause of space program 
software problems. In our experience, multiple contributing factors 
collectively plague software development:

        <bullet> Lack of experienced software engineering personnel. 
        Shortages of qualified people across the spectrum of software 
        development, from design to testing, result in consistent 
        understaffing of these efforts. Contractors often attempt to 
        compensate by requiring overtime, but fatigue burns out skilled 
        personnel and causes more mistakes that require additional 
        downstream rework, with attendant cost and schedule impacts.
        <bullet> Lack of proper contractor emphasis on software 
        development. Contractor management often streamlines software 
        development efforts when under cost and schedule pressure, 
        decreasing the scope and/or frequency of peer reviews, 
        combining or eliminating levels of software testing, postponing 
        integration until the latter stages of software development, or 
        scheduling more software tasks in parallel. The end result: 
        discovery of substantial software defects late in development 
        efforts, when they are much more expensive and time consuming 
        to fix.
        <bullet> Government inattention to contractor software efforts. 
        By strongly emphasizing cost and schedule targets while poorly 
        enforcing disciplined contractor software development 
        processes, the Government fails to display concern about 
        software engineering or hold companies accountable for poor 
        software development practices.
        <bullet> Overly optimistic bids. The Government has gotten away 
        from emphasizing low bids over best value; however, the 
        tendency remains for contractors to bid low on ambitious 
        projects. The result is often an underestimate of the required 
        lines of code, overestimate of the amount of usable commercial 
        and reuse software, and overestimate of attainable software 
        development  productivity in order to achieve these impossibly 
        low bids.
        <bullet> The increasing complexity of space systems. As systems 
        become more complicated, ever more complex software packages 
        are required to link and control their various elements. Growth 
        of system software development technical, cost, and schedule 
        risks is commensurate with software's increasing centrality to 
        space systems.

    The Air Force is working to improve its software engineering 
metrics, increase use of independent cost estimates, hire additional 
software engineering technical support, and include software in source 
selection criteria. These and other measures will help prevent the 
recurrence of recent software engineering problems in future 
acquisition efforts.

             DOD/NASA COORDINATION AND SHUTTLE REPLACEMENT

    9. Senator Bill Nelson. Secretary Teets, late last year, both NASA 
and Air Force officials announced that they planned to increase their 
cooperation in aerospace technology development to achieve efficiencies 
and share expertise. You were quoted as saying that this cooperation 
was likely to occur in the Space-based Radar program as well as the 
follow-on program to the EELV launch vehicle. A memorandum of agreement 
signed October 8 stated that ``additional cooperative efforts are 
possible and desirable, including across utilization of facilit[ies] . 
. . sharing of support services, and leveraging of science and 
technology investments.''
    Increased cooperation was to manifest itself in the 2004 budget 
request. In the wake of the Space Shuttle Columbia tragedy, the need 
for cooperation is even more urgent. Specifically, what is the DOD 
doing to explore manned space alternatives, help NASA explore future 
alternatives to the space shuttle, institute joint research and 
development programs, and otherwise examine the future military 
requirements for manned space flight?
    Secretary Teets. The Air Force and NASA are cooperating in many 
areas from space technology to launch infrastructure. This cooperation 
is being managed at the very highest levels through the Air Force, 
NASA, Director of Defense Research and Engineering, United States 
Strategic Command, and National Reconnaissance Office Partnership 
Council. This Council is chaired by Mr. O'Keefe; General Lord, the 
Space Command Commander; Admiral Ellis, the Strategic Command 
Commander; Dr. Sega, Director of Defense Research and Engineering; and 
me, and meets semi-annually to ensure cross talk at all levels of our 
organizations.
    Several successful examples of our mutual sharing occur in the area 
of space technology. We have been sharing technology with NASA from our 
X-43 liquid hydrogen scramjet demonstration program, and our 
Experimental Spacecraft System (XSS)-11 for use in NASA's Mars Sample 
Return Mission. Also, NASA has been providing technology for DOD 
satellite efforts, including the National Polar-Orbiting Operational 
Environmental Satellite System's risk reduction effort, and SBR's 
Analysis of Alternatives (AoA). We are also transforming our 
communication architecture by integrating communications among DOD, the 
intelligence community, and NASA.
    In the area of launch infrastructure and support, we are providing 
mutual benefit through such efforts as our joint Delta II procurement 
strategy and review teams. We are also exploring strategies for the 
future including new spacelift architecture, both reusable and 
expendable, and Operationally Responsive Spacelift (ORS).
    The ORS effort is to provide rapid, economic access to space, and 
is being explored through an AoA, with full NASA involvement. The AoA 
will define comprehensive solutions to satisfy requirements for 
responsive launch and on-orbit operations. This will lead to the 
demonstration of a small launch vehicle, one of our fiscal year 2004 
new starts. Ultimately, we expect the ORS effort to lead to a reusable 
launch vehicle.
    Concerning specific manned space flight requirements, at this time 
the Air Force has no initiatives addressing them, as those are unique 
NASA requirements.

    10. Senator Bill Nelson. Secretary Teets, how much DOD funding is 
associated with this effort?
    Secretary Teets. The Air Force is requesting $24.4 million in 
fiscal year 2004 to begin the ORS program.

                     GLOBAL POSITIONING SYSTEM III

    11. Senator Bill Nelson. Admiral Ellis, the ability to jam Global 
Positioning Systems (GPS) has grown in recent years. From your 
perspective as a warfighter, can you share your thoughts for the need 
for GPS III and when this might be needed?
    Admiral Ellis. In my role as the combatant commander responsible 
for providing navigation and timing signals to users worldwide, I fully 
support the expeditious improvement of the GPS constellation. While the 
acquisition of GPS jammers by our potential adversaries increases, the 
performance of today's GPS constellation is bound by the original 
design. It is imperative we field a new generation of GPS satellites 
that possess robust resistance to countermeasures, improved signal 
integrity, global availability, and spectrally separate military and 
civilian signals.

    12. Senator Bill Nelson. Admiral Ellis, can you also give a sense 
of the anticipated improved capabilities for GPS II-F and II-R and if 
these capabilities are sufficient to allow a 2-4 year delay in the GPS 
III program?
    Admiral Ellis. Planned GPS modernization includes 12 GPS IIF, 8 
Block IIR, and 5 IIR-M satellites. These upgraded satellites will 
improve the warfighter's ability to control power output, commonly 
referred to as ``flex power,'' partially mitigating the effects of 
jamming. Additionally, the five IIR-M satellites will introduce a 
second civil frequency and a new military signal that provides the user 
with direct access to an encrypted, precise navigation signal, reducing 
vulnerabilities to intentional and unintentional interference.
    Additionally, over the last year the Air Force conducted a review 
of the GPS III program and developed a more efficient acquisition 
strategy to meet warfighter needs. This new strategy reduces 
development and fielding time by more than 2 years, allowing a later 
program start while maintaining the first launch in fiscal year 2012. 
The Air Force will also change from a ``launch on need'' strategy, 
which adds a new satellite as one ages out, to a ``launch on 
capability'' strategy, which launches each GPS III satellite as it is 
developed.

                         WEAPONIZATION OF SPACE

    13. Senator Bill Nelson. Secretary Teets, the Space Commission 
believed unanimously and concluded that the ``U.S. has an urgent 
interest in promoting and protecting the peaceful use of space.'' Is 
current policy consistent with this recommendation?
    Secretary Teets. The recommendations of the Space Commission are 
consistent with current national space policy. According to this 
policy, ``The United States is committed to the exploration and use of 
outer space by all nations for peaceful purposes and for the benefit of 
all humanity.'' ``Peaceful purposes'' allow defense and intelligence-
related activities in pursuit of national security and other goals. The 
Department of Defense is directed by national policy to ``maintain the 
capability to execute the mission areas of space support, force 
enhancement, space control and force application. Consistent with 
treaty obligations, the United States will develop, operate and 
maintain space control capabilities to ensure freedom of action in 
space, and, if directed, deny such freedom of action to adversaries. 
These capabilities may also be enhanced by diplomatic, legal and 
military measures to preclude an adversary's hostile use of space 
systems and services.

    14. Senator Bill Nelson. Secretary Teets, when will the revisions 
to U.S. national security space policy be completed, will it urge 
weaponization of space, and does the administration plan to consult 
with Congress before the new space policy is completed?
    Secretary Teets. In June 2002, the President directed the National 
Security Council (NSC) to initiate a phased approach to updating 
various aspects of the national space policy, and this process is still 
underway. The NSC sets the timetable for this review. The remote 
sensing national policy is nearing completion, and the space 
transportation policy is on hold pending results from the Space Shuttle 
Columbia accident investigation board. I understand additional space 
policy reviews are planned. Current national space policy promotes the 
``use of outer space for peaceful purposes.'' We will work to ensure 
that all future policies support this goal, while preserving our right 
to protect and defend our critically important defense and intelligence 
space systems.

                              EELV FUNDING

    15. Senator Bill Nelson. Secretary Teets, is there any active 
consideration to modifying the EELV program to make it ``man-rated'' 
for use by either NASA or any future manned military space flight?
    Secretary Teets. Currently, the Air Force does not foresee a 
requirement for manned military space flight. Therefore, there are no 
plans on the part of the Air Force to modify the Evolved Expendable 
Launch Vehicle (EELV) program to certify either the Atlas V or Delta IV 
for human flight. Based on their requirements, NASA has been working 
directly with Lockheed Martin and Boeing on the possibility of human-
rating the EELV boosters.

                 SPACE LAUNCH RANGE FUNDING REDUCTIONS

    16. Senator Bill Nelson. Secretary Teets and Admiral Ellis, the 
fiscal year 2003 budget request for space launch range modernization 
was $82 million and anticipated that the fiscal year 2004 budget 
request would be $106 million. The actual fiscal year 2004 budget 
request is only $63 million, a reduction of $43 million. With the 
reduction is a program shift away from modernization to stabilization. 
This is a significant decrease in funding and a significant program 
shift. The goal to modernize the ranges to achieve a 20 percent 
reduction in operations and maintenance costs has been abandoned, as 
well. Why has the funding for launch ranges been decreased so 
significantly and why has the Air Force walked away from the laudable 
goal of a 20 percent reduction in operations and maintenance costs for 
the ranges?
    Secretary Teets. The Air Force has shifted its focus away from the 
increasingly costly and time-consuming modernization program to 
completely standardize and automate the ranges, with the theoretical 
possibility of follow-on operations and maintenance (O&M) cost savings. 
In its place is a less costly and more incremental recapitalization and 
sustainment approach to replace or upgrade existing, obsolete range 
systems, without compromising necessary support for the Nation's launch 
and test mission requirements through the foreseeable future.
    There are two primary reasons for this change: 1) launch rates have 
not increased as dramatically as projected when the range modernization 
efforts began, diminishing the need to reduce range reconfiguration 
times and increase range flexibility through full-scale standardization 
and automation; and 2) the Air Force needed to reallocate investment 
dollars earmarked for range modernization to other higher priority 
space modernization needs.
    At the same time, the Air Force determined the 20 percent O&M 
savings goal established nearly 10 years ago is no longer realistic, 
given the significant changes in program direction and the emergence of 
other O&M cost drivers not directly influenced by range modernization. 
Accordingly, the Air Force decided to abandon this goal and more 
realistically seek to offset fact-of-life range O&M cost increases by 
replacing older, more costly systems and implementing more cost 
effective sustainment efforts.
    Admiral Ellis. Our position at U.S. Strategic Command is that 
uninterrupted, on demand access to space is fundamental to ensuring the 
responsiveness necessary to replenish or augment our critical on-orbit 
capabilities. Inextricably linked to assured access is maintaining 
viable gateways to space. We must work with our partners in Government 
and industry to search for the most effective and fiscally responsible 
strategies to ensure a responsive, bicoastal launch capability for the 
long term. I look forward to being a part of the discussions on the 
long-range vision for our launch complexes.

    17. Senator Bill Nelson. Secretary Teets and Admiral Ellis, could 
you provide an optimized schedule for achieving this goal, the annual 
cost of the modernization, and the savings on an annual basis?
    Secretary Teets. As indicated before, the goal of achieving a 20-
percent cost savings is no longer justifiable. Therefore, the Air Force 
has not developed an optimized schedule to achieve 20 percent O&M cost 
savings, nor has it determined the associated annual costs of 
modernization and savings on an annual basis. Instead the Air Force is 
focused on modernizing, recapitalizing and sustaining the ranges to the 
degree necessary to reliably and responsively support launches for the 
foreseeable future, with O&M cost containment as an important, but not 
overriding factor.
    Admiral Ellis. STRATCOM's role is to identify operational 
requirements, and we will also exercise our oversight responsibilities 
for space launch ranges. I am personally committed to helping determine 
the most effective, streamlined methods of modernizing space launch 
ranges to ensure responsive, bicoastal launch capabilities. Our vision 
is that as we modernize the complexes, we must explore and analyze 
opportunities to find new ways to provide not only replacement, but 
improved capability with less infrastructure where possible.

    18. Senator Bill Nelson. Secretary Teets and Admiral Ellis, do you 
believe the current state of the space lift ranges is adequate to meet 
space launch requirements for the future?
    Secretary Teets. Yes, our shift in emphasis from modernization to 
recapitalization and sustainment will allow us to meet the space launch 
requirements for the foreseeable future. However, if we look out to 
2020 and beyond, the need for a global launch and test range capability 
(exceeding the current Eastern and Western Ranges' capabilities) to 
support operationally responsive spacelift makes a compelling argument 
for renewed investments in range modernization beyond the FYDP. Then 
the likely emphasis will be on space-based launch and test range 
assets.
    Admiral Ellis. In the near term, yes. As we move past the near 
term, we must develop a range capability that supports flexible, 
operationally responsive spacelift to remain the preeminent space-
faring nation. This effort will require renewed, dedicated investments 
in range modernization, and we must strive to find effective and 
fiscally efficient methods of supporting these requirements.
    Also important, we will address potential issues such as the 
vulnerability of our launch pads as we analyze the full range of 
diverse and increasingly complex global threats our Nation faces. We 
will identify possible single point failures within our space launch 
complexes and other data essential to ensuring the long-term security 
and viability of our spacelift program.

                    EUROPEAN GPS INTERFERENCE ISSUES

    19. Senator Bill Nelson. Secretary Teets, the European Union plans 
to launch their own version of the GPS, called Galileo, in 2008. 
Despite U.S. protests, I understand they may decide to use the same 
frequency band that the U.S. GPS uses. This could potentially result in 
interference to the U.S. GPS signal. If Galileo uses the same frequency 
as the U.S. GPS, how much of a problem would that be and what action is 
the U.S. taking to persuade the Europeans not to use the same 
frequency?
    Secretary Teets. The United States firmly opposes the European 
Commission's (EC) proposal to overlay Galileo signals on the GPS 
Military code (M-code). Overlay is in direct conflict with U.S. and 
NATO security interests. Specifically, it complicates our ability to 
deny our enemies access to the GPS signal while preserving U.S. and 
allied use of the system. Any overlay of the GPS M-code is unacceptable 
to the United States and should be to the European Union (EU) Member 
States as well.
    The United States Government (through a Department of State-led 
team) has been engaged in discussions with the EU for the past several 
years regarding cooperation between GPS and the proposed Galileo 
system. Part of that discussion has been focused on alternative 
signals, which we believe provide equivalent performance capabilities 
for Galileo users. Our GPS experts are participating in Technical 
Working Groups with the EC experts to discuss these alternatives. Our 
goal is to help facilitate a successful Galileo program, without 
eroding U.S. and NATO security interests.

                           SPACE-BASED RADAR

    20. Senator Bill Nelson. Secretary Teets, the Air Force has 
requested substantial funding in fiscal year 2004 to develop a space-
based radar system which would be capable of global detection and 
tracking and possibly imaging of various ground targets. Such a system, 
once fielded, also could possibly be used to provide global tracking of 
ballistic missiles. Would the space-based radar system, as currently 
envisioned, be capable of providing ballistic missile tracking data?
    Secretary Teets. The space-based radar (SBR) would be capable of 
tracking mobile ballistic missiles and their launchers as they traverse 
the earth's surface prior to launch. Also, Synthetic Aperture Radar 
(SAR) imaging is a baseline requirement for space-based radar. These 
missiles and launchers can be imaged by the space-based radar.
    Some information on tracking the missiles in flight may be received 
and the complete phase history data will be transmitted to ground 
processing. However, airborne targets tend to have lower radar cross-
sections (radar signatures), operate at higher speeds, and have 
significantly greater agility than surface targets. This requires radar 
to have a faster scan and range gating capability and from space, 
targets need to be detected against a complicated surface clutter 
background. This provides a greater challenge in terms of radar antenna 
size, power required, and demands advancements in processing 
techniques. A cost effective space Airborne Moving Target Indication 
(AMTI) solution is a problem of technology readiness. The likely time 
frame of availability is well beyond the schedule of the first 
increment of SBR.

    21. Senator Bill Nelson. Secretary Teets, as you look at the long 
range future of the space-based radar do you see it becoming the 
primary ground moving target locator or that it will be used in 
conjunction with other platforms such as J-STARS?
    Secretary Teets. Even in the long term, SBR will be used in 
conjunction with other platforms. Persistent surveillance isn't 
envisioned to be accomplished by one system, but a system of systems. 
Radar from either space or air brings day/night, all-weather target 
identification, and tracking capability. SBR adds global access with 
multi-theater support, theater-wide dynamic surface picture, and near-
continuous, non-provocative intelligence preparation of the 
battlefield. There are no overflight restrictions or political 
sensitivities. Space basing offers reduced terrain masking constraints, 
operational risk, and theater footprint. Nevertheless, aircraft 
platforms bring the benefits of higher transmit power and closer 
ranges, which provide capabilities that are not achievable from space. 
Each platform has its own strengths and weaknesses. A mix of platforms 
is the best approach to maximizing ground moving target indications 
coverage.

                     CONVENTIONAL WARHEADS ON ICBMS

    22. Senator Bill Nelson. Secretary Teets, the Air Force is 
beginning a program to look at developing a non-nuclear warhead to be 
launched on an intercontinental ballistic missile (ICBM). Launching an 
ICBM at a target is a potentially provocative move, because ICBMs have 
nuclear warheads on them and if launched from a silo how would anyone 
be certain if the warhead were nuclear or conventional. Such a launch 
could easily be interpreted as a nuclear strike, greatly increasing the 
chance that any potential adversary would overreact. From a policy 
perspective, what is the justification for such a weapons system?
    Secretary Teets. The Air Force has studied use of an ICBM in a 
conventional role in the past. This concept has reemerged within the 
Air Force in a limited fashion. From a policy perspective, it is only 
one of various possible alternatives being examined to meet the Nuclear 
Posture Review (NPR) goal of enhancing our deterrent posture with a mix 
of advanced concepts, to provide the widest possible range of options 
for our Nation's leaders. The Air Force acknowledges there are 
sensitive issues associated with this type of system, in terms of 
international security and stability, and we will address these 
concerns as this capability is reviewed. These internal discussions 
simply allow us to weigh alternatives and in no way represent a 
decision to design, produce or deploy a conventional ballistic missile 
(CBM). In short, there is no developmental CBM effort underway, nor is 
one programmed in the current FYDP.

    23. Senator Bill Nelson. Secretary Teets, what discussions has the 
U.S. had or would be needed with other countries about these non-
nuclear ICBM programs?
    Secretary Teets. To our knowledge, there have been no discussions 
with other countries on this topic. If this capability evolves beyond 
the current conceptual stage, some dialogue may be necessary to address 
treaty implications, international law concerns, and similar issues.

    24. Senator Bill Nelson. Secretary Teets, what are the plans to 
deploy and use such weapons?
    Secretary Teets. As stated above, this is simply an ongoing 
conceptual discussion based on new mission requirements. There are no 
current plans to deploy and use such a weapon.

    25. Senator Bill Nelson. Secretary Teets, would such a program 
signal an abandonment of the land-based leg of the nuclear triad?
    Secretary Teets. A concept such as CBM would not signal abandonment 
of the land-based leg of the nuclear triad. The ``nuclear triad'' has 
evolved from the limited focus of the Cold War paradigm. Nuclear forces 
are now just one part of the ``new triad'' defined in the 2001 NPR. It 
includes: (1) both nuclear and non-nuclear strike forces, to provide a 
more robust deterrent; (2) active and passive defenses, including 
ballistic missile and air defenses; and (3) a responsive defense 
infrastructure for developing, building and sustaining required 
systems. This concept is underpinned by enhanced Command and Control, 
Intelligence, Surveillance, Reconnaissance (C\2\ISR), and planning--all 
designed to ensure comprehensive, accurate and actionable information 
on an adversary's capabilities of military consequence.
    In short, the NPR validated the continued need for nuclear ICBMs, 
stating, ``ICBMs are a critical component of the New Triad. The focus 
of the Department's efforts are to extend the life of the Minuteman III 
weapon system until 2020 while beginning the requirements process for 
the next-generation ICBM.'' The NPR also embraces new concepts, similar 
to the CBM, as a way to enhance our deterrent force/strategic strike 
capabilities with a mix of advanced concepts, to provide the widest 
possible range of options for our Nation's leaders.

         HIGH FREQUENCY ACTIVE AURORAL RESEARCH PROGRAM (HAARP)

    26. Senator Bill Nelson. General Lord and Admiral Mayo, DARPA, the 
Navy, and the Air Force signed a Memorandum of Agreement to jointly 
invest $118.5 million over 4 years to attempt to develop a high power, 
radio frequency, ground- or space-based transmitter that could 
potentially clear charged particles out of radiation belts and 
remediate a portion of the space environment to support space 
operations. Is this an example of a program that had been previously 
funded through congressional adds that is now considered an important 
portion of the defense science and technology budget request?
    General Lord. Yes, congressional adds and funding for HAARP have 
definitely advanced space technology. This important program exploits 
extremely-low-frequency/very-low-frequency wave generated in the 
ionosphere for subsurface communications, detecting and characterizing 
underground structures, and for reducing charged particle populations 
in the radiation belts, which disrupt satellite systems and operations.
    Admiral Mayo. Yes, the previous congressional funding of HAARP has 
provided an important contribution towards the potential capability for 
clearing charged particles and remediating a portion of the space 
environment. Development of this pioneering concept would exploit 
emerging ionosphere/high-power radiowave technology. The Air Force, 
Navy, and DARPA have embraced this technology through a coordinated MOA 
for addressing this remediation along with other potential applications 
such as imaging subsurface structures and enhancing submarine 
communications.

    27. Senator Bill Nelson. General Lord and Admiral Mayo, given 
limited resources, how high a priority is this effort relative to other 
technology development efforts to support your service's space 
missions?
    General Lord. A calm space environment is one important aspect to 
ensuring reliable, accurate space operations. HAARP is an exploratory 
effort to research innovative ways to stabilize the ionosphere. As a 
result, we believe this investment is very important to future space 
operations.
    Admiral Mayo. Space protection is very important to maintaining 
space systems operations and is a critical capability. HAARP is an 
exploratory effort to research innovative ways to protect the 
environment in which these critical space assets operate. We believe 
this investment is important to future space operations.

                     NATIONAL AEROSPACE INITIATIVE

    28. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, the fiscal year 2004 budget request proposes $363 million 
science and technology funding for the National Aerospace Initiative 
(NAI), a multi-service program to develop space-related technologies 
and improve our hypersonic flight and space access capabilities. This 
program is slated to be funded at nearly $2 billion over the next 6 
years. What are the goals of this major initiative?
    General Lord. The Director of Defense Research and Engineering's 
(DDR&E) National Aerospace Initiative is to accelerate service 
development of technologies in the areas of high speed/hypersonic 
flight, space access, and space technology. The stated mission of NAI 
is to ensure America's continued aerospace leadership. The NAI goal is 
to do this by using an integrated, capability-focused, national 
approach that enables high speed/hypersonic flight; affordable, 
responsive, safe, reliable access to and from space; and in-space 
operation by developing, maturing, demonstrating, and transitioning 
transformational aerospace technologies.
    Admiral Mayo. The overall vision of NAI is to ensure America's 
leadership in space. The three defined goals that support this vision 
are:

        - Development and demonstration of technologies that enable 
        air-breathing hypersonic flight;
        - Development and demonstration of technologies that enable 
        responsive, safe, reliable and affordable access to space; and
        - Development and demonstration of technologies that enable 
        transformational and responsive capabilities in space.

    Further, the NAI objectives include science and engineering 
education for all Americans. This is truly a cross-cutting initiative 
that will have implications far beyond space.
    General Cosumano. Senator, there are three goals for the NAI. The 
first goal is to demonstrate sustained hypersonic flight to Mach 12 by 
2012 and beyond--develop and demonstrate technologies to enable 
militarily responsive, low-cost, reusable access to space. In the 
nearer term, this effort offers the potential to reduce the time and 
cost of space access by 50 percent--consistent with goals put forth by 
the ``Commission on the Future of the United States Aerospace 
Industry.'' In the longer term, order-of-magnitude improvements are 
possible through the use of air-breathing propulsion concepts that do 
not require carrying an oxidizer during the boost phase--thus 
significantly reducing system mass. The second goal is to maintain U.S. 
technological superiority in four areas--space control, responsive 
payloads, intelligence, surveillance, and reconnaissance (ISR) and 
flexible communications. Space control means providing space 
situational awareness and the ability to defend space systems. 
Responsive payloads provide quick response deployment and employment of 
space capabilities. Third, there is ISR which provides for persistent, 
global ISR for the warfighter. There is also flexible communications, 
which ensure delivery of the right information to the warfighter 
anywhere at anytime.

    29. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, were those goals developed in coordination with the services?
    General Lord. Technical experts from all the services participated 
in the development of the NAI goals.
    Admiral Mayo. Yes, these goals and objectives were developed within 
the past year by a panel that included representatives from OSD and all 
the services. All services will also be represented on the NAI Board of 
Directors.
    General Cosumano. Yes, sir. In addition to the Army, national 
experts from the Navy, Marine Corps, Air Force, NASA, industry, and 
academia worked together over the past year to generate a comprehensive 
state-of-technology assessment and identify technical opportunities, 
such as flight demonstrations of supersonic and hypersonic cruise 
missiles, high-speed unmanned vehicles, long-range aircraft, and 
reusable, affordable access to space vehicles. Following this, four 
Synergy Group meetings were held from September 2002 through February 
2003 to develop coordinated collaboration and implementation plans for 
the three NAI pillars. These meetings were jointly chaired by the 
Office of the Secretary of Defense (OSD) and NASA Headquarters. Senior-
level representatives from the Army, Navy, Marine Corps, Air Force, 
Defense Advanced Research Projects Agency (DARPA), NASA Glenn Research 
Center, NASA Langley Research Center, NASA Marshall Space Flight 
Center, NASA Dryden Flight Research Center, Air Force Space Command, 
Headquarters Space and Missile Command, Air Force Air Combat Command, 
National Security and Space Integration (NSSI) office, and other 
appropriate organizations and agencies participated in the meetings. 
The result was consensus agreement on the NAI mission, goals, 
objectives, organizational structure, and roles and responsibilities.

    30. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, how are these efforts being coordinated with acquisition 
strategies and operational organizations?
    General Lord. Air Force Space Command has been involved in the 
development of NAI strategy and planning. The NAI space technology area 
is well funded by current DOD S&T efforts, which are closely 
coordinated with the service's acquisition strategies and operational 
plans. As an example, the near- to mid-term NAI space access technology 
plans are being coordinated with the ongoing Air Force Operationally 
Responsive Spacelift (ORS) Analysis of Alternative (AoA) being 
conducted by Air Force Space Command. As concepts are defined, refined, 
and selected through the ORS AoA process, these will be used to further 
refine the NAI space access technology development goals.
    Admiral Mayo. Navy's lead for NAI is ASN(RDA), who also has 
responsibility for oversight of all naval acquisition strategies. I 
believe this gives us reasonable assurance that NAI and our acquisition 
strategies will be coordinated and synchronized to the degree 
necessary.
    Top level management issues and objectives for NAI are just now 
being finalized, so it may be premature to judge how well coordinated 
all is, or will be, with operations. I can assure you that I will work 
closely with ASN(RDA) to make certain that my operational needs and 
objectives will be met as appropriate by NAI.
    General Cosumano. In addition to a number of other operational 
commands (including U.S. Strategic Command, Air Force Space Command, 
and Air Force Air Combat Command), the U.S. Army Space and Missile 
Defense Command actively participated in the NAI planning process. As 
NAI moves forward, operational commands will also be represented in the 
NAI management organization to coordinate linkage of NAI technology 
activities with current and future acquisition strategies.

    31. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, how are the programs within the NAI consistent with the 
space-related missions of the individual services?
    General Lord. The NAI space technology efforts are very consistent 
with the DOD space mission. For example, the NAI space access 
technology developments are directly applicable to the DOD space lift 
mission and will converge with specific service goals as we progress 
through our Operationally Responsive Spacelift Analysis of 
Alternatives. In addition, the NAI high speed/hypersonic programs do 
have potential applicability to the space lift mission as well as 
potential hypersonic missile applications.
    Admiral Mayo. The emerging NAI management plan allows the services 
to participate to the level and degree as they see relevant to their 
needs. This level of flexibility allows the services to leverage NAI in 
a way that is fully consistent with their needs. Also, all NAI 
technology roadmaps will be developed with transition as a goal. This 
further ensures NAI will be responsive to our needs.
    General Cosumano. The NAI will develop and demonstrate technologies 
that will enable capabilities never before available to our warfighters 
such as long-range supersonic cruise missiles, hypersonic strike/
interceptor missiles, a family of long-range hypersonic strike/
reconnaissance aircraft, air-breathing space access, rapid insertion of 
surveillance satellites to expand remote area coverage, rapid 
dispensing of long range weapons during early stages of a conflict, and 
on-orbit space control. This breadth of capabilities supports the 
Army's mission.

                SPACE SCIENCE AND TECHNOLOGY PRIORITIES

    32. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, what are the highest space S&T priorities for your service?
    General Lord. The Air Force's highest space mission capability need 
in the mid- to far-term (fiscal year 2010-2030) is responsive 
spacelift. The Air Force is pursuing the following S&T efforts to 
enable responsive spacelift: Advanced Organic Matrix Composite (OMC) 
Material Concepts, Materials Supportability, Metallic Materials and 
Processes for Space Applications, OMC Materials and Processes for 
Space, Boost, Scramjet (Hypersonics), System Simulation and Flight 
Control, Advanced Spacecraft Mechanisms, Integrated Structural Systems, 
Advanced Control for Space Systems, and Adaptive Guidance and Control.
    Admiral Mayo. In the area of space science, our current highest 
priorities include improved sensing of ocean, atmosphere and space 
environments for a number of applications including improved ISR and 
targeting, reduced navigation and communication outages and improved 
GPS and precision geolocation. Nearly every aspect of maritime 
operations, from safety of navigation to weapon selection and 
deployment, is dependent upon a clear meteorology and oceanographic 
picture. While nearly all the services and agencies deal with weather 
over land, only the naval services are so heavily dependent on timely 
and frequent forecasts of weather over water and sea conditions.
    In the area of space technology, priorities include revolutionary 
optics for ISR, hyperspectral sensing, new techniques for optical 
communication and improved time keeping technologies.
    General Cosumano. There are two emphases in Army space S&T 
priorities. One is force enhancement technologies such as ISR, and 
position, navigation, and timing to extend and improve the operational 
capabilities of the Future Combat System (FCS) and the Objective Force; 
second is space control technologies to protect and secure our Nation's 
space assets while denying our adversaries the use of space. The focus 
of these technology efforts is to enhance our force's operations in 
theater, to augment space capabilities and protect them from the enemy.
    Current funding allows the Army to develop and demonstrate advanced 
space technology applications for the Army's Objective Force. Advanced 
space force enhancement technologies include electro-optical, synthetic 
aperture radar, advanced data collection, processing and real time 
dissemination. The Army is currently pursuing efforts to process space 
data in real time to ultimately support a single integrated operational 
picture for the Objective Force. We are also pursuing development of 
advanced space control technology risk reduction efforts for ground-to-
space surveillance and negation systems like the Space Surveillance 
Science and Technology Objective.

    33. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, what is your current investment in that area?
    General Lord. The Air Force fiscal year 2004 President's budget 
requested amount for space-unique S&T is $0.3 billion, which is 14 
percent of the total Air Force fiscal year 2004 S&T request.
    Admiral Mayo. The naval space S&T investment is approximately $22 
million per year.
    General Cosumano. Army space S&T funding is reflected in the Army 
Space Application Technology Program that funds force enhancement 
initiatives and space control programs. Space control technologies 
including sensor-to-shooter efforts are currently programmed for 
funding by the Army. Force enhancement technologies for ISR radars and 
radio frequency-based counter fire systems are also funded. These 
technologies support Objective Force operations as well as deny the 
adversaries the ability to use space against our forces.
    The Army has programmed more than $70 million from fiscal year 2004 
through fiscal year 2009 for space control and force enhancement 
technology efforts. Space control efforts include space surveillance 
and negation technologies. Force enhancement technologies include 
distributed radar imaging, radio frequency early warning, and upper 
tier airship augmentation of space capabilities.

    34. Senator Bill Nelson. General Lord, Admiral Mayo, and General 
Cosumano, what are your highest priority unfunded space S&T 
requirements?
    General Lord. We manage the Air Force space S&T portfolio to 
minimize risk and maximize impact for the entire group of important 
long-term projects. Therefore, we tend to focus on ``underfunded'' 
rather than ``unfunded'' priorities. Our underfunded S&T priorities 
include the following areas: access to space, space control (space 
capability protection) and space force application.
    Admiral Mayo. I currently cannot identify what I would call a high 
priority unfunded in the space S&T area. As we proceed with the 
development of our FORCEnet capabilities, we will be identifying 
specific capabilities and associated S&T needs. Some of the types of 
issues I will be examining include naval needs for increased 
communications bandwidth and improved ISR to provide quick and tailored 
response to conflicts. A candidate technology here may include small, 
low cost, tactical microsatellites and payloads to test new 
technologies for networking, SIGINT, communications and imaging. When 
those are identified, I will prioritize and forward them through the 
appropriate Navy channels.
    General Cosumano. Senator, for the Army, the immediate priority is 
to fund space control technologies supporting Joint programs and 
protecting the Objective Force. These technologies are terrestrial-
based and support deployed joints forces, to include our FCS. The 
Army's long term priority is to fund space technologies that enhance 
the Objective Force by leveraging both Army and Joint investments. This 
will provide tactical in-theater exploitation of space resources and 
associated enabling capabilities.

    [Whereupon, at 11:50 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                        WEDNESDAY, APRIL 2, 2003

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

DEPARTMENT OF ENERGY'S OFFICE OF ENVIRONMENTAL MANAGEMENT AND OFFICE OF 
                           LEGACY MANAGEMENT

    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SR-222, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard and Bill Nelson.
    Majority staff members present: L. David Cherington, 
counsel; Brian R. Green, professional staff member; and Scott 
W. Stucky, general counsel.
    Staff assistants present: Andrew Kent and Sara R. Mareno.
    Committee members' assistants present: Douglas Flanders, 
assistant to Senator Allard; Aleix Jarvis, assistant to Senator 
Graham; and Peter A. Contostavlos, assistant to Senator Bill 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I call to order the Strategic Forces 
Subcommittee of the Senate Armed Services Committee. This is a 
very busy time for Congress, considering the conflict in Iraq 
and considering the fact that we have a very compressed 
schedule in getting the Defense authorization bill out of the 
Senate and moving. As a result of that, we all have very tight 
schedules, and so I want to get started on time. I have a 
reputation for getting started on time. Other members, I think, 
will show up as we proceed forward with the hearing. We will 
give them an opportunity to make opening statements and then to 
ask questions, and we will call on them in the order of 
arrival, which is the way we do business around here.
    The committee meets this morning to receive testimony from 
Ms. Jessie Roberson, the Assistant Secretary of Energy for 
Environmental Management, and Mr. Mike Owen, Director of the 
Department of Energy's Office of Worker and Community 
Transition. I would like to thank our witnesses for appearing 
before the Strategic Forces Subcommittee today and providing 
testimony about the Department of Energy's vision for cleanup 
and closing all of the environmental sites and facilities and 
the subsequent challenges of handing over the long-term 
stewardship and personnel responsibilities to the soon-to-be-
created Office of Legacy Management. I look forward to hearing 
your testimony.
    In 1996, the vision of cleanup and closing Rocky Flats, 
Mound, and Fernald in 10 years was revolutionary. The original 
plan for these former defense nuclear weapons facilities was to 
complete cleanup in 2065. To many naysayers in 1996, a 10-year 
closure plan was impossible. Now it is not only seen as 
possible, but probable, and it has provided the manuscript for 
completing cleanup and closing the remaining Environmental 
Management (EM) sites much sooner and at much less expense than 
originally envisioned.
    Hindsight is 20/20, but as it turns out the methods used by 
the EM program to accelerate cleanup also make the most sense 
environmentally. Reducing the largest risk first provides 
enormous benefits to the workers, to the environment, and to 
the surrounding communities, and also allows the sites to save 
resources formerly used merely to meet compliance requirements, 
which did nothing to further cleanup or reduce environmental 
risks.
    Now the freed-up resources can be plowed back into the 
cleanup, greatly reducing the duration of the cleanup and 
thereby saving tens of billions of dollars across the EM 
complex.
    It is important to note that none of the success of the EM 
program could have been done without the cooperation and 
commitment by the workforce. As an example, the workers at the 
2006 closure sites have exhibited the highest level of 
professionalism even when knowing the better their performance, 
the quicker they will find their job has come to an end.
    At Rocky Flats, where I have gotten to know the workers the 
best, I want to express my deepest appreciation for the pride 
they take in their work and the success that they will deliver 
to Colorado and to the Nation as other sites will now have a 
great cleanup and closure model to follow.
    While I celebrate EM's successes, I also know there are 
still many challenges ahead. Maintaining the closure model that 
has proven to be successful at Rocky Flats, Mound, and Fernald 
does not mean it will necessarily be successful at the 
remaining four major EM sites. Moving to an acceleration 
cleanup and closure are not a simple plan you put in place and 
just implement.
    The struggle to move Rocky Flats, Mound, and Fernald 
towards closure required a lot of cooperation by the States and 
local communities, respectively. It required and still does 
require a lot of cooperation by the other EM sites who stood by 
as only some of the sites were accelerated with increased 
funding. The EM sites further exhibited their cooperation when 
they took on missions to help coordinate waste treatment and 
final disposition responsibilities. As I already mentioned, it 
takes a lot of cooperation between management and the workers 
who will actually do the cleanup.
    If there is one message I want to send the remaining EM 
sites, it is that cooperation is the key. This will require 
flexibility and compromise, but it also can deliver compelling 
results.
    One example of how the post-2006 closure sites are about to 
be repaid is with increased resources. By accepting waste for 
processing from other sites which will allow Rocky Flats, 
Fernald, and Mound to close by 2006, there will be over $1 
billion of annual EM budget freed up to help accelerate closure 
for the remaining EM sites.
    Additionally, there have been important lessons learned and 
new innovative cleanup processes adopted at the 2006 closure 
sites.
    Last year, the EM program worked with the remaining EM 
sites and the States to work out initial agreements to 
accelerate their cleanup and closure as well. Although many of 
the details still need to be worked out--and I do not mean to 
steal Jessie Roberson's thunder on this--DOE has now 
redesignated all of the EM sites as closure sites, with the 
last of the cleanup to be completed by 2035 or sooner.
    One of the biggest challenges that lies ahead for all of 
the EM sites is how they will be transitioned to assume their 
long-term stewardship and post-closure personnel 
responsibilities. The plan to create the Office of Legacy 
Management (LM) is a good first step in that it establishes the 
office which will assume these responsibilities. How the 
closure sites will be seamlessly transferred from EM to LM 
remains to be seen.
    On the environmental side, the States and local communities 
need to be sure the stewardship responsibilities will be taken 
care of by Legacy Management both with short-term and long-term 
concerns. Additionally, the workers who made the cleanup and 
closure of these sites possible want to make sure that they 
have an entity to take care of their pension, health care, and 
any other needs as is appropriate.
    The current DOE entity that addresses these concerns is the 
Office of Worker and Community Transition. I am interested to 
know how this office will work with EM and Legacy Management to 
make sure our dedicated workforce receives a smooth transition 
as they close their current workplace, whether they transfer to 
another Environmental Management site or leave the Department 
of Energy for other opportunities.
    Secretary Roberson and Mr. Owen, thank you for your service 
to our Nation. We look forward to your testimony and then when 
my ranking member shows up, I will turn to him for an opening 
statement. So why do we not proceed with you, Madam Secretary. 
We look forward to your testimony.

STATEMENT OF HON. JESSIE HILL ROBERSON, ASSISTANT SECRETARY OF 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Secretary Roberson. Good morning and thank you, Chairman 
Allard. As usual, it is always a pleasure to sit before you and 
communicate what our progress has been. I am pleased to be here 
today to discuss President Bush's fiscal year 2004 budget 
request for the Department of Energy's environmental cleanup 
program.
    Eighteen months ago, Secretary Abraham directed me to 
review from top to bottom the EM program and uncover those 
obstacles hindering the efficient and effective cleanup of our 
sites. As you are aware, the Top-to-Bottom Review was published 
last February and it concluded that EM had lost focus of its 
core mission, which was to remedy the legacy of the Cold War's 
impact on the environment.
    We had to take immediate action. With the Top-to-Bottom 
Review as the blueprint for our transformation, we have 
realigned EM's focus from risk management to risk reduction and 
accelerated cleanup and closure, the intended mission for the 
Environmental Management program from the start. We have made 
remarkable progress this year toward our goal of saving at 
least $50 billion over the life of this program and completing 
the program by at least 35 years sooner.
    But we must not succumb to the idea that all problems are 
solved. The momentum we have gained must not be compromised or 
allowed to weaken. We must stay the course. The actions and 
strategies we have implemented while producing key results must 
be given the chance to further evolve, bringing even greater 
gains in risk reduction and cleanup sooner.
    Underpinning these strategies are several groundbreaking 
reforms that will propel us forward in our thinking and in our 
actions. We are implementing a new acquisition strategy. We are 
aggressively using and managing the acquisition process as a 
key tool to drive contract performance and risk reduction 
results. We have established 10 special project teams to carve 
new innovative paths for accelerated cleanup and risk 
reduction. Each team is formulating corporate-level initiatives 
and activity-specific actions to accelerate risk reduction in a 
much improved, more cost-effective manner.
    We have implemented a strict configuration control system 
that baselines a number of key critical program elements. 
Robust change control and monitoring of these key elements will 
facilitate a high confidence level that the direction of the 
accelerated cleanup initiative is on course and that our 
objectives are being accomplished.
    The budget request before you is one of our most crucial 
reforms. This request, a cornerstone of our transformation, is 
a major step toward aligning performance with the resources 
needed to expedite risk reduction and cleanup. This budget 
request sets the foundation for budget planning and execution 
of the accelerated risk reduction and closure initiative.
    Today the EM program is still very much a defense 
environmental liability, responsible for the disposition of 
many tons of special nuclear material, 88 million gallons of 
radioactive liquid waste, 2,500 metric tons of spent nuclear 
fuel, 135,000 cubic meters of transuranic waste, and well over 
a million cubic meters of low level waste.
    I ask the committee to stay with us as we continue our 
quest to eliminate risk posed by these materials at a pace few 
of us could have imagined 2 years ago. For example, just within 
the last week at Savannah River, the defense waste processing 
facility was restarted on March 29 and completed its first 
canister pour with waste and a new glass frit. The melter 
change out of this facility occurred more efficiently and 
expeditiously than thought.
    At Rocky Flats, the plutonium packaging facility has 
produced 425 containers in the first 3 months of this year and 
is producing at a rate of 140 3013 containers per month. At 
Richland, we are packaging six spent-fuel multicanister 
overpacks per week versus one. At the River Protection Project, 
waste retrieval from Tank C-106 commenced on March 31. At 
Fernald, contract modification was executed on March 28, making 
closure in 2006 an actual contractual requirement. This is the 
first time this has actually occurred.
    At Idaho, the advanced mixed waste treatment facility sent 
its first TRUPACT-II to WIPP on March 31. Yesterday, Savannah 
River packaged its first 3013 plutonium canister. Yesterday, 
Oak Ridge removed its first converter from Building K-29. At 
the Office of River Protection, we have pumped over 1.5 million 
gallons of radioactive liquid waste from older single-shell 
tanks. Less than 300,000 gallons of waste remains in single-
shell tanks.
    These are examples of work that was completed in the last 
week, and skeptics did not believe that we would accomplish 
these goals at this point in time. We know that our job is not 
to let skeptics convince us that we cannot do this job, but to 
demonstrate by our actions that we can and are doing this job.
    New ideas and breakthroughs have grown from looking beyond 
the paradigm of risk management to the new focus of accelerated 
risk reduction and cleanup. We are experiencing the realization 
that for the first time the goal of completing the current 
cleanup is within our grasp. We are at a turning point for this 
program.
    In spite of the challenges ahead, and there are challenges 
ahead, these challenges, however, existed from the beginning of 
this program. We did not create them in the accelerated cleanup 
program. They have simply been lying in wait. However, we are 
taking these challenges on and our momentum is building.
    I ask for your support of our fiscal year 2004 budget 
request of $7.24 billion to assure our impetus does not 
diminish. The administration considers this program vitally 
important. We stand at an important crossroads in the cleanup 
program today. I believe the cleanup of the former nuclear 
weapons complex is far too important a matter to be left to 
chance. With your past assistance, we have laid a solid 
foundation that is already showing signs of early success. 
Moving forward, we need your continued support to achieve 
success more broadly across the complex.
    Thank you.
    [The prepared statement of Secretary Roberson follows:]

             Prepared Statement by Hon. Jessie H. Roberson

    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to discuss the reform of the Department of Energy's 
Environmental Management (EM) program, our progress in implementing 
cleanup reform, and the importance of sustaining the momentum for the 
benefit of the many generations to come. I appreciate the opportunity 
to sit before you and share our actions of this past year and the 
opportunities that lie before us.
    In 1996, Congress took a bold step that fundamentally altered the 
course of the cleanup program in the Department of Energy when it 
supported the accelerated closure of Rocky Flats. This was at a time 
when there was little reason and no demonstrated track record to 
believe that the Department could deliver on a challenge of this 
magnitude. Congress took further steps in 1999 when it created the 
Defense Facilities Closure Projects account and challenged the 
Department of Energy to close three of its nuclear sites by 2006. While 
it has taken significant effort and dedication, today all three of 
those sites, Rocky Flats, Mound, and Fernald, will close on or ahead of 
schedule. The vision and support that Congress provided planted the 
seeds of success in the cleanup program and we have already begun 
harvesting those fruits.
    Nonetheless, success at other sites in the EM program remained 
elusive. Year after year, it continued to take longer and cost more to 
complete the cleanup and we slowly devolved into a program that 
promised little and delivered even less. By the end of fiscal year 
2001, the environmental cleanup program stood as one of the largest 
liabilities of the Federal Government.
    Last year, as ordered by Secretary Abraham, the Department 
completed a Top-to-Bottom Review of its cleanup program and concluded 
that significant change was required in how the Department attacked 
risk reduction and cleanup for the rest of its sites. Two years ago, as 
costs continued to increase, we estimated that it could take over $300 
billion and nearly 70 more years to complete cleanup--20 years longer 
than the actual operations of our oldest facilities and 25 times longer 
than the actual construction of our most complex facilities. We 
concluded that a fundamental change to how we approached, managed, and 
performed the entire cleanup program was required. Last year I started 
the effort to reform this massive program, and while our most daunting 
challenges still lie in front of us, we are now focused, moving in the 
right direction. The accelerated cleanup program has started to build 
momentum.
    Today the EM program is still very much a defense liability, 
responsible for many tons of special nuclear material in the form of 
plutonium and enriched uranium, which would make it one of the world's 
largest nuclear super-powers. In addition, the EM program is 
responsible for safely disposing of 88 million gallons of radioactive 
liquid waste, 2,500 metric tons of spent nuclear fuel, 135,000 cubic 
meters of transuranic waste, and well over 1 million cubic meters of 
low level waste. I ask the committee to stay with us as we continue our 
quest to eliminate risks posed by these materials at a pace few of us 
could have ever imagined.
    Since the completion of Secretary Abraham's Review, the estimated 
cost to complete the cleanup program has decreased by over $30 billion 
and the time to complete will be shortened by 35 years. This means that 
the risks to our workers, our communities, and the environment will be 
eliminated a generation earlier than the previous plan. But I am not 
satisfied and neither should you. My goal is to accelerate risk 
reduction and cleanup and shorten this program even further while 
decreasing costs by more than $50 billion.
    In fiscal year 2004, President Bush is requesting a record $7.24 
billion for the accelerated cleanup program. The administration's 
funding request continues the great progress we made last year with our 
regulators and communities. The administration believes that this 
investment, which we expect to peak in fiscal year 2005, is crucial to 
the success of accelerated risk reduction and cleanup completion. We 
anticipate funding will then decline significantly to about $5 billion 
in 2008.
    The EM portion of the fiscal year 2004 congressional budget 
contains some creative and innovative changes that are greatly needed 
to support our accelerated risk reduction and closure initiative. The 
first of these is a new budget and project baseline summary structure 
that focuses on completion, accountability, and visibility; 
institutionalizes our values; and integrates performance and budget. 
Requested funding can clearly be associated with direct cleanup 
activities versus other indirect EM activities. Second, where 
appropriate, we have limited the inclusion of line-item construction 
projects as activities for separate authorization and funding controls 
to facilitate timely and sensible tradeoff decisions that otherwise may 
not be possible. We solicit your support for this flexibility as we 
implement our accelerated cleanup strategies, with the understanding 
that improving project management remains a significant challenge for 
the Department. Third, this budget reflects the transfer of multiple 
activities that are not core to the accelerated cleanup mission to 
other Department elements. They include the transfer of Idaho National 
Engineering and Environmental Laboratory (INEEL) landlord 
responsibilities to the Office of Nuclear Energy, Science and 
Technology, transfer of the long-term stewardship program to the new 
Office of Legacy Management, and several others.
    The administration considers this program vitally important. We 
stand at an important crossroads in the cleanup program today--success 
is clearly within our reach, but so is failure. I believe the cleanup 
of the former nuclear weapons complex is far too important a matter to 
be left to chance. With your past assistance, we laid a solid 
foundation that is already showing signs of early success. Moving 
forward, we need your continued support to achieve success.

                        A YEAR OF TRANSFORMATION

    Last year at this time, the Top-to-Bottom Review had been recently 
released, citing recommendations to quickly improve performance. I wish 
to take a moment to recap the recommendations and update you on our 
progress in remedying these weaknesses.
    Improve DOE's Acquisition Strategy and Contract Management. A key 
conclusion of the Top-to-Bottom Review was that EM's contracting 
approach was not focused on accelerating risk reduction and applying 
innovative cleanup approaches. Processes for contract acquisition, 
establishment of performance goals, funding allocation, and government 
oversight were managed as separate, informally related activities 
rather than as an integrated corporate business process. Contracting 
strategies and practices made poor use of performance-based contracts 
to carry out EM's cleanup mission. The Top-to-Bottom Review team 
recommended that all current performance-based contracting activities 
be reviewed and, where necessary, restructured to provide for focused, 
streamlined, and unambiguous pursuit of risk reduction.
    Move EM to an Accelerated, Risk-Based Cleanup Strategy. EM's 
cleanup strategy was not based on comprehensive, coherent, technically 
supported risk prioritization--another important observation cited by 
the Review team. The program was implementing waste management 
practices and disposition strategies costing millions without providing 
a proportional reduction in risk to human health and the environment. 
Cleanup work was not prioritized to achieve the greatest risk reduction 
at an accelerated rate. Interpretation of DOE Orders and requirements, 
environmental laws, regulations, and agreements had created obstacles 
to achieving real cleanup benefiting neither human health nor the 
environment. Resources were diverted to lower-risk activities. Process, 
not risk reduction, had become the driving force. The Review 
recommended that DOE initiate an effort to review DOE Orders and 
requirements as well as regulatory agreements, and commence discussions 
with states and other regulators with the goal of accelerating risk 
reduction.
    Align DOE's Internal Processes to Support an Accelerated, Risk-
Based Cleanup Approach. The Review found DOE's own internal processes 
inconsistent with a risk-based cleanup approach. The hazards at the DOE 
sites and the liability associated with them did not appear to dictate 
the need for urgency in the cleanup decisions. The Review team 
emphasized that the EM mission cannot be accomplished by continuing 
business as usual. Immediate actions in all elements of the EM program 
would need to be taken to transform DOE's processes and operations to 
reflect the new accelerated risk-based cleanup paradigm.
    Realign the EM program so its scope is consistent with an 
accelerated, risk-based cleanup and closure mission. The Review team 
underscored the necessity that EM should redirect, streamline, or cease 
activities not appropriate for accelerated cleanup and closure. A 
laser-like focus on the core mission was needed to realize the cleanup 
of the Cold War legacy in our lifetime. Though many of these non-core 
activities may be worthy of DOE or Federal Government support, a 
reassessment of the relevance of non-related or supporting missions was 
warranted to focus the EM program. The financial and administrative 
resources required for EM implementation and oversight of these 
activities represent a major commitment for EM.
    In response to the Review's recommendations we have:
    Developed and are implementing a new acquisition strategy. In the 
area of acquisition strategy and contract management, we have not been 
idle. We are aggressively using and managing the acquisition process as 
one tool to drive contract performance. We are evaluating both the 
performance and design of every contract in this program and as 
opportunities become clear we are making corrective action. One example 
of our progress is the December 2002 award of a new contract for the 
cleanup and closure of the Mound site. The whole process, which 
required changes in DOE's internal business practices, was accomplished 
in just 6 months from time of the issuance of the Request for Proposals 
(RFP) to the awarding of the contract. Another example is at Oak Ridge, 
where we are transforming the cleanup contract into a closure contract 
with a 1-year demonstration period to further our overall cleanup 
goals. Changing this contract arrangement will accelerate cleanup work 
by 5 years and save $1 billion over the life of the program at the 
site.
    But that is just the tip of the iceberg. I envision a broader 
overhaul of EM's entire acquisition process, including our methodology 
for formulating acquisition strategy, developing RFPs, identifying 
performance-based incentives, and providing oversight of contractor 
performance. We are pursuing a path to both increase competition by 
enlarging the pool of potential contractors competing for our work and 
increase the accountability of our contractors to deliver real, 
meaningful cleanup. Our acquisition strategy focuses on five areas. 
First, we are ``unbundling'' work into smaller packages where it makes 
sense. Second, we are driving innovation and improved cost performance 
through the use of small and smaller businesses, complementing the 
unbundling strategy. Third, we are actively promoting innovation in our 
cleanup work through the competitive process where improved performance 
is required. Fourth, we are extending or modifying contracts where 
excellent performance has been clearly demonstrated. Fifth, we are 
modifying and changing our acquisition processes to support these 
strategies in order to allow them to be successfully implemented.
    To complement these steps, we have launched a Contract Management 
Review Board to review our contracts from a more corporate perspective. 
Our goal is to ensure that the lessons learned, both good and bad, from 
all our endeavors are institutionalized into our contracts and business 
practices and that we suspend those contract philosophies that do not 
support accelerated risk reduction and cleanup of our sites.
    Established 10 special project teams to carve new innovative paths 
for accelerated cleanup and risk reduction. The Top-to-Bottom Review 
identified unfocused and inconsistent work planning processes as the 
principal contributors to EM's uncontrolled cost and schedule growth. 
To address this failing, I formed 10 special corporate projects, each 
assigned a specific strategic objective. Each team is formulating 
corporate level initiatives to accelerate risk reduction in a much 
improved, more cost-effective manner. Objectives include contracting, 
high-level waste, and consolidation of special nuclear material. Each 
of the special projects has a dedicated project manager, supported by 
an integrated project team, to identify, plan, and execute needed 
changes in the EM program. These project teams, using project 
management principles, are key to correcting our work planning 
processes and instilling rigor into our internal management decisions.
    Meaningful, lasting reform must be the result of leadership and 
commitment but it must find its way into the very core of the 
organization to be sustained. Building a high-performing culture 
requires attracting and retaining talented people who deliver 
excellence in performance. Improving management efficiencies requires 
that organizations challenge, hold accountable, and reward top-
performing employees. This corporate initiative does just that. These 
10 teams will herald a new standard of performance, innovation, and 
greater results for the EM program. Our goal is not just to establish 
performance-based contracts but to solidify a performance-based program 
for all who choose to have a role.
    Implemented a strict configuration management system. Another 
reform we have implemented is a strict configuration management system 
that baselines a number of key, critical program elements. Examples of 
some of the key elements include the Performance Management Plans, EM 
corporate performance metrics, contract performance measures/
incentives, and life-cycle costs. Strict change control and monitoring 
of these key elements will facilitate a high confidence level that the 
goals and direction of the accelerated cleanup initiative are being 
met.
    In October 2002, EM established several new corporate performance 
measures for the program. EM will continue to track corporate measures 
such as the number of geographic sites completed, the amount of 
transuranic waste disposed, and the number of plutonium metal/oxides 
packaged. However, new corporate measures such as the volume of liquid 
waste in inventory eliminated, number of liquid waste tanks closed, 
number of enriched uranium containers packaged, and amount of depleted 
and other uranium packaged are a key part to the successful execution 
of EM's accelerated cleanup strategies. In addition, EM is establishing 
site resource-loaded baselines that will enable the program to 
comprehensively track progress against its accelerated risk reduction, 
cost, and schedule objectives. The establishment of these new 
performance measures and a rigorous configuration management system are 
resulting in clear lines of accountability for what is expected. With 
this critical tool, EM is now able to make crucial corporate decisions 
that will keep the program on track, control cost increases, and 
minimize schedule growth.
    Identified work activities that directly support accelerated 
cleanup from those that do not. A key finding of the Top-to-Bottom 
Review was that EM was supporting and managing several types of 
activities that may not be appropriate for an accelerated risk-
reduction and cleanup program. In that light, I took a hard look at 
those activities and, while they may be of importance to the Department 
and the Federal Government, they may not be best aligned in the EM 
program. Based on that assessment, for fiscal year 2004, the following 
identified program elements were not included in the EM budget but, 
because of their importance to the Department, have been transferred to 
other DOE organizations with which they are more appropriately aligned. 
They represent activities that are not part of the core accelerated 
risk reduction and closure mission.

        <bullet> Environmental Management staff at the National Energy 
        Technology Laboratory transferred to the new Office of Legacy 
        Management.
        <bullet> The Analytical Services Program transferred to the 
        Office of Environment, Safety and Health.
        <bullet> The Radiological and Environmental Sciences Laboratory 
        transferred to the Office of Environment, Safety and Health.
        <bullet> Pre-existing liabilities and long-term contractor 
        liabilities transferred to the Office of Legacy Management.
        <bullet> The Long-term Stewardship Program transferred to the 
        Office of Legacy Management.

    In addition, landlord responsibilities for the Idaho National 
Engineering and Environmental Laboratory were transferred to the Office 
of Nuclear Energy, Science, and Technology to reflect the site's major 
mission realignment.
    Revitalized our human capital strategy. Another key management 
reform is the human capital revitalization that strongly supports the 
President's Management Agenda. This reform focuses on building a high-
performing culture that attracts and retains talented managers and 
staff to deliver sustained performance excellence. We have built a more 
robust performance accountability system that holds each manager and 
employee accountable for actions and results and rewards them 
accordingly. Individual performance management is being fully 
integrated into EM organizational goals; executives are being held 
accountable for achieving strategic program objectives, fostering 
innovation, and supporting continuous improvement.
    We are implementing an executive mentoring program with our senior 
executives with the objective of having a cadre of executives who are 
well-rounded and are prepared to effectively lead irrespective of the 
position to which they might accrue. We are becoming a flatter and more 
effective organization with a goal to have an organizational structure 
that is clearly aligned to deliver on our accelerated risk reduction 
and closure initiative.
    Aligned tangible, consequential results to resources with this 
budget request structure. Given all these changes and advances, the 
budget request before you is one of the most crucial. This budget 
request structure is the foundation for budget planning and execution 
of the accelerated risk reduction and closure initiative. This new 
structure clearly identifies scope and resources that directly support 
the core accelerated cleanup and risk reduction mission from those that 
do not. The new structure consolidates risk reduction and completion 
activities into only two appropriations (defense and non-defense) in 
addition to the existing Uranium Enrichment Decontamination and 
Decommissioning Fund. This structure removes barriers to facilitate 
better resource utilization and segments accelerated completion into 
three distinct accounts to highlight accountability.
    In addition, implementation of this new structure will complement 
other management reform initiatives by focusing on completion or 
endpoint, clearly delineating how resources will be utilized (i.e., for 
direct cleanup activities or for other activities in the program that 
only indirectly relate to on-the-ground cleanup activities), and 
communicating the goals and objectives that we value. Last, but not any 
less important, this new structure will support integration of 
performance and budget for the EM program.

                  THE FISCAL YEAR 2004 BUDGET REQUEST

    The fiscal year 2003 budget was a transitional budget in which 
management reforms were developed and significant efforts were put 
forth to improve performance, accelerate cleanup, and reduce risk. The 
strategic groundwork has been laid, and the EM program is moving 
forward with its risk reduction and cleanup strategies. The investment 
we have requested in our fiscal year 2004 budget will keep EM's new 
accelerated risk reduction and cleanup strategies on track.
    The EM fiscal year 2004 budget request has been tailored to meeting 
our mission of accelerated risk reduction and completion. This budget 
fully reflects each site's new accelerated risk reduction and cleanup 
strategies. The fiscal year 2004 budget request is a major step toward 
aligning performance with the resources needed to expedite risk 
reduction and cleanup.
    The 2004 budget request for EM activities totals $7.24 billion to 
accelerate risk reduction and closure. The request includes five 
appropriations, three of which fund on-the-ground, core mission work, 
and two of which serve as support. The five appropriations and 
associated requested funding are:

        <bullet> Defense Site Acceleration Completion ($5.8 billion)
        <bullet> Defense Environmental Services ($995 million)
        <bullet> Non-Defense Site Acceleration ($171 million)
        <bullet> Non-Defense Environmental Services ($292 million)
        <bullet> Uranium Enrichment Decontamination and Decommissioning 
        Fund ($418 million)

    Through the implementation of accelerated cleanup strategies, the 
EM program anticipates that cleanup will be completed by 2035, at least 
35 years earlier than originally anticipated, with the potential of 
life-cycle savings of greater than $50 billion.
    In building the request, the Department applied the following 
principles and priorities:
    Protect workers, public, and the environment: The budget request 
continues to place the highest priority on protecting workers, the 
public, and the environment. The implementation of new cleanup 
strategies will allow for an overall improvement in safety and 
reduction in risk because cleanup will be completed sooner, reducing 
the extent to which workers, the public, and the environment have the 
potential to be exposed.
    Ensure the appropriate levels of safeguards and security: Due to 
heightened security levels throughout the Nation, it is crucial that we 
maintain vigilance in our domestic security to protect our citizens. 
The EM program is responsible for many tons of surplus nuclear 
material. This budget request reflects our increased safeguards and 
security needs. In particular, the sites with the largest funding needs 
are Savannah River and Hanford. Savannah River's increase in funding 
supports protective force staffing for the HB Line Category 1 Process 
and plutonium stabilization activities, perimeter improvements, 
maintenance on security systems, vulnerability assessments, and Capital 
and General Plant Project upgrades. Hanford's increase in funding 
supports updates to the Critical Facility Vulnerability Assessment, 
additional security employees for Waste Treatment and Immobilization 
Plant construction, security clearance processing, drug testing, and 
accelerated movement of special nuclear material to Savannah River and/
or the Grout Facility.
    Reduce risk methodically: Accelerated risk reduction requires a 
pragmatic approach to cleanup based on real risk reduction. Risk 
reduction occurs in various stages, which involve the elimination, 
prevention, or mitigation of risk. Because safe disposal of many 
materials will take a number of years to complete, our major focus of 
risk reduction is stabilization of high-risk materials.
    The following categories of materials are considered to pose the 
highest risk:

        <bullet> High-curie, long-lived isotope liquid waste
        <bullet> Special nuclear materials
        <bullet> Liquid transuranic (TRU) waste in tanks
        <bullet> Sodium bearing liquid waste in high-level waste tanks
        <bullet> Defective spent nuclear fuel in water basins
        <bullet> Spent nuclear fuel in leaky or poor water chemistry 
        basins
        <bullet> High TRU waste content (greater than 100 nanocuries/
        gram)
        <bullet> TRU waste stored on the surface
        <bullet> Remote-handled (RH) TRU waste
        <bullet> Decontamination and Decommissioning of highly 
        contaminated facilities

    Although all of these items are to be considered when setting 
priorities, their relative ranking may vary from site to site. For 
example, the following sites have planned activities/milestones for 
fiscal year 2004 that correspond to their site-specific risk 
categories.

Hanford
        <bullet> Close six single-shell tanks; the first tanks closed 
        at the site.
        <bullet> Complete interim stabilization of Hanford single-shell 
        tanks, which completes removing all pumpable liquids from 
        single-shell tanks.
        <bullet> Complete 30 percent of the Hanford Waste Treatment and 
        Immobilization Plant.
        <bullet> Complete stabilization of plutonium metals, oxides, 
        and residues.
        <bullet> Complete removal of all spent fuel from the K Basins 
        and place in dry storage in the Canister Storage Building.

Idaho
        <bullet> Complete the transfer of spent nuclear fuel in the 
        Power Burst Facility canal from wet storage to dry storage at 
        the Idaho Nuclear Technology and Engineering Center.
        <bullet> Ship off-site a total of 1,819 kg total uranium 
        (leaving a remainder of 825 kg).
        <bullet> Begin the transfer of EBR-II spent nuclear fuel from 
        the Chemical Processing Plant to the Argonne National 
        Laboratory-West for treatment and disposition as an interim 
        step to removing all EM spent nuclear fuel from wet storage.
        <bullet> Support treatment of sodium-bearing waste: complete 
        conceptual design activities for the sodium bearing waste 
        treatment project, initiate preliminary design on primary 
        technology, and complete Sodium Bearing Waste Treatment 
        Facility Critical Decision 1 documentation; and complete 
        characterization of remaining liquids and solids in the 11 
        underground tanks.

Rocky Flats
        <bullet> Remove and ship remaining plutonium metals, oxides, 
        and residue.
        <bullet> Begin stabilization and hazard removal in two TRU 
        waste buildings.

Savannah River
        <bullet> Permanently close tanks 18 and 19, completing the 
        closure of the first tank grouping.
        <bullet> De-inventory spent nuclear fuel from the Receiving 
        Basin for Off-site Fuels.
        <bullet> Complete treatment of the aqueous portion of the 
        plutonium-uranium extraction (PUREX) waste at the Saltstone 
        Facility.
        <bullet> Produce 250 canisters of vitrified high-level waste.

    Accelerate cleanup results: To accelerate cleanup, 18 sites have 
developed Performance Management Plans (PMPs), which identify 
strategies, end states, end dates, key milestones, and commitments that 
facilitate accelerated cleanup and site closure. These PMPs were 
developed in collaboration with our State and Federal regulators.
    For fiscal year 2004, several examples of sites' milestones for 
accelerated cleanup are:

Brookhaven National Laboratory
        <bullet> Submit Brookhaven Graphite Research Reactor Draft 
        Record of Decision to our regulators to determine the final 
        end-state for Brookhaven Graphite Research Reactor.
        <bullet> Complete construction of the Airport/Long Island Power 
        Authority Groundwater Treatment System.

Hanford
        <bullet> Complete cocooning of the H Reactor.
        <bullet> Complete excavation/removal of 100 B/C Process 
        Effluent Pipeline.
        <bullet> Dispose of 500,000 tons of remediation waste from 
        waste sites and burial remediations in the Environmental 
        Restoration Disposal Facility.

Idaho
        <bullet> Begin shipment of RH TRU waste offsite (6-year 
        acceleration) supporting completion of shipments by 2012.
        <bullet> Complete cleaning and grouting of second pillar and 
        panel vaulted tank, supporting acceleration of tank farm 
        facility closure by 4 years to 2012.

Lawrence Livermore National Laboratory-Livermore Site
        <bullet> Construct, install, and operate a new treatment system 
        to address groundwater contamination.

Los Alamos National Laboratory
        <bullet> Permanently dispose of over 600 cubic meters of legacy 
        TRU waste through an integrated strategy of segregating, 
        decontaminating, and shipping to the Waste Isolation Pilot 
        Plant (WIPP).
        <bullet> Complete shipment of 2,000 drums and initiate 
        retrieval of legacy TRU waste stored below grade.

Nevada Test Site
        <bullet> Complete remediation of 55 release sites.
        <bullet> Continue to dispose of low-level waste from complex-
        wide generators in support of closure of other EM sites.
        <bullet> Continue characterization and shipments of TRU waste 
        to WIPP.

Oak Ridge
        <bullet> Complete East Tennessee Technology Park K 29/31/33 
        decommissioning for re-use (1-year acceleration), supporting 
        closure of the site 8 years earlier than planned.
        <bullet> Complete Molten Salt Reactor Experiment flush salt 
        removal, and complete fuel salt removal from the first of two 
        drain tanks.

Pantex
        <bullet> Continue pump and treatment of the perched groundwater 
        and evaluation of more efficient cleanup technologies to 
        mitigate the contaminated plume.
        <bullet> Complete demolition of Zone 10 ruins and initiate 
        actions for the demolition of Building 12-24 Complex.

Savannah River
        <bullet> Eliminate low-level waste legacy inventory.
        <bullet> Complete major remediation projects in the testing and 
        experimental areas.

WIPP
        <bullet> Increase carrier capacity from 25 to 34 shipments of 
        TRU waste per week.
        <bullet> Procure 11 RH trailers for a total of 14.
        <bullet> Complete TRUPACT-II (a transportation container to 
        safely transport either TRU waste or standard waste boxes) 
        fabrication to obtain fleet of 84 TRUPACTs.

    Maintain closure schedules: Three major sites, Rocky Flats, 
Fernald, and Mound, have accelerated closure schedules. In addition, 
two smaller sites, Ashtabula and Battelle-Columbus, are scheduled to 
close in 2006. Funding in the fiscal year 2004 budget will allow these 
sites to remain on track toward project completion and site closure.
    At Rocky Flats, fiscal year 2004 funding provides for:

        <bullet> Disposing of more than 109,000 cubic meters of low and 
        mixed low level waste.
        <bullet> Disposing of more than 8,600 cubic meters of TRU waste 
        (70 percent complete).
        <bullet> Completing the decontamination and decommissioning of 
        72 work sets in Buildings 371, 717, 771, and 776.
        <bullet> Cleaning 194 environmental release sites (81 percent 
        complete).

    At Fernald, fiscal year 2004 funding provides for:

        <bullet> Treatment and shipment offsite of 150,000 tons of 
        waste pit material, which cumulatively represents approximately 
        80 percent of the total.
        <bullet> Construction completion of Silos 1, 2, and 3 retrieval 
        facilities.
        <bullet> Completion of D&D of Plant 1 Complex Phase II, Liquid 
        Storage Complex Phase II, and Pilot Plant Complex.

    At Mound, fiscal year 2004 funding provides for:

        <bullet> Continued removal of high concentrations of tritium 
        from Tritium Effluent Reduction Facility to allow for early 
        shutdown.
        <bullet> Completion of soil excavation phase of Potential 
        Release Site 66 and completion of the total remediation of 
        Potential Release Sites 68 and 267. These three Potential 
        Release Sites represent 38 percent of the total soil 
        remediation remaining.

    At Ashtabula, fiscal year 2004 funding provides for:

        <bullet> Complete disposal of 100 percent of building 
        remediation debris generated in fiscal year 2003.
        <bullet> Initiation of excavation and shipment of remaining 
        estimated known scope (i.e., 38,000 tons) of contaminated soil 
        to a licensed disposal site.

    At Battelle-Columbus, fiscal year 2004 funding provides for:

        <bullet> Demolition of buildings JN-2 and JN-3.

    Integrate technology development and deployment: An integrated 
technology development and deployment program is an essential element 
for successful completion of the EM cleanup effort and for fulfilling 
post-closure requirements. The EM Technology Development and Deployment 
(TDD) program provides technical solutions and alternative technologies 
to assist with accelerated cleanup of the DOE complex.
    Through the fiscal year 2004 budget, EM technology development and 
deployment investments are focused on high-payoff site closure and 
remediation problems through a two pronged approach: Closure Projects 
and Alternative Projects.
    Closure Projects: Principal near-term closure sites (such as Rocky 
Flats, Fernald, and Mound) will be provided with technical support and 
quick response, highly focused technology development and deployment 
projects. The goal is to ensure that accelerated site closure schedules 
are achieved.

        <bullet> At Rocky Flats and the Ohio closure sites, technical 
        assistance teams will assess critical technical issues and 
        provide technology alternatives including the treatment and 
        disposition of orphaned waste streams.
        <bullet> At Mound, innovative technologies will be developed to 
        determine and enable treatment of radioactive contaminated soil 
        beneath buildings.
        <bullet> At Fernald, the vacuum thermal desorption 
        demonstration will be completed to provide a technical solution 
        for an orphaned waste stream.

    Alternative Projects: Alternative approaches and step improvements 
to current high-risk/high cost baseline remediation projects are our 
second focus. The goal is to enable cleanup to be accomplished safely, 
at less cost, and on an accelerated schedule. EM is focusing funds for 
fiscal year 2004 on:

        <bullet> Alternatives for tank waste immobilization;
        <bullet> Alternatives for carbon tetrachloride source term 
        location;
        <bullet> Alternatives for remediation of leaked high-level 
        waste below tanks;
        <bullet> Alternatives for disposition of high-level salt waste;
        <bullet> Alternatives for immobilization of high-level sludge 
        waste;
        <bullet> Alternatives for remediation of chlorinated ethenes 
        using monitored natural attenuation;
        <bullet> Alternatives for deposit removal at gaseous diffusion 
        plants;
        <bullet> Alternatives for cleanup of trichloroethylene under 
        buildings (Paducah); and
        <bullet> Alternatives for expedited processing of scrap metal/
        equipment.

                               CONCLUSION

    We planted the seedlings of transformation 1 year ago. We have 
fostered and guided the reforms. New ideas and breakthroughs have grown 
from looking beyond the paradigm of risk management to the new focus of 
accelerated risk reduction and cleanup. New strategies and plans are 
thriving.
    We are experiencing the realization that for the first time, the 
goal of completing EM's mission is within our grasp. We have set into 
motion a reformed cleanup program--one designed and managed to achieve 
risk reduction not just risk management; to shift focus from process to 
product; and to instill the kind of urgency necessary to clean up and 
close down the nuclear legacy of the Cold War and to protect human 
health and the environment.
    We are at a turning point for this program. We must not lessen our 
resolve. I ask for your support to continue this important work. We 
must avoid passing this intolerable inheritance to our children. 
Accelerating cleanup by at least 35 years and saving over $50 billion 
is a wise investment for our children's future.
    I look forward to working with Congress and others to achieve this 
goal. I will be happy to answer questions.

    Senator Allard. That is a good news report. I want to thank 
you for all your effort, and I know you have been involved in 
it from the very start.
    Mr. Owen, go ahead.

 STATEMENT OF MICHAEL W. OWEN, DIRECTOR, OFFICE OF WORKER AND 
           COMMUNITY TRANSITION, DEPARTMENT OF ENERGY

    Mr. Owen. Thank you, Mr. Chairman, and good morning. My 
name is Michael Owen, and I am the Director of the Office of 
Worker and Community Transition at the Department of Energy. I 
have also been directed by Secretary Abraham to lead the 
planning for and standup of the new Office of Legacy 
Management.
    To ensure our success, the Department must complete 
preparation for the orderly transition of long-term 
surveillance and maintenance activities to the Office of Legacy 
Management. Additionally, retirement benefits administration 
will transition to the Office of Legacy Management. This will 
be required after the completion of cleanup and closeout 
activities at Rocky Flats, Mound, and Fernald.
    As proposed in the Department's budget, the Office of 
Legacy Management would be a stand-alone program secretarial 
office with a separate budget line reporting directly to the 
Under Secretary of Energy. The Department, in the fiscal year 
2004 budget request, is proposing to establish this new office, 
to be funded at approximately $48 million.
    The environmental surveillance and maintenance efforts 
require approximately $26 million, slightly more than half of 
the proposed budget. Of the balance, about $12 million would be 
used to meet the requirements for pension and other benefits 
for former contractor personnel at four sites. The remaining 
approximately $10 million would be for program direction 
expenses to include personnel at offices in Washington, DC, 
Grand Junction, Colorado, the National Energy Technology Lab in 
Morgantown, West Virginia, and Pittsburgh, Pennsylvania.
    The Secretary with his budget proposes creating the new 
Office of Legacy Management, which would be put together from 
the personnel currently working at sites that I have mentioned. 
The Secretary with his budget proposes creating the new Office 
of Legacy Management to focus on the environmental surveillance 
and maintenance of sites whose missions have ended and the 
continuity of worker benefits at those closure sites. Because 
these functions have historically been included among the 
activities of the Office of Environmental Management, Secretary 
Roberson's office, the net budgetary effect of establishing the 
new office is neutral.
    Upon standup, the Office of Legacy Management would be 
responsible for such activities at more than 60 sites where 
active environmental remediation has been completed. The 
majority of these sites are Uranium Mill Tailings Radiation 
Control Act (UMTRCA) sites. Other sites transferring to Legacy 
Management also include sites associated with Formerly Utilized 
Sites Remedial Action Program (FUSRAP), the Weldon Spring site 
in St. Charles County, Missouri, the Monticello site in Utah, 
and the Young-Rainey Science, Technology, and Research (STAR) 
Center in Largo, Florida, better known as the Pinellas plant. 
Over the next 5 years, the number of sites to be managed by 
Legacy Management is projected to grow to approximately 80.
    The completion of the Department's missions also has an 
impact on the former contractor personnel at their respective 
sites. When the site contractor's cleanup functions are 
complete, pensions and other long-term benefits due to former 
contractor personnel still need to be administered.
    At this time the Department's oversight of post-closure 
benefits involves two programs at four sites. The office will 
administer selected post-retirement, post-closure benefits for 
the former contractor personnel at the Pinellas facility. The 
other program, involving three sites, administers certain pre-
existing liabilities and long-term contractor liabilities at 
the former gaseous diffusion facilities at Oak Ridge, 
Tennessee, Paducah, Kentucky, and Portsmouth, Ohio, where 
Environmental Management is still conducting site remediation.
    The Office of Legacy Management will oversee a program to 
continue the benefit payments that the Department, through its 
contracts, is committed to provide for the contractor employees 
at Rocky Flats as well as Mound and Fernald. We recognize that 
the Department has responsibilities to the communities 
following the completed remediation and closure of sites. 
Establishing the Office of Legacy Management will ensure that 
community concerns are represented by a dedicated office 
measured only by its success in meeting the defined needs of 
those communities.
    We believe the Office of Legacy Management will be better 
able to address these long-term issues in one office, while the 
Office of Environmental Management continues to focus on the 
environmental cleanup mission.
    That concludes my statement, Mr. Chairman. I would be glad 
to answer any questions on the Office of Legacy Management 
proposal, as well as my existing office, the Office of Worker 
and Community Transition, and the relationship between the two. 
Thank you.
    [The prepared statement of Mr. Owen follows:]

                   Prepared Statement by Michael Owen

    Good morning, Mr. Chairman, and distinguished members of the 
committee. My name is Michael Owen and I am the Director of the Office 
of Worker and Community Transition at the Department of Energy. I have 
also been directed by the Secretary to lead the planning and stand-up 
of the new Office of Legacy Management.
    The Department is making significant progress in addressing the 
consequences of our science, nuclear energy and national security 
missions. This is an important moment, and an opportunity to focus DOE 
programs and personnel on achieving the diverse missions of the 
Department. As you have heard (or will hear) from Assistant Secretary 
Roberson, the successful completion of the Office of Environmental 
Management's responsibilities requires a re-focusing of that program's 
efforts and a Department-wide approach to securing the continued 
protection of the environment and communities. To ensure our success 
the Department must complete preparation for the orderly transition of 
long-term surveillance and maintenance activities and retirement 
benefits administration to the Office of Legacy Management that will be 
required after the completion of cleanup and closeout activities at 
Rocky Flats, Mound, and Fernald.
    The Department, in the fiscal year 2004 budget request, is 
proposing to establish an Office of Legacy Management to be funded at 
approximately $48 million. The environmental surveillance and 
maintenance efforts require approximately $26 million, slightly more 
than half of the total. Of the balance, about $12 million would be used 
to meet the requirements for pension and other benefits for former 
contractor personnel at four sites. The remaining approximately $10 
million would be for program direction expenses of the personnel at 
Washington, DC, Grand Junction, Colorado, and at the National Energy 
Technology Laboratory in Morgantown, West Virginia, and Pittsburgh, 
Pennsylvania.

   CONTINUED COMMITMENT TO THE ENVIRONMENT, AND OUR COMMUNITIES AND 
                                WORKERS

    The new office will be responsible for ensuring that the 
Department's post closure responsibility including the administration 
of long-term pension and medical benefits for former contractor 
personnel and environmental surveillance and maintenance are fulfilled. 
The Secretary, with his budget, proposes creating the new Office of 
Legacy Management to focus on the environmental surveillance and 
maintenance of sites whose missions have ended and the continuity of 
worker benefits after site closure. Because these functions have 
historically been included among the activities of the Office of 
Environmental Management (EM), the net budgetary effect of establishing 
the new office is neutral. As proposed in the Department's budget, the 
Office of Legacy Management would be a stand-alone program secretarial 
office with a separate, discrete, free-standing budget and reporting 
directly to the Under Secretary of Energy.
    Placing these functions in a new office will allow EM to better 
focus its efforts on remediation, as well as permit the Office of 
Legacy Management to achieve significant efficiencies by consolidating 
programs of a similar nature and concentrating the long-term functions 
in one office dedicated to legacy issues.

 PROTECTING THE NATION'S INVESTMENT IN CLEANUP THROUGH EFFECTIVE LONG-
                   TERM SURVEILLANCE AND MAINTENANCE

    The Department's environmental legacy responsibilities stem 
primarily from the activities of the Department and predecessor 
agencies, particularly during World War II and the Cold War. These 
activities left behind a variety of radioactive chemical waste, 
environmental contamination, and hazardous materials at over 100 sites 
across the country, including such large sites as Rocky Flats in 
Colorado and the Mound and Fernald sites in Ohio which are scheduled to 
close.
    While the remediation activities conducted by EM will continue, the 
administration's focus on accelerating cleanup in order to achieve risk 
reduction and closure will mean that the EM mission will be completed 
at many sites earlier than previously predicted. However, certain 
aspects of the Department's environmental responsibility remain. These 
environmental surveillance and maintenance requirements differ 
according to the nature of the individual site, but generally include: 
groundwater monitoring and treatment, record keeping, radiological 
surveys, repairs to waste disposal caps and covers, erosion control and 
periodic inspections and the preparation and submission of post-closure 
regulatory documentation.
    Upon standup, the Office of Legacy Management will be responsible 
for such activities at more than 60 sites where active environmental 
remediation has been completed. The majority of these sites are Uranium 
Mill Tailings Radiation Control Act (UMTRCA) sites, and also include 
sites associated with the Formerly Utilized Sites Remedial Action 
Program (FUSRAP), the Weldon Spring Site in St. Charles County, 
Missouri, the Monticello site in Utah, and the Young-Rainey Science, 
Technology, and Research (STAR) Center in Largo, Florida (Pinellas 
Plant).
    Over the next 5 years the number of sites to be managed by the 
office is projected to grow to approximately 80.

   ENSURING THE EFFECTIVE MANAGEMENT OF CONTRACTOR PERSONNEL MEDICAL 
                         BENEFITS AND PENSIONS

    The completion of the Department's missions also has an impact on 
the former contractor personnel at the respective sites. When the site 
contractor's cleanup functions are complete, pensions and other long-
term benefits due to former contractor personnel still need to be 
administered.
    At this time, the Department's oversight of post-closure benefits 
involves two programs at four sites. The office will administer 
selected post-retirement/post-closure benefits for the former 
contractor personnel at the Pinellas facility. The other program, 
involving three sites, administers certain pre-existing liabilities and 
long-term contractor liabilities at the former gaseous diffusion 
facilities at Oak Ridge, Paducah, and Portsmouth where Environmental 
Management is still conducting site remediation. The latter includes 
activities and expenses associated with post-retirement life and 
medical benefits for contractor employees at the gaseous diffusion 
plants who served there prior to the 1993 creation of the United States 
Enrichment Corporation and for the retirees of the Ohio Valley Electric 
Company (OVEC) associated with the Portsmouth contract.
    Additionally, a significant increase in pension and long-term 
benefit administration will occur in the near future. In the past, the 
administration of pensions and benefits at closed sites were passed 
over to other DOE contracts. For example, the administration of 
Pinellas' pensions and benefits was transferred to an Albuquerque 
contractor. With the planned closure of Rocky Flats, this practice 
would no longer be a viable option given the magnitude of the Rocky 
Flats pension and benefit plans. Rocky Flats is scheduled to close in 
fiscal year 2006. The Office of Legacy Management will oversee a 
program to continue the benefit payments that the Department, through 
its contractors, is committed to provide for former contractor 
employees from Rocky Flats as well as from Mound and Fernald.

 ACTIONS TAKEN/NEEDED TO PLAN FOR AND CONDUCT THE STANDUP OF NEW OFFICE

    As part of my responsibilities to manage the standup of the new 
office I have formed interdisciplinary teams (legal, regulatory, 
logistics, personnel, communication) to ensure the transition of 
functions to the office is completed in an orderly fashion and that we 
seamlessly continue to serve our customers and stakeholders.
    The personnel involved in managing the activities of the Office of 
Legacy Management would come from three organizations. Generally, 
Washington, DC, personnel would provide overall oversight and 
coordination as well as establish policy. Program implementation at the 
sites would be performed by personnel located at our Grand Junction, 
Colorado, location and by personnel at the National Energy Technology 
Laboratory in Morgantown, West Virginia, and Pittsburgh, Pennsylvania.
    We are planning the standup of this office to consolidate multiple 
functions and provide affected communities, stakeholders, government 
regulators, and former contractor personnel a single point of contact 
for information, communication and expertise regarding legacy 
management issues. Furthermore, such consolidation will integrate 
functions for cross-cutting departmental policy issues and facilitate 
intergovernmental coordination. Most importantly, concentrating 
functions in an office dedicated to legacy management will heighten its 
visibility and, consequently, program accountability to the Secretary, 
Congress, and affected communities and organizations for successful 
performance.

                               CONCLUSION

    We recognize that the Department has responsibilities to the 
communities following the completed remediation and closure of sites. 
The continued involvement of stakeholders including state, tribal, and 
local governments, is critical to meeting these responsibilities. 
Establishing an Office of Legacy Management will ensure that community 
concerns are represented by a dedicated office, measured only by its 
success in meeting the defined needs of those communities and their 
constituents.
    In closing, the Secretary is dedicated to ensuring the Department's 
commitment to the environment, our communities and our workers. We 
believe the Office of Legacy Management will be better able to address 
these long-term issues in one office, while the Office of Environmental 
Management continues to focus on its environmental cleanup mission.
    Mr. Chairman, and members of the committee, that concludes my 
statement. I appreciate the opportunity to testify before you today, 
and I will be happy to answer any questions you may have.

    Senator Allard. Thank you very much for your report, Mr. 
Owen. You are just starting a new Office of Legacy Management, 
and I know there are a lot of challenges. I want to be helpful 
to both of you as you move forward in the future.
    It is not going to surprise you, Madam Secretary, when my 
first question is on Rocky Flats. It has been reported this 
week that as many as 33 workers at Rocky Flats may have been 
exposed to plutonium this past week. Can you give us an update 
on this incident? Also, were any of the workers found to have 
been exposed to plutonium, and what is being done to mitigate 
further exposure?
    Secretary Roberson. Thank you, Mr. Chairman. The event that 
you are referring to involved 33 workers during decontamination 
activities in Buildings 776 and 777. The initial investigation 
revealed that a ventilation damper was closed, which impacted 
the ability of ductwork to move upstream air into an air 
plenum. The mechanical linkage inside the duct that controls 
the damper movement via a control arm was defective and that 
arm would turn, indicating a different position than was 
actually occurring inside the ductwork.
    All 33 workers received initial sampling. The results 
indicated that three of these workers were above the site-
operating decision level. Two of those employees that were 
above the decision level have undergone additional testing, and 
we are awaiting the results of those results. Those workers 
have been removed from the building area for that work while we 
await those results.
    Area monitoring in this work area has indicated that the 
exposure in the area is below background, and we expect the 
additional testing results to be in within 21 days. We will 
keep those workers from that workplace until we validate that 
there was no exceedances.
    The site itself is conducting an investigation even today, 
and tomorrow my chief operating officer, Paul Golan, is being 
deployed to the site to make sure that we understand the 
circumstances and to make it clear how important it is to 
ensure that these kind of occurrences do not happen in the 
future.
    Senator Allard. Thank you.
    Now, the State of Idaho won a lawsuit against the 
Department of Energy on transuranic waste, and I know that 
because you are going through the legal aspects of it there are 
probably some limited comments that you could make at this 
particular hearing.
    Secretary Roberson. Right.
    Senator Allard. Without getting into the middle of ongoing 
litigation and since DOE may choose to appeal this decision, 
can you please quantify the potential increased cost created by 
the court decision where an additional 62,000 cubic meters of 
TRU waste may have to be removed from the INEEL site?
    Secretary Roberson. Well, Mr. Chairman, I can probably 
provide some bounding numbers for the record. I do not know off 
the top of my head what the range of impact would be. I would 
like to clarify that the court agreement that is at issue is a 
Batt agreement that has been in place for a number of years and 
the State of Idaho approached the legal system to request an 
interpretation as to whether buried waste was intended to be 
included in that order. This is the result of their request for 
an interpretation of that.
    I cannot say more because we simply just yesterday 
understood the results of that and I think our legal staffs are 
trying to decide what is an appropriate path forward.
    Senator Allard. What this committee would be interested in 
would be your giving us some kind of range on costs if you 
could. I know that we are very premature and we understand they 
are nothing more than just estimates, but do the best you can.
    Secretary Roberson. Okay.
    Senator Allard. Also, please estimate how long it might 
take. I know again this is a subjective approach and there are 
a lot of factors, but just do the best you can for this 
committee. We would appreciate it.
    [The information referred to follows:]

           Potential Increased Cost Created by Court Decision

    The Department is in the process of determining the appropriate 
remediation for the buried waste through the Comprehensive 
Environmental Response, Compensation, and Liability Act process. Our 
current estimate for retrieval, characterization, packaging, disposal, 
and long-term monitoring and maintenance of this buried waste is at 
least $10 billion. The current schedule estimate indicates that the 
work could not be completed before 2018.

    Secretary Roberson. We will. One other thing I would like 
to add, Mr. Chairman, is we have not exempted cleanup in this 
area from our accelerated cleanup plan for INEEL. But there is 
a CERCLA process that determines what removal needs to take 
place or not. So we have not predetermined action while this 
process proceeds.
    Senator Allard. Thank you.
    Senator Nelson, welcome. I know that you are battling a 
full schedule like all the rest of us around here. It is a very 
busy time.
    Senator Bill Nelson. I have not figured out how to clone 
myself.
    Senator Allard. I had two very important hearings going on 
today that affected Colorado, this one and another one in the 
Environment and Public Works Committee. I know how these things 
happen.
    When you showed up, we wanted to give you an opportunity to 
make an opening statement and then ask some questions if you 
like, and we will just switch back and forth.
    Senator Bill Nelson. Thank you very much. I will just get 
right into the questions.
    Mr. Owen, one of your duties is to ensure that the workers' 
pensions and health insurance are protected when the various 
sites and facilities are cleaned up and then when they are 
closed. It is going to extend to billions of dollars of pension 
funds and thousands of workers. What is your plan for 
protecting the workers and their benefits when their current 
employers are no longer DOE contractors and their jobs are 
gone?
    Mr. Owen. Yes, sir. This is exactly one of the reasons that 
Secretary Abraham directed that the new office be stood up and 
established. In addition to land legacies that the Department 
has to tend to, there is the people legacy. For the first time 
ever, we do have some fairly large sites closed or about to 
close. In Florida we have the Pinellas site. Workers are 
involved there. Just around the corner, Rocky Flats, Mound, and 
Fernald will close.
    For the first time ever, a site contractor or an M&O 
contractor will not be on site to tend to the traditional human 
resource needs of former contractor workers. We have recognized 
this, and we are working with the establishment of the new 
Office of Legacy Management to create a mechanism to allow for 
the administration of pension and medical benefits. We 
recognize the financial responsibility that we have for those 
workers. We are not trying to shirk that, and we are going to 
work to establish a system that will allow for a smooth, 
seamless administration of pensions and all issues associated 
with that, as well as these former workers' health benefits.
    Exactly the shape that that is going to be in, the form it 
will take, we are still working that out and we will share that 
with committee staff as we go forward. We have already been 
talking to them some about that. We are still planning for this 
new mechanism. It has to be in place ideally by mid-2005 so it 
is ready to accept Rocky Flats.
    As for the Pinellas folks we currently have their benefits 
funded for now, and they will be part of the new system. We 
were fortunate in that when the Pinellas plant closed, the M&O 
contractor was Lockheed Martin. They also had another site 
within the DOE complex, and they agreed just to transfer the 
administration of those benefits over to that site. But as we 
bring the new organization on board, we would anticipate that 
the Pinellas folks would be one of the first participants in 
the new mechanism.
    Senator Bill Nelson. What was the Pinellas plant?
    Mr. Owen. It was a facility that I believe worked on 
electrical component parts of some of our weapons systems. I 
would be hesitant to be held to that 100 percent, but I believe 
that was their primary mission. It is a well-contained, modern 
plant type of facility a little south of Tampa. We probably 
employed over a thousand people there.
    It is a success story for my office in how we were able to 
work with the local community for follow-on reuse and how the 
facility is now being reused by the local economic development 
authority. I believe there are actually more private sector 
workers in that facility today than DOE ever had. There is a 
small environmental remediation effort underway, a groundwater 
monitoring situation that we are monitoring and will continue 
to monitor.
    But it is a typical, fairly modern industrial plant. It is 
not a sprawling, hundreds of thousands of acres type of 
facility. It is very defined, and it is located in a very 
populated area.
    Senator Bill Nelson. When you go about closing down one of 
these facilities and cleaning it up, do you have in your 
process a way that the public comes in and has participation?
    Secretary Roberson. Senator, we absolutely do. All of our 
cleanups are conducted in accordance with some regulatory 
process which in and of itself requires public involvement. 
There are obviously different processes, whether it is RCRA, 
CERCLA, or a DOE-regulated process under AEA or NEPA. They all 
involve and mandate public involvement in those decisions.
    Senator Bill Nelson. Now, do you contract out to an 
insurance or financial company to ensure the benefits are there 
for the employees? If the vendor has financial difficulties, 
does DOE have any guarantee of those benefits?
    Mr. Owen. Yes, sir. As the situation is today, there are a 
large variety of pension plans and health benefit plans being 
used by our various contractors for our contractor workforce 
scattered across the country. If one of those plans were to be 
in the red at any given hour and there were a need to cash it 
out, the Department of Energy recognizes its responsibility to 
make that plan whole. Of course, many pension plans--and there 
are numerous ones throughout the Department--are contingent 
upon equity markets, and we all know that they have been 
heading south for the last couple of years. There are indeed 
plans currently across the complex nationwide that are in the 
red. If they had to be cashed out today, all the funds would 
not be available to do it and the Department of Energy would 
have to step in and cover that shortfall.
    On the medical benefits, there are no means to establish 
trust funds under the Internal Revenue Code to cover medical 
benefits in the out years. That has been historically and will 
continue to be a pay-as-you-go, 1 year-at-a-time securing of 
appropriations to support the medical benefits of our 
contractor employees currently working or already in retirement 
and their families who are entitled to those benefits.
    The new office that we are establishing is to better manage 
and administer all of those things, to allow us to get a better 
handle on it, especially as we start to lose contractors 
because of closures.
    Senator Bill Nelson. When you close a site, what is done to 
see that the employees have the same bargaining rights that 
they had previously?
    Mr. Owen. Maybe we can both try and chime in, kind of a tag 
team.
    If a site is closing, the workforce in most instances would 
no longer work for us. They would come to the end of their 
employment and, if they are eligible, go into retirement or 
wait for a deferred retirement, or find other alternative 
employment, which our office works to help them do through 
career transitioning.
    I do not know if, at this hour, we have an issue where a 
whole block of unionized workers are moving from one site to 
another and it is an issue concerning their collective 
bargaining agreement. I cannot cite one right now, Senator.
    Secretary Roberson. There are two points to be made. One, 
we certainly have sites where as work is done, the size of the 
workforce is reducing. Those workers, retirees for instance, 
are still a part of the bargaining unit, so as the active 
workforce negotiates benefits and other elements, the retirees 
are considered a part of that. But once the complete suite of 
work is done, there is no negotiation of a bargaining agreement 
at that point because there is no work to bargain around.
    Mr. Owen. Our policies concerning a site closure and the 
layoff of, say, people at Rocky Flats and, if there is an 
opportunity and the right skill mix requirements, say at Idaho 
or Pantex or wherever require that those employees have 
preferential hiring or right of first refusal type of 
guarantees. We work with them to make the rest of the complex 
nationwide aware that they are available to highly qualified 
radioactive welders at Rocky, five of them are going to come to 
the end of their employment there and do you need them at 
Pantex? Then they would have some preference if they wanted to 
relocate, and we would help them relocate with some financial 
assistance if need be or maybe even help with some retraining 
dollars if they need some retraining. They would receive some 
preferential consideration at another DOE site if an 
opportunity exists for them.
    Secretary Roberson. But upon that move, then they would be 
covered by the existing bargaining unit agreement at that site. 
It does not transport.
    Mr. Owen. The new site.
    Secretary Roberson. Right.
    Senator Allard. Very good. Thank you.
    We both have a number of questions to ask this morning. 
Several concerns have been raised in my office that the Energy 
Employee Occupational Illness Compensation Program (EEOICP), 
which is managed by the Department of Labor, is processing the 
workers' claims much too slowly. This is for you, Mr. Owen, as 
the Director of Worker and Community Transition and the future 
head of the Office of Legacy Management. What can be done to 
make sure workers at DOE facilities have an effective remedy 
through the EEOICP and by the Department of Labor, and what are 
you doing to help expedite the process?
    Mr. Owen. At this hour, I am not responsible for the 
administration of that specific program.
    Senator Allard. I see.
    Mr. Owen. It is a relatively new program. It is still being 
stood up, I believe, and there is always some hiccups 
associated with that. But that is not my responsibility. The 
oversight of that is by Assistant Secretary Beverly Cook, our 
Assistant Secretary for Environment, Safety, and Health.
    Senator Allard. Go ahead, Madam Secretary.
    Secretary Roberson. Mr. Chairman, I think I can contribute 
a bit because, as you are well aware, there are several 
elements of this program and I believe the concerns surround 
the processing of claims through State workers' compensation.
    Senator Allard. So it is the State compensation program 
that is slowing down the processing?
    Secretary Roberson. Well, it is the processing of claims 
through the State workers' compensation.
    Senator Allard. I see.
    Secretary Roberson. In each State we have, quite frankly, a 
different set of laws at the State level that govern. I am 
personally familiar with those claims that are in the system at 
each of our sites. I work very closely with our site manager in 
Kaiser-Hill on the ones that are specific to Rocky. I am 
familiar with those claims since the payment is directed 
through our contracts.
    There are two elements that we are working on. One is 
records retrieval and management; as you can imagine, when it 
comes to historical claims, it does indeed take some time to 
retrieve records. Then also it takes time working through the 
process.
    I know one of the concerns is once there has been a 
physician's positive finding of a physicians panel, we direct 
our contractor to make payments. Those claims are sent to State 
workers' compensation, and then the State also has a process to 
work through to determine the range of disability or impact. We 
are working aggressively--hopefully, you can tell by my 
statement that I am personally informed on those complaints 
that have positive findings that are to be paid by the 
Environmental Management program--and we are working very hard. 
As Mike said, it is a new program and so with every step we are 
learning and finding a way to improve it. We are working on 
shortening that cycle. But there certainly are two elements 
that are different from site to site.
    Mr. Owen. If I might add, Senator, Assistant Secretary 
Roberson in her comments mentioned the retrieval of records. As 
part of the Office of Legacy Management, we have recognized 
that a very large, new, evolving problem is records management. 
Legacy Management will be working on and addressing these 
records issues. The records required for environmental 
remediation have to be left open to the public and revised 
periodically, with periodic investigations and inspections, as 
well as the record of all those many employees who have worked 
there.
    As part of the new office we hope we will be able to come 
up with a good management system that will help everything move 
along better when it comes to records management and retrieval 
of what is turning out to be a very large amount of records 
that we are going to have to keep.
    Senator Allard. Now, can the workers go to one place and 
get all this managed in one place, or do they have to keep 
going to a number of different offices throughout this process?
    Secretary Roberson. For the workers' compensation program, 
I would venture to say the program was not designed to do that. 
That is why there are satellite offices set up across the 
country. We bear the burden of records retrieval and providing 
those records, but it is still a different task. I mean, we are 
dealing with records decades old, so the quality of the records 
and the ability to retrieve those and the contract history 
involved in retrieving those certainly proves to be a challenge 
in this venue.
    Senator Allard. I guess the question is, when a site 
closes, won't workers need one organization to interface with?
    Mr. Owen. On that type of thing, sir, they would interface 
with the Office of Legacy Management or outposts that we 
establish to deal with them. I would anticipate that at a large 
site, such as Rocky Flats, we will probably require that the 
contractor of the pensions and health benefits system set up by 
us maintain what I call kind of a downtown storefront office 
with benefits claims processors and experts that the people can 
come in and learn about the new system, especially the first 
couple of years after a site is closed. After that, they will 
get used to the new system and recognize that it is seamless.
    As we manage through all of these problems and the many 
problems of standing up the new office and some of the new 
things that come with closure and no M&O contractor any longer, 
the ability for workers to access their records and interface 
with us and maintain liaison with us is very important. It will 
be high on our checklist of things to do to make sure that that 
is as smooth and seamless as possible--these are anxious times 
for a lot of the workers. For some 70 years, Rocky has been out 
there and it is going to go away. There is not going to be a 
building; there is not going to be a little Human Resources 
office for them to go into. We have to make sure that they feel 
comfortable with that.
    Senator Allard. Will the DOE workers go to Legacy 
Management or will they have to go to other DOE organizations 
to seek remedies, Mr. Owen?
    Mr. Owen. Right now, if they have a specific remedy that 
they are seeking under the EEOICP, they would probably come 
into our same network and system to file that claim. But that 
is a very specific claim, a very specific program, a very 
specific statutory authority, working with State unemployment 
compensation folks.
    But ideally the public face that we put on as far as basic 
information and records retrieval and things like that are 
concerned, they would be working through the mechanisms that my 
new office will establish out in the field. We certainly, when 
we go back, will work with Assistant Secretary Cook. I have 
already met with her. As I look at the new records management 
requirements in my office, I have gone to Assistant Secretary 
Cook and said, ``Let's get our people together and determine 
what your requirements are so that we don't build the right 
thing without the other's knowledge.'' We will work for a 
smooth transition on that front and be fully coordinated with 
the very specific requirements of the EEOICP.
    Senator Allard. Thank you.
    Senator Nelson.
    Senator Bill Nelson. Is this Office of Legacy Management 
going to be responsible for additional cleanup required after a 
site is closed and the cleanup is completed?
    Mr. Owen. No, sir. The remediation, the cleanup, will have 
been completed. If, for example, that cleanup results in a tail 
being left there or say it is a groundwater contamination 
problem such as at the Pinellas plant and there is some pump 
and treat equipment, Legacy Management will oversee and make 
certain that those remedies are being properly maintained. We 
will conduct surveillance to see that they are doing their 
job--doing sampling and whatever else is necessary.
    But will we as such actually do the remediation? No. 
Secretary Roberson's office will do the remediation. When they 
are finished, they will pass it to me.
    Senator Bill Nelson. But once the facility is closed, who 
has the responsibility for any additional cleanup that might 
occur down the road?
    Secretary Roberson. May I? Thank you.
    Mr. Owen. You are talking about additional, new, unfound 
cleanup?
    Senator Bill Nelson. That is correct.
    Secretary Roberson. Well, I would say in general terms, the 
Department of Energy remains responsible for that cleanup. This 
does not remove that liability. The tool or organizational 
instrument that would be used 40 years down the road when we 
complete the current scope of this program is something that 
the Secretary has a team evaluating now and would be a long-
term instrument to ensure that the Department maintains the 
capability for remediation in the future, beyond where we are 
right now.
    Senator Bill Nelson. How do you go about budgeting for 
that?
    Secretary Roberson. The first thing that you do is you 
identify what is likely to be there, just as we budget today. 
Problem identification is a precursor to estimating what the 
cost would be. What the Secretary is committed to doing is 
maintaining the capability and the vehicle for doing so, but 
the specific problems obviously have to surface themselves 
before we could estimate the remedy.
    Senator Allard. I want to get back to some of our 
discussion on the accelerated cleanup with the three sites. We 
appropriated extra dollars to get that accomplished. I remember 
making a commitment to other cleanup sites that as these sites 
were completed, those freed-up dollars would be available to 
them to accelerate their cleanup. How does DOE plan to use the 
annual savings utilized by the closure of the three sites? Are 
they going to be used to accelerate cleanup on the remaining EM 
sites?
    Secretary Roberson. Mr. Chairman, the current application 
to cleanup in this program is a result of the Top-to-Bottom. 
You are absolutely correct; about 5 or 6 years ago the approach 
was to accelerate those sites and reinvest the savings from 
those in the cleanup of other sites. As a result of the Top-to-
Bottom, the Department made the determination that the cost to 
accelerate the cleanup of those sites based upon the strategies 
that resulted from that review with some minimal increase today 
would actually allow us to make a broader life cycle savings in 
the overall program.
    What you have before you in the 2004 budget request and 
what you saw in the 2003 budget request and congressional 
appropriation was an increase over what had been planned as a 
flat funding program. That peak over the next 2 to 3 years 
actually allows us to pull forward the cleanup at those sites 
so that those communities actually benefit in a more timely 
manner from a cleaner environment.
    Senator Allard. Thank you for your comments.
    As Environmental Management attempts to define the scope of 
the remaining cleanup responsibilities, NNSA continues to 
create additional waste streams and need for structures to be 
decontaminated and decommissioned. As far as you know, is there 
a plan for NNSA to mitigate their waste in a facility D&D scope 
that will not be added to the environmental management scope?
    Secretary Roberson. There are two things at work right now. 
One is, with the opportunity for accelerating this scope of 
work, it has provided the impetus to really look 20 years out 
at what environmental remediation work scope would avail itself 
and to actually plan structurally for that right now.
    The Secretary has established, I would say, an interagency 
team, since NNSA is a semi-autonomous agency, over the next 4 
months to actually dissect this issue and provide options for a 
decision as to how to go forward in the future. Taking into 
consideration the acceleration of this program, it brings 
issues like that to the forefront.
    It has been one of the clear benefits of the acceleration 
of this program. It is one of those challenges that was lying 
in wait and has come to the forefront that we must deal with 
now. The Secretary has set forth an effort to do that and to do 
that within this fiscal year.
    Senator Allard. Well, if NNSA is semi-autonomous, don't 
they maybe have a responsibility to do their own cleanup?
    Secretary Roberson. I think all options are available. I am 
not aware that there is a lean one way or the other, but I 
think all options are available, and the Secretary has been 
very clear that while they decide what the future may look 
like, my job is to demonstrate we are taking care of the 
present.
    Senator Allard. As a follow-up question--in your vision for 
Environmental Management, do you see it going out of business 
or should it continue to take on cleanup and waste business at 
some point in time?
    Secretary Roberson. I believe we have been very consistent 
in that there is a tremendous amount of work in this program 
that needs to get done, and continuing to expand it without a 
demonstration of doing, actually fulfilling, actually remedying 
issues that have been left in the environment, will not improve 
our ability to deal with future work scope. The Secretary has 
been very clear. Our job is to bound the scope that we have and 
demonstrate that we can do it and fulfill it; the leadership of 
the Department will identify options for completing future 
environmental cleanup.
    Senator Allard. Are there some advantages in your view to 
having the NNSA do their own cleanup?
    Secretary Roberson. Well, I would liken it to industry. In 
industry, the view is normally that if a generator has to make 
cost-benefit decisions, then they are likely to generate less--
to be more aggressive about pollution prevention. In the past, 
EM and NNSA have been very intertwined at these sites. But I 
believe that there is a benefit to tying pollution prevention 
principles to generation of materials directly.
    Did I answer your question, sir?
    Senator Allard. I believe you did.
    Senator Nelson.
    Senator Bill Nelson. As a follow-up to that, take, for 
example, when you close Rocky Flats in 2006, are you going to 
be able to, in your budget plan, redistribute the funds that 
were made available by the Rocky Flats closure? Are you going 
to be able to redistribute that to other sites?
    Secretary Roberson. The strategy we have laid out and we 
have been implementing for the last 18 months involves 
accelerating the cleanup of those sites. Five years ago the 
strategy was to accelerate Rocky Flats, Mound, Fernald, and a 
few smaller projects, reinvest that savings, and then pull 
forward the cleanup at those other sites.
    Through the Top-to-Bottom Review, we actually developed 
strategies with minimal investment to accelerate the cleanup of 
those other sites as well. Our longer term plan does not 
necessarily include reinvesting those fundings into the current 
cleanup. It may be available for cleanups that are now not a 
part of the Environmental Management program. But our strategy 
funds the accelerated cleanup of all of our sites today.
    It is, thus, a different strategy. Five years ago, the plan 
was level funding and pull as many sites as you could when you 
could underneath that level funding. In the last 2 years we 
have actually asked for a minimal increase to pull all of our 
sites forward in schedule. That is what allows us to take 35 
years off the overall schedule for the program.
    Senator Bill Nelson. Can you provide the committee with a 
funding plan for each of those things down the road?
    Secretary Roberson. Yes, sir.
    [The information referred to follows:]

                             Future Funding

    The administration is in the process of budget formulation for 
fiscal year 2005. With the conclusion of this process, the fiscal year 
2005 budget request will provide you our funding plan to achieve the 
new ``minimal investment'' acceleration strategy and its associated 
risk reduction and cleanup goals.

    Senator Bill Nelson. May I ask some other questions?
    Senator Allard. Yes, go ahead, Senator.
    Senator Bill Nelson. Does your 2004 budget request fully 
fund the DOE's obligations in the various agreements?
    Secretary Roberson. I believe it does.
    Senator Bill Nelson. All right. You initiated an effort to 
renegotiate the cleanup agreements with States and EPA to focus 
on risk reduction. Can you explain what this means from a 
practical perspective?
    Secretary Roberson. What it means from a practical 
perspective, as with any project, whether it is in industry or 
in government, we drew conclusions 10 years into this program--
and obviously it was validated not just by the Department's 
Top-to-Bottom Review, but reviews by GAO, IG, and many others.
    At the 10-year mark in this program, it was time to 
reevaluate both the strategy and approach to cleanup. In doing 
that reevaluation, we were able to apply lessons learned, 
technology developments, and, quite frankly, a more capable 
pool of resources to designing the logic for cleanup. The 
problems are there. We are not changing the problems. But our 
approach in the sequencing of addressing those is really the 
result of the Top-to-Bottom Review that impacts our cleanup 
approaches and our agreements at some of our sites.
    The way our cleanup agreements are structured is unchanged. 
They include processes defined that includes regulatory 
collaboration and decisionmaking, and public collaboration and 
decisionmaking. Those were processes used during development of 
the Performance Management Plan (PMP). Then there is a section 
that involves regulatory milestones.
    Within the process of applying our cleanups, they all 
include steps to go through to change milestones. With or 
without the accelerated cleanup, that is the case and that has 
always been the case, and milestones do evolve as we learn and 
we experience. We view this as learning and experience and the 
evolution of it does have some limited impact on the sequencing 
and scope of milestones.
    Senator Bill Nelson. Well, in that budget do you get the 
same level of cleanup or does that cleanup start to change?
    Secretary Roberson. I believe in many cases we get a better 
cleanup sooner. The approach to cleanup and the end result I do 
not believe are necessarily disconnected. Am I answering your 
question?
    Senator Bill Nelson. Well, what about fines for 
noncompliance for the EPA and the States?
    Secretary Roberson. Are funds for fines included? Is that 
your question?
    Senator Bill Nelson. No. The various agreements that you 
have include what are known as these enforceable milestones 
that you just talked about.
    Secretary Roberson. Right.
    Senator Bill Nelson. They allow the States and the EPA to 
assess those penalties or fines for noncompliance. Are there 
any States at the moment that are contemplating assessing such 
fines or penalties, do you know?
    Secretary Roberson. None that I am aware of directly 
related to our accelerated cleanup initiative. At the Hanford 
site, I believe they are assessing a fine because we were late 
on meeting a milestone of sludge removal from spent-fuel 
basins. At Idaho I believe there was a fine recently assessed 
for missing a milestone.
    Our going-in assumption has to always be that the 
regulators have the same goal in accomplishing the cleanup that 
we do. Actually, the steps we went through in this program were 
to revalidate that was the case, that the goals that we sought 
are the same. We may indeed have disagreements on the steps to 
achieving that along the way.
    But our agreements have processes through which we work, 
and that is not new. Two years ago I could have probably listed 
out two or three fines that were in debate between ourselves 
and the regulators. We have not created any new structure with 
this program.
    Senator Bill Nelson. Is it your experience in dealing with 
EPA that they are doing their job or are they dragging their 
feet?
    Secretary Roberson. Well, that is a hot question. To be 
honest, I tend to be more self-critical. I think if they are 
dragging their feet, it is because we are not leading. I tend 
to focus more on are we dragging our feet, are we stepping out, 
because we are responsible for actually doing this work. We do 
not have to be dragged along the way to do it.
    My goal is for us to be out front in demonstrating we 
understand it, we are committed to it, and we know how to do 
it. This way I do not need EPA or the States to drag us along. 
That is the way we should be doing our work.
    Senator Bill Nelson. We appreciate your commitment. What if 
you were not so committed? Would EPA be there cracking the 
whip?
    Secretary Roberson. If the Department were not so 
committed, I think history shows that they would be there 
cracking the whip.
    Senator Bill Nelson. I hope you are right, but I do not 
have faith.
    Thank you.
    Senator Allard. I think I have about four questions left on 
my side. On that response, I think Colorado has been cracking 
the whip if I recall correctly and keeping the pressure on.
    Secretary Roberson. May I, Mr. Chairman, just add one 
comment?
    Senator Allard. Yes.
    Secretary Roberson. I think the States, EPA, and DOE have 
to be focused on the same set of goals because we are all there 
to produce a better environment for the people in the 
communities and in the States that we work in. We have to be 
careful not to relate cracking the whip to just more 
milestones. One of the changes that we are trying to make in 
this program is to ensure that we are all focused on the 
accomplishment of physical results--problems solved, material 
gone. We do not just contain and maintain compliance, but we 
reduce those risks because they get no easier in the future.
    Sometimes we confuse more milestones with risk reduction 
and remediation, and they are not the same. That is a challenge 
in this program.
    Senator Allard. Let me address this to Mr. Owen, and I will 
just ask you a direct question here. Would there be value in 
folding the Worker and Community Transition Office into the 
Office of Legacy Management so there is one office which is 
responsible for all legacy issues?
    Mr. Owen. Yes, sir. Our budget submission shows the offices 
as separate and freestanding. We debated that long and hard 
prior to sending the budget to Congress. We decided to take the 
course we did because we felt it added emphasis to the 
importance of the new Office of Legacy Management.
    Clearly, because of many of the things that the Worker and 
Community Transition Office is doing, it is a very natural 
glove-fit to have it run by the same Office of Legacy 
Management. They are out there dealing with local communities, 
which will be a big responsibility of Legacy Management. They 
take the worker up to that last split second when he goes off 
the payroll and Legacy Management picks him up and carries him 
on through retirement. It seems very logical that the two 
offices be merged together. We would support that, and, as 
either the manager of both of the offices or the merged office, 
I would personally find it an easier management process if they 
were merged together.
    Senator Allard. In creating the Office of Legacy 
Management, why didn't the administration just go ahead and put 
the Worker and Community Transition right in the Legacy 
Management at the start?
    Mr. Owen. Well, again, we seriously debated that and we 
really wanted to lead with the new emphasis on Legacy 
Management to show its importance. We did not want to appear as 
though maybe it was being diluted in another office because it 
is certainly not going to be. It was a decision we debated. We 
could have gone either way. We decided to send it separately 
because we did not want it to be diluted. But the marriage of 
the two just begs of common sense.
    Senator Allard. How soon do you think that will happen?
    Mr. Owen. Well, we plan to stand up the new office on 
October 1, 2003, and we could on October 1 have the merger 
accomplished as well if there is support for that on Capitol 
Hill, if the appropriations come back aligned accordingly. Now 
there are two budget lines, but with some language coming back 
from here, we could do it October 1.
    Senator Allard. We would like to work with you on that. I 
think we could combine that, and I think it would help if we 
could.
    Mr. Owen. Thank you.
    Senator Allard. On security and safeguards, does the fiscal 
year 2003 appropriation for safeguards and security provide 
enough funding for the Environmental Management program to 
provide adequate security while maintaining the cleanup and 
closure schedules, Madam Secretary?
    Secretary Roberson. Mr. Chairman, first of all, I would 
like to express our gratitude to Congress. In the omnibus 
budget there was an inclusion of a reprogramming that actually 
did indeed put the Environmental Management program in a solid 
position for this fiscal year based upon a security level 3.
    Obviously, we are at an enhanced security level, and we are 
pretty close within the Department to understanding the impacts 
of that if we have to maintain it for the balance of the fiscal 
year. I am sure we will be communicating very soon. There 
clearly will be some impacts because that changed security 
posture results in some additional costs, although we think 
minimal. But the Department is evaluating all of its programs 
at this time.
    Senator Allard. What kind of plans do you have for closure 
on the final details? Have you come up with some final details 
for closure and how those details can be verified in the three 
sites that we have accelerated plans?
    Secretary Roberson. The three specific sites? At Mound, 
Fernald, and Rocky Flats, as you well know, once you have 
agreement among the public and the regulators as to what the 
bounding scenario is--for instance, at the Rocky Flats wildlife 
refuge; at Fernald, county park and wetlands; and at Mound, 
transition to the city of Miamisburg for industrial use--then 
the regulatory process aims to lay out the details of how you 
get there to accomplish that.
    I would say I think we are in pretty good shape on those 
three. We will continue to have details to work out, both with 
the regulators among ourselves and with the community. But I 
think we are in a pretty solid path, better than we have ever 
been before on any site.
    Senator Allard. Now I have a number of questions that I 
want to ask on the Savannah River Site and then I will pretty 
well be able to wrap mine up. On Savannah River, are there any 
waste streams which are planned to go through the F Canyon now 
or in the future?
    Secretary Roberson. No, sir, none that I am aware of.
    Senator Allard. Are there any materials held by 
Environmental Management or the National Nuclear Security 
Administration which need to be disposed of and which must be 
or should be processed through F Canyon to reach a safe 
disposition?
    Secretary Roberson. No, sir. We believe H Canyon can meet 
the Environmental Management needs and the future needs of the 
National Nuclear Security Administration.
    Senator Allard. There are not any materials being held by 
Environmental Management or NNSA?
    Secretary Roberson. There are no materials being held by 
Environmental Management. The question with NNSA is future 
release of materials, things that are not before us right now, 
and ensuring that the capability is maintained to process any 
future materials. We believe that H Canyon still provides that 
capability. Obviously, that is a result of the size of the 
stockpile and modernization at some of the different sites. But 
we believe H Canyon can provide that long-term capability and F 
Canyon is not needed.
    Senator Allard. As far as you know, are there any reasons 
now or in the foreseeable future why we would need F Canyon to 
meet the national security mission?
    Secretary Roberson. No, we believe that F Canyon is 
available--is no longer needed for the future mission of any of 
our programs.
    Senator Allard. Any reason why F Canyon should not be 
dismantled?
    Secretary Roberson. Well, we do have a congressional hold 
point that we are attempting to resolve between ourselves and 
the Defense Nuclear Facilities Safety Board and committee 
staff, but there is no work-off to be done. We have completed 
processing all the necessary material in that canyon.
    Senator Allard. What is your plan for the H Canyon there at 
Savannah River?
    Secretary Roberson. Currently, in the Environmental 
Management program, our processing needs for H Canyon that are 
within the scope of this program would be completed in about 
2008. Right now the National Nuclear Security Administration is 
evaluating its needs beyond that period of time and could very 
well result in H Canyon needing to be available to process 
materials that come out of NNSA in the future. I do not know 
what those material streams would be. They are in the process 
of determining that right now.
    Senator Allard. Is Environmental Management going to make 
sure that all materials which need to be processed through H 
Canyon will be processed before any decommissioning of H 
Canyon?
    Secretary Roberson. Absolutely, and I think the Secretary 
has made that commitment.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. I am asking you, under current law, 
DOE is required to specifically request funds in a line item, 
as is DOD, for anything that is over $5 million. Can you 
explain how your 2004 budget request would propose to modify 
the current law?
    Secretary Roberson. I do not think that we do propose the 
current law. Is this an issue of the proposed structure, the 
reduction of the number of construction line items?
    Senator Bill Nelson. I am asking you, under current law, 
construction projects over $5 million have to have a line item. 
Is there any in your budget that does not obey current law?
    Secretary Roberson. I do not believe it does because the 
bulk of this program is not construction line item and was not 
before the 2004 budget request.
    Senator Bill Nelson. Do you propose to change that current 
law?
    Secretary Roberson. I do not propose to change that current 
law, sir. What the administration has proposed and I obviously 
support is the elimination of certain interim activities as 
construction line items. We clearly proposed a new budget 
structure for this new program in the 2004 budget request. That 
budget structure is a result of lessons learned from the 
closure initiatives of the past year. We did not invent this 
for the rest of the complex. We are simply taking the lessons 
learned from Rocky, Fernald, and Mound and applying them to the 
remediation activities at all of our operations across the 
complex.
    What it entails is it does, indeed, provide greater 
accountability in that by providing to Congress visibility of a 
subset of the billions of dollars spent in this program, 
somewhere around 20 percent of the funds, we would report on 
the totality of the funds, almost 80 percent of the funds that 
come in this program. Our goal is to structure the entire 
program applying our project management order, not just to the 
construction line items, but the entire project. The entire 
program is a set of projects from site to site that have some 
defined end point to be accomplished.
    That is the way the reporting and the budgeting would 
occur. We call them project baseline sheets that are provided 
to Congress to define the scope of work at each site. Major 
pieces of work, including life cycle costs, would be handled as 
a project, even though it isn't a construction project.
    Let me just give you an example of why this is important. 
Savannah River, Hanford--the major drivers of funds utilization 
in this program are remediating our tank farms where we have 
liquid radioactive waste below ground. This year we have 
construction line item projects for constructing waste removal 
systems on top of tanks, and we have hundreds of these tanks. 
The removal system above each tank is a construction line item.
    What we are attempting to do is to create more mobility and 
flexibility on a real-time basis to remove waste because that 
is the result. What should be important is not the increment 
that is spent on constructing a system on top, because we would 
like for them to learn from each other in real time, but how 
much waste is actually removed in a reasonable time frame.
    We have proposed substituting construction line item 
projects that are increments of accomplishing work for 
visibility of the actual accomplishment of the work that makes 
the environmental difference in what we spend dollars on.
    Senator Bill Nelson. Okay. But let me tell you, you could 
get into some touchy territory here because this whole process 
is about the constructive and healthy tension between the 
executive branch and the legislative branch, which funds the 
executive branch. The idea of being in there is that the 
requirement of $5 million plus for a construction project the 
legislative branch has the oversight and the spending 
authority.
    This is the way the constitutional fathers created this 
remarkable experiment that we have been engaging in for over 2 
centuries. I want to make sure that we are not suddenly 
creating a category that is skirting for future administrations 
this requirement of our appropriations oversight.
    Secretary Roberson. Well, Senator, that is certainly not 
our intent. Clear and simple, our intent is just as I 
explained. I would be more than happy to work with Congress to 
make sure that we address any concerns in a way that will be 
satisfying. I also would continue to like to have the 
opportunity to explain why I think it is so critical to this 
program.
    Senator Allard. Senator Nelson, if I can step in here. We 
have a good model at Rocky Flats, and Madam Secretary was 
involved with that. It is when you put these certain goals that 
become inflexible in the process that it does not make sense. 
What we found at Rocky Flats is that sometimes you run into a 
problem and you can do work over here. While you are doing work 
over here, you resolve this problem, and then you can come back 
to it.
    Secretary Roberson. Exactly.
    Senator Allard. It keeps you moving during the process. 
That is how the committee has looked at this in the past, and 
we have decided that you need to put some confidence in what is 
happening on the ground so that you do not cause delay of 
cleanup. The purpose of the committee has been to see rapid 
cleanup--at least see it accelerated past what it was and that 
was one of the key milestones in getting rapid cleanup to 
occur--to ensure that we did not make it so fragmented that we 
run into these milestones that created problems.
    Go ahead.
    Secretary Roberson. I was just going to say, Mr. Chairman, 
you are absolutely right, and it is the same approach that we 
applied to ourselves, we applied to our contracts, and that 
many of our regulatory agreements are coming around to. We are 
going to run into challenges and problems that are going to 
slow work down. What we have looked at is any wall that would 
prevent us from applying resources, human and financial, to 
ensure that we continue to move forward on other activities 
while we address whatever issues may arise on a specific 
activity, which is critical to being able to accomplish the 
work before us.
    Senator Bill Nelson. If at the end of the day what you are 
trying to do is to close a site and to get it done as quickly 
as possible and as efficiently as possible, what about 
considering the advantages of budgeting by site closure instead 
of by closure year? Do you understand what I am saying?
    If I understand your proposal, each of the sites is 
allocated a portion of your account based on when they 
anticipate they would close or the cleanup would be complete. 
Would it make more sense to budget that by site?
    Secretary Roberson. Well, this is the balance we attempted 
to strike, and I think it is critical to maintain this balance. 
What we are proposing to do in the 2004 budget structure is to 
budget by fulfillment of activity--spent fuel removed from wet 
storage and nuclear material packaged and in storage. There may 
be five specific activities at a site. But we believe the 
offset is to demonstrate progress. With budgeting by site, what 
we think is critical is to hold ourselves accountable for 
accomplishing results, not just funding the site, but making 
visible what is to be accomplished by major activity.
    I think we have proposed to go one level down for the 
reason that we want accountability. We are asking for 
flexibility in being able to accomplish it, but we also know 
that one of the things that is going to get this job done is to 
maintain accountability for fulfilling the specific physical 
results that we have committed to do.
    Senator Bill Nelson. In the past there was a distinction 
between the waste management and the treatment accounts and the 
accounts devoted to the cleanup of soil and water. Is this 
distinction no longer important?
    Secretary Roberson. In our project baseline summaries, 
which are what is provided as the basis for our budget request 
in this program, I think we have identified somewhere between 
seven and nine distinct accounts that cross every site. 
Savannah River would have an account for soil and water 
remediation, with a life cycle cost and a schedule for 
completing that. Hanford would have the same. Rocky would have 
the same. Savannah River would have a tank farm closure summary 
as well, as a subproject to the cleanup of that site. Hanford 
would have the same.
    It would be a consistent set of subprojects across the 
whole complex that you would see repeated with a schedule and a 
life cycle cost for that specific site.
    Senator Allard. I do not have any more questions. Senator 
Nelson, have you wrapped it up?
    Senator Bill Nelson. Let me just check here.
    Senator Allard. While he is checking to see if he has any 
more questions, there may be a few questions for the record 
that we will want to submit to both of you. I just ask that if 
we have those questions that you could respond back to us 
within the 10-day period.
    Mr. Owen. Yes.
    Secretary Roberson. Yes, sir.
    Senator Allard. If for some reason you cannot make that, if 
you would let us know and the reason why. Most of these 
questions probably will be in regard to Rocky Flats closure on 
some of the specific concerns that we hear there from time to 
time.
    Mr. Owen. Yes, sir.
    Secretary Roberson. Yes, sir.
    Senator Bill Nelson. I am fine.
    Senator Allard. Thank you, Senator Nelson.
    I want to thank the panel. I think this has been a good 
hearing. Thank you very much.
    Secretary Roberson. Thank you.
    Mr. Owen. Thank you.
    Secretary Roberson. Thank you both.
    Senator Allard. The committee is adjourned.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Wayne Allard

RESPECTIVE ROLES REGARDING THE DEVELOPMENT OF STEWARDSHIP POLICIES FOR 
                             CLOSURE SITES

    1. Senator Allard. Secretary Roberson and Mr. Owen, the successful 
closure of a site necessitates incorporating long-term stewardship 
requirements into remedy selection. What are the respective roles of 
Environmental Management (EM) and Legacy Management (LM) regarding the 
development of stewardship policies for closure sites?
    Secretary Roberson and Mr. Owen. The Department of Energy is 
addressing long-term stewardship with a Department-wide, corporate 
strategy. The Office of LM will lead the coordination and development 
of policy for the Department. The Office of EM will participate in the 
LM-led development of policy to provide perspectives on cleanup and 
remediation plans and strategies.

    2. Senator Allard. Secretary Roberson and Mr. Owen, if LM is 
charged with developing such long-term stewardship policies, what 
measures will be put in place to ensure the closure sites do not 
receive conflicting policy direction regarding remedy selection and 
related post-closure long-term stewardship needs and commitments from 
EM and LM?
    Secretary Roberson and Mr. Owen. Remedy selection and remedy 
maintenance, which includes long-term environmental surveillance and 
maintenance, are clearly interrelated activities. Therefore, EM and LM 
will work closely to ensure that EM's remedy decision policies and LM's 
post-closure policies are consistent. Thus, as part of the remediation 
process, EM will consider and make policies regarding active 
remediation, taking into account the long-term protectiveness and life-
cycle cost of implementing a chosen environmental remedy, as required 
by applicable law and regulation. LM will consider and make post-
closure policies regarding the long-term surveillance and maintenance.

    3. Senator Allard. Mr. Owen, LM will be charged with ensuring the 
long-term effectiveness of remedies and will house the long-term 
stewardship subject matter experts. Given that the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA) 
explicitly provides that the long-term effectiveness of remedies be 
considered when selecting remedies, does LM intend to be involved in 
the selection of remedies? If so, how?
    Mr. Owen. As part of long-term surveillance and maintenance 
activities, LM will evaluate the effectiveness of remedies for sites 
under its authority. Additionally, LM will work with and provide data 
to EM for its consideration in future remediation decisionmaking.

    4. Senator Allard. Secretary Roberson, if LM does not intend to be 
involved in the selection of remedies, how will EM continue to 
integrate long-term stewardship into remedy selection and coordinate 
with LM?
    Secretary Roberson. EM is charged with putting environmental 
remedies in place that comply with applicable laws and regulations, 
such as the Comprehensive Environmental Response, Compensation, and 
Liability Act. Thus, long-term stewardship considerations are 
integrated into remedy selection as part of the regulatory process.

    5. Senator Allard. Secretary Roberson and Mr. Owen, given the 
aforementioned integration of remedy selection and long-term 
stewardship planning, when Rocky Flats personnel call the Department of 
Energy Headquarters with stewardship planning questions, who answers 
the phone, EM or LM?
    Secretary Roberson and Mr. Owen. During closure and environmental 
remediation operations at the site, EM site personnel will continue to 
report and consult with EM personnel at headquarters. However, EM and 
LM will work together in a consolidated effort to ensure that sound 
stewardship decisions are made during and after closure.

    6. Senator Allard. Secretary Roberson and Mr. Owen, similarly, will 
a long-term stewardship subject matter expert remain with EM, or will 
all responsibilities be transferred to LM?
    Secretary Roberson and Mr. Owen. LM will have personnel with long-
term stewardship and long-term surveillance and maintenance expertise. 
EM's Office of Long-term Stewardship personnel will transition to LM. 
The offices of EM and LM will work closely together.

                     ROCKY FLATS CLEANUP AGREEMENT

    7. Senator Allard. Secretary Roberson and Mr. Owen, at Rocky Flats, 
DOE and the regulators have committed that the long-term stewardship 
plan will be adopted as part of the final closure documents. Further, 
under the Rocky Flats Cleanup Agreement, the Environmental Protection 
Agency (EPA) and Colorado Department of Public Health and the 
Environment (CDPHE) must, as a regulatory matter, approve the 
stewardship plan. Which program office (EM or LM) will be responsible 
for developing, finalizing, and seeking the approval of the plan by the 
EPA and CDPHE?
    Secretary Roberson and Mr. Owen. EM is and will continue to be 
responsible for conducting all necessary cleanup and remediation 
activities, including developing required plans and finalizing 
regulatory documentation. However, LM and EM will work together to 
coordinate the development of Rocky Flats' long-term stewardship plan 
and other documents, as necessary, associated with the long-term care.

    8. Senator Allard. Mr. Owen, currently all DOE-Rocky Flats staff 
work for EM, including site staff that focus on long-term stewardship. 
Will LM staff be assigned to Rocky Flats prior to closure so that they 
can be involved in developing the stewardship plan?
    Mr. Owen. Not at this time. However, on-site EM staff will 
coordinate with LM staff to develop any required documents.

              CRITERIA FOR TRANSFERAL OF SITE JURISDICTION

    9. Senator Allard. Secretary Roberson and Mr. Owen, what criteria 
will EM and LM use for determining when site jurisdiction should be 
transferred from one program office to another? What criteria will EM 
use to determine a site can be designated as closed?
    Secretary Roberson and Mr. Owen. The Department will use the draft 
revised Life-Cycle Asset Management process for transferring site 
responsibility between programs. This process is a detailed management 
tool for ensuring clear lines of accountability and authority for sites 
before, during, and after transfer. EM and LM personnel are familiar 
with this process as they assisted with its development and revision. 
The Department will determine a site's readiness to close pursuant to 
all applicable laws, regulations, and agreements.

    10. Senator Allard. Secretary Roberson and Mr. Owen, will LM have 
veto authority over the transfer of a site to its jurisdiction?
    Secretary Roberson and Mr. Owen. There is no ``veto authority'' 
between departmental programs. Any issues that may arise regarding the 
transfer of sites from EM to LM will be discussed and resolved by the 
Department's senior management.

    11. Senator Allard. Secretary Roberson and Mr. Owen, how will 
disputes be resolved?
    Secretary Roberson and Mr. Owen. Issues or disputes between EM and 
LM will be resolved by the Department's senior management.

      COST-ESTIMATES FOR POST-CLOSURE LONG-TERM STEWARDSHIP PLANS

    12. Senator Allard. Mr. Owen, currently, DOE field offices, 
including Rocky Flats, are required to develop cost estimates for 
implementing post-closure long-term stewardship plans. Presumably, 
these costs estimates will be updated annually. Assuming EM continues 
to develop the cost estimates, what will be LM's role in this process?
    Mr. Owen. LM will review and analyze cost estimates to ensure they 
are adequate to meet requirements.

    13. Senator Allard. Secretary Roberson, conversely, if LM assumes 
responsibility for developing these cost estimates, what will be EM's 
role in that process?
    Secretary Roberson. EM's role is, and will continue to be, 
development and selection of remedies, taking into consideration the 
long-term effectiveness and cost of the selected remedy.

    14. Senator Allard. Secretary Roberson and Mr. Owen, likewise, what 
steps will LM and EM take to ensure the cost estimates are factored 
into remedy selection analyses? This question is extremely important 
because CERCLA mandates that both cost and long-term effectiveness be 
factored into remedy decisionmaking.
    Secretary Roberson and Mr. Owen. The Comprehensive Environmental 
Response, Compensation, and Liability Act, as well as the Resource 
Conservation and Recovery Act, require the Department to develop and 
analyze remedial options while considering the long-term implications 
and cost. EM takes into account and considers the long-term 
effectiveness and cost of all remediation decisions. In addition, LM 
will review and analyze cost estimates to ensure they are adequate to 
meet requirements.

                    LM TOOLS AND STAFFING RESOURCES

    15. Senator Allard. Mr. Owen, once a site has been closed and 
responsibility has been transferred to LM, what tools and staffing 
resources will LM have to maintain and repair remedies and implement 
response actions?
    Mr. Owen. LM will request the financial resources and be staffed 
with personnel who have the knowledge and experience needed to conduct 
an effective and efficient long-term surveillance and maintenance 
program. LM will be staffed with existing personnel from DOE 
Headquarters and a number of DOE sites, including personnel from DOE 
sites located in Morgantown, West Virginia; Pittsburgh, Pennsylvania; 
and Grand Junction, Colorado. Much of that staff has long-term 
surveillance and maintenance experience as they perform these 
responsibilities at numerous sites today. LM's core staff will adjust 
accordingly to perform complex long-term surveillance and maintenance 
requirements at an increasing number of closure sites. Additionally, LM 
is currently factoring the estimated increase in site responsibility 
into future program budget, planning, and staffing profiles to ensure 
the office has access to the resources needed to properly manage legacy 
responsibilities.

    16. Senator Allard. Mr. Owen, is DOE's assumption that in shifting 
the Grand Junction Office to LM that Grand Junction will be charged 
with these critical responsibilities?
    Mr. Owen. The Grand Junction staff has been responsible for long-
term surveillance and maintenance activities at numerous sites since 
1988. This management and long-term surveillance and maintenance 
expertise will be drawn upon as LM goes about its responsibilities.

    17. Senator Allard. Mr. Owen, what tools and staffing resources 
will LM have to research and develop new technologies that could be 
applied to remedies to either improve the remedies or replace the 
remedies?
    Mr. Owen. LM will actively coordinate and integrate Federal 
research and development (specifically the work of the Department's 
Office of Science) into our program. Additionally, LM will use the 
draft Long-term Stewardship Science and Technology Roadmap as a 
framework for identifying research and development opportunities and 
for leveraging existing investments in long-term stewardship related 
science and technology.

                      MAINTAINING PHYSICAL RECORDS

    18. Senator Allard. Secretary Roberson and Mr. Owen, which office 
(EM or LM) will maintain physical records regarding mission work, 
cleanup activities, and long-term stewardship?
    Secretary Roberson and Mr. Owen. In general, LM will be responsible 
for and receive custody of all departmental closure site records as 
sites are transferred to LM for long-term surveillance and maintenance. 
Currently, LM and EM are coordinating these record management efforts 
with the Department's Chief Information Officer, the Office of 
Environment, Safety and Health, and other affected responsible 
entities.

            ROCKY FLATS NATIONAL WILDLIFE REFUGE ACT OF 2001

    19. Senator Allard. Secretary Roberson and Mr. Owen, under the 
proposal, LM, not EM, will be charged with managing Rocky Flats once 
the site is closed and delisted from the CERCLA National Priorities 
List. Per the Rocky Flats National Wildlife Refuge Act of 2001, DOE 
will be charged with implementing the Memorandum of Understanding (MOU) 
that is now being negotiated between EM and the U.S. Fish and Wildlife 
Service. Should LM, the agency that will be charged with implementing 
the MOU, be involved in the development of the MOU?
    Secretary Roberson and Mr. Owen. The EM's Office of Long-term 
Stewardship staff, which will be transitioning to LM, has participated 
in the past, and will continue to actively participate, in the 
development of the MOU. LM will continue to work with EM staff on the 
MOU and will coordinate with EM on any agreements that provide for or 
affect the management of sites after closure.

    [Whereupon, at 11:20 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2004

                              ----------                              


                         TUESDAY, APRIL 8, 2003

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                      STRATEGIC FORCES AND POLICY

    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Reed, and Bill 
Nelson.
    Majority staff members present: L. David Cherington, 
counsel; Brian R. Green, professional staff member; and Mary 
Alice A. Hayward, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; and Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Andrew Kent and Sara R. Mareno.
    Committee members' assistants present: Douglas Flanders and 
Jayson Roehl, assistants to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; Elizabeth King, assistant to 
Senator Reed; and William K. Sutey, assistant to Senator Bill 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I am going to call to order the Strategic 
Forces Subcommittee on the Armed Services Committee. First of 
all, I would just like to welcome our panels here today. I am 
looking forward to your testimony. Just a little bit of 
business. We are going to go ahead and conduct the first part 
of this hearing here in open session, then we are going to go 
to Top Secret level and the staff will lead us over to the room 
where we will be set up for Top Secret. Unfortunately, we did 
not get cleared for some of the real technical nuclear 
discussion aspect of it, so we will have to avoid that in our 
discussion once we are at Top Secret, if you will help me 
remember that while we are there.
    We will start out this morning and Senator Nelson was going 
to join us, but apparently he is not here, so I will go ahead 
and proceed.
    I want to start by introducing the witnesses on our first 
panel: Acting Administrator of the National Nuclear Security 
Administration (NNSA) and Under Secretary of Energy Linton F. 
Brooks; and Admiral James O. Ellis, Jr., Commander, U.S. 
Strategic Command. Since both of you have appeared before this 
committee, I want to welcome you again. In fact, Admiral Ellis, 
we heard from you earlier this morning.
    Admiral Ellis. Yes, sir.
    Senator Allard. We are here to receive testimony on U.S. 
strategic forces. There is no more important task for this 
subcommittee than to exercise its oversight functions with 
respect to U.S. nuclear forces. Nuclear weapons remain the most 
awesome in our arsenal, and we cannot foresee any circumstances 
in which nuclear weapons would cease to play a central role in 
our nuclear posture.
    The security, safety, reliability, and effectiveness of 
these weapons remain paramount. But there can also be no doubt 
that the role of nuclear weapons in our overall military 
posture and the very notion of having to think about strategic 
forces is changing. The Nuclear Posture Review (NPR), issued in 
December 2001, was truly a watershed document. It recognized 
that the Cold War paradigm of two hostile nations balanced in a 
nuclear standoff was no longer relevant and could not dominate 
our strategic future.
    Uncertainty about the nature and direction of current and 
future threats is now more prominent. Rogue nation and non-
state threats are key. The psychological underpinnings of 
deterrence are more poorly understood with respect to future 
adversaries than they were when we faced off with the Soviet 
Union.
    These considerations led the Department of Defense to 
conclude that a new, more flexible, more adaptive strategic 
triad is needed. Rather than rely exclusively on a nuclear 
triad of land and sea-based intercontinental missiles and long-
range bombers, the Nuclear Posture Review outlined a new triad 
consisting of offensive strike forces, both nuclear and non-
nuclear, defensive systems, both active and passive, and an 
infrastructure capable of supporting these systems, all 
supported by robust command, control, intelligence 
capabilities.
    I know some of my colleagues are uncomfortable with the 
notion that this is an era of inevitable change in which we 
must rethink and reshape our strategic forces. There are 
concerns, none of which I mean to belittle, that these changes 
are not for the better and in adapting our nuclear and non-
nuclear forces to the new strategic environment they somehow 
lower the threshold for nuclear use, or that active defenses 
against missile attack may somehow be destabilizing.
    But from my perspective one of the major goals of the NPR 
was to reduce reliance on aging nuclear weapons. The merit of 
missile defense, advanced conventional weapons, and new 
delivery systems is that they have the potential to provide a 
more complete tool kit to our political and military leaders 
and a more relevant set of capabilities to assure our allies, 
dissuade our adversaries, deter, and, if necessary, defeat our 
enemies.
    In laying the groundwork to provide a more complete set of 
alternatives, the Nuclear Posture Review holds the promise of 
raising, not lowering, the nuclear threshold.
    None of this is to say that defenses and advances in 
conventional munitions and delivery systems can deter or defeat 
the entire range of threats. Our legacy nuclear weapons and 
delivery systems will remain important to hold certain targets 
at risk and, if for no other reason than their enormous 
destructive power, remain a powerful deterrent. But as Cold War 
threats have diminished after the collapse of the Soviet Union, 
a new set of security challenges has emerged to which our Cold 
War nuclear force may not be well adapted. Thus I believe it is 
time to begin considering how advanced nuclear concepts may 
contribute to our ability to hold at risk emerging threats.
    By providing for research in advanced nuclear concepts, our 
weapon designers will have the opportunity to sharpen their 
skills, innovate, and conceptualize new designs which may be 
required in the future. Research on such concepts does not in 
my view presuppose that Congress will finally authorize 
advanced development or production, but it would provide a 
common set of facts and a common understanding of a range of 
alternatives that might meet the legitimate U.S. national 
security needs on which Congress might base an intelligent 
debate.
    I am very interested in engaging with our witnesses and 
with my colleagues in a broad discussion on the future of our 
strategic forces and of deterrence. How do we understand the 
notion of strategic forces? How important is the mix of offense 
and defense? Are we making sufficient progress in the 
development of advanced conventional munitions to provide a 
more complete tool kit in a timely fashion?
    Do we have the right set of nuclear capabilities to address 
the very different target set that concerns our military today 
and in the future? Do we have the right set of delivery 
vehicles for the conventional and nuclear capability we believe 
we will need in the future? Have we retained the right 
infrastructure and expertise to sustain and modernize our 
forces? How should we use them in the future?
    There is another set of questions more distinctly focused 
on the legacy of the past. These questions are related to our 
current nuclear force, how we are going to reduce those forces 
to the level required by the Moscow Treaty and the disposition 
of those warheads. These are important questions as well, but 
they comprise, I think, only a portion of our concerns today.
    Many of these questions tend to be controversial. I believe 
that above all what has kept our military the best in the world 
is the ability to vet new ideas, to think creatively, to bring 
the American ability to innovate to the forefront. We will 
inevitably have to deal with serious policy issues in this era 
of change.
    I also believe that the members of the Strategic Forces 
Subcommittee have the opportunity to establish a serious open-
minded tenor to these deliberations.
    First let me recognize Senator Reed from Rhode Island for 
some remarks and then when Senator Nelson comes in, if he shows 
up, we will give him an opportunity.
    Senator Reed. Mr. Chairman, I assume that Senator Nelson 
has a prepared statement and I would simply yield back my time.
    Senator Allard. Thank you very much.
    Again, I would like to thank both our witnesses for being 
here with us today, and we will move forward. We will start 
with Ambassador Brooks and then Admiral Ellis.

   STATEMENT OF HON. LINTON F. BROOKS, ACTING ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ambassador Brooks. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to appear before the subcommittee, 
and I also want to thank all of the members for their strong 
support of the National Nuclear Security Administration's 
critical national security activities. I have prepared detailed 
written testimony which I would like to submit for the record.
    Senator Allard. Without objection.
    Ambassador Brooks. While that written statement covers the 
entire NNSA request, I would like to focus my oral remarks on 
the administration's views on the technical and policy issues 
relating to U.S. nuclear forces and to the Nuclear Posture 
Review and, in particular, to the prospects of advanced 
concepts.
    Before I start, I want to say how pleased I am to be 
sitting here today with a longstanding friend and colleague, 
Admiral Jim Ellis. I am pleased for two reasons. One is 
obviously personal, but I am also pleased because it symbolizes 
the fact that we traditionally must work very closely with the 
military and with the Department of Defense to make sure that 
they understand our capabilities and we understand our needs.
    As this committee knows, the National Nuclear Security 
Administration has several complementary missions. We are 
supposed to provide a safe, secure, and reliable nuclear 
deterrent; implement the decisions the President made in acting 
on the Nuclear Posture Review; reduce the threat posed by the 
proliferation of weapons of mass destruction; support the war 
on terrorism through aggressive nuclear nonproliferation 
programs; maintain security at our own facilities and reinvest 
in those facilities; and support the President's management 
agenda.
    Our budget request to do all this for this year is $8.8 
billion, the bulk of it, $6.4 billion, for Defense Programs and 
Stockpile Stewardship that are the primary subjects of this 
hearing. The budget represents a top line growth of about 11 
percent over the enacted fiscal year 2003 budget and it is 
consistent with the planned program funding levels that we 
provided to Congress in our future years national security 
program.
    The budget supports the Stockpile Stewardship Program. For 
the 7th year, that program has enabled us to certify to the 
President that the nuclear weapons stockpile is safe and 
reliable and has enabled us to do so without having to consider 
returning to nuclear testing. The budget includes funds to 
revitalize the facilities and infrastructure that is the 
bedrock of our nuclear weapons enterprise, and I will say a bit 
more about the policy implications of that in a moment.
    It supports efforts to push the outer limits of scientific 
modeling and computing, which, when we couple it to new 
experimental capabilities, are helping us to understand the 
complex physical processes associated with nuclear weapons. The 
budget supports our efforts to produce tritium, to restore full 
uranium processing operations, and to manufacture certifiable 
pits for our nuclear weapons.
    The budget also helps attack the global nuclear danger in 
other ways. It supports the President's emphasis on reducing 
proliferation threats, improves physical security of nuclear 
materials in the Russian Federation, and helps us to slow 
illicit trafficking of nuclear material.
    My written testimony today highlights our accomplishments 
as well as the milestones we expect to achieve this year. 
Because Dr. Beckner, who is on the next panel, will focus on 
the technical details of stockpile stewardship, I would like to 
focus on the foreign policy issues. I am very pleased that the 
Stockpile Stewardship Program has continued to demonstrate the 
ability to certify safety and reliability. We are charged, the 
Secretary of Defense and the Secretary of Energy, to assess 
each year the safety and reliability of the stockpile, and 
whether there is a need to resume underground testing. I cannot 
tell you how importantly Secretary Abraham takes that 
responsibility and how importantly we take our responsibility 
to support him in that determination.
    As the Nuclear Posture Review articulated, the 21st century 
presents the prospect of a national security environment in 
which threats may evolve more quickly, be more variable, and be 
less predictable than in the past. In this environment, nuclear 
weapons will play an important, although reduced, role in the 
United States' security posture. At the same time, the Nuclear 
Posture Review reaffirmed that nuclear forces linked with 
advanced conventional strike capability and integrated with 
other capabilities will continue to be essential elements of 
national security.
    Our nuclear capability will strengthen our overall ability 
to reassure allies, to dissuade arms competition from potential 
adversaries, and to deter threats to the United States. The 
Nuclear Posture Review offered a basic reassessment of the role 
of nuclear forces and of their contribution toward meeting 
these policy goals and established a need for a capabilities-
based force, a dramatic departure from the threat-based 
approach to nuclear forces in the past.
    This change, in combination with the judgment that we no 
longer need to plan as though Russia presented an immediate 
threat to the United States, was the basis for the dramatic 
reductions codified in the Treaty of Moscow in the level of 
operationally deployed strategic nuclear forces. Over the next 
decade, operationally deployed warheads will be cut by about 
two-thirds from today's level.
    At the same time, to meet the challenges of an uncertain 
and unpredictable threat environment, the nuclear weapons 
enterprise has to be ready to respond rapidly and decisively, 
and that is the idea behind designating a responsive 
infrastructure along with strike capabilities and defenses as a 
separate leg of the new triad. We have to provide the means to 
respond to new, unexpected emerging threats in a timely manner. 
Therefore, we need a research and development (R&D) base and 
the industrial infrastructure to develop, build, and maintain 
nuclear offensive forces.
    With regard to future nuclear forces, the Nuclear Posture 
Review reaffirmed the stockpile refurbishment plan agreed to 
previously between the Department of Defense and the National 
Nuclear Security Administration. The plan calls for three 
warhead refurbishment programs, the W80, the W76 SLBM warhead, 
and the B61 bomb, to begin life extensions later this decade. 
We are working with the Department of Defense to develop the 
right life extension programs for each warhead type well before 
we commit production funds.
    To support these refurbishments, we have to press ahead 
with efforts to reverse the deterioration of the nuclear 
weapons infrastructure, restore lost production capabilities, 
and modernize other capabilities.
    I appreciate the past support of this committee for these 
efforts and hope that support will continue in the future.
    Now, a responsive infrastructure has to be more than just a 
slogan. There are three specific initiatives endorsed by the 
Nuclear Posture Review. They involve efforts to enhance nuclear 
test readiness, to revitalize nuclear warhead advanced concepts 
at the national laboratories, and to accelerate planning and 
design for a modern pit facility to produce key plutonium parts 
for nuclear weapons, something, as the committee knows, we have 
not been able to do for 14 years.
    Each of these initiatives is intended to provide the 
nuclear weapons enterprise with the flexibility to provide a 
timely response to surprise or to changes in the threat 
environment. Regarding these initiatives, there are four items 
in the budget request that are noteworthy because they are 
subject to misinterpretation, and I would like to discuss each 
of them.
    First, the budget proposes an allocation of $25 million to 
begin the process begun in fiscal year 2003 of improving the 
underground nuclear test readiness at the Nevada Test Site from 
the current 36 months to 18 months. Second, the budget proposes 
an allocation of $15 million to continue a study that will 
begin in the next few weeks assessing the feasibility and cost 
of adapting an existing weapon to serve as a so-called Robust 
Nuclear Earth Penetrator. Third, the budget allocates $6 
million to begin other advanced concepts work. Finally, the 
administration has separately recommended that existing 
legislation prohibiting research and development that could 
lead--important words--to new low-yield weapons be repealed.
    In looking at this issue, it is very important for the 
committee to understand what we are not doing. We are not 
planning to resume nuclear testing. The President has made it 
clear that we have no interim need, no requirement, for such 
testing. We are not proposing to improve readiness at the 
Nevada Test Site in order to develop new weapons. Given the 
time it would take to develop fundamentally new weapons, the 
current test readiness would be more than adequate. We are not 
planning to develop any new nuclear weapons at all. The 
Department of Defense has not identified any requirements for 
such weapons.
    Above all, we are not signaling through these programs any 
intention to lower the nuclear threshold or to blur the 
distinction between nuclear and non-nuclear weapons. The fact 
remains that only the President can authorize the use of 
nuclear weapons. That will not change in the future, and I do 
not believe anything we are proposing will make any President 
any more likely to take such an awesome decision.
    That is what we are not doing. What are we doing? We are 
hedging against the possibility that we may some day need to 
conduct a test to confirm a problem or to verify that a problem 
has been solved in a stockpiled weapon that is crucial to the 
Nation's deterrent. Indeed, we chose 18 months as a test 
readiness figure because that is a typical value that it would 
take once a problem is identified to assess the problem, 
develop and implement a solution, and then plan and execute a 
test that would let us certify a fix.
    We are conducting a study on whether an existing warhead 
could be adapted without testing to improve our ability to hold 
at risk hardened, deeply buried targets that may be important 
to a future adversary. We are seeking to explore in conjunction 
with the Department of Defense advanced concepts that might 
some day be needed for a future President or this President or 
a future Congress or this Congress to implement.
    Finally, we are examining these concepts, seeking to free 
ourselves from intellectual prohibitions against exploring the 
full range of technical options. We do not want to be limited 
in our thinking just because some options might imply a 
hypothetical weapon with a yield below an arbitrary value.
    Let me be clear on these last two points. Repeal of the 
prohibition on low-yield nuclear weapons development falls far 
short from committing the United States to developing, 
producing, or deploying new weapons. As Secretary Abraham made 
clear before the full committee--in fact, I believe, Mr. 
Chairman, it was in response to a question from you--such 
warhead concepts could not proceed to full-scale development, 
much less production, still less deployment, without Congress 
authorizing and appropriating the necessary funds.
    The repeal of this legislation does not authorize anybody 
to develop anything. What it does is it removes the chilling 
effect on scientific inquiry that could hamper our ability to 
maintain and exercise our intellectual capabilities to respond 
to needs that one day might be articulated by the President.
    I believe the steps on nuclear test readiness are a prudent 
response to hedge against the possibility of future problems in 
the stockpile. As a completely separate matter, the examination 
of new concepts unconstrained by artificial limitations is 
another prudent hedge. It is a hedge against the possibility 
that the President and the Department of Defense may some day 
need to consider capabilities we do not now have.
    I urge the committee to support both of these prudent 
steps. But I stress again, they do not represent any intention 
to return to nuclear testing or any requirement to develop new 
nuclear weapons.
    Mr. Chairman, this concludes my statement, and I look 
forward to your questions after Admiral Ellis has had an 
opportunity to present his.
    [The prepared statement of Ambassador Brooks follows:]

              Prepared Statement by Hon. Linton F. Brooks

    Thank you for the opportunity to appear today to discuss the fiscal 
year 2004 President's budget request for the National Nuclear Security 
Administration (NNSA). This is my first appearance before this 
subcommittee as the Acting Administrator of NNSA, and I want to thank 
all of the members for their strong support of our important national 
security responsibilities. I would like to begin my testimony here 
today by providing an overview of the NNSA mission requirements 
followed by the highlights of our budget request.

                                OVERVIEW

    The NNSA, comprised of Defense Programs, the Defense Nuclear 
Nonproliferation Program, and the Naval Reactors Program, has several 
complementary mission requirements:

        <bullet> Provide a safe, secure, and reliable nuclear deterrent 
        and implement the President's decisions on the Nuclear Posture 
        Review (NPR) recommendations.
        <bullet> Reduce the threat posed by the proliferation of 
        weapons of mass destruction and continue to support the global 
        war on terrorism through aggressive nuclear nonproliferation 
        programs.
        <bullet> Maintain a robust security posture at NNSA facilities.
        <bullet> Revitalize the nuclear weapons complex infrastructure.
        <bullet> Support the nuclear propulsion needs of the U.S. Navy.
        <bullet> Support the President's Management Agenda for more 
        effective government.

    The fiscal year 2004 budget request totals $8.8 billion, an 
increase of $878 million, about 11 percent, over the enacted fiscal 
year 2003 budget. The request is consistent with the planned program 
levels in the Future-Years Nuclear Security Program recently submitted 
to Congress. This substantial increase reflects the administration's 
commitment to sustain a stable and effective long term national 
security program through the NNSA, as well as our obligation to our 
citizens to conduct this program safely, securely, and in an 
environmentally acceptable manner.
    We are building on recent accomplishments. Although there is a 
large increase in this year's budget request, there is no single new 
initiative driving this growth. Rather, we are continuing plans and 
programs already set in motion, and adjusting to the guidance in the 
Nuclear Posture Review. We are moving beyond the talking and planning 
phase of many programs conceived in the 1990s.
    This budget supports the Stockpile Stewardship Program, which 
continues to successfully certify to the President the safety and 
reliability of the nuclear weapons stockpile without underground 
nuclear testing. It includes funds to begin a modest Advanced Concepts 
initiative to provide nuclear deterrence options, begin the transition 
to a 18-month test readiness posture, continue to revitalize the 
facilities and infrastructure that are the bedrock of the weapons 
complex, and push the outer limits of scientific, modeling, and 
computing ability to apply new experimental capabilities to the 
processes of maintaining and certifying the stockpile. It supports our 
efforts to manufacture certifiable pits and to produce tritium.
    In the area of reducing global nuclear danger, this budget request 
for the Defense Nuclear Nonproliferation Program reflects the 
President's and Secretary Abraham's emphasis on reducing proliferation 
threats, including the Global Partnership formed at the Kananaskis 
Summit in June 2002. The fiscal year 2004 request contains funds to 
support attacking the problem globally, to improve the physical 
security of nuclear material, to consolidate and reduce that material, 
and to end its production. It also continues efforts to prevent illicit 
trafficking of nuclear materials, to improve our ability to detect 
proliferation, and to stem the ``Brain Drain'' of weapons experienced 
scientists from Russia.
    Under this budget, the Naval Reactors Program will initiate the 
design and development of a new reactor that will utilize advanced 
materials to achieve a substantial increase in core energy. The result 
will be greater ship operational ability and flexibility to meet 
increasing national security demands.

                         BUDGET SUMMARY TABLES

    The fiscal year 2003 estimates in the fiscal year 2004 budget 
documents transmitted to Congress reflect the President's fiscal year 
2003 budget request because final fiscal year 2003 appropriations were 
not enacted until February 20, 2003. The Future-Years National Security 
Program tables tie to the President's budget request. The table below 
summarizes the enacted funding levels by appropriation. The fiscal year 
2003 appropriations estimates are made comparable to the fiscal year 
2004 President's budget request by eliminating fiscal year 2003 
appropriations being transferred to the Department of Homeland Security 
and to the Department of Energy's Office of Security (for COOP/COG 
activities). The fiscal year 2003 totals detailed in the table below 
also reflect applications of the general reductions and the government-
wide, across the board reduction of 0.65 percent enacted in the final 
fiscal year 2003 appropriations.
    The outyear budget estimates and associated programmatic 
information for NNSA programs are contained in the Future-Years Nuclear 
Security Program document I forwarded to Congress in February.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Before going into Weapons Activities Stockpile Stewardship Program, 
I will discuss the NNSA's response to the broader policy framework set 
out in the Nuclear Posture Review (NPR) and its implementation.
    As the NPR has articulated, the 21st century presents the prospect 
of a national security environment in which threats may evolve more 
quickly, be more variable in nature, and be less predictable than in 
the past. In this broad threat environment, nuclear weapons will play a 
reduced role in the overall United States security posture a point 
reinforced in the NPR. At the same time, the NPR reaffirmed that, for 
the foreseeable future, nuclear forces linked with an advanced 
conventional strike and integrated with the capabilities offered by the 
other two legs of the New Triad will continue to be an essential 
element of national security by strengthening our overall abilities to 
reassure allies of U.S. commitments, dissuade arms competition from 
potential adversaries, and deter threats to the U.S., its overseas 
forces, allies, and friends.
    The NPR offered a basic reassessment of the role of nuclear forces 
and their contribution toward meeting these defense policy goals. It 
established the need for a capabilities-based force, a dramatic 
departure from the threat-based rationale for the nuclear force of the 
past. This change, in combination with the judgment to no longer plan 
our forces as if Russia presented an immediate threat to the U.S., was 
the basis for dramatic reductions codified in the Moscow Treaty in the 
level of operationally-deployed strategic nuclear forces. Over the next 
decade, the number of deployed warheads will be cut by approximately 
two-thirds from today's level.
    To meet the challenges of an uncertain and unpredictable threat 
environment, and in seeking to mitigate any dangers associated with 
dramatically reduced nuclear forces, the nuclear weapons enterprise 
must be able to respond rapidly and decisively. This is the idea behind 
the third leg of the New Triad. That is, by providing means to respond 
to new, unexpected, or emerging threats in a timely manner, the R&D and 
industrial infrastructure needed to develop, build, and maintain 
nuclear offensive forces and defensive systems (of which the nuclear 
enterprise is a key component) is itself a principal tool for achieving 
our overall defense strategy. This concept, and its endorsement by the 
NPR, has had enormous implications for NNSA in helping to gain strong 
support for its programs from DOD and others.
    We are pressing ahead with efforts to reverse the deterioration of 
the nuclear weapons infrastructure, restore lost production 
capabilities and modernize others in order to meet the stockpile 
refurbishment plan. We are actively assessing the NPR's implications in 
a number of other related areas. Finally, we are pursuing initiatives 
endorsed by the NPR which are intended to provide the nuclear weapons 
enterprise with the flexibility to provide a timely response to 
``surprise,'' or to changes in the threat environment.

               WEAPONS ACTIVITIES--STOCKPILE STEWARDSHIP

    The President's fiscal year 2004 request for Stockpile Stewardship 
continues to build and expand on the scientific and engineering 
successes that are the hallmarks of this program. This request totals 
$6.378 billion, an increase of 8.2 percent. It will also allow us to 
meet our requirements under the terms of the Nuclear Posture Review 
including enhancing test readiness, reinvigorating the advanced 
concepts work in the weapons laboratories, and restoring the weapons 
complex to meet the national security requirements of the 21st century. 
There are a number of significant milestones we expect to achieve this 
year.

        <bullet> Manufacture the first certifiable W88 pit.
        <bullet> Begin irradiation of the first Tritium Producing 
        Burnable Absorber Rods in the TVA's Watts Bar Reactor.
        <bullet> Continue delivery of W87 Life Extended warheads to the 
        Air Force.
        <bullet> Complete environmental documentation in support of the 
        Modern Pit Facility.
        <bullet> Deliver four ultraviolet beams of National Ignition 
        Facility (NIF) laser light to the target chamber.
        <bullet> Initiate Stockpile Stewardship experiments in NIF.
        <bullet> Perform two and three-dimensional simulations of aging 
        stockpile weapons focused on Life Extension Program activities.
        <bullet> Ship nuclear weapons, weapons components, and nuclear 
        materials safely through the Secure Transportation Asset.
        <bullet> Conduct subcritical experiments at the Nevada Test 
        Site to better understand plutonium aging.
        <bullet> Begin work on the Advanced Concepts initiative and, in 
        particular, on the Robust Nuclear Earth Penetrator (RNEP) Phase 
        6.2 studies with the Air Force.

    These major milestones will be accomplished by the weapons complex 
in addition to the manufacture of thousands of components needed to 
maintain the stockpile. The complex will also carry out hundreds of 
smaller scale experiments, perform surveillance activities, address 
Significant Finding Investigations to ensure weapons safety and 
operability, conduct flight tests with the support of the DOD, deploy 
new manufacturing tools and processes at the production plants, and 
safely dismantle weapons excess to national security requirements.
    These and other activities are dependent on retaining today's 
highly skilled workforce and recruiting the next generation of 
stockpile stewards. Over the last several years, NNSA has made a 
significant headway on this all-important front. Critical skill 
vacancies across the complex have been reduced to 8 percent. 
Inextricably linked to recruitment and retention is providing the 
quality workspace and fully functioning tools and technologies needed 
by our scientists and engineers to carry out their work. We are working 
diligently to reinvest in the weapons complex infrastructure.
    I would now like to highlight several activities under the 
Stockpile Stewardship Program that I believe are of particular interest 
to this committee.

Pit Manufacturing and Certification Campaign
    Restoring the Nation's ability to manufacture plutonium pits in 
support of the stockpile has been a central challenge for the 
stewardship program since the closure of the Rocky Flats plant in 1989. 
The United States has never before manufactured and certified pits 
without nuclear testing. I am very pleased to report that late this 
spring, Los Alamos will manufacture the first certifiable W88 pit. The 
Los Alamos National Laboratory (LANL) also remains on-track to 
manufacture a war reserve W88 pit by 2007. To achieve this critical 
milestone, LANL has produced a number of development pits and has 
performed a series of engineering tests and physics experiments to 
confirm pit performance.
    While the TA-55 facilities at LANL are adequate to support the W88 
pit campaign, they do not appear to be capable of supporting the 
manufacturing need for long-term stockpile support. NNSA has begun 
planning for a Modern Pit Facility (MPF) consistent with the Record of 
Decision for Stockpile Stewardship and Management and the NPR. In May 
2002, the Secretary of Energy formally approved Critical Decision ``0'' 
(CD-0) for the MPF. The NNSA is now examining five candidate sites--
Pantex, Carlsbad, the Nevada Test Site, Savannah River and Los Alamos--
as possible locations for the MPF. We expect to issue a Draft 
Environmental Impact Statement (EIS) later this spring. Following a 
series of public meetings, a final EIS and associated Record of 
Decision (ROD) will be issued. The program will prepare site specific 
environmental documentation if the ROD supports a decision to construct 
and operate an MPF. The fiscal year 2004 request will allow conceptual 
design and other planning activities, National Environmental Policy Act 
(NEPA) work, and technology development activities to proceed on a 
schedule that will support a CD-1 decision in fiscal year 2006.

Test Readiness
    While I continue to have confidence in the ability of the Stockpile 
Stewardship Program to continue to ensure the safety, security, and 
reliability of this Nation's nuclear deterrent, we must maintain our 
ability to carry out nuclear weapons tests. Our current readiness 
posture to conduct such a test is 24 to 36 months, as established in a 
1993 Presidential Decision Directive. Last year's NPR stated that this 
period should be reduced in order to provide options to deal with 
defense policy goals, including resolving unanticipated problems in the 
stockpile. A study completed in July 2002 confirmed that additional 
work was required to maintain the present posture, but it also led us 
to conclude that the right posture is to be ready for a test within 
approximately 18 months. With fiscal year 2003 funding now in place, we 
intend to begin the transition to a 18-month posture. The Nuclear 
Weapons Council has concurred that our intended action is appropriate. 
The transition to this new readiness posture is expected to take 
approximately 3 years.
    Although there have been discussions about a transition to shorter 
times, there is concern that an unnecessarily expedited time frame may 
cause adverse effects on critical personnel resources and require 
significantly more funding. It is not likely that we will be able to 
match the short lead times when the weapons complex conducted multiple 
underground tests annually, nor do I think it is prudent to tie-up 
important resources to indefinitely maintain an extremely short test 
readiness posture. Since device and diagnostics preparations are driven 
by the particular weapon to be tested and the questions to be answered 
by the test, such a posture might not be responsive to a surprise in 
the stockpile. The NNSA is studying this matter and I will soon be 
reporting to Congress on these subjects as directed in the fiscal year 
2003 Defense Authorization Bill.

Advanced Concepts/Robust Nuclear Earth Penetrator
    The NPR also highlighted the importance of pursuing Advanced 
Concepts work to ensure that the weapons complex can provide nuclear 
deterrence options well into the next century. To that end, the fiscal 
year 2004 budget includes $21 million for Advanced Concepts work. About 
$15 million will be allocated to the Robust Nuclear Earth Penetrator 
(RNEP), with the balance of the funding divided between the weapons 
laboratories for concept and feasibility studies of possible nuclear 
weapon modifications, or new designs to meet possible new requirements.
    The Department of Defense submitted the report on RNEP to Congress 
on March 19, 2003, as required by the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003. The NNSA will begin an in-depth 
study once the 30 day waiting period has elapsed. As members know, this 
study will examine whether or not two existing warheads in the 
stockpile--the B61 and the B83--can be sufficiently hardened through 
case modifications and other work to allow the weapons to survive 
penetration into various geologies before detonating. This would 
enhance the Nation's ability to hold hard and deeply buried targets at 
risk. The RNEP feasibility and cost study is currently scheduled for 
completion in 2006; however, we are looking at opportunities to reduce 
study time.
    For other advanced concepts, we will work with the DOD to assess 
evolving military requirements. We will carry out theoretical and 
engineering design work. I should stress that we have no requirement to 
actually develop any new weapons at this time.

Physical Infrastructure
    Since its inception, the NNSA has been committed to a disciplined 
corporate facilities management approach to improve the facility 
conditions of the nuclear weapons complex. We made this corporate 
commitment clearly recognizing the drivers and practices of the past 
decade had ultimately resulted in a complex with significant 
deterioration in our physical infrastructure and an excessive backlog 
of deferred maintenance. The NNSA complex is part of our Nation's 
strategic nuclear infrastructure and the third leg of the New Triad as 
defined in the Nuclear Posture Review. The Nuclear Posture Review gave 
a responsive infrastructure equal priority with offensive and defensive 
weapons. Through our focused and disciplined efforts, we now have 
underway an effective and integrated program to restore, revitalize, 
and rebuild our nuclear weapons program infrastructure.
    Two complementary accounts in the budget, Readiness in Technical 
Base and Facilities (RTBF) and the Facilities and Infrastructure 
Recapitalization Program (FIRP), are essential to the operation, 
maintenance, and renewal of a physical infrastructure. Funding for 
RTBF, Operations of Facilities, increases by 4 percent in the fiscal 
year 2004 request. The RTBF provides the funding needed to operate and 
maintain the facilities required for certification, thus ensuring the 
vitality of the NNSA national security complex and its goal of a 
consistent readiness level. FIRP is a capital renewal and 
sustainability program designed to eliminate maintenance backlogs. The 
FIRP addresses an integrated, prioritized list of maintenance and 
infrastructure projects, separate from the maintenance and 
infrastructure efforts of RTBF, which will significantly increase the 
operational efficiency and effectiveness of the NNSA sites.
    Importantly, beyond the application of the new and much needed 
funding, FIRP also brings a series of new facility management processes 
and best business practices which are improving our corporate facility 
management. One of the most important practices is the NNSA commitment 
to deferred maintenance reduction: stabilizing our backlog by fiscal 
year 2005 and returning it, for our mission essential facilities and 
infrastructure, to industry standards by fiscal year 2009. To meet this 
goal, the fiscal year 2004 budget request targets 45 percent of the 
FIRP Recapitalization subprogram to facilities and infrastructure 
specific deferred maintenance projects.
    Integral to our corporate approach to RTBF and FIRP are the 
linkages and discipline provided by the PPBE process, and specifically 
the Ten-Year Comprehensive Site Plans (TYCSP) and associated facilities 
and infrastructure planning processes. We are now in the third year 
that the NNSA has approved the TYCSPs, incorporating technical 
requirements and performance measures within the financial bounds of 
the FYNSP resource levels. From the field perspective, these plans 
provide Federal and M&O managers at each site with the tools and 
processes to propose, prioritize and obtain approval of the work needed 
to effectively manage their facilities and infrastructure. From the 
Headquarters perspective, the TYCSP provides the NNSA with a 
standardization that allows comparisons and planning to be effected 
complex-wide.
    In recent years, the combined and measurable efforts of FIRP and 
RTBF have worked to assure that we restore, revitalize, and rebuild the 
weapons complex infrastructure for today and tomorrow's missions. 
Across the weapons complex both programs are fixing the backlog of 
maintenance, keeping up with operational needs, and planning for the 
future to make a clear and visible difference. These combined efforts 
are crucial, and I urge the committee to support them.

Stockpile Life Extension
    While preparing for the future, the labs and plants are working 
very hard to extend the life of several elements of the existing 
nuclear weapons stockpile through the Life Extension Program (LEP). The 
NPR reaffirmed the decision as reached by the Nuclear Weapons Council 
on the timing, pace, scope, and technical aspects of the LEPs for the 
W76, W80, B61-7/11, and ongoing W87 work. Through this program new 
subsystems and components are designed, built, tested and installed, 
thereby extending the operational service life for these warheads for 
some 30 additional years.
    For the last several years, we have been extending the life of the 
W87 warhead for the Air Force. This work is ongoing at Y-12 National 
Security Complex, Lawrence Livermore and Sandia National Laboratories, 
and the Pantex Plant. We are more than half way through this effort and 
expect to wrap up the work by early 2004.
    Life extension for the W76 involves a comprehensive overhaul of the 
warhead, including replacement or refurbishment of the Arming, Firing 
and Fuzing set, high explosives, gas transfer system and other 
components. We will also be requalifying the weapon primary. For the 
W80, we will be replacing the Trajectory Sensing Signal and Neutron 
Generators, the tritium bottles and incorporating surety upgrades. For 
the B61, we will be refurbishing the secondary. The First Production 
Units for these systems are scheduled for delivery to the Navy and Air 
Force in: fiscal year 2007, fiscal year 2006, and fiscal year 2006, 
respectively.

Tritium
    In addition to restoring plutonium manufacturing capabilities, NNSA 
will begin tritium production later this year when several hundred 
Tritium Producing Burnable Absorber Rods (TPBARs) are inserted into 
TVA's Watts Bar Reactor. However, because of significant changes in 
stockpile size in the outyears as a result of the NPR and the Moscow 
Treaty, the NNSA has, in concert with the DOD, adjusted the tritium 
production requirements to reflect these changes. We remain fully 
committed to exercise all elements of the system for producing, 
extracting, and purifying new tritium, including initial operation of 
the Tritium Extraction Facility (TEF) being constructed at the Savannah 
River Site.
    Timing of tritium production, extraction, and purification has also 
been delayed by approximately 17 months for two reasons: (1) a 
reduction in the stockpile requirements by the NPR and (2) a delay in 
completion of the TEF project. This program delay can be accomplished 
without impacting nuclear weapons readiness. A revised baseline has 
been approved increasing the Total Project Cost from $401 million to 
$506 million and delaying project completion from mid-fiscal year 2006 
to late-fiscal year 2007.
    Since the tritium decays by natural radioactivity at a rate of 
about 5 percent per year, and since irradiation service costs are the 
dominant operating costs in supplying tritium to the stockpile, it is 
prudent not to produce tritium beyond the stated national requirements. 
Since the program intends to complete and exercise all elements of the 
tritium production and purification system (including TVA's reactor(s) 
and the TEF) on a schedule that fully protects the stockpile 
requirements, irradiation services are being deferred in order to use 
funds planned for these activities to complete TEF.

National Ignition Facility
    I am pleased to report that tremendous technical progress has been 
achieved over the last year at the National Ignition Facility (NIF). 
Its mission is to obtain fusion ignition in a laboratory setting by 
imploding a BB-sized capsule containing a mixture of the hydrogen 
isotopes, deuterium and tritium. The NIF will provide the capability to 
conduct laboratory experiments to address the high-energy density and 
fusion aspects that are important to both primaries and secondaries in 
the nuclear stockpile.
    In December 2002, the first four NIF laser beams were activated to 
generate a total of 43 kilojoules of infrared laser light in a single 
pulse. In March 2003, NIF delivered its first 4 beam of ultraviolet 
laser light focused onto a target at the center of the 30 foot-diameter 
target chamber. With this accomplishment, all elements of each of the 
NIF critical subsystems have been successfully activated and operated. 
Stewardship experiments will begin in fiscal year 2004.

Advanced Simulation and Computing
    The Advanced Simulation and Computing (ASCI) Campaign is creating 
simulation capabilities that incorporate modern physics and engineering 
models to improve our ability to predict with confidence the behavior 
of the nuclear weapons in the stockpile. These models, validated 
against experimental data from past above ground and underground 
nuclear tests, are the repositories of expert designer judgment as well 
as the best scientific representations of our current knowledge of the 
performance of the nuclear weapons. The ASCI Campaign is driving the 
integration of the theoretical and experimental efforts within the 
Stockpile Stewardship Program.
    At the same time that ASCI continues the development of the most 
powerful computer capabilities needed for the future, the modern 
simulation tools previously developed by ASCI--the Blue Pacific and 
White Machines at Lawrence Livermore National Laboratory (LLNL), the 
Red Machine at Sandia National Laboratory (SNL), and the Blue Mountain 
and Q machines at LANL--are being applied day-to-day to address 
immediate stockpile concerns. The ASCI codes are being used to close 
Significant Finding Investigations as well as to support Life Extension 
Programs for the W76, W80, W87, and B61. These activities are enabled 
by the ongoing supercomputing infrastructures at the national 
laboratories, encompassing both continuing operations as well as 
research in new techniques for storage, visualization, networking, and 
all aspects of the infrastructure required by modern computing.
    By fiscal year 2008, ASCI will deliver a high fidelity, full-system 
physics characterization of a nuclear weapon. At that time, the 
campaign will deliver a suite of validated codes, running on 
supercomputer platforms, acquired through open procurement, with user-
friendly environments, advanced visualization tools for analysis, and 
the entire support structure to integrate the components together. 
Other program deliverables include high-performance storage and high-
bandwidth networks. In support of a true integrated Strategic Systems 
Programs effort, the ASCI Campaign continues to push the envelope in 
distance computing as well as in advanced encryption techniques and 
other approaches to ensure secure, classified networking.

                         SECURE TRANSPORTATION

    The Office of Secure Transportation is responsible for safely and 
securely moving nuclear weapons, special nuclear materials, select non-
nuclear components, and Limited Life Components for the DOE and the 
DOD. This work is carried out by 225 Federal agents stationed at three 
sites--Pantex, Oak Ridge, and Albuquerque. These highly dedicated and 
skilled agents are authorized to use deadly force in the performance of 
their duties. Employing highly modified tractor trailers and escort 
vehicles, and secure and redundant communications they have amassed an 
impressive safety record of more than 100 million accident free miles 
without cargo compromise. I would note that this office also provides 
support to other elements of the DOE, including the Offices of 
Environmental Management and Nuclear Energy.

          NONPROLIFERATION--REDUCING THE GLOBAL NUCLEAR DANGER

    The NNSA's nonproliferation activities are central to the Bush 
administration's National Strategy to Combat Weapons of Mass 
Destruction of December 2002, which lists ``Strengthened 
Nonproliferation'' as a pillar of its approach to reducing 
proliferation threats. Secretary Abraham and the NNSA are committed to 
this critical mission. This commitment is reflected in the diversity of 
our programs to address nonproliferation concerns in Russia, other 
former Soviet States, and, increasingly, throughout the world. The NNSA 
uniquely integrates technical and policy expertise to guide and 
implement the full range of U.S. nonproliferation priorities. The 
fiscal year 2004 request for this program is $1.34 billion, an increase 
of about 31 percent.
    The NNSA addresses concerns that arise from the two requisites of 
nuclear weapons proliferation: materials and expertise. Whether 
ensuring that former Russian weapons experts are able to put their 
skills to use on peaceful and commercial initiatives, reducing the 
footprint of Russia's ``closed'' nuclear cities, or leading on-the-
ground programs to secure at-risk nuclear materials in Russia or 
elsewhere, NNSA is at the forefront of U.S. efforts to halt the 
proliferation of weapons of mass destruction and advance U.S. nuclear 
security interests.
    The Global Partnership Against the Spread of Weapons and Materials 
of Mass Destruction, formed at the Kananaskis Summit in June 2002, has 
recommitted the G8 nations to increase greatly assistance to 
nonproliferation, disarmament, counter-terrorism, and nuclear safety. 
The partnership pledges to provide $20 billion over the next 10 years 
for nonproliferation and threat reduction initially focused in Russia. 
The United States is committed to provide half that total. The effort 
of our G-8 partners will complement U.S. programs and meets past 
congressional concerns that we not carry a disproportionate burden.
    I am also pleased to inform you of the substantial progress of the 
Elimination of Weapons-Grade Plutonium Production Program (EWGPP). The 
EWGPP is using best project management practices by applying the 
Department's established directives on project management. On December 
20, 2002, the projects received Critical Decision Zero (CD-O), mission-
need justification, and we have started the process to procure U.S. 
contractors.
    These contractors will be responsible for oversight, verification, 
and payment to the Russian Federation Integrating Contractor for work 
completed. The U.S. contracts will be performance-based with the award 
fee provisions focusing on successful completion and the ability of the 
U.S. contractor to incentivize the Russian Federation Integrating 
Contractor's performance in meeting or exceeding cost, schedule and 
quality objectives. The U.S. contractor is being selected from a group 
of contractors that have extensive experience in both fossil fueled 
power plants and in Russia. Although the projects will be executed in 
the Russian Federation, using Russian equipment and personnel, we are 
implementing a rigorous oversight plan to monitor the progress through 
a formal project management system.
    With three exceptions, our fiscal year 2004 request is essentially 
the same as last year. Last year, at the President's request, Secretary 
Abraham sought Russian agreement to dispose of additional Russian 
highly enriched uranium. We are nearing agreement on the purchase of 
Russian highly enriched uranium for U.S. research reactors and on 
purchasing downblended uranium from Russian weapons for a strategic 
uranium reserve. We have requested $30 million for this program.
    Second, there has been a $19.7 million increase in the request for 
programs to secure radiological sources that could be used in 
radiological dispersal devices, also known as ``dirty bombs.''
    The largest fiscal year 2004 budget increase, about $272 million, 
supports our plutonium disposition efforts. The United States and 
Russia will each dispose of 34 metric tons of weapons grade plutonium 
by irradiating it as mixed oxide, MOX fuel, in existing nuclear 
reactors. This program is on track. Over 75 percent of the detailed 
design of the U.S. MOX facility will be done this year. Russia has told 
us that it will use the U.S. design for the MOX Fuel Fabrication 
Facility, thus ensuring the programs remain on roughly the same 
schedule. Construction of both the U.S. and Russian MOX Fuel 
Fabrication Facilities will begin in fiscal year 2004.
    I would also like to comment on NNSA's efforts to ensure that 
funding is focused on the highest nonproliferation concerns. Given that 
adverse impacts of terrorists or rogue nations obtaining nuclear 
weapons is intangible, we cannot easily assess risks using quantifiable 
risk analysis methods. However, we have and will continue to conduct 
qualitative risk analyses to determine that we are applying the most 
cost-effective approaches to meet the greatest nonproliferation needs.
    The NNSA recognizes that proliferation is a multifaceted problem, 
and reduces the threat in a multitude of ways.
    We're attacking the problem globally. The Global Partnership is 
only the most recent example of U.S. cooperation with the international 
community on nonproliferation. International cooperation supports our 
national nonproliferation objectives, and we pursue such cooperation in 
new ways. The suite of NNSA programs promotes greater international 
understanding and adherence to export controls, the application of 
safeguards to secure nuclear materials, and measures to maintain 
regional security in the world's most volatile regions.
    NNSA is improving the physical security of nuclear material. The 
United States does this primarily through its Materials Protection, 
Control and Accounting (MPC&A) program in Russia, as well as the Newly 
Independent States/Baltics. In fiscal year 2004, this will include 
security upgrades on 24 metric tons of Russian nuclear material and 
1200 Russian Navy nuclear warheads. We will also continue our work to 
ensure the adequate physical protection of nuclear material located in 
40 countries around the world.
    We are improving our work to secure radiological sources and 
prevent their use in ``dirty bombs.'' The International Conference on 
Security of Radioactive Sources delivered a concrete set of findings to 
guide international efforts to gain better control of high-risk 
radioactive sources worldwide. Secretary Abraham's announcement of a $3 
million ``Radiological Security Partnership'' will set in motion a new 
initiative to address potential threats from under-secured, high-risk 
radioactive sources.
    NNSA is helping to consolidate nuclear material. By reducing the 
number of locations where this material is stored, the United States is 
greatly reducing its vulnerability to theft or sabotage. By the end of 
2003, we will have removed all weapons-usable material from 23 
buildings into fewer locations, thus improving security.
    Nuclear material can be reduced. Fissile Materials Disposition 
conducts activities to dispose of surplus highly enriched uranium and 
weapon-grade plutonium. By disposing of 68 metric tons of plutonium in 
the U.S. and Russia, the plutonium disposition program will reduce the 
threat that this material could pose if acquired by hostile nations or 
terrorist groups. The plutonium will be irradiated as mixed-oxide (MOX) 
fuel in nuclear reactors, making the material no longer readily usable 
for nuclear weapons.
    The production of nuclear material for weapons can be ended. The 
value of reducing nuclear materials increases greatly if no new 
material is being produced at the same time. The EWGPP discussed above 
aims to accomplish just that by replacing Russia's remaining plutonium 
production reactors with fossil fuel energy plants to meet the energy 
needs of local communities.
    The illicit trafficking of nuclear materials can be slowed. The 
Second Line of Defense Program and International Nuclear Export Control 
programs focus on cooperative efforts to minimize the risk of illicit 
trafficking of special nuclear material, radiological materials, and 
dual-use technologies across international borders such as land 
crossings, airports, and seaports. Under the fiscal year 2004 budget 
request, the program will continue to target strategic border points 
and transshipment countries around the world for deployment of 
radiation detection equipment while maintaining existing equipment in 
more than 20 countries.
    The threat of the ``Brain Drain'' can be alleviated. To prevent 
adverse mitigation of WMD expertise, the Russian Transition Initiatives 
(RTI) program commercializes technology and downsizes Russia's weapons 
complex. This approach transforms the former weapons infrastructure 
expertise into commercially viable, peaceful business ventures, and 
shrinks the complex by moving fence lines, closing buildings, and 
providing alternative employment opportunities to weapons experts.
    We can continually improve our ability to detect proliferation. 
Research and development in proliferation detection provides the United 
States timely detection of potential threats. These technologies are 
key to identifying threats at borders or other critical thoroughfares, 
detecting clandestine proliferation activities, and verifying treaty 
adherence.
    In sum, the United States, with NNSA leading the way, has developed 
programs to address the threat of the proliferation of weapons of mass 
destruction in all its dimensions.

                             NAVAL REACTORS

    Naval Reactors (NR) continues the success it has had for more than 
50 years and is a prime example of how to manage unforgiving and 
complex technology. Our Naval Reactors program, which supports the 
nuclear-powered submarines and carriers on station around the world, 
remains a vital part of the national security mission and the global 
war on terrorism. In fiscal year 2004, NR will support 103 reactors in 
82 nuclear-powered warships, including the first-of-a-class reactor 
when the U.S.S. Virginia goes to sea. In addition, NR will continue to 
design and develop the reactor for the new transformational carrier 
CVN-21. The NR budget request for fiscal year 2004 is $768 million, 
about a 7 percent increase above inflation over fiscal year 2003. The 
increase will allow NR to begin the development of the Transformational 
Technology Core (TTC) utilizing advanced materials to achieve a 
substantial increase in core energy. TTC will be forward-fitted into 
the Virginia class submarines, and will result in greater ship 
operational ability and flexibility to meet increasing national 
security demands. This budget increase will also allow maintenance and 
replacement of some of the program's 50-plus year-old infrastructure as 
well as remediation at sites no longer in use, allowing NR to continue 
its ``clean-as-you-go'' policy.

             SAFEGUARDS AND SECURITY THROUGHOUT THE COMPLEX

    Security continues to be one of the NNSA's highest priorities. The 
NNSA's Safeguards and Security program focuses on the protection of our 
people, classified and sensitive information, nuclear and non-nuclear 
materials, and the vital infrastructure of our laboratory and 
industrial production complex. Overall, we have a very effective 
safeguards and security program as validated by internal and external 
independent reviews across our sites and operations. We then use the 
results of these reviews to assess and confirm our security postures 
and areas for improvement. Our fiscal year 2004 budget request 
maintains a robust safeguards and security posture throughout the 
weapons complex to protect our facilities, materials, information, and 
people.
    The request also supports evaluation and assessment of options to 
use cost-effective measures to meet future security requirements. The 
NNSA sites conduct Vulnerability Assessments that include a review of 
potential targets and the identification of the variety of methods that 
an adversary could or might attempt to use against the targets. 
Tabletop exercises, computer simulations, and actual force-on-force 
exercises, conducted both internally and through external independent 
offices, are used to evaluate various scenarios and related options for 
protection.
    In our efforts to assure we have a robust, responsive and adaptable 
security architecture, we have recently been conducting detailed, site 
specific reviews, known as Iterative Site Analyses (ISA). The ISAs are 
analytical, tabletop exercises which address a spectrum of potential 
threats, both within and beyond the Design Basis Threat. The ISA is 
conducted by independent and highly skilled security professionals from 
across the government and private sector. These analytical efforts are 
designed to give decision makers at each site and NNSA Headquarters a 
better understanding of how potential changes in threat and protective 
measures can be factored into actions that improve our system 
responsiveness and overall security posture. The results are then used 
in our risk identification and management efforts that assist in 
determining the safeguards and security program structure and most 
cost-effective investments at each site.
    Immediately following the events of September 11, 2001, NNSA 
initiated a series of efforts to increase our security posture. As a 
result, I am very comfortable with the level of our security complex-
wide. Most of the increases in our security posture, however, were the 
result of increases in the level of physical protection, mainly guard 
forces. As NNSA looks to the future, it is clear that the threat and 
protection challenges will continue to become more complicated and 
costly. More effort is needed to identify and deploy technologies and 
work procedures that can maintain or improve our security 
responsiveness while reducing physical security force staffing and 
overtime requirements.
    In fiscal year 2004, the NNSA will initiate a modest research and 
development effort to pursue emerging technologies. In addition to our 
historic rate of physical protection upgrades, the modest research and 
development effort will focus on applied technology to define a more 
robust, flexible, and cost-effective security architecture across all 
aspects of our work in the coming decade. These areas include earlier 
detection of adversaries, automated response capabilities, better 
coordinated communications, more efficient efforts to delay 
adversaries, better detection of contraband at site perimeters and 
enhanced cyber-security. This relates to both the current 
infrastructure and operations as well as our up-front planning for new 
construction and operations. Early in 2003, we completed an initial 
review of our technology needs and applications. In fiscal year 2004, 
we will complete the gap analysis of needed security efforts, review 
various technologies for near-term application, and target areas that 
have the potential for significant long-term contributions. Throughout 
this effort, we will engage with the ongoing efforts and experiences of 
the Department of Energy's other program areas and National 
Laboratories as well as other Federal agencies such as Departments of 
Defense and Homeland Security, to help assure sharing of best practices 
and maximum leveraging of our resources.

            RELATIONSHIP TO DEPARTMENT OF HOMELAND SECURITY

    The standup of the NNSA has been shaped by the Nation's response 
over the past 18 months to the terrorist attacks on September 11, 2001. 
Because the NNSA is the steward of the facilities and assets for the 
Nation's nuclear weapons complex, we placed the highest priority on 
addressing urgent, emergent concerns about the safeguards and security 
posture of our nationwide complex of facilities and transportation 
systems. We also upgraded our emergency response assets, which are 
available to be deployed in emergencies around the world. We have 
accelerated research and development on chemical and biological agents, 
and have shared the expertise resident in our laboratories and other 
facilities with other agencies and municipalities as part of the 
expanded focus on homeland security across the government. NNSA has 
contributed research and development and Federal support programs to 
the new Department of Homeland Security (DHS) and provided expertise 
and administrative support for startup of the new department. These 
programs, totaling about $88 million, include research and development 
to counter the chemical and biological threats; nuclear smuggling 
research and development; nuclear assessments program, from MPC&A; and 
Federal program direction funding in support of these programs.
    The legislation establishing the new Department specified that the 
Nation's radiological response capabilities will remain under the 
direction of the Secretary of Energy and NNSA Administrator. Funding 
for the radiological assets will remain within NNSA's Nuclear Weapons 
Incident Response programs ($90 million in fiscal year 2004). The 
assets will continue to respond to radiological accidents at 
Departmental facilities and will support Federal law enforcement 
activities where nuclear materials may be involved. NNSA's Office of 
Emergency Operations will work cooperatively with the DHS, and, when 
deployed in formally designated situations, the radiological assets 
will take direction from the Secretary of Homeland Security as the Lead 
Federal Agency. A Memorandum of Agreement establishing a framework for 
DHS to access the capabilities of these assets was finalized between 
the two Departments last month.

                      OFFICE OF THE ADMINISTRATOR

    Finally, I will summarize the fiscal year 2004 budget request for 
the NNSA Federal workforce, both Headquarters and field. The Office of 
the Administrator account provides the corporate direction and 
oversight of NNSA operations consistent with the principles of 
protecting the environment and safeguarding the safety and health of 
the public and workforce of the NNSA. This account now represents the 
consolidated program direction funds from the former Weapons Activities 
and Defense Nuclear Nonproliferation accounts; the Naval Reactors and 
Secure Transportation Asset activities retain separately funded program 
direction accounts. Our fiscal year 2004 budget request of $348 million 
reflects declining staffing levels and includes about $16 million for 
re-engineering incentives and relocation costs necessary to bring about 
the new NNSA organizational model.

                           MANAGEMENT ISSUES

    I would like to conclude by discussing some of the management 
challenges and successes NNSA has faced. The most obvious challenge has 
been the ongoing problems at the Los Alamos National Laboratory. There 
are three specific areas of concern at Los Alamos: improper use of 
government-issued credit cards; potentially fraudulent use of purchase 
orders; and poor accountability of government property. These problems 
taken together reveal significant weaknesses in business practices at 
the Laboratory.
    As soon as we learned about the extent of these problems this past 
fall, Secretary Abraham and I insisted that the University of 
California, which manages the laboratory for the Department, take 
corrective action. Subsequently, the University has replaced the Los 
Alamos Director and Deputy Director, and demoted or replaced 15 other 
officials. The University also has subordinated business services and 
auditing at the laboratory directly to the University, brought in 
outside firms to conduct detailed audits, and made numerous changes in 
the internal procedures. Generally, we are satisfied with the 
corrective action taken to date. The Secretary has directed the Deputy 
Secretary and me to conduct a review of the future relationship between 
the University of California and the Department. This review will be 
complete by the end of April. In addition, we are compiling a 
comprehensive set of ``lessons learned'' from the Los Alamos problems 
to share with all DOE sites.
    On a more optimistic note, good progress has been made in 
implementing the intent of Congress in creating the NNSA. The National 
Nuclear Security Administration is in its third year of operation, 
focusing the management of the Nation's nuclear security programs 
through a single organization. The new organization brought together 
the Department of Energy's Defense Programs, Defense Nuclear 
Nonproliferation, and Naval Reactors organizations in a separately 
organized and managed agency within the DOE. The standup of the 
organization has been a complex undertaking, and I am pleased to report 
that NNSA is now fully operational. As a result of our strategic 
planning exercises last year, and the resulting re-engineering of 
program responsibilities and organizations, we are getting a better 
handle on the many diverse components of the NNSA programs. Through an 
emphasis on our new Planning, Programming, Budgeting and Evaluation 
(PPBE) process, we are planning programs with a long-term view, 
budgeting within a firm 5-year resource envelope, and managing program 
and budget execution with more discipline, all leading to better 
results for the citizens of the United States.
    On December 20, 2002, the NNSA began a fundamental restructuring of 
its management structure designed to implement the President's 
Management Agenda to create a more effective NNSA. The NNSA of the 
future will build upon the successes of the past by giving outstanding 
people the tools needed for strong and effective management of our 
vital national security mission. This reorganization eliminated a layer 
of Federal management oversight in the field by disestablishing NNSA's 
three Operations Offices at Albuquerque, Nevada, and Oakland; shifting 
the focus of Federal management oversight to eight Site Offices, closer 
to where the actual work is performed; and consolidating all business 
and administrative support functions into a Service Center to be 
located in Albuquerque to increase overall efficiency. These changes 
were the culmination of 9 months of functional and business process re-
engineering, as first described in the Administrator's February 2002 
``Report to Congress on the Organization and Operations of the National 
Nuclear Security Administration.'' These management and organizational 
reforms are expected to permit NNSA to achieve significant Federal 
staff reductions of about 20 percent in the nuclear weapons enterprise 
by the end of fiscal year 2004.
    As we continue to implement the NNSA Act, we are particularly 
mindful of the President's Management Agenda to which we are firmly 
committed. We have invested much time and energy over the past year to 
carrying out its five major initiatives. Implementation of a PPBE 
process as NNSA's core business practice is designed to improve budget 
and performance integration throughout the organization. During the 
past 12 months, NNSA has been involved in an intensive effort to design 
and implement a PPBE framework simultaneously with the standup of the 
new NNSA organization. The processes have been designed in-house, along 
the lines of the DOD's PPBS system but tailored to our needs. We are 
adapting processes to address NNSA's emerging organization and unique 
business operations, and working within limited administrative staffing 
levels.
    Budgeting structures are being updated and aligned with management 
structures. We are making excellent progress in finalizing the cascade 
of performance metrics linked from the NNSA Strategic Plan to the 
individual budget and reporting (accounting) codes and contractor work 
authorizations. There is a very significant improvement in the 
Performance Measures across all programs for fiscal year 2004. 
Evaluation is becoming formalized through linkage with the budget, and 
improved by the realignment of roles and responsibilities for program 
managers and financial managers across the complex.
    We are pleased with the early progress of PPBE in becoming the core 
operating philosophy for NNSA. The first year was spent on process 
design, integration of the NNSA programs primarily at Headquarters, and 
in consultations and coordination of our efforts with the DOE Office of 
Management, Budget and Evaluation/Chief Financial Officer and the 
administration. The DOE Inspector General is currently auditing the 
first year's implementation, with a report expected in late spring 
2003. Our near term goal is to extend more formalized PPBE roles and 
missions from our Headquarters organizations to the new NNSA Federal 
field structure and the M&O contractors as the NNSA re-engineering 
proceeds during the next 12-18 months. It will take several budget 
cycles and lessons learned to complete the culture change, and to 
properly staff the organization to fully realize the benefits of PPBE. 
The NNSA remains committed to this goal.
    The NNSA also participated in the Administration's Performance 
Assessment Rating Tool (PART) analyses, evaluating four programs that 
encompass about 20 percent of NNSA's annual funding. The PART 
assessment noted that the NNSA programs were well managed and that NNSA 
management was proactively working to make additional improvements to 
program effectiveness and efficiency. Two of the NNSA programs, 
Advanced Simulation and Computing and International Nuclear Materials 
Protection and Cooperation, were rated in the top 5 percent of programs 
government-wide and received the highest PART ratings of ``Effective'' 
from the Office of Management and Budget. The PART analysis tool 
embodies and reinforces the PPBE processes and discipline we are 
implementing throughout NNSA. We plan to incorporate the PART 
assessment for all of NNSA's programs as part of our annual Evaluation 
cycle, starting with the fiscal year 2005 budget this summer.

                               CONCLUSION

    In conclusion, I remain confident that we are headed in the right 
direction. Our budget request will support continuing our progress in 
protecting and certifying our nuclear deterrent, reducing the global 
nuclear danger from proliferation and weapons of mass destruction, and 
enhancing the force projection capabilities of the U.S. nuclear Navy. 
It will enable us to continue to maintain the safety and security of 
our people, information, materials, and infrastructure. Above all, it 
will meet the national security needs of the United Stated in the 21st 
century.
    Mr. Chairman, this concludes my prepared statement. Now, I would be 
pleased to answer any questions that you and members of the 
subcommittee may have.

    Senator Allard. Before I call on Admiral Ellis, I want to 
check with my colleague, Senator Nelson from Florida, and see 
if he has any opening statement?

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. I want to thank you for being 
persistent that we get this hearing before us, and I will save 
my comments for questions.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    Thank you, Senator Allard. Good afternoon. I want to join Senator 
Allard in welcoming all of you to the Strategic Forces Subcommittee 
hearing this afternoon. I am glad we were able to reschedule this 
hearing, particularly on rather short notice. Senator Allard, thank you 
for being persistent in making sure we could get this very important 
hearing in before the subcommittee markup.
    In the two panels we have present today we will be able to cover 
almost all aspects of the U.S. strategic programs. At the outset, 
however, I would note the success of the bomber fleet in Iraq. The B-
52, the B-1 and the B-2 are once again demonstrating how very important 
they are to any military activity. Bombers are essential to gaining and 
maintaining control of the skies at the outset of any campaign and in 
ensuring the success of our forces on the ground. 
    The U.S. bomber fleet is old, particularly the B-52s, and we are 
planning on keeping them in the air for a very long time, many until 
2040. As such, it is essential that we devote the time and attention 
needed to modernize and maintain these aircraft and make sure that they 
are there when we need them.
    The primary focus of this hearing today, however, is the nuclear 
deterrent. Maintaining a reliable nuclear deterrent has been a key to 
U.S. national security strategy for many years. Nuclear weapons will no 
doubt continue to play an important role in U.S. national security for 
the foreseeable future. I look forward to discussing today the nuclear 
forces from all perspectives including the future for nuclear weapons 
and nuclear weapons policy.
    On the National Nuclear Security Administration side, the stockpile 
stewardship program has made considerable progress. I believe it is a 
fair statement that the scientists and engineers in the NNSA nuclear 
weapons complex understand the stockpile better today than ever before. 
The various experimental tools that are coming on line are developing a 
record of success in identifying and resolving a variety of issues.
    On the military service side the news is also good. The D5 backfit 
is progressing on schedule, the Minuteman III upgrade program has 
successfully resolved most of its issues and the drawdown of the 
Peacekeeper is on track.
    It is no secret, however, that several elements of the 
administration's budget and legislative request are controversial. In 
particular, the proposal to repeal the decade old ban on the 
development of new low-yield nuclear weapons appears to be a 
significant new step in U.S. nuclear weapons policy.
    Nuclear weapons policy is a serious issue. Congress has an 
obligation to ensure that there is a serious, full, and frank 
discussion of the policy and changes to that policy. The U.S. is 
currently engaged in a war in Iraq due in large part to concerns over 
efforts to develop nuclear and other weapons of mass destruction.
    I look forward to continuing this most important discussion today 
with our witnesses.
    Thank you.

    Senator Allard. Thank you.
    Admiral Ellis, you are up.

 STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman, Senator Nelson, 
distinguished members of the subcommittee. I, too, have a 
prepared statement that I would like to submit for the record, 
sir.
    Senator Allard. Without objection.
    Admiral Ellis. As always, it is an honor to once again 
appear before you representing the outstanding professionals of 
the United States Strategic Command. Following our discussions 
last month on space operations, I look forward to focusing 
today on our strategic deterrent mission and the opportunities 
we now have to shape a dramatically different strategic future 
for the command and for the Nation.
    The forces that underpin our deterrence mission and the men 
and women who design, plan, sustain, exercise, and operate them 
have not only helped bring a peaceful end to the Cold War, but 
also remain an important part of our Nation's future security 
structure. I commit to you that a robust and disciplined 
nuclear planning and oversight, conducted for the Nation for 
more than half a century, will remain a primary focus for the 
new United States Strategic Command.
    It has been an extraordinary 15 months since the Nuclear 
Posture Review began movement towards the new triad and 
dramatic reductions in our nuclear arsenal. In that short time, 
we completed the most sweeping revision of our Nation's 
strategic planning in a generation, updating our deterrent 
posture for the realities of the new international environment. 
We created an entirely new unified command to better address 
the Nation's global warfighting and deterrent needs. We assumed 
new responsibilities under Change-2 to the Unified Command Plan 
which will bring into even sharper focus our deterrent mission 
as we blend our now broadened portfolio together in innovative 
ways to enhance the Nation's security.
    We have provided intelligence and planning capabilities to 
the Regional Combatant Commanders, leveraging our historic 
expertise and unique tools to assist warfighters faced with the 
challenge of countering weapons of mass destruction and the 
systems that could be used to deliver them.
    We began reductions to the Nation's deployed nuclear 
arsenal by initiating the retirement of the Peacekeeper ICBM 
and removing two and soon to be four ballistic missile 
submarines from strategic nuclear service.
    Finally, we continue to provide missile warning for the 
Nation and for our forces in the field.
    Importantly, as you have alluded to, we are also engaged in 
the demanding work of charting the course of meeting our future 
needs. We have recognized that there are many opportunities 
ahead, and I am committed to working with our strong and 
growing team of partners to address each one. Opportunities to 
move our Nation forward that we will address together include 
the following:

        <bullet> Implementing the recommendations of the 
        Nuclear Posture Review, to include advocating the 
        development of advanced offensive and defensive 
        capabilities along with their supporting systems and 
        infrastructures;
        <bullet> Delivering quickly on the promise of 
        information operations;
        <bullet> Bringing to fruition the same concept of 
        planning non-kinetic efforts with known weapons systems 
        reliabilities and analytically-based consequences of 
        execution that have been done for our nuclear 
        stockpile;
        <bullet> Integrating global missile defense across 
        regional boundaries, among disparate land and sea-based 
        systems, with our offensive forces to better protect 
        our Nation and our forces in the field;
        <bullet> Working with those who will provide 
        communications architecture and persistent intelligence 
        capabilities so robust that it not only provides 
        adequate C\4\ISR, but also takes on a substantial 
        deterrent character all its own;
        <bullet> Ensuring safe, secure, reliable, and credible 
        nuclear systems as they continue to age well beyond the 
        original life expectancy; and,
        <bullet> Finally, improving anti-terrorism and first 
        protection measures for both our critical deterrent 
        forces and the tremendous capabilities we have on 
        orbit.

    We will assist not only in crafting a vision, but also a 
clear and detailed course of action in each area. We will 
pursue the dispassionate analysis of advanced weapons concepts, 
to provide a shared set of analytically derived data on which 
to base the policy discussion and decisions appropriate at 
senior levels of government. We will also pursue and 
participate in discussions of future deterrence concepts beyond 
2012.
    Mr. Chairman, it is an honor to represent the men and women 
of the United States Strategic Command and its components who 
are working harder than ever today to ensure the most effective 
deterrent force for tomorrow. It is also a privilege to join 
Ambassador Linton Brooks in this hearing. The NNSA is a strong 
and vital partner of STRATCOM and the Department of Defense. 
With their unparalleled expertise, we are together pursuing the 
life extension and Stockpile Stewardship Programs that will 
sustain and modernize our forces for the demands of a new and 
unpredictable security environment in the months and years 
ahead.
    Thank you and I look forward to your questions.
    [The prepared statement of Admiral Ellis follows:]

             Prepared Statement by Adm. James O. Ellis, USN

    Mr. Chairman, Senator Nelson, and distinguished members of the 
subcommittee, it is an honor to again appear before you, representing 
the outstanding men and women of United States Strategic Command, to 
address the strategic issues that remain so vital to the Nation. As you 
recall, during our last hearing we discussed space operations, allowing 
us to focus today on strategic deterrence and the actions underway to 
shape a dramatically different strategic future.
    U.S. Strategic Command, our components, and our task forces are 
crafting an entirely new command, instrumental in fighting the war on 
terrorism, deterring a wider array of potential adversaries, and 
focused on recasting the Nation's global military capabilities for the 
demands of the 21st century.
    We are drawing on the best elements of both U.S. Space Command and 
U.S. Strategic Command in order to eliminate seams, broaden oversight 
and streamline responsibilities. Significant reductions in the level of 
operationally deployed strategic nuclear weapons have begun in 
compliance with Presidential direction, the Nuclear Posture Review 
(NPR) and the Moscow Treaty while continuing to meet our obligations 
under START. Associated deactivation or modification of strategic 
delivery platforms is also well underway.
    STRATCOM continues to deploy or provide intelligence, planning, 
targeting, space, and information operations expertise to operations in 
U.S. Central Command and around the world. We have reshaped and 
streamlined the command's component and organizational structure to 
enable an integrated and trans-regional approach to matching global 
capabilities to global challenges. Importantly, we also completed a 
comprehensive update to our deterrent force plans to reflect the needs 
of the new international security environment.
    While these efforts are critical, they represent only the first 
steps toward a much broader vision of our strategic future. On January 
10, 2003, the President signed Change Two to the Unified Command Plan 
and tasked us specifically with four previously unassigned 
responsibilities. These are: global strike, missile defense 
integration, Department of Defense information operations, and command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR). This unique combination of roles, 
capabilities, and authorities under a single unified command will bring 
new opportunities in the strategic arena, in addition to further 
refining the global opportunities to support the regional combatant 
commanders.
    We are quickly integrating the efforts of our strong and growing 
team of service, agency, national laboratory, and Intelligence 
Community partners to define specific goals, identify milestones and 
quantify the progress of our collective efforts. Today, the new U.S. 
Strategic Command is improving our Nation's joint combat effectiveness 
by modernizing systems, streamlining processes, and providing a broader 
range of fully integrated mission capabilities to the warfighter and to 
our Nation's leaders.

               THE FUTURE OF OUR NUCLEAR FORCE STRUCTURE

    I am proud to again report that our Nation's nuclear deterrent 
forces remain fully ready. They are manned by a cadre of true 
professionals who, around the world and around the clock, effectively 
support the nuclear pillar of our national security strategy. For more 
than 56 years, Strategic Air Command and the former U.S. Strategic 
Command stood at the ready, supporting deterrence through rigorous and 
disciplined planning, effective training, and robust command and 
control of our Nation's strategic nuclear forces. The professionals of 
the new U.S. Strategic Command still willingly shoulder that enormous 
responsibility. We remain fully confident that STRATCOM's readiness, 
and that of our service components, is the most effective guarantee 
that the use of these weapons will never be required. As we reshape our 
organization and assume broader responsibilities, we remain committed 
to rigorously ensuring the continued safety and surety of our nuclear 
arsenal and delivery systems. Zero defects remain our standard.
    We are making prudent and measurable progress in achieving the 
President's goal, codified in the Moscow Treaty, of between 1,700 to 
2,200 operationally deployed strategic nuclear warheads by the year 
2012. Air Force Space Command, our Air Force component, began 
deactivation of Peacekeeper ICBMs on 1 October 2002. This effort 
remains on schedule and will be complete by 2005. The Navy removed two 
Trident submarines, U.S.S. Ohio and U.S.S. Florida, from strategic 
service in fiscal year 2003, to be followed in fiscal year 2004 by 
U.S.S. Michigan and U.S.S. Georgia. All four of these capable vessels 
will be modified into Tomahawk cruise missile carriers, designated 
SSGN, by the end of 2007. They will also provide a tremendous increase 
in the size and sustainability of support to our special operations 
forces. With the 1996 re-role of the B-1 to a non-nuclear role, we are 
moving to retire several hundred gravity weapons in fiscal year 2003, 
and are finalizing plans to remove many of the oldest ICBM warheads 
from the Nation's active nuclear stockpile.

                     SUSTAINMENT AND MODERNIZATION

    With no new nuclear systems under development, the important task 
of sustaining and modernizing our Nation's aging weapons and delivery 
platforms must be carefully managed and appropriately resourced. These 
forces must remain a ready, reliable, and credible element of our 
Nation's security posture. Other than the Navy's submarine launched D5 
missile, still in low-rate production, we are no longer building any of 
the weapons or platforms that comprise our strategic forces. We 
appreciate your continued strong support, through service and agency 
programs, of our key weapon, delivery platform, and communications life 
extension and upgrade programs. These include:

        <bullet> Minuteman III Guidance Replacement Program (GRP), 
        which replaces aging electronic components and updates software 
        to preserve reliability, maintain accuracy, and ensure 
        supportability through 2020. The GRP is the foundation of MMIII 
        modernization and is being completed at the rate of 80 per 
        year, with 140 deployed to date.
        <bullet> Minuteman III Propulsion Replacement Program (PRP), 
        which corrects age-related degrades by repouring the propellant 
        in stages I and II, and remanufactures stage III. PRP requires 
        GRP software for fielding, and must be sequenced appropriately. 
        It is programmed at the rate of 96 per year, with 49 boosters 
        deployed to date.
        <bullet> B-52 Avionics Mid-life Improvement, one of STRATCOM's 
        highest priorities, and AEHF upgrade, which ensure mission 
        capability and assured connectivity as this aircraft continues 
        to establish new benchmarks in service longevity.
        <bullet> D5 SLBM Life Extension and Backfit Programs, which 
        will provide a standardized fleet of 14 SSBNs for the full hull 
        life of the Trident II. Two of four SSBNs have completed 
        backfit with the remaining two scheduled for completion in 
        fiscal year 2006 and fiscal year 2007. D5 life extension 
        requires replacement of guidance and missile electronics on 
        fielded D5 missiles, and procurement of 115 additional missiles 
        to meet reliability testing needs over the 14-year life 
        extension of the hull. The D5 Life Extension Program is 
        adequately funded and on schedule for initial operational 
        capability (IOC) in fiscal year 2013.
        <bullet> B-2 communications upgrade, which may require 
        acceleration in future years to ensure secure and survivable 
        connectivity as AEHF replaces MILSTAR.
        <bullet> Strategic War Planning System (SWPS), which recently 
        completed an initial upgrade and is now entering a new phase. 
        This new modernization effort will incorporate the flexibility 
        and responsiveness envisioned by the Nuclear Posture Review and 
        broadened to support our newly assigned non-nuclear strategic 
        and regional support missions.
        <bullet> Combatant Commanders Integrated Command and Control 
        System (C2IC2S), which will replace aging and unsustainable 
        NORAD/U.S. Strategic Command mission-unique battle management 
        systems with a single, open architecture. CCIC2S is on track to 
        incrementally deliver warfighting C2 capability for NORAD in 
        late fiscal year 2004, strategic missile warning in early 
        fiscal year 2006, with space surveillance and control 
        capabilities being delivered from fiscal year 2003 through 
        fiscal year 2008.

    In addition to our vital life extension and modernization programs, 
we are working closely with our partners in the Departments of Defense 
and Energy, and Congress to ensure our nuclear stockpile remains safe, 
reliable, and credible. As the Nation's nuclear stockpile continues to 
age, we must carefully monitor its condition. Through the National 
Nuclear Security Administration's (NNSA) science-based Stockpile 
Stewardship Program, we continue to improve our surveillance, modeling, 
simulation tools and processes in order to provide the critical data on 
aging effects, component reliability and physics phenomena we require 
in the absence of nuclear weapon testing. Past drawdowns in nuclear 
weapon infrastructure require that the essential warhead life extension 
programs be carefully sequenced with scheduled warhead dismantlement so 
as to provide just-in-time delivery to meet operational deterrent force 
requirements. We are working closely with the NNSA, the national labs 
and plants to shape their support to our future stockpile. With the 
production complex operating near its peak capacity, we will need to 
optimize the balance between essential life extension programs and 
dismantlement work.
    Annually, at the direction of the President, I provide a nuclear 
weapon stockpile assessment to the Secretary of Defense. In my last 
assessment, based on the information provided by my staff and 
independent advice from our expert Strategic Advisory Group, I outlined 
my confidence in the safety and reliability of the stockpile. This is 
the first time since the program began in 1996 that a STRATCOM 
assessment did not indicate a decline in confidence in the reliability 
of the stockpile. I attribute this directly to the continued 
improvements in and funding for the Stockpile Stewardship Program, to 
the steps taken by NNSA and the services to diligently address 
previously reported technical issues, and to the progress of the 
ongoing life extension programs. I agree with the rigorous technical 
analysis conducted, and confirmed to the Secretary there is currently 
no need to consider resumption of nuclear testing. I appreciate your 
strong support for funding of the NNSA, enabling continuation of their 
important work.
    As we continue to sustain and modernize our forces, we are also 
working closely with the services and the Department of Energy to 
address the critical anti-terrorism and force protection requirements 
associated with safeguarding the Nation's nuclear systems. The ongoing 
Mighty Guardian exercise series and the Nuclear Command and Control 
System Federal Advisory Committee End-to-End Review have helped the 
services and the Department of Energy better focus their security 
efforts. While the changing character of the postulated threats 
requires continuous evaluation, I believe the services are making 
concrete improvements in physical security, though much remains to be 
done. We will continue to encourage this effort through the STRATCOM 
Integrated Priority List and will remain an active participant in the 
creation of implementation guidance that will flow from completed 
Office of the Secretary of Defense policy studies such as the NPR and 
the End-to-End Review.

                      FUTURE ENHANCED CAPABILITIES

    It is well known that much of our current military capability was 
designed or procured for a dramatically different international 
security environment. This is especially true of our Nation's deterrent 
forces. Though sustainment and modernization of these systems remains 
essential, equally important is the examination of future concepts and 
the contribution they could make to our deterrent posture. A 
fundamental assumption of the Nuclear Posture Review is that a mix of 
advanced capabilities, some yet to be designed, that include 
conventional, non-kinetic, special operations and nuclear, is needed in 
order to offer the broadest range of options to our Nation's leaders. 
Such a spectrum of capabilities will both enable the planned NPR draw 
down in operationally deployed strategic nuclear weapons and form part 
of a New Triad of deterrence in support of the President's goal of 
reduced reliance on nuclear weapons. While there are certainly 
significant policy issues associated with this transformational effort, 
it is also true that much laboratory research and development, detailed 
analytical study and advanced simulation efforts are an essential 
underpinning to such a fact-based dialogue. A number of organizations, 
including the Department of Defense and the Defense Science Board have 
nascent reviews underway. As the Secretary of Defense has noted, these 
studies are intended to consider and weigh alternatives and in no way 
presuppose decisions as to detailed design, production or deployment.

Advanced Conventional Capabilities and Global Strike
    U.S. Strategic Command's newly assigned global strike mission 
extends our long-standing and globally focused deterrent capabilities 
to the broader spectrum of conflict. We will incorporate conventional, 
non-kinetic, and special operations capabilities into a full-spectrum 
contingency arsenal and into the Nation's strategic war plan to further 
reduce our reliance on nuclear weapons. This innovative approach will 
enable the command to deliberately and adaptively plan and rapidly 
deliver limited-duration, non-nuclear combat power anywhere in the 
world. Our intent is to provide a wide range of advanced options to the 
President in responding to time-critical, high-threat, global 
challenges and, thereby, raise even higher the nuclear threshold.
    As envisioned, global strike could be decisively conducted at the 
direction of our most senior civilian leaders. It also represents a 
powerful tool in support of the regional combatant commander, 
essentially increasing the forces and options he has available to deter 
and engage an adversary. In either case, global strike will provide the 
Nation the ability to engage priority targets by moving rapidly from 
actionable intelligence, through adaptive planning, to senior-level 
decisionmaking and the delivery of kinetic or non-kinetic effects 
across thousands of miles. It can provide what may be the most critical 
element early in the fight--time. As a regional combatant commander 
assembles and moves forces into position or needs to strike into 
temporarily denied areas, U.S. Strategic Command can provide early 
planning and tangible, long-range combat capability. We are initially 
building this capability around the bomber force, and are bringing the 
B-1 back into our force structure in its purely conventional role. This 
committee's continued support of advanced conventional weapons 
initiatives such as the SSGN will assist in our immediate efforts to 
improve joint warfighting effectiveness. We continue to study concepts 
such as conventional ballistic missiles, Common Aerospace Vehicles, 
hypersonic aircraft, and unmanned combat aerial vehicles that could 
play a significant role in improving our global strike capabilities in 
the mid- to long-term.

Information Operations (IO)
    Delivering on the promise of information operations is one of U.S. 
Strategic Command's top priorities. Incorporating computer network 
attack and defense, electronic warfare, psychological operations, 
strategic deception and operational security, this nascent mission area 
promises to dramatically improve our offensive and defensive 
capabilities, and may play a large role in shaping the size and 
character of future force structures. Quite simply, I believe that 
integrated IO comprise the next revolution in warfighting, and our new 
role as the integrator of DOD information operations will bring a joint 
perspective to improvements in capabilities, ensure ready access to IO 
planning, reduce stovepipes, test and validate new capabilities, and 
provide a responsive command and control system to the Nation's 
civilian leaders and combatant commanders.
    Our current vision has U.S. Strategic Command serving as the 
central IO armory. While we need not own service and agency IO 
programs, or execute all IO missions, we must have full insight and 
access to all DOD IO capabilities as well as execution capability for 
strategic efforts. We will capitalize on our proven expertise in 
detailed intelligence collection, rigorous nuclear planning and 
consequence analysis to bring a fully integrated, deliberate planning 
process to the IO realm. We envision providing weapons or capabilities 
with documented system reliability and analytically based estimates of 
consequences and effectiveness, just as we have done for decades with 
the Nation's nuclear forces. We will support an expeditious national-
level approval process for conducting IO, and we will work to ensure 
national leaders and warfighters have what they need at their disposal, 
not only during crisis but also during the critical planning, training, 
exercise, and deployment phases. In this vein, we have conducted a 
number of advanced information operations exercises, spanning the 
entire planning, approval, execution, and battle damage assessment 
phases, and have identified valuable lessons for inclusion in our 
future planning and development processes.

Missile Defense
    The danger posed by weapons of mass destruction and their delivery 
systems is clearly one of our Nation's top concerns. As we discussed 
during my last appearance, the Missile Defense Agency (MDA) is actively 
developing an array of land, air, and sea-based missile defense systems 
to provide an additional level of protection for our homeland, our 
allies, and our forces in the field. Although still in the early stages 
of development, global missile defense will become an important third 
leg of the Nation's New Triad beginning next year.
    While the MDA develops and acquires our missile defense systems, 
U.S. Strategic Command is charged with efficiently integrating and 
operationalizing global missile defense, enabling an initial defensive 
operations capability in less than 18 months from today. As General 
Myers noted recently before the full committee, missile defense is 
inherently a multi-command and multi-regional task, and we are 
developing the global concept of operations and command and control 
architecture to provide the full support needed by the regional 
combatant commanders to defend their theaters, including the ballistic 
missile defense of the continental United States by U.S. Northern 
Command. With the unique combination of missions now assigned to our 
command, we are also working to integrate the emerging defensive 
capabilities with our full-spectrum of offensive capabilities, to 
support rapid and fully informed decisionmaking at the appropriate 
tactical level. This effort will be aided by the long-existing 
relationships we have crafted as the historic provider of ballistic 
missile integrated threat warning.

Command, Control, Communications, and Computers (C\4\)
    In the fast-paced and complex national security environment of the 
21st century, U.S. decisionmakers and warfighters must have seamless 
access to superior information to conduct decisive operations. Under 
the Unified Command Plan, STRATCOM now is assigned the role of tasking 
and coordinating C4 in support of strategic force employment. Our 
objective is to provide a more capable and flexible means to integrate, 
synchronize, coordinate, and convey information at any level from the 
President to the front-line combatant. We will partner closely with 
U.S. Joint Forces Command and the Defense Information Systems Agency in 
this critical effort.
    The events of September 11, 2001, illustrate the need to improve 
our national command and control architecture, and we are working with 
the Assistant Secretary of Defense for Command, Control, and 
Communications (ASD/C3) and a host of others to craft a new national-
level C4 system. This system must allow increased access to a broader 
array of Federal agencies, provide improved information flow, enable 
rapid decisionmaking, and support the requirements of our network-
centric forces in the Information Age. While this is important for the 
Nation and all of the Department's missions, it is imperative for the 
strategic deterrent, integrated missile defense, and global strike 
missions, where data collection, analysis, decisionmaking, and 
execution must occur within dramatically compressed timelines. We will 
leverage our experience with nuclear command and control to create a 
robust, hardened component to the national C4 system to preserve and 
strengthen the deterrent effect that assured communications, rapid 
decisionmaking and certain action provide. We appreciate your 
continuing support of the innovative communications initiatives such as 
the Transformational Communications Architecture and the important 
delivery platform connectivity upgrades vital to robust command and 
control.

Intelligence, Surveillance, and Reconnaissance (ISR)
    U.S. Strategic Command is also tasked under the Unified Command 
Plan to plan, coordinate, and integrate ISR for the Department of 
Defense in support of global and strategic operations. While ISR has 
always provided intelligence insight and targeting data, recent world 
events have demonstrated the critical role comprehensive ISR operations 
can play in senior-level decisionmaking, tactical planning and even 
deterrence.
    We will work closely with Department of Defense and Intelligence 
Community partners to develop and institutionalize the processes and 
systems necessary to maximize the capabilities of existing systems and 
assess intelligence collection priorities. New concepts such as 
intrusive ISR, incorporating space-based, air-breathing, terrestrial 
and maritime elements, could take us beyond passive collection 
benefits, especially when integrated with critical human intelligence 
and technical data. Our objective is to not only better provide 
persistent, actionable, predictive intelligence, but also to deter the 
threatening actions that a robust, global, persistent ISR capability 
could bring into full view. Systems such as the Space Based Infrared 
System (SBIRS), Future Imagery Architecture (FIA) and Space Based Radar 
(SBR) represent the high end of a spectrum that must also bring 
advanced air-breathing, terrestrial and maritime elements into a global 
architecture. Our ISR needs and regional focus in time of crisis are 
well known. In the future, global challenges will require an ISR 
capability that is broad and deep enough to simultaneously meet all 
national and regional needs across the continuum of peace, crisis, and 
conflict.

                      OPTIMIZING THE ORGANIZATION

    As you recall from my previous statements, U.S. Strategic Command 
is realigning our overall headquarters organizational structure in 
order to effectively and efficiently address a wider range of 
responsibilities. We will organize along functional and operational 
lines, rather than administrative in an effort to focus on our primary 
mission areas. As we move to our new organizational alignment this 
month, we will expand the use of enhanced planning and analysis tools 
into our newly assigned mission areas. While we will draw heavily on 
their tools and skills, we will retain the core nuclear planning staff 
as a distinct element in our headquarters, organizationally aligned and 
consolidated to ensure focused and dedicated nuclear planning and 
expertise continues in the future as it has for more than half a 
century.
    As we design concepts of operations for the new command, we are 
pursuing innovative new service relationships that will enable the 
command to efficiently tap into the unique skills and expertise 
resident in an array of other organizations, without requiring full-
time STRATCOM ownership of their forces. We are strengthening our 
partnerships with the national agencies in order to collaboratively 
approach our new mission areas, particularly in the highly technical 
and focused realm of intelligence, information operations, and 
communications. We have forged new relationships with the National 
Security Agency, the National Reconnaissance Office, and the Defense 
Information Systems Agency. Each has incredibly talented professionals 
and dedicated systems, processes, and procedures that are important to 
our shared success but which need not be duplicated in our 
headquarters. We are also excited about the opportunity to leverage our 
strong relationships with the national laboratories as we expand and 
develop new capabilities applicable to our recently assigned missions.
    As we discussed previously, success in any of our missions depends 
on our number one asset--our people. Creating a culture of excellence 
in a broader and deeper range of missions while sustaining the 
standards still reflected in our nuclear and space communities will 
depend on recruiting, training, and retaining the best and the 
brightest, in our military, in public service, in industry, and at the 
national labs. We will fully support and participate in efforts to 
create and sustain cadres of space, nuclear, and information operations 
professionals in both the Department of Defense and the Department of 
Energy. They are absolutely essential to our future.

                      CHALLENGES AND OPPORTUNITIES

    As we work to achieve the goals, carry out the responsibilities and 
deliver the capabilities needed for the global challenges of the 21st 
century, we will encounter many difficulties and find many more 
opportunities. It will not be quick or easy; few truly important 
efforts are. We will need to keep in mind our broader objectives, even 
as we wrestle with the daily technical, operational or policy details. 
Though the list will doubtless change over time, our specific strategic 
goals are:

        <bullet> Fully implementing the guidance of the Nuclear Posture 
        Review, to include advocating the development of advanced 
        offensive and integration of defensive capabilities in order to 
        meet the President's goal of reducing our reliance on 
        operationally deployed strategic nuclear weapons.
        <bullet> Delivering on the promise of information operations to 
        the warfighter.
        <bullet> Integrating global missile defenses across regional 
        boundaries, combining land, air, and sea-based systems with 
        capable offensive forces to better protect the Nation and our 
        forces in the field.
        <bullet>  Providing adequate bandwidth and a robust 
        communications architecture for rapid decisionmaking and global 
        combat operations at the strategic and operational level.
        <bullet> Supporting technical and process enhancements in 
        intelligence, surveillance and reconnaissance so as to provide 
        comprehensive, persistent, predictive, and actionable strategic 
        capabilities.
        <bullet> Redefining the STRATCOM organizational structure and 
        crafting new relationships with the services and national 
        agencies to effectively and efficiently support our broadened 
        responsibilities.
        <bullet> Supporting the services' and the Department of 
        Energy's efforts to enhance anti-terrorism and force protection 
        measures for our critical space and nuclear facilities.
        <bullet> Addressing concepts of deterrence and the associated 
        force structure appropriate for the new international security 
        environment of this decade and beyond.

    Each of these challenges will require a team effort, inside and 
outside the command. As we move forward, we look forward to working 
with you and the many others who are privileged to share the humbling 
responsibilities for our Nation's defense.

                               CONCLUSION

    It is a time of great enthusiasm, excitement, and opportunity at 
U.S. Strategic Command. While 2002 was a year of new concepts, 2003 and 
2004 must clearly be years of execution. Driven by new tasking and new 
responsibilities, in a real sense we at STRATCOM have reclaimed the 
classic definition of strategic, as articulated by Sun Tzu, Clauswitz, 
Washington, or Webster. We no longer live in a world where strategic is 
synonymous with nuclear, and we are integrating and interlinking the 
command's broad portfolio of missions to better and more flexibly meet 
the deterrent needs of the Nation. We have taken the first important 
steps in the evolution of our full-spectrum ``new'' strategic 
capabilities, even as we have taken the historic first steps in drawing 
down our Nation's deployed nuclear arsenal.
    I appreciate your continued support of the men and women of 
STRATCOM and the unique and essential contributions they continue to 
make to our Nation's security. I look forward to reporting our 
continuing progress to you in the future, as we take the next important 
steps in building the new United States Strategic Command.
    Thank you, and I welcome your questions.

    Senator Allard. I thank you both for your testimony.
    I will start off with some questions and will direct the 
first one to Admiral Ellis. It used to be that when we referred 
to strategic basically we were referring to long-range nuclear. 
Now with the posture review, when we talk about offensive and 
defensive weapons, I guess the question comes to mind--I am so 
much confused myself--as to what is a strategic target. In 
connection with that, how would you define a strategic weapon? 
My understanding is that these definitions have changed over 
time.
    Admiral Ellis. They certainly have, sir. You have 
highlighted a theme that I have been sounding since the 1st of 
October last year, when the new United States Strategic Command 
was established. Many people believe that we kept the name the 
same and slid a new organization under it. But I remind 
audiences that in reality we have done just what you have 
described. We have redefined and recharacterized the term 
``strategic.'' We have recaptured in a sense the classic 
definition of what ``strategic'' means.
    In other words, for many years, as you rightly noted, Mr. 
Chairman, we have equated ``strategic'' with ``nuclear.'' But 
if you go to the dictionary, if you go to Webster's, nowhere in 
there does the definition of ``strategic'' mention the word 
``nuclear.'' Rather, it states, ``essential to the success of 
large-scale global operations.'' It talks about ``essential to 
the prosperity of a nation, but available in small quantities 
domestically.''
    There are a number of definitions ascribed to 
``strategic,'' but none of them are ``nuclear.'' That indeed is 
what we are about. ``Strategic'' in my view encompasses a 
broader range of capabilities, all the capabilities that the 
Nation's military can bring to bear in its defense and its 
protection. It really refers to operations and capabilities 
conducted on a global scale, in support of Regional Combatant 
Commanders, if necessary, but in response to specific tasking 
of our own forces, if appropriate.
    I hope that helps put things back in context, sir. But you 
are exactly right, we have recaptured the classic definition of 
``strategic'' at the new United States Strategic Command.
    Senator Allard. I thank you for that response.
    I wish you would go over a little bit for the subcommittee 
the significance of developing the advanced conventional 
munitions, particularly in light of the reductions of nuclear 
arms envisioned by the Nuclear Posture Review as well as the 
Moscow Treaty.
    Admiral Ellis. Thank you very much, Mr. Chairman. As you 
rightly allude, one of the fundamental assumptions or 
underpinnings of the Nuclear Posture Review was that as we draw 
down the Nation's operationally deployed strategic nuclear 
stockpile we would generate over time an enhancement in a 
number of areas. You have alluded to them in referencing the 
new triad.
    They include the infrastructure to which Ambassador Brooks 
alluded. They include robust command and control, adaptive 
planning capabilities. Most importantly, they also include new 
strategic capabilities, advanced concepts that are non-nuclear 
in context, and that includes advanced conventional as well as 
non-kinetic or information operations capabilities.
    As I said earlier, we have broadened the term ``strategic'' 
and our goal is to provide a full range of options to the 
Nation's senior leadership, and the development of those 
capabilities at a pace that is appropriate for the drawdown in 
our nuclear forces is what was envisioned in the Nuclear 
Posture Review and is a capability or direction that I fully 
support.
    Senator Allard. How important would you say conventional 
munitions are today in carrying out your STRATCOM mission? How 
important do you think they might be 20 years from now?
    Admiral Ellis. Sir, as we have established ourselves on the 
1st of October and begun the creation of a nascent global 
strike capability--that is one of the four previously 
unassigned mission areas that have come to the United States 
Strategic Command--that capability obviously involves 
conventional weapons, as does the capabilities that are 
embedded in what is called Department of Defense information 
operations.
    As to the future, we see a need, an opportunity indeed, to 
pursue advanced conventional capabilities across that full 
spectrum, kinetic and non-kinetic. We believe that by 
partnering closely with the Services, the agencies, Defense 
Threat Reduction Agency, DARPA, the advanced development 
organizations and laboratories, as well as the National 
Aerospace Initiative and other capabilities that are beginning 
to take form, these advanced conventional capabilities will be 
an increasingly significant part of the planning capabilities 
that fall under our purview.
    They are absolutely essential to our future. They were a 
part of the assumptions that were implicit in the Nuclear 
Posture Review, and we certainly appreciate your support of 
these efforts to develop such capabilities.
    Senator Allard. That gets us down to the issue of delivery 
systems. Do we have the right mix of delivery systems to put 
those conventional advanced munitions on target?
    Admiral Ellis. My view is that for the near term I believe 
we do. We are working through the Services to address issues 
regarding sustaining our bomber forces, for example. Two weeks 
from today we celebrate the 51st birthday of the first flight 
of the B-52. Fifty-one years ago next week, that airplane first 
flew, and the projection is that it will continue to fly until 
2037.
    Clearly, we need to pay attention to these aging platforms 
and continue to examine how to modernize them and how to 
upgrade them to capably carry the current and future 
generations of weapons. We also need to explore new 
capabilities, some of which you are familiar with from your 
interest in space. Common Aerospace Vehicles and advanced 
delivery concepts of that type offer some promise for advanced 
conventional capabilities that would allow us to deal with 
time-critical targets half a world away in short order.
    As these types of things mature, we get more clarity on the 
capabilities that they do, in fact, deliver, and we are able to 
fold into the budget the tradeoffs that inevitably are part of 
this process in which we are all involved, I think it is going 
to be an important approach that we take for the future.
    Senator Allard. My time has expired.
    Senator Nelson.
    Senator Bill Nelson. I am going to let Senator Reed go. I 
have plenty of questions, so I will just take the time.
    Senator Allard. Senator Reed.
    Senator Reed. Thank you very much.
    Thank you, gentlemen, for your testimony. Ambassador 
Brooks, I have been listening closely as you talked about the 
request to repeal the ban on low-yield nuclear weapons. Your 
rationale seems to be wanting to sweep away the artificial 
intellectual constraints, but it strikes me that if that were 
the only thing that was at issue here you would request 
modification to the statutory language, not an outright ban. 
For example, the language could simply say: ``It shall be the 
policy of the United States not to produce a low-yield nuclear 
weapon, including a precision low-yield nuclear weapon.'' Is 
that accurate?
    Ambassador Brooks. It is accurate that that would eliminate 
one of the concerns that I have with the language, though the 
language now does have, we fear, a potentially chilling effect 
on R&D and as you have described a possible modification it 
might not. Speaking narrowly for the prospect of trying to get 
a robust advanced concept program working, language like that 
might be entirely suitable.
    My view, the administration's view, is that the ban on a 
particular class of weapons is a mistake because it substitutes 
sort of a mechanical limitation for a broad examination. We 
have low-yield weapons now. Is there a logic to saying that we 
can have older low-yield weapons, but that we know now that we 
are not going to ever want to produce new low-yield weapons?
    Now, to some extent I admit we are talking about an 
important signal, since I am not going to develop or produce 
anything without the permission of Congress and if Congress 
decides to give me permission it could modify the ban you talk 
about in the future. To some extent we are talking about an 
important signal, but I believe that it is wrong as a matter of 
principle to set forth arbitrary restrictions on even the 
development of weapons. But I freely concede the point that I 
would be much better off in terms of my immediate concern for 
intellectual development with a modification like you said.
    Senator Reed. I think, Mr. Ambassador, you are right. This 
is a very important conversation. It sends off very strong 
signals, and the signal that you tried or are communicating, at 
least I thought, was that this is just a technical issue about 
the breadth of research. But yet, this repeal goes far beyond 
that. It would signal to many people that we are not only 
researching, but we have the legislative authority--at least 
not the legislative prohibition--to produce new weapons, new 
low-yield weapons. That would be an interesting signal around 
the globe in terms of many issues, other countries looking at 
what we do, or the proliferation issues, not discouraging 
disarmament efforts that we are trying to encourage.
    I find it puzzling that if it is simply a narrow, research 
base, intellectual inquiry base, that such a ban would be urged 
by the administration. As for the arbitrary nature of setting 
one class of weapons aside, I think that goes to an issue about 
this weapon, a low-yield weapon, might be less of a threshold 
to use than a larger weapon. That may be common sense; it may 
be wrong, but I think that is what most people think.
    Ambassador Brooks. Yes, sir, and I understand that. Here 
you have a paradox we have faced in this country for the last 
60 years. On the one hand the more that you can see that a 
weapon is directly relevant to something you might want to do, 
the more effective a deterrent it is, and on the other hand the 
more the argument that you make comes into play.
    I think that is an inherent part of the dilemma of nuclear 
weapons: What signal will we be sending? One signal we may be 
sending is that we are no longer going to constrain ourselves 
by a reliance on a type of retaliation that was appropriate for 
the Soviet Union, that, in fact, since deterrence depends on 
what the adversary values, we are going to hold open the 
possibility of a deterrent that is adapted to a future 
adversary.
    In my view, that does not lower the nuclear threshold. The 
nuclear threshold is awesomely high, but we know we are engaged 
today in an exercise in Iraq which demonstrates that the 
overwhelming power of the United States is not always enough to 
ensure rational behavior on the part of other countries. There 
is a possibility that in the future one may need to have 
capabilities that we do not have now.
    Senator Reed. Excuse me, Mr. Ambassador. Are you suggesting 
that in the Iraq situation if we had a low-yield nuclear 
device----
    Ambassador Brooks. No, I am not, and thank you for the 
opportunity to avoid misunderstandings. I am not suggesting 
that. I am suggesting that it is important to realize that 
people we try to deter, by and large, do not think like us, and 
therefore we may need a variety of capabilities to deter them. 
That is the point that we had in the time of the Soviet Union 
and that is the point that we have now. I was not meaning to 
suggest that nuclear weapons have any particular relevance to 
the Iraqi situation because I do not think they do.
    Senator Reed. Mr. Chairman, my time has expired. I might 
not be able to stay and perhaps Senator Nelson might follow up 
on this. As we look around, where would we use these types of 
weapons? We are currently engaged in a conflict with Iraq, and 
I think you, Mr. Ambassador, quite rightly said that we 
probably would not even contemplate using such a weapon, a low-
yield weapon, in Iraq. I just wonder, why are we making the 
effort to take away all the restrictions, not just research and 
development leading up to, but all the restrictions with 
respect to low-yield nuclear weapons? My time has expired. 
Thank you.
    Senator Allard. If you want some extra time, your colleague 
is willing here.
    Senator Reed. No, I will yield back.
    Senator Bill Nelson. I will follow up for you. Why do you 
not just jump in if you would like to.
    Senator Reed. We cannot tag team. That is WWF. [Laughter]
    Senator Allard. Excuse me. Before you leave, I do want to 
make an announcement. I announced earlier that we would not be 
able to have as high a level of security in the closed session 
as we were counting on. I have now been informed that we have a 
reporter we will be able to use at that session, so we can go 
into however much detail or whatever clearance level. That will 
not be a restricted matter when we go into closed session.
    Senator Nelson.
    Senator Bill Nelson. Mr. Ambassador, I might agree with you 
on the policy, but on the issue of what is law and obeying the 
law, sitting right here looking at that nameplate right there 
causes me to remind the executive branch that this is a 
government of shared powers and the law-making process is here, 
with the President signing legislation into law, and that we 
are a Nation of laws, not of men.
    Section 3136 is a prohibition on research and development 
of low-yield nuclear weapons, and until that law is changed, no 
matter how you interpret it, the law is the law.
    Ambassador Brooks. Senator, if anything I said suggested 
anything else, then I apologize. In fact, my point is your 
point, because I believe, Senator, that you left out the words 
``that could lead to,'' and it is precisely the fact that we 
tried to be scrupulous in our following the law that leads us 
to the situation in which, in addition to physicists and 
engineers, we have to have lawyers in thinking about technical 
development. It is not because we wish to thwart the law, but 
because we know we are obligated to scrupulously comply with 
the law, that we are advising the Senate that we think the law 
should be changed.
    Senator Bill Nelson. Well, for the record I think the law 
is pretty clear. Subsection [b]: ``The Secretary of Energy may 
not conduct, or provide for the conduct of, research and 
development which could lead to the production by the United 
States of a low-yield nuclear weapon which, as of the date of 
the enactment of this Act, has not entered production.''
    Ambassador Brooks. Yes, sir, that is absolutely correct. I 
believe that that law is clear. The words ``which could lead 
to,'' however, raise issues in terms of, can you do something 
for a high-yield weapon because what you learn could lead to. 
That is the point I was trying to make.
    In the nuclear area above all, we are pretty meticulous 
about following the law.
    Senator Bill Nelson. Is there a requirement in your opinion 
for a new low-yield?
    Ambassador Brooks. No.
    Senator Bill Nelson. Is there a requirement for such a 
weapon under consideration or being developed?
    Ambassador Brooks. There is no requirement being developed. 
To the best of my knowledge, there is no requirement under 
consideration. There are continued discussions among 
specialists about what capabilities might be suitable or might 
be required in the long term. But anything that rises to the 
level of formal consideration by the Department of Defense of a 
specific requirement for a specific weapon, I am not aware of.
    Senator Bill Nelson. Over at DOD you hear talk that there 
is justification for the repeal of this law so as not to 
foreclose the exploration of technical options that could 
strengthen our ability to deter or to respond. What sort of new 
emerging threat would a low-yield nuclear weapon be used to 
deter or to respond to?
    Ambassador Brooks. I am not sure, but let me give you some 
of the kinds of examples that people have looked at for 
advanced concepts more generally. For advanced concepts one 
might look at what is sometimes called Agent Defeat, the idea 
that a particular biological agent, set of biological agents, 
might require a large burst of radiation to in essence kill the 
biological agents. For example, one might want to look at an 
enhanced cruise missile which has different safety and surety 
features. For example, one might conclude at the end of the 
study of the Robust Nuclear Earth Penetrator that I cannot do 
what I am asking you to let me do and see if I can adapt an 
additional weapon, and then one might be forced to say the only 
way you can get a nuclear earth penetrator is to do something 
fundamentally new.
    Now, in all of those cases I do not know whether the most 
efficient and effective design would be a low-yield design or a 
high-yield design because, as I tried to make clear in my 
statement, I am not asking to produce something, I am not 
asking to develop something. But those are things where our 
existing capabilities might need to be improved. Those are the 
kinds of things that we will be looking at under advanced 
concepts, and in doing that I do not want to set out at the 
beginning of the exploration a boundary that says I must look 
at them with higher yields.
    I have a bias in favor of the lowest usable yield because I 
have the bias in favor of something that is the minimum 
destruction. I accept Senator Reed's point that that means I 
have a bias in favor of things that might be usable. I think 
that is just an inherent part of deterrence.
    Senator Bill Nelson. I would assume, and you tell me if 
this is correct, that bunker busters are a function not only of 
the explosive blast, but would also be a function of the 
hardening of the case?
    Ambassador Brooks. Yes, sir, that is exactly right.
    Senator Bill Nelson. In order to penetrate deeper.
    Ambassador Brooks. That is exactly right, sir.
    Senator Bill Nelson. The latter would not get into the 
question.
    Ambassador Brooks. It does not. What we hope to do on a 
nuclear earth penetrator is to look at both the B61 and the 
B83, both of them gravity-delivered bombs, and take a look at 
whether, without getting into the redesign of the nuclear 
package, we can so strengthen--it is not just that you have to 
be able to penetrate. I mean, we know how to make things that 
will penetrate. You have to be able to penetrate and still have 
nuclear weapons, which are actually quite intricate machines to 
work right, survive the penetration long enough so it will 
still work with the reliability that we demand. Whether that 
can be done by adapting an existing weapon is what we are 
asking Congress to let us spend a fair amount of money to find 
out.
    Senator Bill Nelson. If you can penetrate, you can take 
care of business with a conventional explosive, can you not?
    Ambassador Brooks. It depends a little bit. I defer to 
others who are experts in conventional explosives, but, in 
general, a conventional explosive demands a precision that a 
nuclear explosive does not. In general, knowing exactly the 
outline of an underground bunker is not something you can 
guarantee. For example, if I knew that I was trying to 
penetrate this room and the conventional explosive ended up 
three rooms over, that would not be very effective. If a low-
yield nuclear weapon ended up three rooms over, that would in 
fact make this room unusable under any conceivable 
circumstance.
    I do not mean to minimize the importance of conventional 
penetrators. Everybody would like to be able to do everything 
with conventional weapons for a whole bunch of reasons, and it 
may well be that the country will decide that the benefits of a 
Robust Nuclear Earth Penetrator are not worth having. What we 
are trying to do is find out what those benefits are and what 
it would cost to actually have them.
    Senator Allard. Okay, I think Ambassador Brooks has had a 
pretty good workout. Admiral, you are next.
    Admiral Ellis. Thank you, sir.
    Senator Allard. You appreciate that opportunity.
    Ambassador Brooks. Thank you, Mr. Chairman.
    Senator Allard. We just heard Senator Reed suggest that 
nuclear weapons could lower the nuclear threshold, and I heard 
Ambassador Brooks testify that we had lower yield nuclear 
weapons in our arsenal in the past. Do you know why we did not 
use those weapons in the past?
    Admiral Ellis. Mr. Chairman, I believe that the decisions 
that would confront the President on the use of nuclear weapons 
are the most demanding and challenging decisions that he will 
likely ever face. It is not clear to me that there is a direct 
linkage between the size of the weapon and the awesome 
responsibilities embodying that decision.
    You rightly point out, as the Ambassador has already noted, 
that we have low-yield weapons in the inventory. Quite frankly, 
we have had many more low-yield weapons in the inventory in the 
past through the 1950s, 1960s, and 1970s. But now they are 
removed from the inventory. Each of those periods saw their own 
challenging, demanding conflicts and, as we all are well aware, 
thankfully, none of those challenges in any way got close to 
the threat level that would require their use.
    My view is that the decision is an extremely difficult and 
demanding one. The survival of the Nation, our allies, and 
friends in significant measure has to be at stake, and I 
suspect that is why those issues have not come to the fore 
prior to this.
    Senator Allard. In your view, can conventional munitions 
hold at risk the full range of targets you think you need to 
address today and in the future?
    Admiral Ellis. No, sir. In a word, there are clearly 
hardened, deeply buried targets, as we are well aware, that 
even our most capable advanced conventional capabilities cannot 
touch. Even some of the developmental capabilities that we are 
now beginning to see and have addressed--the massive ordnance 
air blast weapon that has been demonstrated and the like, a 
21,000-pound weapon there--cannot deal with all of those 
facilities.
    Senator Allard. It looks to me like our potential enemies 
are at least beginning to address this vulnerability aspect. I 
guess in the last night or so we had, if you looked on TV, the 
bunker that was blown up there; the thing that struck me was 
the size of those walls that I saw laying around that room. It 
looked to me like some of them were 6 feet thick.
    So you are telling me that our enemies or potential enemies 
are perhaps looking at going deeper, with--I do not know if I 
saw a lot of rebar in them, but--an even stronger wall and even 
deeper, which our current conventional weapons could not get 
to, is that correct?
    Admiral Ellis. That is correct, sir. It is even more 
challenging than that, because many of them are taking 
advantage of the rock formations and the type of structure that 
they dig the tunnel into, that to a large degree cannot be 
easily penetrated by any of our conventional weapons. If you 
consider that, it makes the challenge even more demanding.
    It is not just the depth, it is the character of the matter 
en route to the target of interest that is of importance as 
well. If it is a solid rock, granite formation, mountain type 
structure, as we are seeing proliferating around the world, 
those are even more challenging to any weapons capability, much 
less conventional.
    Senator Allard. Now, my understanding of maybe some of 
these low-yield weapons that will penetrate down through the 
earth is that actually contamination on the surface would be 
much less than our more conventional nuclear weapons that we 
have now. Is that right?
    Admiral Ellis. Well, again, we have not been able to do the 
depth of analysis that could give us that type of information.
    Senator Allard. But that is what it appears?
    Admiral Ellis. There are many experts who believe that as 
you tunnel down many feet that, particularly with the lower 
yield weapons, there would be much less probability that the 
blast would emerge from the hole and contaminate the 
environment. Conceptually that is a theory. But, again, it 
needs to be validated by the rigorous and precise engineering 
analysis that the Ambassador is talking about so that we are 
all dealing with the same set of facts here as we discuss this 
very important issue.
    Senator Allard. I guess the one thing that a nuclear weapon 
might carry with it on a conventional weapon is a lot more 
heat. It would have a lot more heat in that blast. If you had, 
for example, a bacteriological lab, say anthrax, which is very 
resistant to most disinfectants, a very strong heat source 
could be helpful. Is that right?
    Admiral Ellis. Yes, sir, heat could be an element in the 
agent defeat scenario that the Ambassador described, as well as 
the larger energy that could couple to rock formations and 
propagate shock waves through much greater depth and ensure 
destruction that could not be done by conventional munitions as 
we know them.
    Senator Allard. Now, as I understand it, both the 
administration and you are interpreting the current law, which 
was just read to us here by Senator Nelson, as saying that you 
could not do any research at all that somehow or other could be 
construed to leading toward the development of a particular 
weapon. There are a lot of lawyers out there that want to carry 
that language to the ultimate. Does this law preempt us from 
doing some research out there that we ought to be doing when we 
look at the full range of possibilities of defending this 
country?
    Admiral Ellis. Yes, sir.
    Senator Allard. Is that the way you are looking at that 
interpretation?
    Admiral Ellis. Certainly the language has been subject to 
as much scrutiny as anything that has gone into law on the 
nuclear side in many years. As Ambassador Brooks has properly 
noted, we have taken a very conservative interpretation to 
ensure that we carry out fully the----
    Senator Allard. That nobody would ever question what you 
were doing.
    Admiral Ellis. The intent--I think the term ``possibly'' 
and a number of other generalities associated with that have 
really engendered a real reluctance to begin to address any of 
these issues. It really is what you spoke about earlier. I was 
privileged to be here last month for a hearing and happened to 
be watching some of the debate going on on the floor with your 
colleagues. There was a wonderful quotation that one of them 
used in a different debate, that said: ``We are all entitled to 
our own opinion, but we are not entitled to our own facts.''
    That is what this is all about--let us find the facts 
associated with this and let us understand that there are very 
important policy issues that need to be addressed. We certainly 
are very mindful of that, but it is important that we have a 
dispassionate analytical fact-based discussion on just the 
issues that you have been questioning me about, and that is the 
reason that relaxation of this language is so important.
    Senator Allard. In my own mind I think I can conjure up 
where this definition could be extended to the point where it 
could actually interfere with just basic research. For example, 
just hypothetically, maybe if you run across an element that 
all of a sudden comes to light and somebody says, ``Well, that 
has the potential of being an element that would be used in a 
nuclear weapon,'' that that could keep you from doing some very 
basic research as far as chemicals are concerned. Could it be 
carried that far?
    Admiral Ellis. I would not speak for Ambassador Brooks 
here, but since I am covering for him in this session, I think 
that that is what he is alluding to in his discussion of the 
chilling effect. It is important.
    Senator Allard. So it can be interpreted to the point where 
it interferes with basic physical research, basic chemical 
research--is that correct? Is that what you are trying to say?
    Admiral Ellis. Our interpretation is all research and 
development, which could lead to the development of precision 
low-yield weapons, is precluded by that language, and that is 
the issue at hand.
    Senator Allard. My time has expired.
    Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, I am reminded of debates 
on other matters that we have as to whether you are a strict 
constructionist or a judicial activist, and all of a sudden it 
sounds like you want to be a judicial activist.
    Senator Allard. Well, no. The problem is we have judicial 
activists out there.
    Senator Bill Nelson. All right. Let me ask you, Admiral. 
Let us talk about the bomber fleet. The B-1 defensive system 
upgrade program was cancelled as a result of significant 
technical troubles and cost overruns. The funding picture is 
improved for the B-52, but there is still no funding for the 
Link 16. It is also not clear whether the B-2 radar program 
will be completed as soon as required, and there is no money 
for EHF satellite communications in 2004. Are you comfortable 
with all this?
    Admiral Ellis. In a short answer, no, sir. There are clear 
issues associated with the B-1 that are important to us 
because, even though it has now been re-roled out of its 
nuclear mission, it now is of great interest to me because of 
its global strike capabilities and the conventional 
capabilities that are a part of that capable platform.
    It is clearly a defensive countermeasures suite that is 
appropriate to the challenges that that airplane might 
confront--and it was a workhorse for me in Kosovo in 1999 and 
continues to serve us well in the ongoing conflict. It is an 
ability that we continue to upgrade, as we do all of the 
systems for the stresses they are going to face in the future.
    Senator Bill Nelson. How about schedule change?
    Admiral Ellis. The specifics of schedule will have to be 
taken in context. I am certainly not waffling here. I need to 
understand why the schedule has slipped, and I will look into 
that, sir. If it is to resolve technical issues, then there may 
be some legitimacy in that if it leads to ultimate success in 
the overall procurement process. You have rightly identified 
the issues that are a part of the B-52 piece: the avionics 
upgrades, the kind of things that are going to keep that 
airplane flying until it is beyond 80 years old are very 
important to us.
    The B-2 piece, the radar is having to be changed out 
because the frequency spectrum in which it operates is no 
longer available after fiscal year 2007 as a result of 
commercial encroachment issues. It is important that that 
capability come on line as quickly as possible.
    We are working with the Services to address the importance 
of the reachback capability associated with the communications 
because it is important to us, but not just in the strategic 
mission in the classic context of recallable aircraft, with 
which you are very familiar. Also, the global strike command 
and control, the ability to get retargeting information to the 
platforms in the air, has proven to be very critical to us, as 
we have seen in the successes we have enjoyed in recent 
operations.
    The bomber road map continues to be an important part of my 
focus. In fact, it is more important now than it has ever been 
because it serves me well in at least two, if not more, of my 
missions.
    Senator Bill Nelson. Have you flown B-52s?
    Admiral Ellis. Yes, sir, once.
    Senator Bill Nelson. Have you flown the B-1 or B-2?
    Admiral Ellis. No, sir. We are scheduled to do that this 
spring. They invited me up to Minot, where I am going to have 
the opportunity to fly both of those aircraft, and I look 
forward to that.
    Senator Bill Nelson. Do they handle a lot easier than a B-
52?
    Admiral Ellis. Yes, sir, they do. I have to admit my 
experience in the B-52 was many years ago when I was a 
lieutenant in test pilot school, and I thought I was a pretty 
hot pilot as a fighter guy. That is a pretty humiliating effort 
when you get in there and crank that yoke over and nothing 
happens. About that time you say, well, nothing is going to 
happen, and you try and add more, and you find out it happens 
and then some. It is a completely different set of intellectual 
control laws and time delay associated with that aircraft.
    I admire and have the deepest respect for the folks that 
have flown that for a generation. We used to joke that it was 
older than the pilots that flew it. Now we are going to be able 
to say that it is older than the grandparents of the pilots.
    Senator Bill Nelson. I will address to both of you. Is our 
nuclear stockpile safe and reliable, even though we are not 
testing weapons?
    Ambassador Brooks. Yes, sir.
    Admiral Ellis. Yes, sir.
    Senator Bill Nelson. Do both of you think that we do not 
need for the safety of the country to conduct a nuclear test?
    Admiral Ellis. Yes, sir, at this time that is true.
    Ambassador Brooks. Yes.
    Admiral Ellis. I have certified that to the Secretary of 
Defense on an annual basis.
    Ambassador Brooks. Not at this time, sir.
    Senator Bill Nelson. This treaty that we have just passed 
over the course of a number of years takes weapons off of 
ICBMs, but it does not destroy them. I would like your comment 
to make me feel a little better about the safety of those 
weapons in the hands of the Russians when they stick them into 
a warehouse. Give us some of your thoughts there.
    Ambassador Brooks. Let me talk both about safety and 
security. With regard to safety--and we should both be in a 
different venue and perhaps with a different group of people 
here to get the full intelligence assessment on safety--I have 
no reason to believe that there are safety problems with stored 
Russian nuclear weapons.
    With regard to the security of those weapons, it has been 
part of U.S. policy for a number of years to try and improve 
that security. The security of Russian Navy nuclear weapons is 
done by the National Nuclear Security Administration. We are 
upgrading security for about 4,200 weapons, and we will finish 
that process in 2006. The security of the rest of the arsenal 
is primarily the responsibility of the Defense Threat Reduction 
Agency under the Cooperative Threat Reduction Program, although 
recently I have also picked up some responsibility for 
Strategic Rocket Forces for a bunch of basically Russian 
bureaucratic reasons.
    I have been impressed with the attitude toward security on 
the part of the Russians. The Russians have no more interest 
than you and I in having a nuclear weapon get out of their 
hands. But this is a glass that is half full, but it is also 
therefore half empty. There is still a fair amount to do in 
improving the security of nuclear weapons.
    Regarding the safety of nuclear weapons, my analysis 
suggests that that is not a huge problem. The Russians have 
always been quite concerned with that, sir.
    Senator Bill Nelson. Yet, I hasten to add, I have heard 
Senator Lugar, who has been a leader in this area, talk about 
the only security on some of those buildings that he has seen 
is a little padlock.
    Ambassador Brooks. Oh, yes, sir. There is no question at 
all, and, in fact, I think the Senator is also referring to 
nuclear materials as well, which we also do for the Ministry of 
Atomic Energy in Russia. If you look back to where we started, 
security was appalling. It is less appalling at some places and 
actually pretty good in others now. We have not gotten into the 
large serial production facilities. That is probably where they 
have their best security.
    But I guess I am trying to convey an image of a real 
problem, which we are chipping away at as fast as we know how. 
I do not want to minimize the magnitude of the problem, but I 
will say we have gotten huge cooperation from Congress and we 
are getting huge cooperation from the Russian Federation in 
improving security over there. But they did have a long way to 
go. All those horror stories are true.
    Senator Bill Nelson. Admiral, is there a need for a 
conventional ICBM?
    Admiral Ellis. Senator, I think there is a need to look at 
the full range of advanced conventional concepts, as I said 
earlier. That is one that has been articulated. There are 
others. It is important that we look, as we will over this next 
year, at concepts of deterrence for the future and provide the 
Nation's leadership with that full range of options I discussed 
earlier. Obviously, there will be a piece of that that will 
remain in the nuclear stockpile, but there will be much broader 
opportunities in advanced conventional capabilities when the 
technologies we spoke of earlier begin to deliver. That is one 
that I think needs to be considered for the future.
    Senator Bill Nelson. Could it be a bunker buster?
    Admiral Ellis. It could be that. It certainly could be 
responsive and precise, given emerging technologies. If we can 
get those types of things together with the speed associated 
with the reentry of an IC or SLBM, it would certainly have 
tremendous penetration capabilities as a result of that.
    Senator Bill Nelson. To the other guy on the other side of 
the globe, how would you distinguish between a conventional and 
a nuclear incoming ICBM?
    Admiral Ellis. In another session, another venue, we can 
perhaps talk in more detail about those capabilities, and I 
would be delighted to address that, sir.
    Senator Bill Nelson. Let us do that.
    Go ahead, you ask some questions.
    Senator Allard. Senator Nelson, here is our situation. We 
need to get out of here I think by 4:30 in order to get to the 
closed session, and we still have another panel we need to give 
time to testify.
    Senator Bill Nelson. Are we going to have a closed session?
    Senator Allard. We are going to have a closed session.
    Senator Bill Nelson. Here?
    Senator Allard. We are going to move to a different room 
where it is secure. We are going to have a different reporter 
who has that security clearance.
    Senator Bill Nelson. Okay.
    Senator Allard. I will go ahead and move forward with the 
other panel. I would like to thank both of you for coming to 
testify.
    I want to welcome the next panel. On the next panel we have 
Rear Admiral Charles B. Young, United States Navy, Director of 
Strategic Systems Programs, Department of the Navy; Brigadier 
General Robert L. Smolen, United States Air Force, Director of 
Nuclear and Counterproliferation, Office of the Deputy Chief of 
Staff for Air and Space Operations; and the Honorable Everet H. 
Beckner, Deputy Administrator for Defense Programs, National 
Nuclear Security Administration. [Pause.]
    Whenever you are ready, we will start with Dr. Beckner. Or 
if the panel decides they want to go in a different order, it 
is okay with me. Dr. Beckner, go ahead.

  STATEMENT OF HON. EVERET H. BECKNER, DEPUTY ADMINISTRATOR, 
   DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Dr. Beckner. Yes. I think under the circumstances I will 
abbreviate my oral comments. Much of the material that I would 
normally cover has already been covered by Ambassador Brooks. I 
think, therefore, I can save us some time here and merely go 
through several areas quickly, which he did not spend too much 
time on, on the assumption that they could be of additional 
interest.
    We have several activities in the research arena, which are 
very important to us and are a substantial part of our budget, 
and we have had good success here in the past year. I am 
thinking particularly of the work with the NIF laser facility 
at Lawrence Livermore Laboratory, and we are in a position to 
report good success there. That project is on schedule and on 
budget.
    We have had good success with the DARHT hydrodynamics 
facility at Los Alamos. It has recently been signed off as 
completed and is operational. Of course, we have had several of 
our large computing facilities under the ASCI program, which 
has come on-line this year, and are producing results there. 
Some of these relate obviously to the discussions we were 
having earlier here today about understanding weapons design 
and weapon design limitations, much of which we now have to 
gain from our computing programs. Those three areas in 
particular I think have been quite successful this year, and 
more material is contained in my written statement on those as 
well.
    Another area that was not covered was on our secure 
transportation assets. They have been very busy this year. They 
have continued to operate, with some limitations during these 
high security alerts, but for the most part they have continued 
to operate. They are required for all the weapon moves and all 
the material moves that occur during the year, and things have 
gone well there. We have not had any problems. That is a 
separate budget item, which can be found also in the prepared 
testimony.
    Beyond that, I think what I would say would tend to be 
redundant to what Ambassador Brooks has already said, and I 
would yield at this point to the other gentlemen.
    [The prepared statement of Dr. Beckner follows:]

              Prepared Statement by Dr. Everet H. Beckner

    Thank you for the opportunity to appear today to discuss the fiscal 
year 2004 President's budget request for the NNSA, specifically the 
Stockpile Stewardship activities carried out by the Office of Defense 
Programs. The budget request for this vital national security program 
totals $6.3 billion, an increase of $533 million, about 9.1 percent, 
over the comparable fiscal year 2003 budget request. This request 
supports the requirements of the Stockpile Stewardship program as 
defined by Presidential Directives, Department of Defense requirements 
and the Nuclear Posture Review.

                            BUDGET OVERVIEW

    The budget for Stockpile Stewardship is allocated among three major 
program lines--Directed Stockpile Work (DSW), Campaigns, and Readiness 
in Technical Base and Facilities (RTBF). Directed Stockpile Work (DSW) 
is focused on the maintenance and evaluation of the nuclear weapons 
stockpile and the refurbishments needed to maintain the stockpile well 
into the future. The budget request for DSW totals $1.3 billion, an 
increase of $63 million, about 4.9 percent, over the comparable fiscal 
year 2003 budget request. Campaigns allow the NNSA to move to 
``science-based'' judgments for stewardship, utilizing experiments, 
simulations, and surveillance data in place of nuclear testing. 
Campaigns contribute technology needed to carry out the DSW, as well as 
foster new ideas and concepts that will provide opportunities for 
cutting-edge improvements to sustain, and, if necessary, enhance the 
effectiveness of the stockpile over the long term. The budget request 
for Campaigns totals $2.4 billion, an increase of $229 million, about 
10.6 percent over the comparable fiscal year 2003 budget request. RTBF 
funding is devoted to operating key defense facilities activities 
across the weapons complex. The budget request for RTBF totals $1.6 
billion, an increase of $111.2 million, about 7.4 percent over the 
comparable fiscal year 2003 budget request. The remainder of the 
Weapons Activities budget request is composed of Facilities and 
Infrastructure Recapitalization Program (FIRP), Secure Transportation 
Asset (STA), and Safeguards and Security (S&S). The budget request for 
these activities total $1.0 billion, an increase of $127 million, about 
14.6 percent over the comparable fiscal year 2003 budget request. FIRP 
is revitalizing the physical infrastructure of the nuclear weapons 
complex. STA and S&S protect our assets.

                         STOCKPILE STEWARDSHIP

    The President's fiscal year 2004 request for Stockpile Stewardship 
continues to build and expand on the scientific and engineering 
successes that are the hallmarks of this program. It will also allow us 
to meet our requirements under the terms of the Nuclear Posture Review 
including enhancing test readiness, reinvigorating the advanced 
concepts work in the weapons laboratories, and restoring the weapons 
complex to meet the national security requirements of the 21st century. 
Significant milestones we expect to achieve this year include:

        <bullet> Manufacture the first certifiable W88 pit;
        <bullet> Begin irradiation of the first Tritium Producing 
        Burnable Absorber Rods in the TVAs Watts Bar Reactor;
        <bullet> Continued delivery of W87 Life Extended warheads to 
        the Air Force;
        <bullet> Complete environmental documentation in support of the 
        Modern Pit Facility;
        <bullet> Delivery of four ultraviolet beams of NIF laser light 
        to the target chamber;
        <bullet> Initiate Stockpile Stewardship experiments in NIF;
        <bullet> Perform 2 and 3 dimensional simulations of aging 
        stockpile weapons focused on LEP activities;
        <bullet> Safely ship nuclear weapons, weapons components, and 
        nuclear materials through the STA;
        <bullet> Conduct subcritical experiments at the Nevada Test 
        Site to better understand plutonium aging;
        <bullet> Begin work on the Advanced Concepts and in particular, 
        on the RNEP Phase 6.2 activities with the Air Force.

    These major milestones will be accomplished by a weapons complex 
that will also manufacture the thousands of components needed to 
maintain the stockpile. The complex will also carry out hundreds of 
smaller scale experiments, perform surveillance activities, address 
Significant Finding Investigations, conduct flight tests with the 
support of the DOD, deploy new manufacturing tools and processes at the 
production plants, and safely dismantle weapons excess to national 
security requirements.
    These and other activities are dependent on retaining today's 
highly skilled workforce and recruiting the next generation of 
stockpile stewards. Over the last several years, NNSA has made 
significant headway on this all-important front. Critical skill 
vacancies across the complex have been reduced to 8 percent. 
Inextricably linked to recruitment and retention is providing the 
quality workspace and fully functioning tools and technologies needed 
by our scientists and engineers to carry out their work. Two accounts 
in the budget, RTBF and FIRP, are essential to the operation, 
maintenance, and renewal of physical infrastructure. RTBF provides the 
funding needed to operate and maintain the facilities required for 
certification, thus ensuring the vitality of the NNSA national security 
complex and its goal of a consistent readiness level. FIRP is a capital 
renewal and sustainability program designed to eliminate maintenance 
backlogs and restore, rebuild, and revitalize the physical 
infrastructure of the nuclear weapons complex. FIRP addresses an 
integrated, prioritized list of maintenance and infrastructure 
projects, separate from the maintenance and infrastructure efforts of 
RTBF, which will significantly increase the operational efficiency and 
effectiveness of the NNSA sites.
    I would now like to highlight several activities under the 
Stockpile Stewardship Program that I believe are of particular interest 
to this committee.

                             TEST READINESS

    While I continue to have complete confidence in the ability of the 
Stockpile Stewardship Program to continue to ensure the safety, 
security, and reliability of this Nation's nuclear deterrent, we must 
maintain our ability to carry out nuclear weapons tests. Our current 
readiness posture to conduct such a test is 24 to 36 months, as 
established in a 1993 Presidential Decision Directive. Last year's 
Nuclear Posture Review (NPR) stated that this period should be reduced 
in order to provide options to deal with defense policy requirements, 
including the possibility of unanticipated problems in the stockpile. A 
study completed in July 2002 confirmed that additional work was 
required to maintain the present posture, but it also led us to 
conclude that the right posture is to be ready for a test within 
approximately 18 months. With fiscal year 2003 funding now in place, we 
intend to begin the transition to an 18-month posture. The Nuclear 
Weapons Council has concurred that our intended action is appropriate. 
The transition to this new readiness posture is expected to take 
approximately 3 years.
    Although there have been discussions about a transition to shorter 
times, there is concern that an unnecessarily expedited time frame may 
cause adverse effects on critical personnel resources and require 
significantly more funding. It is not likely that we will want to be 
able to match the short lead times when the weapons complex conducted 
multiple underground tests annually, nor is it prudent to tie-up 
important resources to indefinitely maintain an extremely short test 
readiness posture. Since device and diagnostics preparations are driven 
by the particular weapon to be tested and the questions to be answered 
by the test, such a posture might not be responsive to a surprise in 
the stockpile. The NNSA is studying this matter, and I will soon be 
reporting to Congress on these subjects as directed in the Fiscal Year 
2003 Defense Authorization Bill.

           ADVANCED CONCEPTS/ROBUST NUCLEAR EARTH PENETRATOR

    The NPR also highlighted the importance of pursuing Advanced 
Concepts work to ensure that the weapons complex can provide nuclear 
deterrence options for decades to come. To that end, the fiscal year 
2004 budget includes $21 million for Advanced Concepts work. $15 
million will be allocated to the Robust Nuclear Earth Penetrator 
(RNEP). The remainder of the funding will be divided between the 
weapons laboratories for Advanced Concepts work. The vision is for 
small teams in coordination with DOD to assess evolving military 
requirements, investigate options, and ensure that DOD understands what 
is and is not possible. The teams will carry out theoretical and 
engineering design work on one or more concepts. These activities might 
proceed beyond the ``paper'' stage and include a combination of 
component and subassembly tests and simulations to introduce an 
appropriate level of rigor to challenge our designers. These activities 
might also culminate in an integral flight or laboratory test, or a 
subsequent decision to proceed with further development activities.
    On March 19, the Department of Defense submitted its report on the 
RNEP as required by the Fiscal Year 2003 National Defense Authorization 
Act. Once the 30 days has lapsed, NNSA and the Air Force will begin the 
required feasibility and cost studies. As members know, this program 
will examine whether or not two existing warheads in the stockpile--the 
B61 and the B83--can be sufficiently hardened through case 
modifications and other work to allow the weapons to survive 
penetration into various geologies before detonating. This would 
enhance the Nation's ability to hold hard and deeply buried targets at 
risk. The RNEP feasibility and cost study is currently scheduled for 
completion in 2006; however, we are looking at opportunities to reduce 
study time.

                        STOCKPILE LIFE EXTENSION

    While preparing for the future, the labs and plants are working 
very hard to extend the life of several elements of the existing 
nuclear weapons stockpile through the Stockpile Life Extension Program 
(SLEP). The NPR reaffirmed the decision as reached by the Nuclear 
Weapons Council on the timing, pace, scope, and technical aspects of 
the LEPs for the W76, W80, B61-7/11, and ongoing W87 work. Through this 
program, new subsystems and components are designed, built, tested and 
installed, thereby extending the operational service life for these 
warheads for some 30 additional years.
    For the last several years, we have been performing the work to 
extend the life of the W87 warhead for the Air Force. This work is 
ongoing at Y-12, Lawrence Livermore, Sandia and Pantex. We are more 
than three quarters of the way through this effort and expect to wrap 
up the work by early 2004.
    Life extension for the W76 involves a comprehensive overhaul of the 
warhead, including replacement or refurbishment of the Arming, Firing 
and Fuzing set, high explosives, gas transfer system and other 
components. We will also be requalifying the weapon primary. For the 
W80, we will be replacing the Trajectory Sensing Signal and Neutron 
Generators, the tritium bottles and incorporating surety upgrades. For 
the B61 we will be refurbishing the secondary. The First Production 
Units for these systems are presently scheduled for delivery to the 
Navy and Air Force in: fiscal year 2007, fiscal year 2006 and fiscal 
year 2006, respectively.

                       NATIONAL IGNITION FACILITY

    I am pleased to report that tremendous technical progress has been 
achieved over the last year at the National Ignition Facility (NIF). 
Its mission is to obtain fusion ignition in a laboratory setting by 
imploding a BB-sized capsule containing a mixture of the hydrogen 
isotopes, deuterium and tritium. The NIF will provide the capability to 
conduct laboratory experiments to address the high-energy density and 
fusion aspects that are important to both primaries and secondaries in 
the nuclear stockpile.
    In December 2002, the first four NIF laser beams were activated to 
generate a total of 43 kilojoules of infrared laser light in a single 
pulse. This equates to about 10 times more power than the entire U.S. 
electrical generation capacity, but only lasting 5 billionths of a 
second. In January 2003, NIF delivered its first beam of ultraviolet 
laser light focused onto a target at the center of the 30 foot-diameter 
target chamber. With this accomplishment, all elements of each of the 
NIF critical subsystems has been successfully activated and operated.
    On March 6, 2003, the NIF delivered four ultraviolet beams of laser 
light to the target chamber, 15 months ahead of schedule. Stewardship 
experiments are slated to begin in fiscal year 2004.

                   ADVANCED SIMULATION AND COMPUTING

    The Advanced Simulation and Computing (ASCI) Campaign is creating 
simulation capabilities that incorporate modern physics and engineering 
models to improve our ability to predict with confidence the behavior 
of the nuclear weapons in the stockpile. These models, validated 
against experimental data from past above-ground and underground 
nuclear tests, are the repositories of expert designer judgment as well 
as the best scientific representations of our current knowledge of the 
performance of the nuclear weapons. The ASCI Campaign is driving the 
integration of the theoretical and experimental efforts within the 
Stockpile Stewardship Program.
    At the same time that ASCI continues the development of the most 
powerful computer capabilities needed for the future, the modern 
simulation tools previously developed by ASCI--the Blue Pacific and 
White Machines at Lawrence Livermore National Laboratory (LLNL), the 
Red Machine at Sandia National Laboratory (SNL), and the Blue Mountain 
and Q machines at Los Alamos National Laboratory (LANL)--are being 
applied day-to-day to address immediate stockpile concerns. ASCI codes 
are being used to close Significant Finding Investigations as well as 
to support Life Extension Programs (LEPs) for the W76, W80, W87, and 
B61. These activities are enabled by the ongoing supercomputing 
infrastructures at the national laboratories, encompassing both 
continuing operations as well as research in new techniques for 
storage, visualization, networking, and all aspects of the 
infrastructure required by modern computing.
    By fiscal year 2008, ASCI will deliver a high fidelity, full-system 
physics characterization of the functioning events of a stockpile 
nuclear weapon. At that time, the campaign will deliver a suite of 
validated codes, running on supercomputer platforms, acquired though 
open procurement, with user-friendly environments, advanced 
visualization tools for analysis, and the entire support structure to 
integrate the components together. Other program deliverables include 
high-performance storage and high-bandwidth networks. In support of a 
true integrated Strategic Systems Programs effort, the ASCI Campaign 
continues to push the envelope in distance computing as well as in 
advanced encryption techniques and other approaches to ensure secure, 
classified networking.

                    OFFICE OF SECURE TRANSPORTATION

    The Office of Secure Transportation is responsible for safely and 
securely moving nuclear weapons, special nuclear materials, select non-
nuclear components, and Limited Life Components for the DOE and the 
DOD. This work is carried out by 225 Federal agents stationed at three 
sites--Pantex, Oak Ridge, and Albuquerque. These highly dedicated and 
skilled agents are authorized to use deadly force in the performance of 
their duties. Employing highly modified tractor trailors and escorts 
vehicles, and secure and redundant communications they have amassed an 
impressive safety record of over 100 million accident free miles 
without cargo compromise. I would note that this office also provides 
support to other elements of the DOE, including the Offices of 
Environmental Management and Nuclear Energy.

               PIT MANUFACTURING & CERTIFICATION CAMPAIGN

    Restoring the Nation's ability to manufacture plutonium pits in 
support of the stockpile has been a central challenge for the 
stewardship program since the closure of the Rocky Flats plant in 1989. 
Never before has the weapons complex been asked to manufacture and 
certify pits without nuclear testing. I am very pleased to report that 
late this spring, Los Alamos is scheduled to manufacture the first 
certifiable W88 pit. LANL also remains on-track to manufacture a war 
reserve pit by 2007. To achieve this critical milestone, LANL has 
produced a number of development pits and has performed a series of 
engineering tests and physics experiments to confirm pit performance.
    While the TA-55 facilities at LANL are adequate to support the W88 
pit campaign, they do not appear to be capable of supporting the 
manufacturing need for long-term stockpile support. NNSA has begun 
planning for a Modern Pit Facility (MPF) consistent with the Record of 
Decision for Stockpile Stewardship and Management and the NPR. In May 
2002, the Secretary of Energy formally approved Critical Decision ``0'' 
(CD-0) for the MPF. NNSA is now examining 5 candidate sites--Pantex, 
Waste Isolation Pilot Plant, the Nevada Test Site, Savannah River and 
Los Alamos--as possible locations for the MPF. We expect to issue a 
Draft Environmental Impact Statement (EIS) later this spring. Following 
a series of public meetings, a final EIS and associated Record of 
Decision will be issued. The program will prepare site specific 
environmental documentation if the ROD supports a decision to construct 
and operate a MPF. The fiscal year 2004 request will allow conceptual 
design and other planning activities, NEPA work, and technology 
development activities to proceed on a schedule that will support a CD-
1 decision in fiscal year 2006.

                                TRITIUM

    In addition to restoring plutonium manufacturing capabilities, NNSA 
will begin tritium production later this year when several hundred 
Tritium Producing Burnable Absorber Rods (TPBARs) are inserted into 
Tennessee Valley Authority's (TVA) Watts Bar Reactor. However because 
of significant changes in stockpile size in the out-years as a result 
of the NPR and the Moscow Treaty, NNSA has, in concert with the DOD, 
adjusted the tritium production requirements to reflect these changes. 
NNSA remains fully committed to exercise all elements of its system for 
producing, extracting, and purifying new tritium, including initial 
operation of the Tritium Extraction Facility (TEF) being constructed at 
the Savannah River Site (SRS).
    Timing of tritium production, extraction, and purification has also 
been delayed by approximately 17 months for two reasons: (1) under the 
NPR, stockpile requirements are reduced, and (2) to accommodate delays 
in completion of the TEF project. This program delay can be 
accomplished without impacting nuclear weapons readiness. A revised 
baseline has been approved increasing the Total Project Cost from $401 
million to $506 million and delaying project completion from mid-fiscal 
year 2006 to late-fiscal year 2007.
    Since tritium decays by natural radioactivity at a rate of about 5 
percent per year, and since irradiation service costs are the dominant 
operating costs in supplying tritium to the stockpile, it is prudent 
not to produce tritium beyond the stated national requirements. Since 
the program intends to complete and exercise all elements of the 
tritium production and purification system (including TVA's reactor(s) 
and the TEF) on a schedule that fully protects the stockpile 
requirements, irradiation services are being deferred in order to use 
funds planned for these activities to complete TEF.

                               CONCLUSION

    Mr. Chairman, let me thank this committee for its strong and 
enduring support of the Stockpile Stewardship Program for the last 10 
years. Your support has allowed us to deploy cutting edge technologies 
to help ensure that the Nation's nuclear deterrent remains safe, 
secure, and reliable. Because of these tools and technologies we have a 
much better understanding of the health of the stockpile and have 
solved technical issues that in the past would have required 
underground testing. While we are very pleased with the technical 
progress we have made, we cannot rest on our success. The men and women 
of the weapon complex will continue to pursue the advanced technologies 
we will need to answer the scientific and engineering challenges that 
will confront us in the years ahead.

    Senator Allard. Thank you. Who wants to go next? Okay, 
General Smolen.

   STATEMENT OF BRIG. GEN. ROBERT L. SMOLEN, USAF, DIRECTOR, 
NUCLEAR AND COUNTERPROLIFERATION, OFFICE OF THE DEPUTY CHIEF OF 
               STAFF FOR AIR AND SPACE OPERATIONS

    General Smolen. Mr. Chairman, thank you for the opportunity 
to appear today. I too have some written remarks, and I would 
be honored if you would allow me to just submit those.
    Senator Allard. We will put those in the record without 
objection.
    General Smolen. Yes, sir, thank you.
    Thank you again for the opportunity to appear today 
representing the men and women of the Nuclear and 
Counterproliferation Directorate. Our team is part of the 
world's best nuclear force, and I have the highest confidence 
that our strategic warfighting capabilities will continue to 
contribute to the Nation's security.
    Our directorate establishes Air Force policy and strategy 
for nuclear weapons systems, has oversight of nuclear 
operations and requirements, and manages Air Force arms control 
activities ranging from treaty negotiation support to 
implementation and compliance. We are also the Air Force lead 
for activities to counter proliferation of chemical, 
biological, radiological, and nuclear weapons.
    I certainly appreciate this opportunity to discuss those 
events along with the Nuclear Posture Review, the status of the 
Air Force strategic forces, and our current efforts as stewards 
of nuclear expertise. The Nuclear Posture Review, sir, has been 
discussed in detail, and I would only add that within the Air 
Force we are working actively towards being a participant in 
determining the requirements and the status for the reduction 
from 2,200 to 1,700 by 2012.
    In support of Strategic Command, we are working jointly 
with that office and the Office of the Secretary of Defense to 
define what the future nuclear force structure might best be. 
We will continue to ensure that our part of that nuclear force 
maintains the capability to meet current and emerging threats.
    In accordance with the NPR, we are downsizing our ICBM 
force to 500 Minuteman IIIs by fully deactivating the 
Peacekeeper system by 2005. This already began in 2002, and it 
is progressing on schedule. We are not only reducing the 
warheads, but we are also reducing the infrastructure, 
communications, and many of the other aspects that will save us 
in the long term that are associated with that system.
    While we are working to implement the NPR transition to the 
future, it remains essential that we sustain and modernize and 
enhance the existing systems that we have. As we reduce the 
number of operationally deployed forces, it is important to 
highlight the fact that the strategic systems that we do deploy 
are the best, most reliable, and most secure.
    The ICBM missile and cruise missile programs are critical 
components of the triad. As we examine options for the land-
based follow-on system to Minuteman III and the next generation 
cruise missile, we must also continue to execute a 
comprehensive sustainment program. The ICBM force must continue 
to be capable, reliable, and fully supportable. Life extension 
programs for the ICBM force are under way to sustain it through 
2020. These life extension programs include propulsion and 
guidance replacement, as well as various other sustainment 
efforts. All of these sustainment programs are important in 
making the new triad a reality that cannot be neglected.
    Since we plan on our bomber fleet remaining operational for 
another 35 to 45 years, as was mentioned previously, our air-
launched cruise missile and advanced cruise missile programs 
are undergoing life extension programs in support of the B-52 
lifespan. Both of these cruise missile systems are implementing 
life extension programs that include test instrumentation kit 
modification, subsystem simulator modification, and W80 Warhead 
Life Extension Program integration. Supporting these programs 
will sustain them to 2030.
    September 11 drove home the importance of homeland 
security, and in that context a secure strategic force is not 
debatable. We have taken aggressive steps to ensure that our 
nuclear force remains secure from known and postulated threats.
    For example, we are implementing advanced delay-denial 
features and updating detection-assessment technology and data 
transmission systems from the geographically separated launch 
facilities to the responsible missile alert facility. This in 
part deals a little with the question that Admiral Ellis 
discussed in terms of security.
    We also ensure that our helicopters that transport our 
security response forces to the field to provide nuclear convoy 
security are properly equipped to protect our resources, and we 
are providing a forward-looking infrared capability and night 
vision cockpit capability. We are very serious about the safety 
and security of the nuclear system and the deterrence that it 
provides.
    I would like to address for just a second the nuclear 
expertise question. As General Lord stated in his testimony 
before this subcommittee, the success of all of our missions 
depends on our number one asset, our people, and our 
warfighting edge depends on dedication, professionalism, and 
sacrifice by all of us. Without our people, even our most 
effective weapons systems are of little value.
    As always, we will continue to place the utmost emphasis on 
recruiting, retaining, equipping, and training our entire 
nuclear force. However, our cadre of experienced nuclear 
engineers, scientists, and even military leaders is declining. 
As they retire, they take years of experience with them. But 
one of the programs that we sponsored in the Air Force, the 
Nuclear Technologies Fellowship Program, is a step we have 
taken in the Air Force as an initiative to solving some of the 
shortfall in nuclear expertise. The program has a 21-month long 
educational course in two phases, both academics and applying 
factual knowledge in a national lab environment. Graduates from 
this program are being provided to the Air Force and other 
agencies to provide that new basis of a generation of nuclear 
experts.
    In conclusion, sir, the strategic forces are not a Cold War 
relic and will continue to remain a vital aspect of our 
Nation's defense as we respond to current and emerging threats. 
As we transition into the future, it is essential that we 
continue to sustain, to modernize, and to enhance our nuclear 
systems. Today's efforts will help build the foundation 
required to fulfill our goals, the transformational goals, to 
protect the United States and homeland and critical bases of 
operation, and to also deny sanctuaries to the enemy, as well 
as project and sustain overwhelming combat power in defense of 
national security.
    I appreciate your continued support, sir, and I look 
forward to the opportunity to answer your questions.
    [The prepared statement of General Smolen follows:]

        Prepared Statement by Brig. Gen. Robert L. Smolen, USAF

    Mr. Chairman and members of the subcommittee: Thank you for this 
opportunity to appear before you today representing the outstanding men 
and women of the Nuclear and Counterproliferation Directorate (XON). 
Our team is a key part of the world's best nuclear force and I have the 
highest confidence that our strategic warfighting capabilities will 
continue to contribute to our Nation's security.
    Our directorate establishes Air Force policy and strategy for 
nuclear weapon systems, has oversight of nuclear operations and 
requirements, and manages Air Force arms control activities ranging 
from treaty negotiation support to implementation and compliance. We 
also are the Air Force lead for activities to counter the proliferation 
of chemical, biological, radiological, and nuclear weapons. I 
appreciate this opportunity to discuss events regarding the Nuclear 
Posture Review, status of Air Force strategic forces, and our current 
efforts as stewards of nuclear expertise.

                         NUCLEAR POSTURE REVIEW

    On November 13, 2001, President Bush announced that operationally 
deployed strategic nuclear warheads would be reduced to a range between 
2,200 to 1,700 by 2012. In support of this, we are actively working 
with United States Strategic Command, the Joint Staff, and the Office 
of the Secretary of Defense to define the future nuclear force 
structure. With the nuclear force structure defined, we will continue 
to ensure the nuclear force maintains the capability to meet current 
and emerging threats. In accordance with the Nuclear Posture Review 
(NPR), we are downsizing the Intercontinental Ballistic Missile (ICBM) 
force to 500 Minuteman IIIs, by fully deactivating the Peacekeeper ICBM 
system by 2005. Peacekeeper deactivation began in October 2002 and is 
progressing on schedule. The Air Force is not only reducing warheads, 
we are also working to ensure that the infrastructure, communications, 
intelligence and planning resources that integrate our strategic strike 
force are responsive, robust, and all linked within the construct of 
the New Triad. While we are working to implement the NPR and transition 
into the future, it is essential to sustain, modernize and enhance 
these existing strategic systems.

                            STRATEGIC FORCES

    As we reduce the number of operationally deployed strategic forces 
to a range between 2,200 to 1,700 warheads, it is important to 
highlight the fact that the strategic systems we deploy are the best, 
most reliable, and most secure systems available. Our ICBM and cruise 
missile programs are critical components of the New Triad. As we 
examine options for the future, such as the land-based follow-on system 
to Minuteman III and next-generation cruise missiles, we must also 
continue to execute comprehensive sustainment programs.
    Our ICBM force must continue to be capable, reliable and fully 
supportable. Life extension programs for the ICBM force are underway to 
sustain it through 2020. These life extension programs include 
propulsion and guidance replacement, as well as various other 
sustainment efforts. All of these sustainment programs are important in 
making the New Triad a reality and cannot be neglected.
    Since we plan on our bomber fleet to remain operational for another 
35 to 45 years, our Air-Launched Cruise Missiles (ALCM) and Advance 
Cruise Missile (ACM) programs are undergoing life extension programs to 
support the B-52 life span. Both of these cruise missile systems are 
implementing life extension programs that include Test Instrumentation 
Kit modification, Subsystem Simulator modification, and W-80 Life 
Extension Program integration. Supporting these programs will sustain 
the ALCM and ACM to 2030.
    September 11, 2001, drove home the importance of homeland security. 
In that context, a secure strategic force is not debatable, so we have 
taken aggressive steps to ensure our nuclear force remains secure from 
known and postulated threats. For example, we are implementing advanced 
delay/denial features, and updating detection/assessment technology and 
date transmission systems from the geographically separated launch 
facilities to responsible Missile Alert Facility to counter emerging 
threat technologies and methods. We will ensure the helicopters that 
transport our security response forces in the ICBM field and provide 
nuclear convoy security are properly equipped to protect national 
resources by adding a Forward Looking Infrared capability and night 
vision cockpit capability. We are very serious about the safety and 
security of the nuclear weapon systems that provide us the deterrent 
force for our Nation.

                           NUCLEAR EXPERTISE

    As General Lord stated in his testimony before this subcommittee, 
the success of the mission depends on our number one asset--our people. 
The warfighting edge depends on the dedication, professionalism, and 
sacrifice of the men and women in our Air Force. Without our people, 
even our most effective weapon systems are of little value. As always, 
we will continue to place the utmost emphasis on recruiting, retaining, 
equipping, and training our entire nuclear force. However, our cadre of 
experienced nuclear engineers, scientists, and even military leaders is 
declining. As they retire, they take years of experience away with 
them. One of the programs we sponsor on behalf of the Air Force is the 
Nuclear Technologies Fellowship Program (NTFP). NTFP is a key 
initiative in solving the shortfall in nuclear expertise by serving as 
a sustainment program. The NTFP uses a 21-month long educational course 
in two phases. Phase One focuses on academics in a classroom 
environment, and Phase Two applies classroom knowledge in a national 
lab environment. Graduates from this program are providing the Air 
Force with a new generation of nuclear force experts. These graduates 
are placed in nuclear-related positions across the Department of 
Defense and as they grow in experience and assume leadership roles, 
they will contribute greatly to our nuclear foundation.

                               CONCLUSION

    Strategic forces are not a Cold War relic and will continue to 
remain a vital aspect of our Nation's defense as we respond to current 
and emerging threats. As we transition into the future, it is essential 
that we continue to sustain, modernize and enhance our strategic 
systems. Today's efforts will help build the foundation required to 
fulfill DOD's transformational goals, protect the U.S. homeland and 
critical bases of operation, deny sanctuaries to our enemies, as well 
as project and sustain overwhelming combat power in defense of national 
security.
    I appreciate your continued support, and again thank you for the 
opportunity to appear and discuss our contributions to national 
defense.

    Senator Allard. Thank you, General.
    Admiral Young, you are next.

    STATEMENT OF REAR ADM. CHARLES B. YOUNG, USN, DIRECTOR, 
       STRATEGIC SYSTEMS PROGRAMS, DEPARTMENT OF THE NAVY

    Admiral Young. Mr. Chairman, Senator Nelson, I really thank 
you for inviting me to have this opportunity to testify before 
the subcommittee on the status of my programs. I do have a 
written statement, and I request that it be submitted for the 
record.
    Senator Allard. We will make it a part of the record 
without objection.
    Admiral Young. Last year, sir, the Strategic Systems 
Programs office was extremely busy and also very successful. 
The Nation now has D5 capability on both coasts. The U.S.S. 
Nevada SSBN-733 launched the 100th successful Trident II test 
missile, and the Nevada was also the second Ohio-class 
submarine to complete backfit conversion to Trident II D5 from 
her previous status as a Trident I C4 strategic weapon system. 
That ship is currently undergoing final certification and 
testing.
    Through our direct support, we also have been busy in the 
SSGN program. The U.S.S. Florida SSBN-728 successfully launched 
two Tomahawk missiles during an SSGN demonstration and 
validation test off the southern coast of Florida.
    To achieve these accomplishments, it took our people an 
enormous amount of planning and hard work to execute the 
programs during these challenging fiscal and geopolitical 
times. In spite of the significant challenges, the Navy can say 
with confidence that the strategic submarine force continues to 
cost-effectively provide a survivable, reliable, and flexible 
strategic deterrent.
    The Navy has been aggressively modernizing our deployed 
strategic weapons systems, shifting to commercial off-the-shelf 
equipment where practical, developing plans to effectively and 
economically provide payload flexibility with increased 
effectiveness against hardened targets, incorporating strategic 
retargeting capability, and providing hardware and software 
updates to prevent the obsolescence of our weapons systems.
    Strategic Systems Programs is working diligently towards 
the new strategic framework as outlined in the Nuclear Posture 
Review that was forwarded to Congress in December 2001. In 
addition to initiating the D5 life extension program that 
increases the life of the Trident II strategic weapons system 
to match the 45-year life of the Trident hull, Strategic 
Systems Programs is working with the Department of Defense to 
develop the planned reduction of deployed nuclear warheads to 
support the NPR objectives.
    Strategic Systems Programs is also developing and acquiring 
an Attack Weapon System that will be deployed on the four 
Trident submarines being converted to SSGNs. The success of 
this important transformational program is a major priority at 
Strategic Systems Programs.
    Our role in nuclear weapons security has expanded recently. 
The Navy's goal is to have an integrated security approach at 
our Atlantic and Pacific Trident submarine bases, providing an 
appropriate level of security to the submarines coincident with 
their status as critical strategic assets. It is imperative to 
provide the highest level of protection for our strategic 
facilities and submarines against the postulated threats.
    In summary, we are pleased to report that the Trident II D5 
Strategic Weapon System continues to meet or exceed all design 
objectives. Also, in spite of significant challenges ahead, we 
are confident that the SSGN Attack Weapon Systems will meet and 
exceed design objectives to support the SSGN program, and we 
will be able to achieve a commensurate level of protection for 
our strategic submarines as we have for our strategic weapons 
facilities.
    On behalf of the Strategic Systems Programs family, I want 
to thank you for your support for our strategic weapons and the 
submarine force and I would like to invite you to visit our 
facilities and submarines so that you can witness first-hand 
the esprit de corps of our people. I am looking forward to 
answering your questions, Mr. Chairman.
    [The prepared statement of Admiral Young follows:]

         Prepared Statement by Rear Adm. Charles B. Young, USN

                              INTRODUCTION

    Mr. Chairman, members of the subcommittee, I am Rear Admiral 
Charles B. Young, Director, Strategic Systems Programs. Thank you for 
inviting me to brief the subcommittee on the status of my programs. 
Strategic Systems Programs is the Program Manager for the Trident I 
(C4) and Trident II (D5) Strategic Weapon Systems; the Navy's Executive 
Agent for all arms control treaties and agreements; the Executive Agent 
for the US/UK Polaris Sales Agreement, which was amended to encompass 
the UK procurement of the Trident II system; and the Navy's Technical 
Program Manager for Nuclear Weapons Security. Strategic Systems 
Programs is also responsible for the integration of the Nuclear Powered 
Guided Missile Submarine (SSGN) Attack Weapons System in the four 
Nuclear Powered Ballistic Missile Submarines (SSBN) being converted to 
SSGNs.
    Before giving you an overview of the Trident II (D5) Acquisition 
Program, there are several recent significant events and achievements 
of the program that are noteworthy. In June 2002, the Strategic Weapons 
Facility, Pacific in Bangor, Washington, achieved Initial Operational 
Capability (IOC) to support the Trident II Strategic Weapon System in 
the Pacific. The Navy now has Trident II capability on both coasts. In 
August 2002, U.S.S. Nevada (SSBN 733) completed her engineered overhaul 
and backfit conversion to the Trident II Strategic Weapon System at the 
Puget Sound Naval Shipyard--she was the second ship to complete the 
Trident II backfit and overhaul ahead of schedule and under budget. In 
October 2002, U.S.S. Ohio (SSBN 726) and U.S.S. Florida (SSBN 728) 
completed their final strategic offloads of Trident I (C4) missiles in 
preparation for their refueling overhauls and conversions to SSGNs. In 
December 2002, U.S.S. Nevada successfully launched the 100th Trident II 
(D5) flight test missile. Finally, in January 2003, U.S.S. Florida 
(SSBN 728) successfully launched two Tomahawk missiles during an SSGN 
Demonstration and Validation test--demonstrating Tomahawk missiles can 
be launched vertically from a modified Ohio class submarine.

                                OVERVIEW

    The Trident II (D5) program achieved IOC on 23 March 1990, when the 
U.S.S. Tennessee (SSBN 734) was deployed with 24 tactical D5 missiles. 
The Trident II Strategic Weapon System (SWS) represents the sixth 
generation of the Navy's Fleet Ballistic Missile (FBM) Systems, which 
have served as significant deterrents to aggression and major war since 
Polaris (A1) achieved IOC in 1960. The Nuclear Posture Review (NPR), 
which was forwarded to Congress in December 2001, outlined the 
Strategic Submarine Force structure: 14 SSBNs outfitted with the 
Trident II (D5) Strategic Weapon System in 2 oceans. In accordance with 
the NPR, the remaining 4 of the original 18 Trident SSBNs will be 
converted to SSGNs.
    To achieve an all D5 SSBN force, backfit of four of the submarines 
to the D5 Strategic Weapon System from the Trident I (C4) Strategic 
Weapon System has been initiated. The C4 SWS will be retired in fiscal 
year 2005. The Trident SWS and support facilities were designed from 
the beginning to handle the newer and larger missile system with 
minimal impact and cost. To date, two of the four SSBNs have completed 
backfit; one is fully operational and making deployments in the 
Pacific, and the other is finishing its final certification and 
testing. The second submarine will also be homeported in the Pacific. 
The last two SSBNs are scheduled to start their backfit in fiscal year 
2005 and fiscal year 2006. The contracts have been awarded and much of 
the required hardware has been procured.
    The four oldest of the Ohio class submarines were selected for 
conversion to SSGNs because of their age and scheduled maintenance 
periods. As mentioned previously, two of the four submarines have 
already completed their final strategic offload. The first two SSBN 
engineered refueling overhauls (EROs) are scheduled to start in fiscal 
year 2003, followed by conversion to SSGN starting in fiscal year 2004. 
The third and fourth SSBN EROs are scheduled to start in fiscal year 
2004 and fiscal year 2005, respectively, followed by conversion to SSGN 
starting in fiscal year 2005.
    Both backfit and SSGN conversion operations are examples of 
transformational programs that provide an improved capability for the 
Navy and the Nation, extend the life of the submarines beyond their 
planned life, and represent the return on investment the American 
people have made in our Navy.
    The Navy can say with confidence that the Strategic Submarine Force 
continues to cost-effectively provide a survivable, reliable, and 
flexible strategic deterrent. We've been aggressively modernizing our 
deployed Strategic Weapon Systems, shifting to commercial off-the-shelf 
equipment where practical, developing plans to effectively and 
economically provide payload flexibility with increased effectiveness 
against hardened targets, incorporating strategic retargeting 
capability, and providing hardware and software updates to prevent the 
obsolescence of our weapon systems. These efforts are a part of the 
Navy's strategic vision of Sea Power 21.

                                PROGRAM

    Strategic Systems Programs is focused on three primary areas: D5 
life extension (D5LE), nuclear weapons security (NWS), and NPR 
objectives.

Trident II (D5) Life Extension
    The Trident II D5 life extension (LE) program is required due to 
the Ohio class Ballistic Missile Nuclear Submarine (SSBN) service life 
increasing from 30 years to 45 years. The impact of the SSBN hull life 
extension is significant in two ways. First, it delays the replacement 
of these platforms by 15 years, effectively delaying the expenditure of 
up to $25 billion in current year dollars for follow-on strategic 
submarine platforms. Second, it requires the service life of the 
Trident II D5 Strategic Weapons System (SWS) carried by these ships to 
also be extended by 15 years.
    The extended service life requirement affects flight hardware 
(missile, guidance and reentry) and shipboard hardware (launcher, fire 
control, navigation and test instrumentation).
    With respect to flight hardware, D5 life extension requires 
procurement of an additional 115 Trident II D5 missiles, revising the 
total D5 procurement objective from 425 to 540. In addition, the 
guidance system and missile electronics must be replaced due to aging 
and obsolescence issues.
    The service life extension for flight hardware requires a strategy 
that effectively addresses two key issues: (1) supporting the existing 
systems, recognizing that some parts will fail due to age or become 
obsolete, and (2) producing the additional flight test missiles 
required to assure credibility and safety of the deterrent. These 
flight test missiles support qualification of new or modified 
components, as well as the additional annual reliability tests required 
due to extended program life.
    With the SSBN service life extended to 45 years, a missile 
inventory shortfall will occur starting in approximately fiscal year 
2014 when the oldest Ohio class submarine would have originally been 
decommissioned. The 30-year service life procurement objective of 425 
Trident II D5 missiles does not support the additional flight tests 
necessary to extend the Trident II D5 SWS to 45 years.
    The Navy is currently executing a low rate production continuity 
procurement strategy for critical components of Trident II D5 missiles. 
Several missile components are designated as critical, the most 
important being the rocket motor sets. These critical components are 
being procured at their minimum rate in advance of when they would be 
required for full missile assembly to sustain component quality and 
maintain the supplier base. The production continuity procurement 
strategy has been extensively reviewed and approved by the Department 
of Defense (DOD) and Congress and has been in execution for nearly 15 
years. This procurement strategy has proven successful, based on the 
demonstrated superb performance of the Trident II D5 Strategic Weapon 
System. The fiscal year 2004 Trident II WPN budget request includes the 
continued production of rocket motors and other critical components. 
The current program fully funds the additional 115 Trident II D5 LE 
missiles in fiscal year 2008 through fiscal year 2013, supporting lead-
time away from need requirements. Rocket motor sets and other critical 
components in support of the 115 missile requirement are currently 
being procured as described above. Rocket motor procurements in support 
of the additional missiles for life extension began in fiscal year 
2002.
    The current Trident II D5 Mk-6 Guidance System improved accuracy by 
a factor of four over the previous Trident I C4 Mk-5 Guidance 
Subsystem. As successful and reliable as the Mk6 Guidance Subsystem has 
been to date, there are significant technology limitations that make 
this design impractical to maintain throughout the extended life 
period. The Mk-6 design is based on early 1980s technology. Production 
ended with the fiscal year 2001 procurement. Restarting production 
would be cost prohibitive, and attempting to integrate today's 
electronics technology into a 20-year old design would be inefficient 
and high risk. The Mk-6 guidance subsystem, in its current form, will 
not support the life extension requirements. The Navy program includes 
the most affordable and lowest risk approach to meet Trident II D5 LE 
requirements by the pursuit of a system to replace the Mk-6, designated 
the Next Generation Guidance (NGG). Due to the advancements made in 
technology, both in components (solid state sensors and electronics) 
and in modeling and simulation, stringent cost targets have been 
established for NGG with the requirement to meet current Mk-6 
performance. The ability to develop precision instruments, sensors, and 
radiation hardened architectures for NGG requires investment in 
underlying commercially supported technologies to adapt them for the 
unique strategic requirements. The redesign approach leverages off of 
current Air Force/Navy cooperative strategic-unique technology efforts 
and will result in a Navy Trident II D5 LE solution and government 
owned design package that can be used by other services to leverage off 
the Navy investment.
    Similarly, missile electronics packages must also be redesigned for 
the same aging and obsolescence issues described above for guidance. 
The technology used for D5 electronics is obsolete and for most 
components there is no longer an industrial base. Thus, the Trident II 
D5 electronics subsystem will require new package designs for the 
additional missile procurements and for backfit into existing missiles, 
since legacy electronic components are no longer available. The Navy's 
fiscal year 2004 WPN request continues the missile electronics and 
guidance system redesign efforts begun in fiscal year 2003.
    The D5 missile is capable of carrying both the W76/MK4 and the W88/
MK5 reentry bodies. While the W88/MK5 was designed specifically for the 
D5 during the early 1980s and will not need to be immediately 
refurbished, the W76/MK4 warhead and fuze carried on the MK4 reentry 
body was designed in the early 1970s and began deployment in 1979 on 
the Trident I (C4) missile with a design life of 20 years. The W76/MK4 
program was based on the older W68/MK3 design and some of the 
components were carried over from that program. There are technical and 
programmatic issues that require both a refurbished warhead and a 
refurbished fuze for the W76/MK4. The Department of Energy and the Navy 
are executing a refurbishment program for the W76/MK4 reentry body. The 
Navy's refurbishment of the W76/MK4 fuze is supported in the Navy's 
fiscal year 2004 WPN budget request.
    With respect to shipboard hardware, life extension is taking place 
on a somewhat continuous "refreshment" basis, with the computing and 
electronic component parts of these systems moving rapidly towards the 
integration of commercial off-the-shelf (COTS) products. Because of the 
low cost of COTS hardware components, it is more cost-effective to 
adopt a shorter refresh cycle than possible with previous generations 
of custom hardware/software. This strategy reduces support costs while 
maintaining high reliability and safety. All shipboard SWS Subsystems 
have life extension programs planned or in place to support the SSBN 45 
year life. In addition to the COTS components, there is specialized 
equipment required to support the mission, such as the highly precise 
strategic submarine inertial navigation equipment. Prudent investment 
in these equipments is also contained in the Navy's fiscal year 2004 
OPN request. The goal for each subsystem will be to mitigate known 
obsolescence and supportability problems, providing both cost avoidance 
and reduced life cycle costs. The Navy's fiscal year 2004 OPN budget 
request supports these shipboard subsystem life extension efforts.
    Trident II (D5) life extension efforts ensure a credible, 
survivable and affordable strategic deterrent capability well into the 
21st century.

Nuclear Weapons Security
    The Navy continues to meet all current DOD policy regarding nuclear 
weapons security. There was a significant investment during the design 
and construction of both Strategic Weapons Facilities in Bangor, 
Washington, and Kings Bay, Georgia, primarily in the weapons storage 
areas (WSA) and the assignment of sizable dedicated security forces to 
protect nuclear weapons within the WSA. However, the attack on the 
U.S.S. Cole and the events of September 11 caused the DOD and Navy to 
re-evaluate the security posture of all our nuclear weapon storage 
facilities around the globe from all three axes of threat--land, sea, 
and air. In regard to nuclear weapons security, the Navy has determined 
a security posture similar to what is currently established in the WSA 
should be extended to the waterfront and during transit to and from the 
dive point at which point the submarine can submerge and protect 
itself. Therefore, we have initiated an integrated nuclear weapons 
security program. This program will provide a layered defense under a 
command structure with centralized command, control, communication, 
monitoring and surveillance. Utilizing a balanced mixture of technology 
and manpower, the Navy will have the capability to ensure this security 
posture is sustainable over the long term. This integrated program will 
be implemented, provided resources are available, in a phased approach 
with initial investments beginning in fiscal year 2003, and taking 
approximately 6 years to reach full operational capability. The lengthy 
implementation time is driven primarily by the lead-time for military 
construction project design, construction and outfitting. Interim 
measures are being undertaken to mitigate risk with initial investments 
focused on our highest vulnerability areas.

                NUCLEAR POSTURE REVIEW (NPR) OBJECTIVES

Research and Development (RDT&E,N)
    The most significant change in the Navy strategic programs budget 
is in research and development. Strategic Systems Programs' RDT&E,N 
budget increases from about $34 million in fiscal year 2003 to about 
$102 million in fiscal year 2004. This arises from the need to enable 
the dramatic changes articulated in the new Strategic Framework 
outlined by the December 2001 NPR. The inherent flexibility in warhead 
loading of the Trident submarine launched ballistic missile force 
enables the Department of Defense to execute the reduction of deployed 
nuclear warheads to achieve the Moscow Treaty and congruent NPR 
objectives in force structure. The NPR goes beyond a mere changing of 
force levels to describe the changes in the framework for, and nature 
of the Nation's strategic forces needed in the future. Navy efforts in 
contributing a Sea Shield element of missile defense are implemented in 
other programs, while the Trident program makes significant Sea Strike 
contributions to the offensive and infrastructure legs of the new Triad 
described in the NPR. These contributions are achieved by 
``Applications'' programs in specific technology areas and in focused 
development programs for specific capabilities. Applications programs 
develop and evaluate new technologies for potential use in existing and 
future strategic systems. The strategic guidance and reentry body 
applications programs have existed for about 8 years. This effort is 
increased in fiscal year 2004. New applications programs in strategic 
propulsion and radiation hardened electronics are contained in the 
fiscal year 2004 budget. Separate from the applications programs, a 
specific technology solution, Enhanced Effectiveness (E2), has been 
identified and included in the fiscal year 2004 budget. E2 is a 
technology development effort fully supported by the Commander, U.S. 
Strategic Command, for achieving improved missile accuracy. It aims at 
enhancing the accuracy of an existing weapon system, the W76/MK4 
reentry body used on the Trident submarine-launched ballistic missile 
(SLBM).
    Applications programs have the major goal of sustaining unique 
strategic technology, design talents and infrastructure needed by the 
Nation to maintain dominant strategic forces. In essence, these 
applications programs are the Nation's ``seed corn'' in strategic 
offensive missile systems. This is needed to both develop future 
replacement systems and to fix any performance issues within existing 
systems. Since the Navy and Air Force have a common need for this 
talent in strategic missile (ICBM and SLBM) technologies, the 
Department of Defense has a strategy of executing coordinated, 
complementary programs in each service. The Navy and Air Force 
carefully coordinate technology areas and critical skills to obtain 
maximum synergy in meeting the Nation's need in this critical area.
    The Navy has four major applications program efforts included in 
the fiscal year 2004 budget request: Reentry System Applications 
Program (RSAP), Strategic Guidance Applications Program (GAP), 
Strategic Propulsion Applications Program (SPAP), and Radiation 
Hardened Applications Program (RHAP). Each of these is briefly 
described.
    Reentry Systems Applications Program (RSAP). Unique strategic 
reentry environments require technologies in materials needed to 
provide long service life while being able to survive the extreme 
atmospheric reentry and possible radiation environment. Critical and 
unique attributes necessary for the design, development and testing of 
ICBM and SLBM reentry systems have been defined and will be maintained. 
Critical technologies are heat shield and nose-tip material and fuze 
electronics. Navy requirements have been integrated with Air Force 
requirements into a comprehensive program that maintains close 
coordination with the DOD Science and Technology (S&T) community to 
leverage S&T programs and avoid unintended duplication of effort. To 
ensure these efforts are focused on real solutions, RSAP demonstrates 
appropriate emerging technologies through actual reentry flight test 
evaluations.
    Strategic Guidance Applications Program (GAP). Unique strategic 
guidance requires technologies that provide extreme accuracy over long 
ranges while potentially operating in a hostile radiation environment. 
The GAP provides a strategic guidance core technology development 
capability consistent with the Strategic Advisory Group (SAG) 
recommendation to COMSTRATCOM. System accuracy and functionality 
depends upon key technologies, which provide radiation hardened 
accelerometer, gyroscopes and stellar sensing capabilities. A critical 
skill is the ability to integrate these elements together in a 
extremely high performing and reliable system. As the underlying 
technologies that currently provide these capabilities age and are no 
longer technically supportable, modern alternatives must be made 
available to allow for orderly replacement. There is no commercial 
market for these technologies and their viability depends on the 
strategic community.
    RSAP and GAP have increased their combined funding of $34 million 
in fiscal year 2003 to $44 million in fiscal year 2004 to better meet 
these unique strategic needs.
    Strategic Propulsion Applications Program (SPAP). Strategic 
propulsion requires technologies to provide large high performance 
solid rocket motor systems that have a long shelf life, high 
reliability and safe handling and storage. The SPAP, commencing in 
fiscal year 2004, will be a coordinated Navy and Air Force effort to 
exercise these unique design talents and infrastructure needs. Key 
elements of SPAP are investment in propellant technologies, nozzle and 
case materials and integrating these into an effective solution. Boost 
propulsion (missile stages), post boost propulsion (missile payload 
delivery vehicle) and ordnance (separation events and flight 
termination events) are all integral parts of missile propulsion 
application efforts.
    To focus on developing real system solutions, an annual large-scale 
rocket motor test firing of developed technology is planned. A sound 
base of demonstrated technologies suitable for Strategic Missile 
applications will be maintained and will provide the Nation a talent 
base and source of technologies suitable for current and follow-on 
development programs. The Navy SPAP starts at $8 million in fiscal year 
2004 and increases in future years.
    Radiation Hardened Applications Program (RHAP). Radiation hardening 
electronics for potential strategic radiation environment results in 
technology challenges as well as industrial base issues. The Radiation 
Hardened Oversight Council (RHOC), chaired by the Director, Defense 
Research and Engineering (DDR&E), coordinates these efforts. The RHAP 
will focus on a coordinated productization and qualification effort, 
which provides a transition between ongoing science and technology 
(S&T) efforts and production for actual use. The RHOC has developed a 
technology road map that coordinates these efforts into the Department 
of Defense investment strategy. In addition, the RHAP will sustain 
critical skills in radiation hardened electronics design and simulation 
techniques to support the ability to design radiation hardened 
strategic missile, guidance and reentry systems. These efforts become 
of greater importance because of the shrinking industrial base for 
radiation hardened electronics, the fast-moving commercial electronics 
market, the unavailability of underground testing resources and the 
loss of radiation hardened expertise. The RHAP will compliment RSAP and 
GAP efforts by specifically focusing on those tasks required to ensure 
producibility of radiation hardened parts. The fiscal year 2004 budget 
requests $20 million for the radiation hardened applications program.
    Enhanced Effectiveness Program (E2). Enhanced Effectiveness 
provides increased capabilities articulated in the NPR, such as prompt 
accurate strike, defeat of critical targets and selective nuclear 
options. This program is a 3-year effort culminating in a flight test 
demonstration of a Trident reentry body with dramatically improved 
accuracy. The approach is to integrate existing technologies into a 
reentry body extension. The extension would attach to the existing W76/
MK4 warhead, giving it the size and weight of the larger W88/MK5 
warhead. Since the current D5 missile is capable of carrying either the 
MK4 or MK5 warhead, the changes to the missile are minimal.
    The fiscal year 2004 budget contains about $30 million for the 
Enhanced Effectiveness effort. The E2 program is an R&D effort; it 
includes no funding for procurement. Any procurement program that 
employs this technology will be presented to Congress for authorization 
in future budget requests.

SSGN
    Strategic Systems Programs is playing a major role in support of 
one of the Navy's initiatives in Sea Power 21. The SSBN-to-SSGN 
conversion will provide a near-term transformational capability to the 
Nation, removing four Ohio class submarines from strategic service, 
refueling their reactors to permit an additional 20 years of operation, 
and converting them into conventional strike platforms.
    Strategic Systems Programs, in support of the SSGN program manager, 
is providing the Attack Weapons System for the SSGNs. As part of the 
development of that system, a demonstration and validation was 
conducted in January. U.S.S. Florida (SSBN 728), an Ohio class 
submarine, successfully launched two Tomahawk cruise missiles, 
confirming the ability to launch a Tomahawk from a configuration 
similar to the tightly packed cluster of Tomahawk All-Up-Rounds (AUR) 
we will use in the SSGN. In addition to this demonstration and 
validation supporting the multiple all-up-round canister development 
and design, the firings supported the Navy's Sea Trial experiment, 
Giant Shadow, which also explored how a network of forces, including 
special warfare forces, and various unmanned aerial, underwater and 
ground vehicles and sensors could be used to provide surveillance, 
collect real-time intelligence, and develop and launch a time critical 
strike in support of the joint force commander. This included the first 
vertical launch of an unmanned underwater vehicle (UUV), testing of 
nuclear-biological-chemical sensors, and the insertion of Navy SEALs 
from one of the submarines the Navy will convert to an SSGN.
    For the Attack Weapons System for SSGN, Strategic Systems Programs 
is leveraging existing strategic weapons systems technology and 
expertise including the use of commercial off-the-shelf technology in 
shipboard systems to minimize the life cycle cost. The fiscal year 2004 
budget request supports the continued design, development, and 
procurement of the Attack Weapons System.
    Our future SSGN forces will provide large volume clandestine strike 
with cruise missiles and the capability to support and insert Special 
Operations Forces. The flexibility provided by missile tube volume 
supports payload adaptability to meet emerging mission requirements.
    The Navy will leverage the existing Trident submarine 
infrastructure to optimize their on-station time. The first two ships, 
the U.S.S. Ohio and U.S.S. Florida, enter the shipyard in fiscal year 
2003 to begin their engineered refueling overhauls (EROs) and 
conversions. U.S.S. Michigan and U.S.S. Georgia will begin their EROs 
and conversions in fiscal year 2004 and fiscal year 2005, respectively. 
We expect the first SSGN to be operational in fiscal year 2007.

                                SUMMARY

    In summary, I am pleased to report the Trident II (D5) Strategic 
Weapon System continues to meet or exceed all design objectives. The 
fiscal year 2004 President's budget supports the NPR-directed force 
structure requirement of 14 D5 SSBNs; fully funds D5 Life Extension 
requirements; provides funding to ensure an integrated approach to 
nuclear weapons security; and includes R&D investments and funding for 
SSGN conversion that meets the NPR objectives. In spite of significant 
challenges, I reiterate with confidence that the Navy's Strategic 
Submarine Force continues to cost-effectively provide a survivable, 
reliable, and flexible strategic deterrent.
    Thank you.

    Senator Allard. Thank you very much, Admiral. We appreciate 
your testimony.
    Dr. Beckner, the first question I have for you relates to 
Savannah River. Section 2137 of the National Defense 
Authorization Act for Fiscal Year 2001 prohibited the 
decommissioning of F Canyon until both the Secretary of Energy 
and the Defense Nuclear Facilities Safety Board certified that 
all materials present in F Canyon were safely stabilized and 
all future fissile materials disposition can be met by H Canyon 
or other facilities. Do any of the programs within NNSA plan to 
use F Canyon now or in the future?
    Dr. Beckner. They do not. Our plans are consistent with 
utilizing H Canyon for the future.
    Senator Allard. Is there any reason now or in the 
foreseeable future in which the NNSA would need F Canyon to 
meet their national security mission?
    Dr. Beckner. No, there is none.
    Senator Allard. Are there any materials held by NNSA which 
need to be disposed of and which must be or should be processed 
through F Canyon to reach a safe disposition?
    Dr. Beckner. There are none.
    Senator Allard. Does NNSA have any reason why F Canyon 
should not be decommissioned?
    Dr. Beckner. We do not.
    Senator Allard. One of the responsibilities of Readiness in 
Technical Base and Facilities (RTBF) is the current and future 
maintenance of facilities across the NNSA. What specific 
criteria and methods of discipline are being used to make sure 
that RTBF meets all current and future maintenance and repair 
needs?
    Dr. Beckner. That is a fairly complicated question to 
answer because of our interface with the other elements of NNSA 
programs that is devoted to the condition of our facilities, 
that being the facility and infrastructure section of the 
budget. Our activities are such that we plan together between 
RTBF, which is the part of the budget that I manage, and the 
Facilities and Infrastructure (F&I), the part of the budget 
that Mr. Greg Rudy manages, both for Ambassador Brooks. We work 
the problems jointly so that we understand the way they are 
spending money to assure that our facilities are maintained 
properly and brought back up to conditions which are better for 
future utilization. Then the RTBF budget will be in a position 
to carry them forward as necessary until we can shut them down 
if that is appropriate.
    There is a very elaborate planning activity there which we 
use to be sure that we can go forward with the facilities. I 
guess the best thing I can offer there would be to spend more 
time with your staff or with committee staff showing you the 
way we schedule that work and the way we budget it, because 
there is never an excess of money for this sort of thing.
    Senator Allard. We would like to hear what you have to say 
on how you are working the two programs together and 
coordinating it.
    Dr. Beckner. We would be happy to do that.
    Senator Allard. General Smolen, I know some of the 
Peacekeepers have been removed from their silos and the rest 
will be removed over the next couple of years. What does the 
Air Force intend to do with the Peacekeeper silos once these 
missiles are removed?
    General Smolen. Sir, for now the silos will be maintained 
in caretaker status. There has not, to the best of my 
knowledge, been any decision on what the silos may be used for 
in the future. However, in the analysis of alternatives that 
Space Command may be considering, that can certainly be a 
possible option for some future consideration.
    Senator Allard. Admiral Young, the Navy's current plan is 
to extend the life of the D5--you mentioned this in your 
testimony--ballistic missile from 30 to 45 years. Do we have 
any experience with trying to sustain rockets that old, and do 
you have that kind of confidence in the rocket motors? If they 
need to be refurbished, for example, do you reach a point there 
where what you used originally in the motors are not available 
in our high-tech, rapid turnover society 10, 15, 20 years down 
the road? Can you comment on that?
    Admiral Young. Yes, sir, Mr. Chairman. That certainly is a 
concern.
    To answer your first question, we have limited experience 
in very old rocket motors. We flew the C4 for about 21 years, 
so we have that type of experience, but not out to 45 years. 
For our current D5 rocket motors, our oldest one is about 13\1/
2\ years old right now.
    We have seen nothing in any of our surveillance programs 
that indicates any aging problems at this point, but we have a 
specific milestone to look at as we go forward. We believe that 
in the POM 2008 time frame we will have to make a decision 
whether or not we will need to maintain those rocket motor 
manufacturing facilities because, as we continue building the 
D5 life extension rockets, that is when we think that decision 
will be coming up. Right now, we have no indication that we are 
going to have any aging problems. However, we are continuing to 
look at the aging of rocket motors very closely, with the 
understanding that it could impact the industrial base.
    Senator Allard. Dr. Beckner, the secure transportation 
assets of the National Nuclear Security Administration are 
responsible for securely and safely transporting nuclear 
weapons, nuclear weapons components, and special nuclear 
materials. With the closure of Rocky Flats and other 
environmental management sites, there is an increased demand on 
the STAs. This has placed stress apparently on some of the 
assets.
    Has NNSA put together a plan to replace the aging assets 
within the secure transportation assets and hire enough 
security guards to keep up with increasing demand for shipments 
over the next several years?
    Dr. Beckner. We believe we have. This is a part of the 
system that is obviously impacted by the security status in the 
country generally. When we move to Security Condition-2 (SECON-
2), for instance, that forces us to make some changes in the 
way we operate those assets. We have done that this year 
largely with more overtime.
    We have a program to replace equipment. We are completing 
the Rocky Flats shipments this year, and so that part of the 
program will no longer be on our schedule book. We are 
uncertain at this time as to the Department's plans for moving 
material out of Hanford, which is again a substantial amount of 
surplus material that is at the Hanford site. So for now we 
have to view that as work that we probably will have to 
conduct, but is at this time uncertain.
    Our priority continues to be the weapon program and then to 
work other areas, other program areas, as available to do so. 
Based on that, we have the 5-year plan that takes care of new 
equipment as required.
    Senator Allard. Thank you.
    Senator Nelson.
    Senator Bill Nelson. General and Admiral, if there were a 
new low-yield nuclear weapon developed, what platform would be 
used to deliver it?
    Admiral Young. For the Navy, sir, our D5 missile has a very 
capable and adaptable, flexible payload system on it. It can 
carry both the W76 Mark IV payload as well as the W88 Mark V. 
If a low-yield were developed and were required, we could fly 
that on that missile. We have some limitations about how many 
RVs you would have to put on the missile bus. Essentially, 
there is a limited number just because of the balance of how 
you would fly the warheads. That would be our delivery plan.
    Senator Bill Nelson. General?
    General Smolen. Sir, I think any of the systems, both the 
intercontinental missile as well as bomber delivery, could 
possibly be used. I think part of the discussion goes to the 
heart of the nature of the type of weapon, the kind of target 
that might be held at risk, and the desired weapon effects that 
you would want to achieve. With the balance of that, I think 
any one of the platforms could conceivably field that weapon.
    Senator Bill Nelson. For any new nuclear weapon, not 
necessarily low-yield, plus existing nuclear weapons, does 
either the Air Force or the Navy have a requirement for a new 
delivery platform?
    Admiral Young. The Navy as far as I am aware, Senator, does 
not have a requirement for a new delivery platform.
    General Smolen. Senator, the Air Force would, I believe, 
have the same position.
    Senator Bill Nelson. Dr. Beckner, what work will NNSA carry 
out using the advanced concepts funding in 2004?
    Dr. Beckner. It will be a broad assessment, largely to 
explore ideas that could lead to systems which would, as they 
say, potentially be of interest for future targets. This is 
mostly sitting and attempting to answer the question, ``What 
will be the threats that this country will be confronted with, 
and, based on those threats, what would be an appropriate 
weapon to put against those threats?'' Mostly paper studies, 
conceivably a bit of hardware work just to prove out some 
ideas, but invariably, whenever you do advanced thinking--
whatever term you want to give to it--it is driven very much by 
the target that is put to you as something that would be a 
threat to this country, and then you work backwards from that. 
Given such a threat, what would be the best way to attack that 
threat?
    Sometimes you will see applications for instance, for 
specialized outputs, one target might need a higher percentage 
of X-rays or gamma rays, or another one might be one where you 
want to enhance the neutron output. All those things would have 
to be done within the context of what the package would need to 
look like so that it could fit on a certain delivery system.
    That is all those things that you work for the most part on 
paper.
    Senator Bill Nelson. This week's edition of Aviation Week 
has an article titled ``Rapid Response.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. The idea is a rotational conventional 
reentry vehicle for the Minuteman III. The article acknowledges 
that conventional ICBMs present policymakers with difficult 
political problems.
    What do you think about that? Could you explain, any of 
you, the activity each of your Services has undertaken in 
support of or related to conventional ICBMs, either sea or 
land-based?
    Admiral Young. Senator, the Navy has no specific programs 
at all that are developing a conventional submarine-launched 
ballistic missile. Now, having said that, as I mentioned 
earlier, the D5 is a very capable, flexible platform. If you 
wanted to develop and fly a conventional warhead on that 
platform, you could do that.
    As a matter of fact, we do a series of flight tests each 
year and we obviously fly inert heads on them, which could 
essentially, at the velocity at which they come down, be 
considered a weapon that could be used. We obviously fly those 
into the ocean at points. But we have no specific programs 
developing a conventional capability. Again, that capability to 
fly those types of weapons is available if we wanted to develop 
that for the country.
    General Smolen. Sir, from the Air Force perspective, 
certainly, with the advancements in technology, a conventional 
ICBM could be a possibility. Certainly, overflight issues would 
be a consideration, as well as where the booster might be 
placed should they be launched from an existing current 
facility somewhere in the United States. There are technical 
issues that might be associated with determining whether or not 
that could be a feasible option.
    But in the Air Force Space Command's charter to look at an 
analysis of alternatives for the future, I am certain that they 
will be adapting some of their thinking toward looking at what 
possibilities may exist. But technologies might make some of 
that feasible which might not necessarily be feasible today.
    Senator Bill Nelson. Mr. Chairman, the reason I am asking 
is, as we confront the problem of terrorists and we need to 
knock out terrorists before they suddenly activate a weapon of 
mass destruction, can we do it better by using an ICBM as 
opposed to a cruise missile?
    General Smolen. Quite possibly, sir.
    Senator Bill Nelson. Why? Because you would have a bigger 
payload, conventional payload, on an ICBM, on a reentry 
vehicle?
    Admiral Young. I think that is one factor, sir. I think the 
other factor is time. A ballistic missile, be it coming from 
the sea or from land, flies fairly quickly. If, therefore, you 
have a target that is only there for some short period of time, 
then you can get there quicker with one of these weapons, as 
opposed to a cruise missile that takes a lot longer to get from 
its launching platform to the target.
    General Smolen. Yes, sir. With the retargeting capability, 
I think the timeliness of an ICBM type of weapon would 
certainly pose an advantage.
    Senator Bill Nelson. Thank you.
    Senator Allard. Gentlemen, it is about 4:22. It is going to 
take us about 7 or 8 minutes to go over for the closed hearing, 
so I just want to bring this to a close. Dr. Beckner, I want to 
thank you for your efforts in setting up the tour during Easter 
here. I am going to be visiting labs, visiting with you, and 
also going out to Pantex, so I am looking forward to that 
during Easter break.
    Dr. Beckner. Thank you.
    Senator Allard. We are going to SR-222. If you just follow 
the staff, they can get you over there. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator Wayne Allard

                           ADVANCED CONCEPTS

    1. Senator Allard. Ambassador Brooks, to help clarify the record on 
the National Nuclear Security Administration's (NNSA) Advanced Concepts 
initiative, please list examples of the types of activities you 
envision Advanced Concepts will be working on in fiscal year 2004 or 
beyond.
    Ambassador Brooks. We see a large number of potentially valuable 
projects in the next few years, more than our resources will allow us 
to pursue. NNSA will work with the Joint NNSA-DOD Advanced Concepts 
Steering Group and the Nuclear Weapons Council to prioritize the most 
significant efforts. We anticipate that the Air Force will initiate a 
concept study of an Enhanced Cruise Missile in late 2003 that will 
extend into 2004. Air Force Space Command has begun looking at 
alternate yield options for a small quantity of Minuteman ICBM 
warheads. The Navy has expressed interest in examining the utility of 
alternate yields for the W76 sometime in the future. The Foster Panel 
urged us to investigate warhead designs with reduced fission yield and 
the military could ask us to study those concepts. In addition, the DOD 
NPR Implementation Plan calls for a number of other concept studies in 
the future. Some of the studies are classified, but among the 
unclassified studies are an Air Force Analysis of Alternatives for a 
follow on ICBM with an Initial Operational Capability in 2018, and USD 
(AT&L) is directed to study long term (at least 20 years out) strategic 
strike capabilities for the New Triad as well as non-strategic nuclear 
strike capabilities. I expect that NNSA advanced concepts studies will 
be a part of these DOD led studies.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                             PLUTONIUM PITS

    2. Senator Bill Nelson. Admiral Ellis, is there a validated annual 
requirement for pit production? If the answer is yes, what is the 
requirement? Is the requirement general or is it specific as to the 
number and type per year and when must production start? What is the 
size of the nuclear weapons stockpile on which the requirement is 
based? If the answer is no, what is the process for establishing a 
validated requirement?
    Admiral Ellis. There are two aspects to plutonium pit production 
requirements, each under the purview of NNSA. The first is replacing 
plutonium pits consumed by the Stockpile Stewardship Program, which is 
essential for stockpile safety and reliability. As an example, the 
short-notice termination of W88 warhead production in 1989 did not 
allow the production of extra pits to replace those consumed during the 
warhead's service life. Therefore, we are now at the point of deferring 
for up to 2 years the destructive tests of the warhead to preclude 
decreasing the active stockpile. This requirement can be satisfied by 
small facilities capable of producing 10-20 pits per year of all types.
    The second aspect is providing pit replacements, in quantity, at a 
time in the future before the plutonium pits in the current stockpile 
reach the end of their service life. With few exceptions these 
plutonium pits were produced over a short period of time, and it is 
reasonable to expect they will reach the end of their service life in a 
similarly short timeframe. NNSA initiated and Congress funded a program 
to begin work on a Modern Pit Facility to address this future need.
    Regarding the size of the stockpile on which requirements are 
based, work is currently underway on the fiscal year 2003-2007 Nuclear 
Weapons Stockpile Plan, which will incorporate the tenets of the 2001 
Nuclear Posture Review.

    3. Senator Bill Nelson. Ambassador Brooks, NNSA is currently in the 
process of designing a new pit facility and conducting an environmental 
impact statement to support construction of such a facility. What is 
the requirement to which the facility is being designed?
    Ambassador Brooks. The NNSA has the requirement to support the 
Nation's nuclear stockpile. The NNSA must be in a position to respond 
to future stockpile requirements as well as address any issues that may 
arise impacting the performance of pits. It is anticipated that all 
pits have a functional lifetime (currently estimated at 40 to 60 years) 
and will need to be replaced to maintain a reliable stockpile. The 
basic design strategy is modular so final sizing can be made when we 
have a better assessment of the impact of the NPR and our efforts to 
restore and modernize other production capabilities on the size of the 
future nuclear stockpile.

    4. Senator Bill Nelson. Ambassador Brooks, is there an estimate of 
the total project cost for the facility, and, if so, what is the 
estimate?
    Ambassador Brooks. Since the project has just initiated conceptual 
design, only a pre-conceptual estimate of $2 to $4 billion has been 
developed. This range of estimated cost covers both design and 
construction and will depend upon the initial capacity, among other 
factors, approved for design and construction. More detailed baseline 
costs will be available at the conclusion of preliminary design 
(Critical Decision 2) in fiscal year 2008.

    5. Senator Bill Nelson. Ambassador Brooks, is there an estimate of 
the annual operating cost of the facility?
    Ambassador Brooks. A pre-conceptual design estimate for operation 
of the facility beginning in fiscal year 2019 is $200 to $300 million 
annually.

    6. Senator Bill Nelson. Ambassador Brooks, when will a site 
selection decision be made for the pit facility?
    Ambassador Brooks. Activities under the National Environmental 
Policy Act were initiated at the beginning of fiscal year 2003 for a 
Supplemental Programmatic Environmental Impact Statement on Stockpile 
Stewardship and Management for a Modern Pit Facility. Should the 
Secretary of Energy decide to continue with the Modern Pit Facility 
project, a Record of Decision (ROD) can be issued as soon as April 2004 
that announces a site location. After that, the Department will prepare 
a site specific Environmental Impact Statement.

                MANAGEMENT OF DEPARTMENT OF ENERGY LABS

    7. Senator Bill Nelson. Ambassador Brooks, the Los Alamos National 
Laboratory has had a series of well-publicized financial management 
problems. These problems resulted in your request for the resignation 
of the laboratory director. You are now, I understand, in the process 
of reviewing the University of California contract for Los Alamos to 
determine if it should be cancelled, competed, or extended. Could you 
explain the full nature of the ongoing review, who is conducting it, 
when it will be done, and the criteria that will be used to base any 
recommendations?
    Ambassador Brooks. At the direction of Secretary Abraham, Deputy 
Secretary McSlarrow and I conducted a review of the relationship 
between the University of California, the responsible contractor, and 
Los Alamos National Laboratory. We also explored the relationship among 
the University of California, Los Alamos and the NNSA of the Department 
of Energy. We completed our review and reported the results to 
Secretary Abraham on April 26, 2003. Our review included the history of 
the contract since it was revised and extended in 2001 including the 
Appendix 0 process which was focused on improving security practices 
and other operations; examinations of relevant Inspector General and 
DOE Office of Independent Assessment and Oversight reports; and 
interviews and meetings with senior University, laboratory, and NNSA 
individuals. Our report to Secretary Abraham recommended that he 
announce a decision now to compete the University's contract for Los 
Alamos which expires at the end of September 2005. Secretary Abraham 
accepted our recommendation and announced his decision to compete on 
April 30, 2003. The main criteria for our recommendation were that the 
University bears responsibility for what Secretary Abraham termed the 
systematic management failures in business systems that came to light 
in 2002, and the Department's policy is to compete contracts unless 
there is compelling reasons not to compete. We are currently developing 
the criteria we will use for evaluating competing proposals for the 
contract. We announced this decision about a year ahead of the normal 
schedule to ensure adequate time for developing those criteria, and we 
chartered a Blue Ribbon Commission to advise the Secretary on the 
Department's competition policy and asked them to provide input on 
suggested criteria for the competition.

    8. Senator Bill Nelson. Ambassador Brooks, in addition, could you 
explain how the review impacts the University of California contract to 
run the Lawrence Livermore National Laboratory?
    Ambassador Brooks. Our review did not explicitly cover Lawrence 
Livermore National Laboratory. That decision can await the 
recommendations of the Blue Ribbon Commission and also address other 
issues that we may want to consider.

                NUCLEAR POSTURE REVIEW AND OTHER STUDIES

    9. Senator Bill Nelson. Ambassador Brooks and Admiral Ellis, has 
the Nuclear Posture Review implementation document been signed, and, if 
so, can we get a copy of that document?
    Ambassador Brooks. The NNSA Nuclear Posture Implementation Plan was 
signed out in April 2002. We can provide you with a copy of that 
document. The DOD NPR Implementation Plan was signed out in March of 
this year; you will need to request a copy from DOD directly.
    Admiral Ellis. The Nuclear Posture Review Implementer is complete 
and signed. The Office of the Under Secretary of Defense (Policy) is 
the releasing authority for all requests for copies of the document.

    10. Senator Bill Nelson. Ambassador Brooks and Admiral Ellis, when 
do each of you anticipate the annual stockpile memo will be signed and 
submitted to the President?
    Ambassador Brooks. This year's Nuclear Weapons Stockpile Memorandum 
(NWSM) will be approved by the Nuclear Weapons Council Standing and 
Safety Committee in the near future and put out for vote by the Nuclear 
Weapons Council (NWC). After approval by the NWC, the NWSM will be 
signed by the Secretaries of Energy and Defense and submitted to the 
President.
    Admiral Ellis. The Office of the Assistant to the Secretary of 
Defense for Nuclear, Chemical, and Biological Defense Programs is 
responsible for coordination of the annual NWSM and is best qualified 
to provide an estimated completion date.

    11. Senator Bill Nelson. Ambassador Brooks and Admiral Ellis, what 
is the status of the End-to-End Review and when can we get a briefing 
on that document?
    Ambassador Brooks. The End-to-End Review of the Nuclear Command and 
Control System was completed last year under the chairmanship of Brent 
Scowcroft. The Department of Defense and the Department of Energy's 
National Nuclear Security Administration are working together on a plan 
for implementation of the End-to-End Review. A request for a briefing 
on the conclusions of the Review should be addressed to the Department 
of Defense.
    Admiral Ellis. The United States Nuclear Command and Control System 
Federal Advisory Committee End-to-End Review is complete and the 
implementer is in the very early stages of development. The Office of 
Under Secretary of Defense (Acquisition, Technology and Logistics) will 
serve as the releasing authority for the report. 

    12. Senator Bill Nelson. Ambassador Brooks and Admiral Ellis, what 
is the status of the nuclear mission management plan and the NNSA Green 
Book?
    Ambassador Brooks. The Green Book will be signed shortly by the 
Secretary of Energy and copies will be delivered to Congress.
    Admiral Ellis. Defense Research and Engineering distributed the 
most recent Nuclear Mission Management Plan in October 2001. I 
respectfully defer to Ambassador Brooks on the status of the NNSA Green 
Book.

      REPEAL OF THE BAN ON PRODUCTION OF LOW-YIELD NUCLEAR WEAPONS

    13. Senator Bill Nelson. Admiral Ellis, the Department of Defense 
has asked for a repeal of the ban on production of low-yield nuclear 
weapons from 1993. The current law prohibits the Secretary of Energy 
from conducting research that could lead to production of a new low-
yield nuclear weapon. Is there a requirement for a new low-yield 
nuclear weapon?
    Admiral Ellis. To date, the Department of Defense has not 
identified a specific requirement for a new low-yield nuclear weapon. 

    14. Senator Bill Nelson. Admiral Ellis, is a requirement for such a 
weapon under consideration or being developed?
    Admiral Ellis. The Nuclear Posture Review put in motion a major 
change in our approach to the role of nuclear forces in our deterrent 
strategy. As we investigate the full range of possibilities in 
defending our Nation, it is incumbent upon the Department of Defense to 
not only reevaluate the overall capabilities of our nuclear arsenal, 
but to thoroughly analyze the potential of advanced concepts that could 
enhance our overall deterrent posture. Repeal of Section 3136 of the 
Fiscal Year 1994 National Defense Authorization Act will allow rigorous 
and precise engineering analyses necessary to validate facts related to 
nascent advanced concepts. In turn, the results of the research will 
enable dispassionate, fact-based discussions on very important defense 
and policy issues.

    15. Senator Bill Nelson. Admiral Ellis, why does the United States 
need a new low-yield nuclear weapon?
    Admiral Ellis. At present there are no established requirements for 
a new low-yield nuclear weapon. Responding to the realities of a new 
international security environment, U.S. Strategic Command recently 
completed the most comprehensive revision of our Nation's strategic war 
plan to date. It is focused on crafting the framework to integrate a 
full range of capabilities, old and new, regaining the classic 
definition of strategic deterrence.
    U.S. Strategic Command sees great value in investigating a 
deterrent strategy that is global in nature and includes the most 
effective mix of capabilities available, including nuclear, advanced 
conventional, non-kinetic, and special operations forces. We are 
interested in conducting rigorous studies of all new technologies, and 
examining the merits of precision, increased penetration, and reduced 
yields for our nuclear weapons that will provide the overall 
capabilities that we will need in the new international security 
environment.

    16. Senator Bill Nelson. Admiral Ellis, the DOD justification for 
the repeal is ``not to foreclose exploration of technical options that 
could strengthen our ability to deter, or respond to new or emerging 
threats.'' What sort of new or emerging threat would a low-yield 
nuclear weapon be used to deter or respond to?
    Admiral Ellis. We are very interested in advanced concepts that may 
prove effective against new or emerging threats. Examples of these 
advanced concepts include earth penetrators, increased accuracy, and 
lower nuclear yields that, separately or together, may better hold at 
risk or defeat weapons of mass destruction and hard and deeply buried 
facilities--two target sets that are growing in both number and 
importance for our adversaries due to their perceived asymmetric 
counter to U.S. capabilities.

    17. Senator Bill Nelson. Admiral Ellis, is a low-yield nuclear 
device effective against hard and deeply buried targets that cannot be 
held at risk by a conventional weapon?
    Admiral Ellis. When combined with increased penetration and 
precision, many experts anticipate a low-yield nuclear device will hold 
a large number of hard and deeply buried targets at risk that cannot be 
destroyed by conventional warheads, while also dramatically lowering 
expected collateral damage from those levels that would result from 
today's higher-yield nuclear weapons. Detailed analyses will be 
required to validate the effectiveness of the full range of technical 
options.

                      W-80 LIFE EXTENSION PROGRAM

    18. Senator Bill Nelson. Dr. Beckner, in the NNSA fiscal year 
budget request, what is the assumption for the first production in the 
W-80 Life Extension Program?
    Dr. Beckner. The NNSA fiscal year budget request supports a Nuclear 
Weapons Council approved First Production Unit (FPU) date of February 
2006 for a Block 1 quantity of refurbished Air Force W80-1 warheads. 
Although this date is somewhat earlier than the Air Force requirement, 
it appears, at present, to work better in our production plants, 
considering other workload schedules that also have to be met.

    19. Senator Bill Nelson. Dr. Beckner, can the Air Force support 
this date?
    Dr. Beckner. The Air Force cannot support this date. The W-80 Life 
Extension Program is being rebaselined to establish a joint W-80 
refurbishment program with the Air Force based upon the availability of 
Air Force Fiscal Year 2003-2009 Program Decision Memorandum (PDM) 
funding. The rebaselined program will be presented to the Nuclear 
Weapons Council for approval later this year.

    20. Senator Bill Nelson. Dr. Beckner, are there any plans to do 
life extension on the Navy W-80s?
    Dr. Beckner. There are currently no plans to refurbish the Navy W-
80 warheads. The DOD and NNSA have agreed through the Nuclear Weapons 
Council to refurbish a Block 1 quantity of Air Force W80-1 warheads by 
the end of 2010. The NNSA and DOD will work together to adjust the 
Post-Block 1 refurbishment plans and quantities to reflect the total 
quantity of W-80 warheads that will need to be refurbished, if 
refurbishment of the Navy W-80s should be required.

    21. Senator Bill Nelson. General Smolen, when does the Air Force 
need the first production unit of a refurbished W-80?
    General Smolen. Current Air Force funding supports an Air Force 
desired W-80 Initial Operational Capability (IOC) of fiscal year 2008.

    22. Senator Bill Nelson. General Smolen, what is the life extension 
program, including providing test assets, that can be supported by the 
Air Force?
    General Smolen. The W-80 Life Extension Program (LEP) Integration 
is funded for both Advanced Cruise Missiles (ACM) and Air-Launched 
Cruise Missiles (ALCM) over the FYDP. The funding supports:

        <bullet> Interface Control Document Evaluation
        <bullet> Flight Testing

                <bullet> 4 Free Flight, 4 Captive Carries, and 8 REST 
                Tests
                <bullet> Missile Interface Compatibility Tests
                <bullet> Range and Flight Test Support
                <bullet> Test Instrumentation Kits (TIKs) procured in 
                the current ALCM and ACM programs

        <bullet> Transportation and shipping costs
        <bullet> ALCM and ACM cable and hoist beam modifications
        <bullet> ALCM, ACM, and B-52 Tech Orders

    23. Senator Bill Nelson. Admiral Young, has there been a decision 
to retire the nuclear Tomahawk missile?
    Admiral Young. No.

    24. Senator Bill Nelson. Admiral Young, can and will the nuclear 
Tomahawk missiles be converted to conventional Tomahawks?
    Admiral Young. No action would be taken until a retirement decision 
is made. Although they can be converted, it would not be recommended 
because conversion costs would average $1.53 million per converted 
missile plus a one-time nonrecurring cost of $32.4 million, compared to 
$612,000 per TACTOM missile (fiscal year 1999 dollars).

    25. Senator Bill Nelson. Admiral Young, if the TLAM-Ns will be 
retired or converted, will this obviate the need to extend the life of 
the Navy W-80s?
    Admiral Young. Nuclear warheads are managed, as directed by 
National Security Presidential Directive, via the Nuclear Weapons 
Stockpile Plan. The requirements for W-80s would depend on the 
retirement plan for TLAM-N and other potential future weapon system 
options.

                          NEW NUCLEAR WEAPONS

    26. Senator Bill Nelson. Admiral Young and General Smolen, do 
either the Air Force or the Navy have a requirement for a new nuclear 
weapon or are either developing such a requirement?
    Admiral Young. Navy has no requirement for a new nuclear weapon and 
is not currently developing such a requirement.
    General Smolen. The Air Force does not have a requirement for a new 
nuclear weapon and currently is not developing such a requirement. The 
Air Force is leading a joint DOD-NNSA ``Phase 6.2/6.2A'' (Feasibility, 
Downselect, and Cost Estimate) study for a Robust Nuclear Earth 
Penetrator (RNEP) version of an existing nuclear weapon. This study 
will examine modifications of current stockpile weapons to improve our 
capability to meet a longstanding requirement for defeating hard and 
deeply buried targets.

                           ADVANCED CONCEPTS

    27. Senator Bill Nelson. Dr. Beckner, what work will NNSA carry out 
using the advanced concepts funding for fiscal year 2004?
    Dr. Beckner. Right now, the most likely candidate besides RNEP is a 
concept study for an Enhanced Cruise Missile with the Air Force, which 
could also lead to the start of a feasibility study in fiscal year 
2004. Air Force Space Command may also request a feasibility study of 
alternate yields for a small number of Minuteman III warheads.

    28. Senator Bill Nelson. Dr. Beckner, is there any advanced concept 
work ongoing in fiscal year 2003, other than the RNEP, and, if so, what 
is it?
    Dr. Beckner. The only activity is programmatic planning and related 
activity.

    29. Senator Bill Nelson. Dr. Beckner, is NNSA planning on doing 
advanced concepts work that will support modifications to existing 
nuclear weapons to meet new military requirements?
    Dr. Beckner. NNSA is restoring the capability to design, develop 
and field new or modified warheads to meet future military 
requirements. There are no current military requirements for new or 
modified warheads.

    30. Senator Bill Nelson. Dr. Beckner, the structure of the NNSA 
budget request for fiscal year 2004 does not comply with the statutory 
requirement to request advanced concept funding in a single line item 
set out in section 3143 of the National Defense Authorization Act for 
Fiscal Year 2003. Will NNSA submit an amended budget request that will 
comply with the statutory direction? When will the amended budget 
request be submitted?
    Dr. Beckner. We have assembled the necessary information and are 
working through the DOE CFO office and OMB to determine the best method 
and timeline for submitting that change.

    [Whereupon, at 4:22 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
